<html>
<title> - THE CURRENT READINESS OF THE U.S. FORCES</title>
<body><pre>[Senate Hearing 111-868]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-868
 
                THE CURRENT READINESS OF THE U.S. FORCES

=======================================================================



                                HEARING

                               before the

            SUBCOMMITTEE ON READINESS AND MANAGEMENT SUPPORT

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
64-544                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

            Subcommittee on Readiness and Management Support

                      EVAN BAYH, Indiana, Chairman

ROBERT C. BYRD, West Virginia        RICHARD BURR, North Carolina
DANIEL K. AKAKA, Hawaii              JAMES M. INHOFE, Oklahoma
CLAIRE McCASKILL, Missouri           SAXBY CHAMBLISS, Georgia
MARK UDALL, Colorado                 JOHN THUNE, South Dakota
ROLAND W. BURRIS, Illinois

                                  (ii)




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                The Current Readiness of the U.S. Forces

                             april 14, 2010

                                                                   Page

Chiarelli, GEN Peter W., USA, Vice Chief of Staff................     4
Amos, Gen. James F., USMC, Assistant Commandant, U.S. Marine 
  Corps..........................................................     9
Greenert, ADM Jonathan W., USN, Vice Chief of Naval Operations, 
  U.S. Navy......................................................    18
Chandler, Gen. Carrol H. USAF, Vice Chief of Staff, U.S. Air 
  Force..........................................................    30

                                 (iii)


                THE CURRENT READINESS OF THE U.S. FORCES

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                           U.S. Senate,    
              Subcommittee on Readiness and
                                Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SD-562, Dirksen Senate Office Building, Senator Evan Bayh 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Bayh, Udall, Burris, 
Inhofe, Chambliss, Thune, and Burr.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Peter K. Levine, general 
counsel; Jason W. Maroney, counsel; John H. Quirk V, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; David M. Morriss, minority counsel; 
and Lucian L. Niemeyer, professional staff member.
    Staff assistants present: Christine G. Lang and Breon N. 
Wells.
    Committee members' assistants present: Patrick Hayes, 
assistant to Senator Bayh; Jennifer Barrett, assistant to 
Senator Udall; Roosevelt Barfield, assistant to Senator Burris; 
and Jason Van Beek, assistant to Senator Thune.

        OPENING STATEMENT OF SENATOR EVAN BAYH, CHAIRMAN

    Senator Bayh. Good afternoon, everyone. The hearing will 
please come to order.
    The purpose of today's hearing is to receive testimony on 
the current readiness of our forces with respect to deployed, 
deploying, and nondeployed units, and the Services' ability to 
meet combatant commanders' requirements and respond to 
unforeseen contingencies. We're all particularly interested in 
your assessment of strategic risk resulting from the commitment 
of forces in Iraq and Afghanistan, as well as other areas 
around the globe. We are also interested in the status of unit 
reset activities, how you are all managing those vital 
readiness accounts, your areas of concern, and the impact and 
expected duration of reset actions on near- and mid-term 
readiness.
    One of my concerns is that we have relied too much on 
supplemental funding to resource our reset activities. In order 
to restore the readiness of our Armed Forces, it will be 
absolutely critical to fully fund reset several years beyond 
our withdrawal dates from Iraq and Afghanistan. I remain 
concerned that the requirements for combat operations in Iraq 
and Afghanistan continue to consume readiness as fast as we can 
create it. I understand that high operational demand and tempo 
keeps the Services off balance. But, we must strive to find new 
ways to restore readiness. While I understand the enemy we face 
gets a vote, we must improve the way we do business, as our 
current strategy is not sustainable and reduces our full 
spectrum of capabilities today and in the long run.
    My biggest fear is that prolonged stress on our Armed 
Forces will break our Strategic Reserve. We must increase the 
dwell time between deployments, not only for the men and women 
in uniform, of our All-Volunteer Force, but for their families, 
who are critically important, as well.
    In order to reduce risk to our National Military Strategy, 
we must continue to fully invest in our maintenance accounts to 
restore readiness. We cannot afford to merely man, train, and 
equip units ``just in time'' for deployment. We continue to 
have a significant difference in readiness between deployed and 
nondeployed forces. Nondeploying forces, along with our 
National Guard and Reserve units, continue to bear the burden 
of being billpayers for deploying units. We are very interested 
in hearing the Services' goals, priorities, and investment 
plans for rebuilding the force, and when they expect readiness 
will begin to improve.
    When we talk about supporting the troops, operation and 
maintenance (O&M) accounts are where we must back up our talk 
with funding. These are the funds that train, house, and 
protect our Armed Forces with the food, water, ammunition, 
flying hours, steaming days, and tank miles that need to 
accomplish their mission. At a time when readiness is under 
stress, we must do all that we can to protect these accounts 
from unreasonable cuts.
    Gentlemen, I know you have prepared statements, which will 
be included in the record. In the interest of time, if you 
would please summarize, and then we'll have plenty of time for 
questions and discussions. If you could roughly keep it to 
about 7 minutes, give or take, with some flexibility there for 
things you think are particularly important, I think that would 
be a good place to begin, and then we'll get into the questions 
and answers, and flesh out the statements, as need be.
    I want to sincerely thank all of you for your dedicated 
service and your sacrifice to our Nation. I also want to thank 
you all, for making the time to attend our hearing this 
afternoon. I look forward to your testimony.
    I will now turn to my friend and colleague, Senator Burr, 
for his opening remarks. I want to thank him for his devotion 
to this committee and to the good citizens of the State of 
North Carolina.
    Senator Burr. Thank you.
    Senator Bayh. Senator Burr.

               STATEMENT OF SENATOR RICHARD BURR

    Senator Burr. Thank you, Mr. Chairman.
    Admiral and Generals, welcome. We're delighted to have you 
here today.
    I commend the chairman for calling this hearing as we 
continue to focus this committee's attention on the critical 
issue of the readiness of our combat units.
    I also want to thank our witnesses for their dedication and 
for their service. I note that, despite 8 years of sustained 
combat operations, morale remains high, recruiting remains 
strong, retention is excellent, and our units, more 
importantly, continue to accomplish their mission. These are 
testaments to the leadership of our panelists, and their 
service.
    Mr. Chairman, this is the third year of hearings on current 
unit readiness. During this time, we've achieved success in 
Iraq, meeting our goal of an orderly drawdown and transfer of 
security responsibilities to a democratically elected 
government of Iraq. The drawdown in Iraq has allowed us to 
surge forces and resources in Afghanistan in order to establish 
stability in a country that, for years, served as a training 
ground for terrorists. By this August, we plan to reduce U.S. 
force levels in Iraq to 50,000. In Afghanistan, we're surging 
30,000 troops over the same period of time. The Marine Corps 
has completed its withdrawal from Iraq and is now deploying 
roughly 8,000 of the 30,000 additional troops to support 
increased combat operations in Afghanistan, bringing the Corps' 
troop level in there to about 19,400. This combined logistical 
movement is the largest effort since World War II.
    I'd like to hear from each of our witnesses today how this 
rapid redeployment of forces impacts personnel and equipment 
readiness, particularly our readiness of nondeployed units at 
home.
    What concerns me is our ability to respond to the next 
challenge; in other words, our strategic depth. Our Nation 
expects that our fighting force in all Services has been the 
best equipped and trained to provide to our most precious 
resources, the young men and women who choose freely to serve 
in our military. For them to be consistently ready, we need to 
look further than those fateful days of September 11, when 
attacks here, on our Nation, called for an immediate and 
decisive response to the horrible attacks on New York and 
Washington.
    No better demonstration of what this country expects, in 
terms of Strategic Reserve, can be found than the understanding 
of what we've been asked to do in the 82nd Airborne, out of 
Fort Bragg. Major elements of the division have recently 
returned from a year in Afghanistan, yet on January 14, 2010, 
the 82nd Airborne was called upon by the President, with no 
prior notice, to deploy to Haiti to provide humanitarian 
assistance, security, and disaster relief. Within days, over 
3,000 personnel of the 2nd Brigade Combat Team (BCT), a 
decorated unit with two rotations in Afghanistan, began 
providing manpower and security to about 15 food distribution 
sites around Port-au-Prince, Haiti, as well as running the 
international airport. Today major elements of the 2nd BCT 
still remain in Haiti.
    This is not only an Army response. The Marine Corps 
deployed the 22nd Marine Expeditionary Unit (MEU), on January 
13 from Camp Lejeune, to support relief operations with a 
network of sea-based logistics and land-based support, with as 
many as 1,100 marines and sailors ashore, to conduct immediate 
aid efforts.
    The Navy also contributed invaluable medical assistance 
offshore by an unnoticed deployment of the hospital ship, the 
USS Comfort, as well as using the medical treatment facilities 
on board the aircraft carrier USS Carl Vinson.
    The Air Force supplied critical strategic airlift and air 
traffic controllers to maintain an essential flow of resources 
temporarily operating Haiti's main airport at Port-au-Prince.
    While our Armed Forces responded magnificently to the 
disaster in Haiti, I'm concerned that we have our premier 
combat units still engaged there and not back in the States 
with their families. This means less time to prepare for their 
next duty.
    In order for our combat forces to be ready to respond to 
future challenges, our support of these efforts to restore 
their readiness should be constant and vigilant. This will be 
tougher to accomplish in a budget climate of soaring deficits 
and economic hardships. It may be easier to claim victory in 
Afghanistan and then start drawing down budgets for the 
Department of Defense (DOD). This would be the same mistake 
we've made in the past. The best equipment and proper training 
needs to be in place before our Nation asks for further 
sacrifice. As such, we should not continue to accept risk 
across the full spectrum of operations.
    I look forward to hearing our witnesses lay out their plans 
to reset forces, both in the Active and Reserve.
    Mr. Chairman, I thank you.
    Senator Bayh. Thank you, Senator Burr, for your statement 
and for your service on the committee. I only wish that every 
Member of the U.S. Senate could have the kind of cooperative 
relationship that the two of us have been fortunate enough to 
enjoy. So, it's been good working with you.
    Gentlemen, just one personal note, since this is the last 
time I'll be chairing this subcommittee hearing. It is my hope 
that our working together has been rigorous but not painful, 
because we're all on the same team. I'm very grateful to each 
and every one of you for your service to our country. I believe 
that very strongly, as do the 6.5 million people of my State.
    General Chiarelli, why don't we begin with you.

 STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF

    General Chiarelli. Chairman Bayh, Ranking Member Burr, I 
thank you for the opportunity to appear here today to discuss 
the readiness the U.S. Army. I've submitted a statement for the 
record. I look forward to answering your questions at the 
conclusion of my opening remarks.
    As you are all aware, these are challenging times for our 
Nation's military. Still, our deployed forces represent the 
best-manned, -equipped, -trained, and -led in the history of 
our Army. I'm incredibly proud of all they've accomplished in 
Iraq and Afghanistan and around the world.
    America's Army remains a resilient, professional force 
dedicated to defending the Homeland and defeating our enemies. 
However, 8-plus years of war continues to strain our soldiers, 
our civilians, and their families, as well as our ability to 
build trained and ready forces and respond to unforeseen 
contingencies. Ultimately, this impacts the overall readiness 
of our force. Readiness is a reflection of the total number of 
deployed or deployable soldiers, time to train, and 
availability to materiel resources. We made progress over the 
last year in mitigating some of the negative effects of the 
consistently high demand for forces. If demand continues to 
come down as forecasted, and budgetary expectations remains 
consistent, we should be able to restore our operational depth 
by fiscal year 2012.
    That said, this prediction is based upon a number of 
factors, not the least of which is the projected drawdown of 
forces in Iraq. We all recognize we live in an uncertain world 
and there is always the possibility that circumstances may 
change unexpectedly and dramatically. In any event, we will 
work very closely with Congress and with DOD to make necessary 
adjustments. In the meantime, we must continue to work together 
to ensure all soldiers, from both our Active and Reserve 
components, and their families, are properly cared for and have 
the training, equipment, and resources they need to accomplish 
their mission, now and into the future.
    Mr. Chairman, Mr. Ranking Member, I thank you again for 
your continued generous support and demonstrated commitment to 
the outstanding men and women of the U.S. Army. I look forward 
to your questions.
    [The prepared statement of General Chiarelli follows:]
           Prepared Statement by GEN Peter W. Chiarelli, USA
                              introduction
    Chairman Bayh, Ranking Member Burr, distinguished members of the 
Senate Armed Services Committee's Subcommittee on Readiness and 
Management Support, I thank you for the opportunity to appear here 
today to provide a status on the Readiness of U.S. Army forces with 
respect to deployed, deploying and nondeployed units and the Army's 
ability to provide forces to meet combatant commanders' requirements 
and respond to unforeseen contingencies.
    On behalf of our Secretary, the Honorable John M. McHugh and our 
Chief of Staff, General George W. Casey Jr., I would like to take this 
opportunity to thank you for your continued, strong support and 
demonstrated commitment to our soldiers, Army civilians, and family 
members.
    As all of you know, it has been a busy time for our Nation's 
military. We have been at war for the past 8-plus years. With the 
support of Congress, our forces deployed are the very best manned, 
equipped, trained and led in the 234-year history of the U.S. Army. 
That said, this success has come at the expense of our nondeployed and 
Generating Forces. The consequence is increased strategic risk to the 
Nation.
    The prolonged demand and high operational tempo of this two-front 
war have undeniably put a strain on the readiness of our Force. Our 
current readiness is a reflection of the total number of available 
soldiers, as well as materiel resources--coupled with time to train. 
This sum measure of readiness is further impacted by the overall global 
demand for Army forces.
    So long as demand exceeds supply, the availability and 
deployability of soldiers, units, and equipment will be challenged, as 
will the Army's ability to build trained and ready forces. In 
particular, heightened, prolonged demand results in periods of degraded 
readiness for nondeployed forces in order to shift soldiers and 
equipment to units preparing to deploy.
    The Army currently has limited capacity to respond to unforeseen 
contingencies. However, if demand for Army forces comes down as 
forecasted and budgetary expectations remain consistent, then we should 
be able to restore our full operational depth by fiscal year 2012.
    Recognizing this process will be dependent upon a number of factors 
to include the projected drawdown of forces in Iraq; the continued 
implementation of the rotational Army Force Generation (ARFORGEN) 
model; and, the continued transition of our Reserve component (RC) 
force from a Strategic Reserve to an operational force, thus allowing 
the Army recurrent, assured, predictable access to the RC to meet 
operational requirements IAW ARFORGEN. By fiscal year 2013, these 
actions, in part, and the resulting increase in operational depth 
should enable our Army to mitigate current strategic risk and reliably 
respond to the full range of potential, unforeseen contingencies.
    In the meantime, I assure the members of this subcommittee, the 
Army is doing everything within its control to improve our readiness 
and restore balance to the Force. Congress remains a vital partner in 
this shared endeavor.
                our plan to restore balance to the force
    The U.S. Army remains focused on the four imperatives of our plan 
to restore balance to the Force: our ability to sustain the Army's 
soldiers, civilians, and families; prepare forces for success in the 
current conflict; reset returning units to rebuild the readiness 
consumed in operations and to prepare for future deployments and 
contingencies; and transform to meet the demands of the 21st century.
                    sustain our all-volunteer force
    Sustaining our All-Volunteer Force is our first imperative. The 
soldier, as Secretary Gates has said, is our greatest strategic asset. 
Unfortunately, after 8-plus years of war, we continue to see the high 
OPTEMPO and prolonged stress and strain on our Force manifested in the 
increased demand for behavioral health counseling and drug and alcohol 
counseling; increased divorce rates; and increased numbers of soldiers 
temporarily nondeployable from nagging injuries from previous 
deployments.
    The Army remains focused on providing vital family programs and 
services to include welfare and recreation; youth services and child 
care; Survivor Outreach Services; mental and behavioral health 
services; and expanded counseling and rehabilitative opportunities for 
soldiers and family members.
    In collaboration with the National Institute of Mental Health, the 
Army began a 5-year, $50 million seminal study into suicide prevention 
that will help inform the Army Campaign Plan for Health Promotion, Risk 
Reduction, and Suicide Prevention (ACPHP). The Army also began 
instituting our Comprehensive Soldier Fitness (CSF) program, an all-
inclusive approach that puts mental health on par with physical 
fitness. By promoting resiliency and life-coping skills, we hope to 
help our soldiers, civilians, and family members to better deal with 
stress and other challenges. By enhancing the quality of life across 
our Army community, we believe we will see improvement in many other 
areas of concern, including suicides.
                       prepare forces for success
    The centerpiece of our plan to continue to restore balance to our 
Force is the maturation of the ARFORGEN model. This model represents 
the core process for generating trained, ready, and cohesive units on a 
sustained and rotational basis--to meet current and future strategic 
demands.
    The ARFORGEN process includes three force pools--Reset, Train-
Ready, and Available. This process increases predictability for 
soldiers, families, employers, and communities. ARFORGEN enables our 
Reserve component to remain an integral element of the operational 
force while providing the Nation with strategic depth (i.e., those 
nondeployed units which are 2 to 3 years from commitment) and 
operational flexibility to meet unexpected contingencies.
                                manning
    The Army is currently implementing the Active Army temporary end-
strength increase of up to 22,000 soldiers approved by the Secretary of 
Defense in July 2009. More than 8 years of sustained combat operations, 
coupled with taking the Army off of stop-loss, have increased 
nondeployable rates in our units. These increasing non-deployable rates 
(from 9.92 percent in fiscal year 2007 to 12 percent in fiscal year 
2009) require us to continue to overfill our deploying units. The 
soldiers needed to overfill those deploying units come largely from 
both nondeployed and Generating Force units. The resulting reductions 
in personnel hamper the affected units' ability to train which 
ultimately impacts the units' overall readiness.
    The decision was made to temporarily increase the Army endstrength 
by 15,000 soldiers by end of fiscal year 2010. This increase assisted 
in offsetting the decline in available personnel in our Army units. We 
added 5,000 soldiers in fiscal year 2009, and will add an additional 
10,000 in fiscal year 2010. The resulting temporary Army end-strength 
will be 562,400 soldiers.
    The Army is still assessing the need for the additional 7,000 
soldier growth for fiscal year 2011. This would bring us to the total 
22,000 end-strength increase. The decision on whether or not to add the 
additional 7,000 personnel is pending confirmation of our immediate 
demand, the pace of the drawdown from Iraq, and the requirement for 
forces in Afghanistan. If the decision is made to add the additional 
7,000 soldiers, growth could be complete by end of second quarter, 
fiscal year 2011. We would hold at that end-strength for the requisite 
12 months before beginning the 18-month drawdown. Regardless of the 
decision on the 7,000 soldier growth, we plan to return to the pre-
increase end-strength level of 547,400 by the end of fiscal year 2013.
                            reset equipment
    Equipment Reset is an essential element of readiness and restoring 
balance to the Army for known and future requirements. Reset is a 
necessary process that must continue not only as long as we have forces 
deployed, but an additional 2 to 3 years after major deployments end to 
ensure future equipment readiness.
    Reset is especially challenging given the extraordinary wear on 
vehicles, aircraft, and equipment in the harsh environments our forces 
operate in today. Coarse sand, fine dust, extreme temperatures, and 
high OPTEMPO erode sophisticated mechanical and electronic systems at 
altitudes and loads which near the edge of the aircraft design 
capabilities. Our rotary wing fleet, for example, operates up to six 
times non-combat usage levels.
    Reset timelines are directly related to the pace of the Iraq 
drawdown, operational decisions such as the Operation Enduring Freedom 
plus-up, available capacity within our industrial base (physical plant 
capacities, labor and long lead-time parts) and the availability and 
timing of funding. Over the past year, our depot-level Maintenance 
Reset workload exceeded 100,000 items of equipment; and, we expect to 
sustain this pace for as long as we have substantial forces deployed. 
In fiscal year 2010, the Army plans to complete the equipment Reset 27 
Brigades (25 maneuver and 2 enabling brigades), as well as numerous 
below Brigade-level units.
    Given current projections, we would expect our requirements to 
decrease in the out-years as we complete the retrograde and Reset of 
equipment from Iraq. That said, Reset activities alone cannot improve 
Army Readiness in the near- or mid-term. Repairs, recapitalization, or 
replacement of battle losses experienced in combat does not fix on-hand 
equipment shortfalls that existed prior to a unit's deployment. 
However, equipment Reset does ensure our on-hand equipment is 
maintained at a high state of readiness to prepare units for future 
combat operations.
                          readiness reporting
    The Army has made progress towards implementing and advancing 
readiness reporting policy and technology in 2009. Our current 
readiness reporting system has considerably improved the accurate, 
reliable measurement of units at the tactical and operational level.
    However, significant challenges do still remain. The fast pace of 
this war, coupled with the rapidly evolving demand for new and improved 
capabilities means our requirements are constantly shifting and 
equipment is continually on the move. Our longstanding unit readiness 
reporting process was not designed to nor is it capable of keeping up 
with or capturing the full `velocity' or magnitude of activity in our 
current operating environments. Our longstanding readiness reporting 
process has been adapted to support the ARFORGEN model and the Army's 
new modular force structure.
    We are making progress towards improving and expanding this 
process. For example, the Army expanded the former Percent Effective 
reporting to include manning and equipping levels for assigned 
missions. This new rating called the A-Level incorporates assigned 
mission manning and equipping ratings to better support commanders in 
their assessments of assigned mission capabilities. These are reported 
no later than 270 days prior to deployment or even earlier if the 
command or component directs it.
    These and other changes to the Army's overall readiness reporting 
process represent significant improvements, but challenges still 
remain. We must continue to make necessary adjustments and educate the 
Force accordingly.
Army Prepositioned Stocks
    Army Prepositioned Stocks (APS) continue--most recently in 
Operation Enduring Freedom and Operation Iraqi Freedom--to fulfill 
their primary purpose of enhancing the Army's strategic agility. We 
have pulled equipment from and rebuilt APS several times over the past 
8-plus years. Most recently, we used equipment from APS-3 and APS-5 to 
support both the surge in Iraq and the ongoing plus-up in Afghanistan.
    In order to restore operational flexibility and reduce strategic 
risk, it is necessary that we continue to try to reconstitute APS, and 
indeed, all our war reserve stocks. We have a strategy in place and 
will continue to make appropriate budget requests to restore our APS to 
full capability by 2015.
                         transforming our force
    The Army is evolving our capabilities to meet current and future 
strategic demands. We recognize that we must ensure our Nation has the 
capability and range of military options to meet the challenges we face 
in the 21st century. As Army Chief of Staff, General George W. Casey, 
Jr. has stated, ``We need an Army that is a versatile mix of tailorable 
and networked organizations, operating on a rotational cycle, to 
provide a sustained flow of trained and ready forces for full spectrum 
operations and to hedge against unexpected contingencies--at a tempo 
that is predictable and sustainable for our All-Volunteer Force.''
    The centerpiece of our efforts is the shift to a modular construct 
focused at the brigade level, thus creating a more deployable, 
adaptable, and versatile force. This ongoing transformation has greatly 
enhanced the Army's ability to respond to any situation, quickly and 
effectively. However, the degree of impact continues to vary, for 
example, between Brigade Combat Teams (BCTs), ``enablers,'' the Reserve 
components, and individual soldiers.
                             strategic risk
    Our Army remains a resilient, professional force dedicated to 
defending the homeland and defeating our Nation's enemies. However, 8-
plus years of war continue to strain our soldiers, civilians, families, 
equipment and infrastructure. We made considerable progress over the 
last year in mitigating the negative effects of consistently high 
demand for forces; nonetheless, high deployment-to-dwell ratios for 
Army units and individuals continue to stress the All-Volunteer Force, 
and challenge the Army's ability to respond to unexpected 
contingencies. Strategic risk has been identified in the following 
areas:
                            sustained demand
    Since September 11, 2001, all deploying Army units are trained, 
led, and equipped to achieve the highest readiness standards prior to 
deployment. However, due to sustained demand, Army units are achieving 
this deployment readiness closer and closer to their arrival dates in 
theater. This creates operational risk by reducing the near-term 
flexibility for adapting to mission-driven adjustments to arrival dates 
or other requirements.
                           limited dwell time
    Prolonged, heightened demand for Army forces continues to limit 
availability of unit and individual dwell time. As a result, soldiers 
often have minimal time to train, rest, and recuperate prior to their 
next deployment. This also restricts the geographic combatant 
commander's operational flexibility for altering unit arrival dates or 
shifting areas of responsibility.
    Projected increases to unit and individual dwell times depend on a 
number of factors to include: absence of any significant new missions; 
Iraq drawdown will proceed on time and year-end end-strength in Iraq 
will be less than 50,000 personnel; we will maintain continued access 
to RC forces; and, Afghanistan surge will proceed on time and not 
increase beyond the planned level.
                           limited resources
    Army and Defense resources are set within national affordability 
parameters, yet demand is unconstrained. Over time, the Army (in 
complete transparency with the Office of the Secrerary of Defense, the 
Joint Staff, and combatant commanders) has directed resources away from 
non-deployed Operational Forces and our Generating Force to support our 
forces deployed. The result is increased strategic risk in the Army's 
ability to respond to unforeseen contingencies.
                     unfunded readiness priorities
    While the Army does not have any unfunded requirements, as with any 
budget request, there are areas where additional resources could 
enhance existing programs. The continuous assessment of lessons learned 
provides us with new information on possible items that, if 
accelerated, would provide added value to commanders in the field.
                              unknown risk
    We recognize that much of the risk we assume depends on minimal 
projected reductions in demand and corresponding savings; and the 
absence of unplanned events or a resurgence of tensions in 'hot spots' 
around the world. If such unforeseen events occur, we will have to make 
the necessary adjustments, to include reallocation of resources.
    However, based on the current situation and known risks, we are 
confident the fiscal year 2011 budget request, if appropriated in full, 
would improve the overall readiness of our Force by ensuring the Army 
is able to properly care for, train, equip and support our soldiers, 
civilians, and family members around the world.
                               conclusion
    These continue to be challenging times for our Nation and for our 
military. With the support of Congress, we have deployed the best 
manned, equipped, trained, and led forces in the history of the U.S. 
Army over the past 8-plus years. However, the fact remains that we have 
asked a great deal from our soldiers, civilians, and their families.
    Looking ahead, the Army must continue to sustain our All-Volunteer 
Army, modernize, adapt our institutions, and transform our Force. We 
must ensure we have a trained and ready Force that is well-prepared, 
expeditionary, versatile, lethal, sustainable, and able to adapt to any 
situation.
    I assure the members of this subcommittee--the Army's senior 
leaders are focused and working hard to address these challenges and to 
determine the needs of the Force for the future.
    Chairman, members of the subcommittee, I thank you again for your 
continued and generous support of the outstanding men and women of the 
U.S. Army and their families. I look forward to your questions.

    Senator Bayh. Thank you, General Chiarelli.
    General Amos, why don't we proceed next with you.

 STATEMENT OF GEN. JAMES F. AMOS, USMC, ASSISTANT COMMANDANT, 
                       U.S. MARINE CORPS

    General Amos. Thank you, sir.
    Chairman Bayh, Senator Burr, distinguished members of the 
committee, thank you for the opportunity to report on the 
readiness of your U.S. Marine Corps. On behalf of the more than 
242,000 Active and Reserve marines and their families, I'd like 
to extend my appreciation for the sustained support Congress 
has faithfully provided its Corps.
    As we begin this hearing, I would like to highlight a few 
points from my written statement.
    Within the U.S. Central Command (CENTCOM) theater of 
operations, we have successfully completed a responsible 
drawdown of marines in Iraq. After 7 straight years of 
sustained combat operations and nation-building, our work in 
Iraq's Anbar Province is done. With the exception of our eight 
training teams and the support to higher headquarters staff, 
100 percent of our marines and 100 percent of their equipment 
have left Iraq.
    As we sit in this hearing room today, more than 31,000 
marines remain deployed across the globe, supporting oversees 
contingency operations (OCO) and security cooperation 
activities and exercises. Specifically, your Corps has 
reoriented its principal efforts towards Afghanistan. To date, 
we have 20,525 marines and sailors on the ground in 
Afghanistan. We will close the remainder of this surge force by 
the end of this month.
    All of our forward-deployed units were manned, trained, and 
equipped to accomplish their assigned missions. These units 
continue to report the highest levels of readiness for those 
missions. For the past 8 years, we have been fully engaged in 
winning combat operations as part of this generational struggle 
against global extremism. As I testified last year before this 
subcommittee, this sustained effort in performance does not 
come without cost to the institution, to our equipment, and to 
our strategic programs, and most importantly, to our marines 
and their families.
    Equipment readiness of our nondeployed units is of great 
concern to our senior leadership. We have taxed our home-
station units, as the billpayer, to ensure that marines in 
Afghanistan in our MEUs have everything that they need. As a 
result, the majority of our nondeployed forces are reporting 
degraded materiel readiness levels. This degraded state of 
readiness within our nondeployed forces presents risk to our 
ability to respond rapidly to other unexpected contingencies 
around the globe.
    The tempo of operations in the harsh environments that we 
have been in since 2003 have accelerated the wear and tear on 
our equipment. Necessarily, the diversion of equipment in 
theater from Iraq to Afghanistan has delayed reset actions at 
our logistics depots within the United States. Our current 
estimate of the cost of reset for the Marine Corps is $8 
billion. Additionally, validating the lessons learned from 8 
years of combat has necessitated that we update and approve the 
way we equip our units. The cost for these changes to our 
equipment sets is estimated to be an additional $5 billion. 
Money to reset and rebuild the Marine Corps will be required 
for several years after the end of the war. I ask for your 
continued support for that continued funding as we rebuild our 
Nation's Corps. With your steadfast support, we will succeed in 
current operations, take care of our marines and their 
families, reset and modernize our equipment, and train the 
marine air/ground task forces for the challenges of the future. 
We continue to stand ready as the Nation's expeditionary force 
in readiness.
    I thank you, each of you, for your faithfulness to our 
Nation, and I request that my written testimony be accepted for 
the record. I look forward to your questions.
    [The prepared statement of General Amos follows:]
             Prepared Statement by Gen. James F. Amos, USMC
                              introduction
    Chairman Bayh, Ranking Member Burr, and distinguished members of 
the committee, on behalf of your Marine Corps, I want to thank you for 
your generous support and for the opportunity to speak with you today 
about the readiness of the U.S. Marines. My statement will address our 
efforts to create a balanced force capable of prevailing in current 
conflicts while preparing for other contingencies, the readiness 
challenges facing marines today, and the critical steps needed to reset 
and reconstitute our Corps for today's complex challenges and 
tomorrow's uncertain security environment.
    Despite high operational tempo, your marines are resilient, 
motivated, and performing superbly in missions around the globe. This 
sustained effort and performance does not come without costs--to the 
institution, to our equipment, to our strategic programs, and most 
importantly, to our marines and their families. Continued congressional 
investment in our marines and families, resetting and modernizing our 
equipment, and training Marine Air Ground Task Forces (MAGTFs) for the 
future security environment are critical to the Marine Corps' success 
as the ``Nation's Force in Readiness.''
                          readiness assessment
    The pace of operations for your marines remains high, with over 
31,000 marines forward-deployed across the globe. In the U.S. Central 
Command area of operations, there are over 23,000 marines deployed in 
support of Operations Iraqi Freedom (OIF) and Enduring Freedom (OEF). 
Our mission in Iraq is now complete. After 7 years of intense combat 
and nation building operations, the Marine Corps returned the Anbar 
Province to the leadership of Iraq. With exception of some Training 
Team members, our last piece of equipment and our last marine departed 
Iraq this past week. In the course of the last 8 years, your Marine 
Corps has been battle-tested, combat-hardened, and has accumulated 
tremendous experience in irregular warfare and counter-insurgency 
operations. Forward deployed units are manned, trained, and equipped to 
accomplish their assigned missions, and these units are reporting the 
highest levels of readiness for those missions. However, resources are 
limited, and non-deployed units incur the costs of ensuring deployed 
and next-to-deploy units have sufficient personnel, equipment, and 
training. As a result, our nondeployed forces continue to report 
degraded readiness levels. This degraded state of readiness within our 
non-deployed forces presents risk in our ability to rapidly respond to 
other unexpected contingencies.
    Because our equipment, personnel, and training priorities are 
focused on counter-insurgency operations, we have experienced 
degradation in some of our traditional, full spectrum, core 
competencies such as integrated combined arms operations and large-
scale seaborne operations. These skills are critical to maintaining the 
Marine Corps' primacy in theater access operations that enable follow-
on joint forces. The OIF/OEF demand for units has also limited our 
ability to fully meet combatant commander requests for theater 
engagement activities. The current security environment has clearly 
justified the tradeoffs we have made to support Overseas Contingency 
Operations, but the uncertainty of the future makes it prudent to 
regain our capabilities to operate across the full range of military 
operations.
    In addressing the challenges facing the Marine Corps, I have 
structured my statement along the lines of our key readiness concerns--
equipment, personnel, military construction, training, amphibious 
shipbuilding, and caring for our warriors and their families. I will 
discuss the positive steps and proactive initiatives we are 
undertaking, with your support, to reset, modernize, and reconstitute 
the Marine Corps for an uncertain future. Finally, I will conclude with 
some of our ongoing initiatives and programs that address the care and 
welfare of our marines and their families.
                          equipment readiness
    Ensuring that our marines are equipped with the most modern and 
reliable combat gear is a necessity. However, the requirement to fully 
resource deployed forces, often in excess of our tables of equipment, 
has reduced the availability of materiel essential to outfit and train 
our nondeployed units. Approximately 21.5 percent of all Marine Corps 
ground equipment and 42 percent of our aviation assets are deployed 
overseas. Most of this equipment is not rotating out of theater at the 
conclusion of each force rotation; it remains in combat, to be used by 
the relieving unit. As of 1 Mar 2010, Marine Corps Logistics Command 
folded its flag, redeployed, and the final 21 trucks headed for Kuwait; 
we have completed the responsible drawdown from Iraq, our mission there 
is complete. While we reorient our effort to OEF operations, we have 
been transitioning a significant amount of equipment to Afghanistan. We 
continue to face significant home station equipment readiness 
challenges.
                       ground equipment readiness
    After 8 years of sustained combat operations, our deployed 
equipment has been subject to significant wear and tear, harsh 
environmental conditions, and increased operating hours and mileage. 
Additionally, the weight associated with armor plating further 
increases the wear on our deployed vehicle fleet and accelerates the 
need for repair and replacement of these assets. Despite these 
challenges and higher utilization on already aging equipment, our young 
marines are keeping this equipment mission-ready every single day. The 
high equipment maintenance readiness rates throughout the Marine Corps 
are a testament to their dedication and hard work.
    The policy to retain equipment in theater as forces rotate in and 
out was accompanied by increased in-theater maintenance presence. This 
infusion of maintenance support has paid great dividends, with deployed 
ground equipment maintenance readiness above 90 percent. However, the 
Marine Corps is experiencing challenges with the supply availability of 
a number of critical equipment items at home stations. Supply readiness 
rates (On-hand vs Required) have decreased for home station units, 
while we work to meet the demand of deployed forces and those next-to-
deploy. Shortages of critical equipment limit home station units' 
ability to prepare and train to their full core competencies and 
present additional risk in availability of equipment necessary to 
respond swiftly to unexpected contingencies.
    The sourcing of equipment for the Marine Expeditionary Brigade 
(MEB) in Afghanistan over the past year, and the transition to a much 
larger Marine Expeditionary Force Forward (MEF(Fwd)), illustrates our 
equipment availability challenge. Equipment assets were pulled from 
across the entire Marine Corps to accomplish this task. To ensure the 
MEF(Fwd) is provided the newest and most capable equipment, over 34 
percent of their equipment came via new procurement provided by Marine 
Corps Systems Command. Approximately 42 percent of the equipment came 
from within the Central Command area of operations, including items 
made available from units retrograding from Iraq; and about 4 percent 
of the required assets were sourced from our Logistics Command Maritime 
Prepositioning Ships Program and the Marine Corps Prepositioning 
Program in Norway. Although a concerted effort was made to minimize the 
impact on home station unit readiness, 20 percent of the equipment for 
I MEF(Fwd) needed to be drawn from our non-deployed operating forces. 
The net effect has been degradation in readiness at home station. For 
instance, the overall supply rating of Marine Corps units in 
Afghanistan is near 100 percent, while the supply rating of units at 
home station is less than 60 percent.
    Ground equipment age continues to be a top readiness challenge as 
well. As equipment ages, more time, money, and effort are expended 
repairing it. Ultimately, the answer to achieving sustained 
improvements in ground equipment readiness is to improve logistics 
processes and to modernize with highly reliable and maintainable 
equipment. The Corps is achieving efficiencies by improving supply-
chain processes, adopting best practices, and leveraging proven 
technological advances to facilitate responsive and reliable support to 
the Operating Forces.
                           aviation equipment
    Our aviation capability is a critical part of the MAGTF. Just like 
our ground force units, deployed Marine aviation units receive priority 
for aircraft, repair parts, and mission essential subsystems such as 
forward-looking infrared (FLIR) pods. Nondeployed forces, therefore, 
face significant challenges for available airframes and supply parts. 
Exacerbating the readiness challenges in our aviation fleet, most 
Marine aircraft are older, or are ``legacy'' platforms no longer in 
production, thus placing an even greater strain on our logistics chain 
and maintenance systems.
    Our Marine Corps aviation platforms are supporting ground forces in 
some of the world's harshest environments: Afghanistan, the Horn of 
Africa, and aboard ships around the world. While operating in these 
demanding areas, our aircraft are often doubling--sometimes, nearly 
tripling--the utilization rates for which they were designed.
    Maintaining the readiness of aviation assets while training aircrew 
is a large effort, and one which Marine Corps aviation is meeting 
through a careful and ongoing program of mitigation, bridging legacy 
platforms to new aircraft. We are replacing our assault support and 
tactical aviation airframes through programs of record, which will 
provide the MAGTF with dependable and tactically dominant capabilities 
for decades to come. The key to our steady improvement of Marine Corps 
aircraft flexibility is maintaining the ``ramp rates'' at which we 
purchase these improved airframes.
    Fleet Readiness Centers have been able to mitigate the strain on 
our aircraft materiel readiness through modifications, proactive 
inspections, and additional maintenance actions. These efforts 
successfully bolstered aircraft reliability, sustainability, and 
survivability. We expect requirements for depot-level maintenance on 
airframes, engines, weapons, and support equipment will continue well 
beyond the conclusion of hostilities.
                  prepositioning equipment and stores
    Marine Corps Prepositioning Programs are comprised of the Maritime 
Prepositioning Force (MPF), with three Maritime Prepositioning Ships 
Squadrons, and the Marine Corps Prepositioning Program-Norway (MCPP-N). 
Since 2002, we have drawn equipment from our strategic programs and 
stocks to support combat operations, Operation Unified Response, growth 
of the Marine Corps, and other operational priorities. While the 
readiness of the strategic prepositioning programs continues to 
improve, equipment shortages in our strategic equipment prepositioned 
stores have forced the Marine Corps to accept necessary risk in our 
ability to rapidly respond to worldwide contingency operations. With 
Congress' support, our end item shortfalls in the MPF and MCCP-N 
programs will be reset, in accordance with operational priorities, as 
equipment becomes available.
                          in-stores equipment
    In-stores equipment refers to our pool of assets that serves as a 
source of equipment to replace damaged or destroyed equipment in the 
operating forces, and potentially fill shortfalls in the Active and 
Reserve components. This equipment was used heavily to meet equipment 
requirements in Iraq, and it continues to support our forces in 
Afghanistan. The availability, or supply rating, for in-stores assets 
has been degraded over the past years and limits our ability to rapidly 
respond to unexpected contingencies and to replace damaged equipment in 
the operating forces.
                         equipment initiatives
    To counter the readiness impact of damaged, destroyed or worn out 
equipment, the Marine Corps initiated a program to reset and modernize 
our force. The goal of our reset and modernization programs is to 
sustain the current fight by repairing or replacing worn out or 
damaged/destroyed equipment while enhancing our support to the 
warfighter by reconstituting our force with newer, more capable 
equipment. Over time, these initiatives will help to increase 
nondeployed unit readiness by enhancing home station equipment pools 
and predeployment unit training requirements.
                            equipment reset
    Reset consists of actions taken to restore units to a desired level 
of combat capability commensurate with a unit's assigned mission. It 
encompasses maintenance and supply activities that restore and enhance 
combat capability to equipment that has been damaged, rendered 
obsolete, or worn out beyond economical repair due to combat operations 
by repairing, rebuilding, or procuring replacement equipment. In light 
of the continued high tempo of operations in the CENTCOM AOR, and the 
delay in reset actions due to the diversion of equipment to 
Afghanistan, we estimate the cost of reset for the Marine Corps to be 
$8 billion ($3 billion requested in the fiscal year 2011 OCO and an 
additional $5 billion reset liability upon termination of the conflict.
    To prepare for the reset of equipment redeployed from Iraq, we 
created an OIF Reset Plan. The plan synchronizes Marine Corps reset 
efforts to ensure we effectively and efficiently reset equipment to 
support follow-on operations. Equipment being redeployed is inspected, 
sorted and redistributed in theater, or redeployed to the continental 
United States to maintenance facilities. This equipment will then be 
repaired and distributed to fill shortfalls for established priorities. 
Equipment determined to be beyond economical repair will be disposed of 
and replacements procured.
                             modernization
    As the Nation's expeditionary force in readiness, the Marine Corps 
is required to prepare for the unexpected. We are making progress in 
repairing and resetting existing equipment, but this effort must be 
augmented with continued investment to modernize our capabilities. 
Equipment modernization plans are a high priority within our Corps. Our 
Commandant's Marine Corps Vision and Strategy 2025 will help guide our 
modernization efforts as we continue to be the agile and expeditionary 
force for the Nation.
                          ground modernization
    Prompted by a changing security environment and hard lessons 
learned from 8 years of combat, the Marine Corps completed a review of 
its Operating Force's ground equipment requirements. Recognizing that 
our unit tables of equipment (T/Es) did not accurately reflect the 
challenges and realities of the 21st century dispersed battlefield, the 
Corps revised T/Es for our operating units. This revision was 
synchronized with our modernization plans and programs, and provides 
enhanced mobility, lethality, sustainment, and command and control 
across the MAGTF. The new equipment requirements reflect the 
capabilities necessary, not only for the Corps' current mission, but 
for its future employment across the range of military operations, 
against a variety of threats, and in diverse terrain and conditions. We 
estimate the cost associated with our revised tables of equipment to be 
$5 billion.
                         aviation modernization
    We are modernizing the aircraft we fly, even as we continue our 
long-range plan to replace our entire operational aircraft fleet with 
new or rebuilt airframes; changing the way we think about aviation 
support to our ground forces; and improving our capabilities to conduct 
operations in any clime and place. We are committed to an ``in-stride 
transition'' from 12 legacy type/model/series aircraft to 6 new 
aircraft, including the F-35B Joint Strike Fighter, the MV-22 Osprey, 
the KC-130J, the CH-53K, and upgrades to our H-1 series helicopters. To 
help meet the growing intelligence, surveillance, and reconnaissance 
requirements of our operating forces, the Marine Corps is fielding 
three groups of unmanned aircraft systems. It is critical that these 
programs stay on track, and on timeline, with full funding support, due 
to the declining service life of our legacy tactical aviation 
platforms. These improvements will increase the Corps' aviation 
capability and MAGTF flexibility, and ensure our continued warfighting 
advantage.
                          personnel readiness
    The Marine Corps is meeting all Operation Enduring Freedom (OEF), 
and Operation Unified Response requirements. The demand and associated 
operational tempo for marines will remain high as we provide requested 
forces to Afghanistan. Meeting this global demand resulted in short 
deployment-to-dwell ratios for many units, with some deployed for as 
many months as they spend at home. Some of our low-density/high-demand 
units such as Intelligence, Communications, Explosive Ordnance 
Disposal, and certain aviation units, remain at about a 1:1 dwell 
ratio, with only moderate relief in sight for the near future. 
Insufficient dwell time negatively impacts our total force readiness 
because it leaves inadequate time to conduct full spectrum training and 
reconnect with families.
    Another readiness detractor has been the need to task combat arms 
units, such as artillery, air defense, and mechanized maneuver to 
perform ``in-lieu-of'' (ILO) missions such as security, civil affairs, 
and military policing. Shortages of those skill sets created the need 
for ILO missions to meet the requirements for counter-insurgency 
operations in Iraq and Afghanistan. Although these mission assignments 
are necessary, they have degraded our readiness because these combat 
units are unable to train to and maintain proficiency in their primary 
skill sets.
    Additionally, the Marine Corps is tasked to fill a variety of 
assignments for forward-deployed staffs, training teams, and joint/
coalition assignments that exceed our normal manning structures. The 
manning requirements for these uncompensated Individual Augments (IAs), 
Training Teams (TTs) and Joint Manning Documents (JMDs) seek seasoned 
officers and staff noncommissioned officers because of their 
leadership, experience, and training. We understand that these 
augmentees and staff personnel are critical to continued success in 
Iraq and Afghanistan, but their extended absence has degraded home 
station readiness, full spectrum training, and unit cohesion. This has 
become most evident in our field grade ranks. In addition to the IA, 
TT, and JMD billets, emerging requirements associated with activation 
of USCYBERCOM, the AF-PAK Hands program, AFRICOM, and increased SOCOM 
support have compounded the demand for Marine majors, lieutenant 
colonels, and colonels who would otherwise be assigned to key 
leadership positions in the operating force.
                         personnel initiatives
    In order to better meet the needs of a nation at war, the Corps has 
grown to its authorized active duty end strength of 202,000 marines. 
This increase in manpower will ultimately result in a Marine Corps with 
three balanced Marine Expeditionary Forces (MEFs), and will help 
mitigate many of our operational tempo challenges described in the 
previous section. A balanced Marine Corps will provide combatant 
commanders with fully manned, trained, and equipped MAGTFs that are 
multi-capable, responsive, and expeditionary. Additionally, our current 
end strength growth will increase our capacity to deploy forces in 
response to contingencies and to participate in exercises and 
operations with our international partners in support of the Nation's 
broader security objectives. It will also allow more time at home for 
our marines to be with their families, to recover from long 
deployments, regain proficiency in core skills, and prepare for their 
next mission.
    Thanks to the continued support of Congress, we have increased our 
infantry, reconnaissance, intelligence, combat engineer, unmanned 
aircraft, military police, civil affairs, and explosives ordnance 
disposal communities. Most of these units have already deployed to Iraq 
and Afghanistan, mitigating the need for additional ILO missions. We 
have realized improvements in dwell time for a number of stressed 
communities. Although the plan is progressing well, the growth in end 
strength will not result in an immediate improvement in reported 
readiness, because it takes time to train and mature our newly 
recruited marines and units.
                         military construction
    In conjunction with the Marine Corps' growth, military construction 
is critical to supporting and sustaining the new force structure and 
maintaining the individual readiness and quality of life for our 
marines. Thanks to your support, we recently expanded our construction 
efforts and established a program that will provide adequate bachelor 
housing for our entire force by 2014. Since the announcement of the 
Commandant's Barracks Initiative in fiscal year 2008, Congress has 
funded approximately 19,700 barracks spaces for our marines. We ask for 
your continued support of this program to meet our 2014 goal. 
Concurrent with our new construction efforts is our commitment for the 
repair and maintenance of existing barracks to improve morale and 
quality of life.
                       training marines to fight
    In preparing marines to fight in ``any clime and place,'' the 
perennial challenge to our Corps is to attain the proper balance 
between core warfighting capabilities and those unique to current 
operations. Decreased unit dwell times and shortages of equipment in 
our non-deployed forces translate to a limited ability to conduct 
training on tasks critical to our core competencies, such as integrated 
combined arms, large force maneuver, and amphibious operations. Short 
dwell times between deployments and the need for many units to perform 
``in lieu of missions'' have resulted in a singular focus on counter-
insurgency training. Our marines continue to be well trained for 
current operations through a challenging pre-deployment training 
program that prepares them for all aspects of irregular warfare.
                     predeployment training program
    We have continued to improve our demanding, realistic and adaptive 
pre-deployment training program in order to properly prepare our 
operating forces for the rigors and challenges they face in OEF. The 
Predeployment Training Program (PTP) contains standards-based, skill 
progression training which is evaluated by commanders and assessed by 
our Training and Education Command at the final Mission Rehearsal 
Exercise. The PTP includes counter-insurgency combat skills, training 
in joint/coalition operations, working with our interagency partners, 
and increasing operational language sets and cultural skills. Unit 
after-action reports and unit surveys conducted by the Marine Corps 
Center for Lessons Learned (MCCLL) are shared Corps-wide and have 
influenced training changes to keep PTP relevant. For example, the 
Afghanistan Pre-Deployment Training Program, while similar in many 
facets to the PTP for Iraq, includes mountain warfare training, an 
increased emphasis on MAGTF combined arms training, and a focus on 
partnering and mentoring of host nation security forces.
    While our PTP focuses on preparing Marine units for their next 
deployment, we are further enhancing our education and training 
programs to respond to ongoing changes in the security environment. 
Through the efforts of the MAGTF Training Command and organizations 
such as Marine Aviation Weapons and Tactics Squadron One, Marine Corps 
Tactics and Operations Group, the Center for Advanced Operational 
Culture Learning, the Security Cooperation Education and Training 
Center, Marine Corps Advisor Training Group, and the Marine Corps 
University, we are providing holistic training and education for our 
marines across the range of military operations. Based on a continuous 
lessons learned feedback process, supported by the Marine Corps Center 
for Lessons Learned, we are building Enhanced MAGTF Operations 
capability which will make all of our MAGTFs more lethal, agile, and 
survivable.
                     preparing for future conflict
    As challenging as it is to prepare marines for the current fight, 
our forces must adapt to the ever-changing character and conduct of 
warfare to remain relevant. To meet the complex challenges in the 
emerging security environment, we are improving training and education 
for the fog, friction and uncertainty of the 21st century battlefield. 
We are focusing efforts on our small unit leaders--the ``strategic 
noncommissioned officers'' and junior officers--who will operate more 
frequently in a decentralized manner and assume greater responsibility 
in operations against hybrid threats.
    To better prepare our MAGTF to operate across the spectrum of 
conflict, we are developing an improved training and exercise program. 
When implemented, this program will increase our ability to maintain 
proficiency in core warfighting capabilities, such as combined arms 
maneuver and amphibious operations, while continuing to meet current 
commitments. Three important training concept exercises being developed 
are the Combined Arms Live Fire Exercise (CALFEX), the Marine Air 
Ground Task Force Large Scale Exercise (MAGTF-LSE), and a joint Navy-
Marine Corps initiative titled Bold Alligator. The CALFEX will be a 
live-fire training exercise aimed at developing combined arms maneuver 
capabilities from individual marine to regimental-sized units. It will 
incorporate lessons learned from today's conflicts, while training 
adaptable and flexible MAGTFs for the future. The MAGTF-LSE will be a 
scenario-based, service-level training exercise, scalable from MEB to 
Marine Expeditionary Force levels. It will develop the MAGTF's 
capability to conduct amphibious power projection and sustained 
operations ashore in a combined, joint, whole-of-government 
environment. Lastly, Bold Alligator is specifically designed to re-
energize the Navy/Marine Corps' understanding of the intricacies of 
amphibious operations. The initial audience is Expeditionary Strike 
Group 2 (ESG2) and the 2nd MEB who will participate in a number of 
planning seminars and simulated exercises in preparation for the fleet 
exercise scheduled in fiscal year 2011. We envision that the Bold 
Alligator series will continue indefinitely and progress to include a 
wider range of participants.
                        amphibious shipbuilding
    Amphibious warships provide distributed forward presence to support 
a wide range of missions from theater security cooperation and 
humanitarian assistance to conventional deterrence to assuring access 
for the Joint Force. In support of day-to-day Combatant Commander 
demands and in major combat operations, the number of amphibious ships 
in the Department of the Navy's inventory is critically important. As 
discussed in the fiscal year 2011 Shipbuilding Report to Congress, the 
Navy is reviewing options to increase the assault echelon to reflect a 
minimum of 33 amphibious ships to support assured access operations 
conducted by the assault echelons of 2.0 MEBs. The Navy and Marine 
Corps have determined a minimum of 33 ships represents the limit of 
acceptable risk in meeting the 38-ship amphibious force requirement.
                  caring for our warriors and families
    A critical part of our overall readiness is maintaining our solemn 
responsibility to take care of our marines and their families. While 
marines never waiver in the ideals of service to Country and Corps, the 
needs of our marines and their families are constantly evolving. With 
more than 45 percent of our marines married, we believe that investment 
in our families is critical to the long-term health of our institution. 
Marines have reasonable expectations regarding housing, schools, and 
family support. It is incumbent upon us, with the generous support of 
Congress, to support them in these key areas. Marines make an enduring 
commitment to the Corps when they earn the title, Marine. The Corps, in 
turn, makes an enduring commitment to every marine and his or her 
family.
                personnel and family readiness programs
    Taking care of marines and their families remains one of our 
highest priorities. With your help, we initiated a myriad of personnel 
and family readiness program reforms during fiscal years 2008 and 2009 
with supplemental appropriations. As a result of extensive program 
assessments and evaluations, we have built these programs into our 
baseline, and our baseline budget in fiscal years 2010 and 2011 is $399 
million per year. Key accomplishments through our transition phase 
include:

        <bullet> Establishment of over 400 full-time Family Readiness 
        Officer positions at the unit level to provide direct support 
        to the unit commander and families.
        <bullet> Development of an inventory of Lifeskills training 
        courses supported by full-time Marine Corps Family Team 
        Building trainers.
        <bullet> Transformation of the Exceptional Family Member 
        Program (EFMP) to ensure enrolled family members have access to 
        a continuum of care, while providing the sponsor every 
        opportunity for a successful career. The Marine Corps EFMP has 
        been recognized as a premier, full-service program to be used 
        as a template for other services. Since 2007, sponsor 
        enrollment has increased by 40 percent.
        <bullet> Direct attention to suicide prevention. The loss of 
        any marine through suicide is a tragedy. With 52 suicides 
        confirmed or suspected in 2009, the Marine Corps recorded its 
        highest suicide rate since the start of OEF/OIF. We are taking 
        proactive action, focusing on the important role of leaders of 
        all ranks in addressing this issue.
        <bullet> Enhancing Combat and Operational Stress Control 
        capabilities to further assist leaders with prevention, rapid 
        identification and early treatment of combat and operational 
        stress. Through the Operational Stress Control and Readiness 
        (OSCAR) program, we are embedding mental health professionals 
        in deploying operational units to directly support all Active 
        and Reserve ground combat elements. This will be achieved over 
        the next 3 years through the realignment of existing Navy 
        structure supporting the operating forces, and by increasing 
        the Navy mental health provider inventory. The OSCAR capability 
        is also being extended down to infantry battalions and 
        companies by providing additional training to OSCAR Extenders 
        (existing medical providers, corpsmen, chaplains, and religious 
        program specialists) to make the OSCAR expertise more 
        immediately available to marines. In addition, we are training 
        senior and junior marines to function as OSCAR Mentors. In this 
        capacity, they will actively engage marines who evidence stress 
        reactions, liaison with OSCAR Extenders, and advocate for 
        fellow marines regarding stress problems. OSCAR Mentors will 
        also greatly decrease the stigma associated with stress 
        reactions, and help marines take care of their own.

    As we move forward, we are continuing to assess the efficacy of our 
programs and to empower marines and their families to improve family 
readiness and maintain a positive quality of life. These initiatives 
and others demonstrate the commitment of the Marine Corps to our 
families, and highlight the connection between family readiness and 
mission readiness. We are grateful to Congress for your unwavering 
support of these important programs.
                improving care for our wounded warriors
    The Marine Corps is proud of the positive and meaningful 
accomplishments of the Wounded Warrior Regiment in providing 
comprehensive recovery and transition support to our wounded, ill, and 
injured marines and sailors and their families. The Regiment provides 
all Active and Reserve marines with non-medical care without regard to 
the origin of the Marine's condition. Whether the road to recovery 
keeps wounded warriors in the Marine Corps or helps them transition to 
civilian life, the Regiment continues to develop programs that focus on 
Wounded Warriors' abilities and facilitates their recovery.
    The Regiment's Recovery Care Coordinators serve as the primary 
point of contact for wounded, ill and injured marines and their 
families. These coordinators help marines meet individual goals for 
recovery, rehabilitation and reintegration. They also work with 
families and family caregivers to ensure they have the necessary 
information, care and support during these difficult times.
    The Sergeant Merlin German Wounded Warrior Call Center, a 
Department of Defense Best Practice recipient, receives calls from 
active duty members, veterans and families seeking assistance in 
matters of Wounded Warrior care and transition. The call center also 
conducts important outreach calls to monitor injury recovery and 
distribute information on new programs offered by the Regiment, the 
Department of Defense, the Department of Veterans Affairs and other 
entities. Augmented by a staff of psychological health professionals, 
the call center also provides critical assistance to those seeking help 
for post traumatic stress disorder and traumatic brain injury.
    Our Wounded Warrior Employment Cell, manned by marines and 
representatives of the Departments of Labor and Veterans Affairs, 
identifies and coordinates with employers and job training programs to 
help wounded warriors obtain positions in which they are most likely to 
succeed and enjoy fulfilling careers.
    The Marine Corps' commitment to our wounded, ill, and injured is 
steadfast. We are grateful for the support and leadership of Congress 
on their behalf. I would like to extend my personal thanks to you and 
all Members of Congress for your visits to our wounded, ill, and 
injured marines and sailors and their families in the hospitals and 
other facilities where they are being treated.
                               conclusion
    This Nation has high expectations of her Corps--and marines know 
that. Your marines are answering the call around the globe while 
performing with distinction in the face of great danger and hardships. 
The Corps provides the Nation unrivaled speed, agility, and flexibility 
for deterring war and responding to crises; our ability to seize the 
initiative and dominate our adversaries across the range of military 
operations requires the right people, the right equipment, and 
sufficient time to train and prepare.
    As marines continue to serve in combat, we must provide them all 
the resources required to complete the tasks we have given them. Now, 
more than ever, they need the sustained support of the American people 
and Congress to maintain readiness, reset the force during an extended 
war, modernize to face the challenges of the future, and fulfill the 
commitments made to marines, sailors, and their families.
    On behalf of your marines, I offer our sincere appreciation for 
your faithful support and thank you in advance for your ongoing efforts 
to support our brave warriors. The Corps understands the value of each 
dollar provided by the American taxpayer, and will continue to provide 
maximum return for every dollar spent. Today over 203,253 Active and 
39,400 Reserve Force marines remain ready and capable as the ``Nation's 
Force in Readiness'' . . . and with your continued support, we will 
stay that way.

    Senator Bayh. Without objection, all the written testimony 
will be accepted into the record.
    General Amos, thank you very much.
    Oh, and by the way, let me note the presence of Senator 
Burris.
    Thank you for your devotion to the committee, and your 
attention here today.
    Admiral Greenert.

STATEMENT OF ADM JONATHAN W. GREENERT, USN, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Greenert. Thank you, Mr. Chairman.
    Chairman Bayh, Senator Burr, distinguished members of the 
Readiness and Management Support Subcommittee, it's my honor to 
appear before you to testify on the readiness of our Navy.
    Mr. Chairman, I have a brief opening statement, and, as you 
said, please accept my full statement for the record.
    I'd like to make three points, if I may. My first point 
addresses our increase in our fiscal year 2011 base budget O&M 
request. During the past 9 years, sustaining the readiness of 
our force in a high-demand operational environment has been 
aided by OCO funds or similar supplemental funding. Despite 
this, both the high operational tempo and the reduced 
turnaround ratio continue to increase risk to fleet readiness, 
force structure, and personnel.
    As we look to the future, we have to balance global demand 
with the global management of our forces, and we should 
transition a supplemental resource dependency toward a baseline 
budget that provides the level of resources and resource 
support needed to meet an operational level that we refer to 
now as the ``new normal.'' To do this, we have increased our 
base budget O&M request by about 6 percent; that's $3.5 
billion, when compared to last year. This request is designed 
to meet our global obligations, properly sustain ships, 
aircraft, and expeditionary equipment to reach the end of their 
expected service lives, fund enduring flying readiness 
requirements, and fund price increases--notably, fuel. We 
request the support of Congress to fully fund the O&M request 
in the base budget and to fund contingency operations and 
maintenance in the OCO funding. This level of funding request, 
appropriately, represents our ``new normal.''
    My second point addresses reset. Navy ships and aircraft 
are capital-intensive forces procured to last for decades. 
Scheduled maintenance of our force structure, training and 
certification of our crews between deployments, is a key 
element in Navy's reset of the force. This interdeployment, 
maintenance, and training, we refer to as ``reset in stride.'' 
It helps assure timely rotational deployment of our forces, 
ensures capability and capacity for future missions, and 
enables forces to surge for operations such as Operation 
Unified Response in Haiti. Reset translates into decades of 
readiness for each ship and aircraft, and it's a good return on 
investment. We rely on OCO, if you will, to fund the requisite 
OCOs and, in part, to reset in stride.
    My third and final point addresses family readiness 
programs. We remain committed to the professional and personal 
development of our sailors, our Navy civilians, and the support 
to their families. Our budget request will enhance support to 
our sailors and their families, including those who are 
wounded, ill, and injured. Our Navy child and youth programs 
provide high quality educational and recreational programs for 
our children. We are leveraging military construction, Recovery 
Act funding, commercial contracts, and military-certified in-
home care expansion to increase our childcare spaces and to 
meet our goal for placing children under care.
    I request your strong support for our fiscal year 2011 
readiness budget request and our identified priorities.
    Thank you very much for your unwavering support to our 
sailors, civilians, and families, and for all that you do to 
make our Navy effective and an enduring global force for good.
    Thank you. I look forward to your questions, sir.
    [The prepared statement of Admiral Greenert follows:]
            Prepared Statement by ADM Jonathan Greenert, USN
    Chairman Bayh, Senator Burr, and distinguished members of the 
Senate Armed Services Readiness and Management Support Subcommittee, it 
is my honor to appear before you to testify on the readiness of our 
Navy. Our Navy remains the preeminent maritime power, providing our 
Nation a global force for good. Our sailors and civilians continue to 
perform exceptionally well around the world under demanding conditions. 
Many of them are engaged in combat operations ashore, and assisting the 
people of Iraq and Afghanistan by providing security and helping to 
build an enduring infrastructure. Many are working with coalition 
partners to enable safe passage of shipping, reassuring relationships 
with allies; building partnership capacity, providing security force 
assistance and providing deterrence through ballistic missile defense 
and coalition operations. Still, others are responding to emergent 
calls for disaster relief and providing humanitarian assistance in 
Haiti. These diverse operations are tangible examples of our Navy's 
core capabilities as described in our Maritime Strategy--``A 
Cooperative Strategy for 21st Century Seapower''. The 2010 Quadrennial 
Defense Review (QDR) validated the underlying principle in our Maritime 
Strategy: preventing wars is as important as winning wars. 
Additionally, the QDR found that U.S. security and prosperity are 
connected to the global commons; that deterrence is a fundamental 
military capability; and that partnerships are key to our strategy's 
success, and essential to the global stability. QDR's outcomes are 
consistent with the tenets of our Maritime Strategy. Naval operations 
are often one component of a joint force. Accordingly, it is my 
privilege to address the committee alongside my fellow Service Vice 
Chiefs and the Assistant Commandant.
    Coincident with our endeavor to build our future force, we remain 
engaged in supporting operations in Afghanistan, Iraq and all other 
Combatant Commander (COCOM) Areas of Responsibility. For the second 
year in a row, Navy has more sailors on the ground than at sea in the 
Central Command (CENTCOM) area of responsibility. At sea in CENTCOM, we 
have more than 9,000 sailors, including a Carrier Strike Group 
dedicated to providing air support to U.S. and coalition ground forces 
in Afghanistan, and combatants supporting ballistic missile defense, 
anti-piracy, maritime security, counter-terrorism, theater security and 
security force assistance. Navy Riverine forces are on their sixth 
deployment to Iraq, conducting interdiction patrols and training their 
Iraqi counterparts. On the ground, we have more than 12,000 Active and 
Reserve sailors supporting Navy, Joint, and Coalition Forces, and 
Combatant Commander requirements. In Afghanistan, Navy Commanders lead 
seven of the 13 U.S.-led Provincial Reconstruction Teams. We have 
doubled the capacity of our Seabee construction battalions in 
Afghanistan, to support U.S. and coalition forces and provide critical 
infrastructure. Our Naval Special Warfare forces continue to be heavily 
engaged in combat operations. Our Explosive Ordnance Disposal 
detachments, many embedded in ground units, continue to conduct 
counter-improvised explosive device (C-IED) operations and train Iraqi 
and Afghan C-IED units. As we shift effort from Iraq to Afghanistan, 
demand for Navy Individual Augmentees (IAs) has increased. During a 
recent trip to CENTCOM in mid-February, I met many of our dedicated 
Navy men and women supporting these efforts and I could not be prouder 
of their contribution. Their professionalism, dedication and skill, are 
unmatched.
    While operations in Iraq and Afghanistan continue to be the primary 
effort, our Navy remains globally engaged. We have 120 ships deployed--
over 40 percent of our fleet--providing U.S. presence in every region 
of the world and demonstrating the capabilities of our Maritime 
Strategy. Our ballistic missile submarines are providing strategic 
nuclear deterrence, while our Aegis cruisers and destroyers are 
providing conventional deterrence in the form of ballistic missile 
defense in CENTCOM, the eastern Mediterranean, and western Pacific. Our 
Carrier Strike Groups and Amphibious Ready Groups continue to prevent 
conflict and deter aggression in the western Pacific, Persian Gulf, 
Arabian Sea and Indian Ocean. Their rotational deployments afford the 
U.S. the ability to influence events abroad, and the opportunity to 
rapidly respond to crises. Our Navy continues to confront irregular 
challenges associated with regional instability, insurgency, piracy, 
and violent extremism at sea, in the littorals, and on shore. We 
recently published the ``Navy Vision for Confronting Irregular 
Challenges'' to refine how our Navy will plan, resource, and deliver a 
wide range of capabilities through tailored forces (e.g.: riverine, 
maritime civil affairs and security, and special operations), and 
through our multi-mission general purpose forces (ships and aircraft). 
We are partnering with U.S. Coast Guard law enforcement teams in the 
Caribbean to conduct counter-narcotics and to deny illegal traffickers 
use of the sea. We recently deployed USS Freedom (LCS1), our first 
Littoral Combat Ship, to U.S. Southern Command. She is currently 
operating with counter-narcotics units in the Caribbean, and has 
already executed three successful drug interdictions. Her deployment, 2 
years ahead of schedule, will allow us to more quickly evaluate her 
capabilities and incorporate operational lessons into the tactics, 
techniques and procedures of this new class of ships. We continue to 
strengthen relationships and enhance the capabilities of our 
international partners through maritime security activities such as 
global partnership stations in Africa, South America, and Southeast 
Asia. We reassure our allies through high-end training and operations 
in the Western Pacific and Europe.
    Humanitarian assistance and disaster response operations continue 
in Haiti after a 7.0-magnitude earthquake devastated the nation. Within 
hours of the earthquake, we mobilized the aircraft carrier USS Carl 
Vinson (CVN70) with over a dozen helicopters, cargo aircraft, and 
extensive water-making capability; and quickly thereafter, the USS 
Bataan (LHD5) amphibious ready group with heavy lift helicopters and 
command and control capability, a Reserve Cargo Handling Battalion, a 
Seabee construction detachment, and a Marine Corps expeditionary unit; 
our hospital ship USNS Comfort (T-AH1) with medical personnel and 
supplies has completed over 850 major surgeries; a Navy dive and 
salvage team is working with Army dive teams to rebuild piers in the 
port facility; P-3 surveillance aircraft have flown over 90 
intelligence, surveillance, reconnaissance missions; several surface 
ships with helicopters, and Military Sealift Command ships with fuel 
and cargo. Navy helicopters have transported over 900 medical 
evacuation patients to our off-shore hospitals and flown over 2 million 
meals-ready-to-eat throughout the disaster zone. Our disaster relief 
effort continues there today as part of a comprehensive U.S. Government 
and nongovernmental organization response. Global demand for Navy 
forces remains high and continues to rise because of the ability of our 
maritime forces to overcome diplomatic, geographic, and military 
impediments to access while bringing the persistence, flexibility and 
agility to conduct a broad spectrum of operations from the sea.
    Our readiness programs and their processes, which are designed to 
maximize the operational availability of our Navy force structure and 
infrastructure, have been able, thus far, to satisfy the evolving and 
dynamic requirements of the COCOMs. Demand for naval forces continues 
to increase and shows no signs of abating in the near future. Your Navy 
is ready, responsive, agile, flexible--and actively engaged around the 
world.
    Realistically, our ability to meet increasing demand requires that 
we continue our efforts to balance resources to sustain afloat and 
ashore readiness, force structure, and the readiness of our sailors and 
their families. In the aggregate, the health of all of these programs 
describes our total capability and capacity to deliver capable forces 
ready for tasking. During the past 9 years, sustaining the readiness of 
our force in a high demand operational environment has been aided by 
Overseas Contingency Operations (OCO) funds or similar supplemental 
funding. Despite this, both the high operational tempo and the reduced 
turn-around ratio (dwell) caused a high global demand for forces 
continue to increase risk to fleet readiness, force structure and 
personnel. As we look to the future, we must holistically address the 
fleet's operational availability requirements versus our global force 
management (GFM); and transition a supplemental resource dependency to 
a baseline budget that provides the level of resource support necessary 
to meet the Nation's maritime interests in an era of increasingly 
diverse, concurrent crises--the ``new normal''.
    We remain focused on ensuring we are ready to answer the call now 
and in the future. Last year, we stated our risk was moderate, trending 
toward significant, because of the challenges associated with fleet 
capacity; increasing operational requirements; and growing manpower, 
maintenance, and infrastructure costs. This risk has increased over the 
last year. Trends in each of these areas have continued. We are able to 
meet the most critical COCOM demands today. But we are increasingly 
concerned about our ability to meet additional demands while sustaining 
a ready force through its expected service life by conducting essential 
maintenance and modernization to ``reset'' our fleet; and procuring the 
future Navy so we are prepared to meet the challenges of tomorrow.
    The cost to operate and maintain our fleet has outpaced inflation 
by almost 2 percent each year. The need to balance between future fleet 
readiness and current readiness for operational requirements has 
resulted in risk. We increased our base budget OMN request by $3.5 
billion, a 5.9 percent real increase in fiscal year 2011 compared to 
last year. This request is tightly focused on meeting global COCOM 
operations tempo (OPTEMPO) requirements, and on properly sustaining 
ships and aircraft to reach expected service lives, funding enduring 
flying readiness requirements in the base budget, and funding price 
increases, most notably in fuel. We request the support of Congress to 
fully fund the OMN request as we endeavor to fund enduring operations 
and maintenance in our base budget, and resource contingency operations 
and maintenance in OCO. The level of funding requested appropriately 
represents our ``new normal''.
    Our fiscal year 2011 budget request achieves the optimal balance 
among our priorities to build tomorrow's Navy, maintain our warfighting 
readiness and develop and support our sailors, Navy civilians, and 
their families. It is aligned with Presidential and Department of 
Defense (DOD) guidance and it represents our Maritime Strategy and the 
2010 QDR.
      resetting the force: prevailing today and ready for tomorrow
    In addition to conducting rotational deployments, we are meeting 
emerging combatant commander requirements for ballistic missile 
defense; electronic attack; intelligence, surveillance, and 
reconnaissance; combat support and combat service support; and maritime 
security force assistance. Our OPTEMPO in CENTCOM will continue as the 
combat mission ends in Iraq. Navy enabling forces will remain in 
CENTCOM to provide various combat support/combat service support to 
joint and coalition forces in the region. Concurrently, we will 
continue to maintain a forward-deployed force of about 100 ships 
globally to prevent conflict, support allies, and respond to crises.
    The high OPTEMPO has placed additional stress on our sailors and 
their families, ships, and aircraft. We are operating (and therefore 
consuming) our fleet at a higher than expected rate. Over the last 
decade, the size of our fleet has decreased while our operational 
requirements have grown. Consequently, there are more ships at sea 
assigned to COCOMs today and fewer ships available for at-sea training, 
exercises, or surge operations. Our challenge is to balance the need to 
meet current operational requirements with the need to sustain sailors' 
proficiency, and our ship and aircraft expected service lives.
    Navy ships and aircraft are capital-intensive forces, procured to 
last for decades. Scheduled maintenance of our force structure, and 
training and certification of our crews between deployments is a key 
element in the ``reset'' of the force. This ``reset in stride'' process 
is perhaps different from other Services. It enables our ships and 
aircraft to rotate deployments and provide continuous forward presence 
as well as be ready for sustained surge operations, such as the 
humanitarian assistance and disaster relief in Haiti recently. For 
Navy, ``reset in stride'' translates into decades of readiness for each 
ship and aircraft, a good return on investment. However, deferring 
maintenance and modernization risks sustained combat effectiveness of 
force structure and reduces expected service lives. Almost three-
quarters of our current fleet will still be in service in 2020. These 
``in-service ships'' and submarines are a critical part of our 30-year 
Shipbuilding Plan and future inventory. Investment in the readiness of 
today's fleet will yield dividends in future capability and capacity.
    Navy has a ``current value'' in ships and aircraft of approximately 
$640 billion. We are perhaps unique in that our maintenance accounts 
maintain the force, modernize, and ``reset in stride'' for the service 
life of our platforms. Since increased emergent operations are 
consuming the expected service lives of fleet units, at an advanced 
rate, Navy relies on OCO to fund OCOs and ``reset-in-stride''. Annual 
costs to own and operate the fleet represent about 3 percent of the 
capital value of our fleet assets. As we continue Operation Iraqi 
Freedom (OIF)/Operation Enduring Freedom (OEF), and sustain operating 
at a ``new normal'', operating and maintenance costs in our baseline 
accounts must keep pace.
    fleet readiness: operations, maintenance, expeditionary (combat 
                                support)
Fleet Response Plan
    The Fleet Response Plan (FRP) is Navy's force generation construct 
and has an operational framework of four phases (maintenance, basic, 
integrated, and sustainment). FRP has proven to optimize the return on 
training and maintenance, enhance sailor proficiency, and ensure units 
and forces are trained and certified in defined, progressive levels of 
employable and deployable capability. It provides COCOMs and the 
National Command Authority a transparent readiness assessment of Navy 
forces--ready for tasking. An FRP cycle is defined as: that period from 
the end of a maintenance phase to the end of the next maintenance 
phase. For surface combatants, an FRP cycle is nominally 24-27 months. 
Maintenance completed during the ``maintenance phase'' supports the 
appropriate readiness during remaining phases of a cycle. Personnel 
manning processes within the FRP cycle maintain appropriate defined 
unit manning readiness levels throughout the entire FRP cycle. We do 
not allow personnel readiness levels to atrophy and then peak just 
before a deployment. Training processes in the FRP provide appropriate 
required levels of unit readiness in the Fleet Response Training Plan 
(FRTP), and sustain deliberate unit readiness levels throughout the 
phases of the FRP. In the aggregate, the FRP provides Navy forces with 
the capability to respond to the full spectrum of Navy roles and 
missions through traditional rotational deployments as well as emergent 
COCOM needs (Request for Forces (RFF)).
    Today's global security environment has created emerging demands 
for Navy forces requiring more flexibility to respond to rotational 
deployments, and emergent RFFs from geographic COCOMs. While 
reaffirming the importance of Navy forward presence resourced through 
rotational deployments, changes in the global security landscape have 
highlighted the need for trained and ready Naval forces capable of 
responding on short notice ``surge'' requirements. The rotational 
aspect of the FRP makes it an inherently sustainable plan if properly 
resourced. Risk in achieving the desired level of presence or surge is 
determined by force structure decisions, the OPTEMPO of assets while 
deployed, personnel manning, a proper maintenance phase and the length 
and rigor of an FRTP.
    The FRP is applied to every unit and group (carrier strike groups 
and amphibious ready groups). The required operational availability of 
forces is derived from the GFM Plan and the ``surge'' requirements 
needed to support the most stressing operational plan. Our top priority 
is ensuring that forces are fully maintained, trained and ready to 
deploy.
Ship Operations
    The fiscal year 2011 ship operation budget request (including OCO) 
provides funding for ships to steam an average of 58 days per quarter 
(while deployed) and 24 days per quarter (non-deployed). This OPTEMPO 
enables the Navy to meet FRP and training/certification requirements 
with acceptable risk. Risk is mitigated through increased use of 
simulators, concurrent training and certification events while 
underway, and judicious use of fuel.
    While Navy met all fiscal year 2009 GFM commitments, and the 
operational requirements in support of OIF and OEF, some fiscal 
constraints resulted in degradation of readiness. Some unit training 
was prioritized to support FRTP training/certification only, and 
exercise and U.S. port visits were deferred. Some ships deployed to 
theater ``surge capable'' and certified for planned theater operations, 
but not ``Major Combat Operation (MCO)'' ready. MCO is the FRTP goal. 
The fiscal year 2009 mitigation strategy was intended to be the 
exception--sustaining Navy training readiness at these levels will have 
a cumulative risk to mission success in future operations. Crew 
proficiency can degrade in these circumstances.
    Navy ships require routine corrective and preventive maintenance, 
assigned and conducted within the capability and capacity of the ship's 
crew. Deferring repair parts re-stock results in eventual inventory 
shortages, and will likely result in eventual deferred preventive 
maintenance. Deferred corrective maintenance by the crew reduces unit 
readiness and can result in increased workload and cost for shore-based 
repair facilities. Deferred preventive and corrective maintenance will 
cause degraded performance or failure of installed equipment during 
critical training events or deployments. Annual ship repair part 
obligations have remained relatively unchanged for several years. 
During fiscal year 2009, fleet operation mitigations (reduced OPTEMPO) 
helped reduce the impact of ship repair parts shortfalls until OCO 
funds were appropriated. However, an uneven temporal allocation of 
funds results in:

        <bullet> Delayed funding (planning) for ship maintenance 
        periods
        <bullet> Delayed repairs (e.g., cross-decking parts to satisfy 
        emergent requirements and requisitions)
        <bullet> Deferred preventative maintenance
        <bullet> Delayed storeroom re-stock of repair parts

    Another factor in ship operations is the price of fuel. 
Fluctuations in fuel prices complicate the ability to precisely budget 
operating costs.
    Ship Maintenance
    The fiscal year 2011 budget request (including OCO) resources the 
ship maintenance account to 99 percent of requirement. This includes 
carrier, submarine and surface ship dry-docking availabilities, 
anticipated voyage repair and 40 of 49 non dry-docking surface ship 
availabilities. We assess this to meet currently known requirements 
with an acceptable level of risk. A key factor in the Navy's 30-Year 
Shipbuilding Plan is the ability to reach the expected service life of 
our ships. Reaching full service life requires an integrated 
engineering approach to ensure the right maintenance is planned, funded 
and executed over a ship's lifetime. We are committed to the right 
level at the most efficient cost. An example of our effort to reduce 
the total cost of ownership, the submarine technical community has 
increased the operating interval for SSN 688 and SSN 774 class 
submarines through analysis of engineered technical requirements and 
assessment of recently completed availabilities. This change will 
improve operational availability while reducing the cost of submarine 
life-cycle maintenance.
    We made significant improvements in the way the Navy manages the 
maintenance and modernization of its surface force through efforts such 
as the Surface Ship Life Cycle Management (SSLCM) Activity and the 
Surface Ship Life Cycle Assessment Pilot Study. Partnering with the 
fleet, the SSLCM Activity will assess and manage the maintenance 
requirements throughout the life cycle of surface ships, enabling more 
precise and accurate planning and budgeting. The SSLCM is modeled after 
two successful and similar programs; the Submarine Maintenance 
Engineering Planning and Procurement Activity and the Carrier Planning 
Activity.
    SSLCM is conducting a detailed technical review of surface ship 
class maintenance plans to make certain we understand the full 
maintenance requirement necessary to reach expected service life for 
these platforms. We have completed the update on two of our larger ship 
classes, the DDG 51 and the LSD 41/49 classes. SSLCM is now the 
designated life cycle organization responsible for maintaining the 
Integrated Class Maintenance Plans, building availability work 
packages, and providing technical oversight/approval for fleet work 
deferral requests.
    The cyclical nature of ship and submarine depot availabilities from 
year to year causes variations in budget requests and in annual 
obligation levels. Budget years with multiple ship-docking 
availabilities increase required funding. More maintenance scheduled in 
the private sector tends to increase funding in a given year. Nuclear 
powered carriers and submarines are on a strict time-based maintenance 
interval in order to maintain certification for unrestricted 
operations.
    Surface ship availabilities are conducted almost exclusively in the 
private sector. Nuclear submarine and aircraft carrier availabilities 
are primarily conducted in the public sector, with selected 
availabilities completed by nuclear capable private shipyards (Electric 
Boat (Subs) and Northrop Grumman Shipbuilding (Subs/Carriers)). 
Whenever practical, maintenance is performed in the ship's homeport to 
minimize the impact on our sailors and their families. The Navy 
recognizes that both public and private sector maintenance 
organizations need a stable and level workload to maximize efficient 
execution. Navy works to level the workload to the maximum extent 
possible within operational constraints.
Air Operations (Flying Hour Program)
    The Flying Hour Program (FHP) account provides for the operation, 
maintenance, and training of ten Navy carrier air wings (CVWs), three 
Marine Corps air wings, Fleet Air Support (FAS) squadrons, training 
commands, Reserve forces and various enabling activities. The fiscal 
year 2011 budget request (including OCO) resources the FHP account to 
achieve Training-rating (T-rating) levels of T2.5 for Navy and T2.0 for 
the Marine Corps. TACAIR (Tactical Aviation) squadrons conduct strike 
operations, provide flexibility in dealing with a wide range of 
conventional and irregular threats, and provide long range and local 
protection against airborne surface and sub-surface threats. FAS 
squadrons provide vital fleet logistics and intelligence. Chief of 
Naval Air Training (CNATRA) trains entry-level pilots and Fleet 
Replacement Squadrons (FRS) provide transition training to our highly 
capable, advanced fleet aircraft. Reserve component (RC) aviation 
provides adversary and logistics air support, makes central 
contributions to the counter-narcotics efforts, conducts mine warfare, 
and augments Maritime Patrol, Electronic Warfare, and Special 
Operations Support to OCO missions.
    The aviation spares account supports 100 Type/Model/Series (TMS) 
aircraft and approximately 3,700 aircraft in the fleet. Aviation spares 
are funded to 75 percent of the requirement and is a part of the Navy's 
Unfunded Programs List for fiscal year 2011. The Navy is evaluating 
alternatives to manage this risk.
Aviation Maintenance
    The Aviation Depot Maintenance account ensures operational aviation 
units have sufficient numbers of Ready for Tasking (RFT) aircraft to 
accomplish assigned missions. Shortages in the number of airframes, 
engines, or other components can detract from the number of RFT 
aircraft. The fiscal year 2011 budget request (including OCO) resources 
the Aviation Depot Maintenance account to 96 percent of requirement. 
The 4 percent unfunded will result in a projected cumulative backlog of 
21 of 829 airframes and 342 of 1,998 engines, leaving a backlog of 
acceptable technical and operational risk. The fiscal year 2011 budget 
request ensures deployed squadrons have 100 percent of their Primary 
Authorized Aircraft (PAA), and supports achieving our 100 percent zero 
bare firewall engine goal. The Naval Aviation Enterprise (NAE) AIRSpeed 
strategy continues to deliver cost-wise-readiness by focusing efforts 
on reducing the cost of end to end resourcing, increasing productivity, 
and improving the operational availability of aircraft.
    We request that you fully support our baseline and OCO funding 
requests for operations and maintenance to ensure the effectiveness of 
our force, safety of our sailors, and longevity of our aircraft.
Strike Fighter Inventory Management
    Our current force management measures are targeted at preserving 
the service life of our existing legacy strike fighter aircraft (F/A-18 
A-D). Therefore, we will reduce the number of aircraft available in our 
TACAIR squadrons during non-deployed FRTP phases, to the minimum 
required in order to meet training and certification. We will reduce 
our Unit Deployed TACAIR squadrons (UDP) from twelve aircraft to ten 
aircraft per squadron to match the corresponding decrease in Marine 
Corps expeditionary squadrons. We are accelerating the transition of 
five legacy F/A-18C squadrons to F/A-18 E/F squadrons, using available 
F/A-18 E/F aircraft, and will transition two additional legacy 
squadrons using F/A-18 E/F attrition aircraft. These measures make 
available legacy strike fighter aircraft for High Flight Hour (HFH) 
inspections and, potentially, the Service Life Extension Program 
(SLEP). Taken together, these would provide the option to extend the 
service life of legacy aircraft and help manage the inventory. These 
measures will expend the service life of some F-18 E/F aircraft earlier 
than programmed. Accordingly, we are refining our depot level 
production processes to maximize throughput and return legacy strike 
fighter aircraft to the fleet expeditiously to ameliorate Super Hornet 
life expenditure.
    There are initiatives in place to extend the service life of our F/
A-18 A-D aircraft. HFH inspections, which have been in place for 2 
years, provide the ability to extend the service life of our legacy F/
A-18 A-D aircraft to 8,600 flight hours. Further engineering analysis 
is underway to determine the SLEP requirements necessary to reach the 
service life extension goal of 10,000 flight hours should this course 
of action be required.
Naval Expeditionary Forces (Combat Support)
    Our Navy continues to place significant emphasis on strengthening 
its expeditionary warfare forces to confront irregular challenges. The 
fiscal year 2011 budget request continues to support Irregular Warfare 
(IW) requirements and promotes synergy in IW with the Marine Corps and 
U.S. Coast Guard. But despite efforts to increase capacity, stress on 
the high demand and limited supply of expeditionary forces (EOD, 
Riverine, Seabee) requires continuous monitoring and the employment of 
mitigation strategies to ensure our forces meet Chief of Naval 
Operations (CNO) PERSTEMPO guidelines including deployment length, 
deployment periodicity (dwell goal 1.0:2) and homeport tempo (greater 
than 50 percent). During fiscal year 2007 the EOD community dwell ratio 
was averaging 1.0:1. In fiscal year 2008, EOD introduced mitigation 
options that increased their average dwell ratio above both CNO dwell 
minimum (1.0:2). Other communities such as P-3, Seabee, Riverine and 
EA-6B (Prowler) are currently above the minimum dwell ratio, but remain 
below the CNO's goal (1.0:2).
    The budget request provides for the manning, training, operations, 
and maintenance of expeditionary forces under the purview of the Navy 
Expeditionary Combat Command (NECC) including: the Naval Construction 
Force, Explosive Ordnance Disposal/Mobile Diving and Salvage, Riverine 
Forces, Maritime Expeditionary Security Forces, Navy Expeditionary 
Logistics Support Group, Expeditionary Combat Readiness Center, 
Maritime Civil Affairs and Security Training, Navy Expeditionary 
Intelligence Command, and Combat Camera.
    Evolving warfighting missions and increases in COCOM demand for 
Theater Security Cooperation Programs missions, building partner 
capacity, and security force assistance, have expanded the training and 
operational requirements for NECC Forces in every theater. For example, 
within the past 14 months, Navy Seabees have twice been called upon to 
enable the troop surge in Afghanistan. First, performing a ``lift and 
shift'' from Iraq to Afghanistan to support the arrival of the Marine 
Expeditionary Force, and subsequently, preparing for the arrival of the 
30,000 additional troops directed by the ``surge''. The Seabees 
constructed Forward Operating Bases, Combat Outposts, and support 
facilities. To meet emergent training and global operational 
requirements associated with OCOs, NECC leverages OCO funding to 
provide the critical training and outfitting in theater and meet the 
dynamic missions they execute throughout the theater.
    Based on GFM requirements, NECC deploys mission-specific units to 
fulfill COCOM requests. This involves employing traditional core 
capabilities in the Navy Expeditionary Combat Force, as well as 
emerging new mission capabilities that have been requested and 
developed over the last several years. Combining the disparate 
capabilities and capacity of these forces under a single type command 
structure has increased Navy's responsiveness to support existing and 
evolving irregular warfare missions in both rotational deployments and 
emergent COCOM needs (RFFs). Navy Riverine forces are now on their 
sixth deployment to OIF conducting interdiction patrols in southern 
Iraq and training their Iraqi counterparts.
    NECC is providing the training, preparation, and administrative 
support oversight for the more than 13,000 IA and ad-hoc forces 
performing enabler missions in support of ground forces. At 40,000 
sailors, NECC represents about 12 percent of Navy manpower, yet 
operates with 1.5 percent of Navy Total Obligation Authority--a bargain 
considering the extensive capabilities they bring to COCOMs.
         training readiness: connecting us to our future force
    Ballistic missile proliferation continues to be a growing security 
concern to our nation. Maritime Ballistic Missile Defense (BMD) is a 
core U.S. Navy capability. Our Navy's ability to train the force in a 
flexible and agile fashion remains a necessity in an uncertain 
strategic environment. We conducted our first BMD Fleet Synthetic 
Training event this past year, proving the viability and effectiveness 
of integrated Navy, Joint and partner-nation BMD training. Our budget 
request continues to build this momentum to develop a comprehensive BMD 
training program.
    The Fleet Synthetic Training program provides realistic operational 
training including seamless integration of geographically dispersed 
Navy, Joint, Interagency, and coalition forces. Providing efficient and 
effective synthesized training optimizes the FRTP.
    The proliferation of advanced, stealthy, diesel submarines 
continues to challenge our Navy's ability to guarantee access in all 
global regions. Effective Anti-Submarine Warfare (ASW) training at sea 
with active sonar systems is a necessary part of our FRTP. Synthetic 
training can supplement, but not completely substitute for at-sea 
training. Navy remains a world leader in marine mammal research and we 
will continue our robust investment in this research in fiscal year 
2010 and beyond. Through such efforts, and in full consultation and 
cooperation with appropriate Federal agencies, Navy has developed 
protective measures to mitigate the potential effects to marine mammals 
and the ocean environment from the use of mid-frequency active sonar, 
while meeting ASW training. We will continue to work closely with our 
interagency partners to further refine our protective measures, as 
scientific knowledge evolves.
    Over the last year, we completed environmental planning 
documentation for eight existing and proposed at-sea training and 
combat certification areas. We anticipate completion of planning 
documentation for another six areas over the next year, as we continue 
to balance our responsibility to prepare naval forces for deployment 
and combat operations with our responsibility to be environmental 
stewards of the marine environment.
    Conducting night and day field carrier landing practice (FCLP) 
prior to at-sea carrier qualifications is a critical training 
requirement for our fixed-wing, carrier-based pilots to develop and 
maintain proficiency in the fundamentals of carrier aviation. We 
continue to seek additional airfield capacity in the form of an 
outlying landing field (OLF) that will enhance our ability to support 
FCLP training for fixed-wing, carrier pilots stationed at and transient 
to Naval Air Station Oceana and Naval Station Norfolk. The additional 
OLF capacity will allow Navy to meet training requirements and overcome 
challenges related to capacity limits, urban encroachment, and impacts 
from adverse weather conditions at existing East Coast facilities. Navy 
is committed to developing, with local, State, and Federal leaders, a 
plan to ensure the OLF provides positive benefits to local communities 
while addressing Navy training shortfalls.
Learning and Development
    Quality education and training of our sailors provides unique 
skills that give us an asymmetric advantage over potential adversaries 
and sets us apart from every other Navy. To develop a highly-skilled, 
combat-ready force, we have 15 learning centers around the country 
providing high quality, tailored training to our sailors and Navy 
civilians. We remain committed to the professional development of the 
Navy Total Force, and continue to balance current and traditional 
education and training requirements with emerging mission areas such as 
cyber warfare, ballistic missile defense, and counterterrorism. We have 
completed 40 of 82 enlisted learning and development roadmaps, which 
describe in detail the required training, education, qualifications, 
and assignments required throughout a sailor's career. We recognize the 
importance of providing our officers with meaningful and relevant 
education, particularly our Naval War College and Joint Professional 
Military Education, to develop leaders who are strategically-minded, 
critical thinkers, and adept in naval and joint warfare. Cultural 
expertise, regional focus and linguistic expertise remain essential to 
Navy's global mission, and our budget request supports expansion of the 
Language, Regional Expertise, and Culture majors program for Naval 
Reserve Officers Training Corps NROTC midshipmen as well as 
implementation of the AF-PAK Hands Program, which will provide the 
joint force with enhanced language and cultural capabilities in 
Afghanistan and Pakistan.
                            shore readiness
    Shore infrastructure supports and enables operational and combat 
readiness. It is an essential element to the quality of life and 
quality of work for our sailors, Navy civilians, and their families. 
Increasing costs in manpower and afloat-readiness, combined with 
emergent requirements compel us to take risk in Shore Readiness. To 
manage this risk, our fiscal year 2011 shore readiness budget request 
places a priority on supporting Navy and Joint mission readiness, 
ensuring nuclear weapons security and safety, and improving our 
bachelor and family quarters, including sustained funding for our 
Homeport Ashore initiative. We are taking risk in other shore readiness 
areas and at current levels, the recapitalization of our facilities 
infrastructure is at risk.
    To ensure our limited resources are applied to projects with the 
highest return on investment, we continue to use a capabilities-based 
Shore Investment Strategy to target shore investments where they will 
have greatest impact on critical capabilities, specifically investments 
associated with Navy warfighting requirements, improved quality of 
life, and Family readiness.
    Despite challenges, we have made essential progress and 
improvements in nuclear weapons security, child care facilities, and 
bachelors' quarters.
American Recovery and Reinvestment Act
    Your support and assistance through the American Recovery and 
Reinvestment Act (ARRA) of 2009 was very helpful. As you requested, we 
identified Military Construction projects for Child Development Centers 
and barracks and prioritized them while considering the ability to 
obligate funds quickly. We selected infrastructure and energy projects 
based on mission requirements, quality of life impact, environmental 
planning status, and our ability to execute quickly. Our aggressive 
execution schedule is on track, and construction outlays are ramping up 
swiftly. Due to a very favorable bidding climate, savings of over $100 
million have been realized as of the end of December 2009. Following 
the Office of the Secretary of Defense (OSD) guidance to invest in the 
19 States and the District of Columbia with the highest unemployment 
rates, additional projects for use of these savings have been developed 
by Commander Navy Installations Command and submitted by OSD for 
approval. The list of supplemental projects contains a continued 
emphasis on critical repairs, Quality of Life and Work, energy 
consumption related projects, enlisted housing, and child development 
centers.
Energy and Climate
    Energy reform is a strategic imperative. We are committed to 
changing the way we do business to realize an energy-secure future. In 
alignment with the Secretary of the Navy's goals, our priorities are to 
advance energy security by, assuring mobility, expanding tactical 
reach, protecting critical infrastructure, ``lightening the load'', and 
greening our footprint. We will achieve these goals through energy 
efficiency improvements, consumption reduction initiatives, and 
adoption of alternative energy and fuels. Reducing our reliance on 
fossil fuels will improve our combat capability by increasing time on 
station, reducing time spent alongside replenishment ships, and 
producing more effective and powerful future weapons. Most of our 
projects remain in the demonstration phase; however, we are making good 
progress in the form of an electric auxiliary propulsion system 
delivered last year on the USS Makin Island (LHD 8), testing and 
certification of bio-fuels as drop-in replacements for petroleum, 
advanced hull and propeller coatings, solid state lighting 
installations, and policies that encourage sailors to reduce their 
consumption through simple changes in behavior.
    Thanks to your support, the ARRA funded Navy energy conservation 
and renewable energy investment in 11 tactical and 42 shore-based 
projects totaling $455 million. Tactical projects included alternative 
fuel, drive, and power systems for ships, aircraft and tactical 
vehicles. Ashore projects included alternative energy (wind, solar and 
geothermal) investments in 10 States and the installation of advance 
metering infrastructure in three regions. Our fiscal year 2011 budget 
continues to invest in tactical and ashore energy initiatives, 
requesting $128 million for these efforts.
    In our Maritime Strategy we addressed maritime operations in an era 
of climate change, especially in the ice diminished Arctic. The CNO 
established the Navy's Task Force on Climate Change to develop policy, 
investment, and force-structure recommendations regarding climate 
change in the Arctic and globally over the long-term. Our focus will be 
to ensure Navy readiness and capability in a changing global 
environment.
                    family readiness and sailor care
    We remain committed to the professional and personal development of 
our sailors and Navy civilians, and support to their families. We are 
in the process of expanding opportunities for service at sea to women 
in the Navy by offering assignments on submarines. Current plans are to 
accept the first cadre of female officers into the submarine training 
pipeline this year to facilitate their assignment aboard submarines as 
early as fiscal year 2012. We intend to enhance support to our sailors 
and their families, including those who are wounded, ill and injured, 
through expanded child and youth care, Fleet and Family Support 
services, Navy Safe Harbor, and the Operational Stress Control program. 
We are aggressively addressing the rise in suicides over the last 12 
months by implementing revised training and outreach programs for Navy 
leadership, sailors, Navy civilians, and families to increase suicide 
awareness and prevention. To reduce sexual assaults, we will refocus 
our leadership, change our cultural approach and insist on 
accountability. Led by the Sexual Assault Prevention and Response 
Office, a new direction for intrusive leadership by unit commanders and 
an emphasis of intolerance for sexual assault and related behavior in 
our Navy is underway. We remain committed to providing our sailors and 
their families a comprehensive continuum of care that addresses all 
aspects of medical, physical, psychological, and family readiness. Our 
fiscal year 2011 budget request expands this network of services and 
caregivers to ensure that all sailors and their families, and our 
wounded, ill, and injured receive the highest quality healthcare 
available. Navy Safe Harbor, Navy's Operational Stress Control Program, 
Reserve Psychological Health Outreach Program, Warrior Transition 
Program, Returning Warrior Workshop and Behavioral Health Needs 
Assessments are critical elements of this continuum.
    Navy Safe Harbor has been expanded and continues to provide non-
medical support for all seriously wounded, ill, and injured sailors, 
coast guardsmen, and their families through a network of Recovery Care 
Coordinators and non-medical Care Managers at 16 locations across the 
country. Over the past year, Safe Harbor's enrollment has grown from 
387 to 542. Over 84,000 sailors have participated in Operational Stress 
Control (OSC) training, which is providing a comprehensive approach 
designed to actively promote the psychological health of sailors and 
their families throughout their careers while reducing the traditional 
stigma associated with seeking help. Our individual augmentees receive 
OSC training prior to deployment while the Warrior Transition Program 
(WTP) and Returning Warrior Workshops (RWW) are essential to post-
deployment reintegration efforts. WTP, established in Kuwait and 
expanded via Mobile Care Teams to Iraq and Afghanistan, provides a 
place and time for individual augmentees to decompress and transition 
from life in a war zone to resumption of life at home. The RWW 
identifies problems, encourages sailors to share their experiences, 
refers family members to essential resources, and facilitates the 
demobilization process.
Stress on the Force
    As we continue to operate at a high operational tempo to meet our 
nation's demands around the world, the tone of the force remains 
positive. We continue to monitor the health of the force by tracking 
statistics on personal and family-related indicators such as stress, 
financial health and command climate, and sailor and family 
satisfaction with their services in Navy. Recent detailed survey 
results indicate that sailors and their families remain satisfied with 
command morale, the quality of leadership, education benefits, health 
care, and compensation. We remain focused on our connection with the 
family at the unit level so that we have informed, prepared, and 
resilient families.
    Suicide is a tragic event affecting sailor, family, and unit 
readiness. We continue efforts at suicide prevention through a multi-
faceted approach of communication, training, and command support 
designed to foster resilience and promote psychological health among 
sailors. Navy's latest 12-month suicide rate of 13.3 per 100,000 
sailors represents a small decrease from the previous year's rate of 
13.8 per 100,000 sailors. Although suicides are significantly below the 
national rate for the same age and gender demographic (19.0 per 100,000 
individuals), we are not satisfied. Any loss is unacceptable. We remain 
committed to creating an environment in which stress and other suicide-
related factors are more openly recognized, discussed, and addressed. 
We continue to develop and enhance programs designed to mitigate 
suicide risk and improve the resilience of the force. These programs 
focus on substance abuse prevention, financial management, positive 
family relationships, physical readiness, and family support, with the 
goal of reducing individual stress. We continue to work toward a 
greater understanding of the issues surrounding suicide to ensure that 
our policies, training, interventions, and communication efforts are 
meeting their intended objectives.
Child and Youth Programs
    Our Navy Child and Youth Programs, the top priority within Family 
Readiness Programs, provide high-quality educational and recreational 
programs for our Navy children. We are leveraging Military Construction 
funding, Recovery Act funding, commercial contracts, and military-
certified in-home care expansion to increase child care spaces and to 
meet our goal of placing children under care within 3 months of their 
request. By the end of 2011, we will meet this goal and will be in 
compliance with OSD's direction to provide child care to at least 80 
percent of our military population. While we are meeting our child care 
capacity goals, recapitalization of our existing infrastructure is 
still required. In addition to increasing child care spaces, we are 
also adding 25,000 additional hours of respite child care and youth 
services for families of deployed sailors and our wounded, ill, and 
injured. Our child care and youth programs are a highly valued resource 
by our sailors and their families, and are an investment in the 
Nation's future.
Bachelor Housing
    Our bachelor housing program is currently focused on two goals: 
providing Homeport Ashore housing (at our Interim Assignment Policy) 
for our junior sea-duty sailors by 2016 and eliminating our substandard 
(Q4) bachelor housing inventory by 2020. We appreciate the assistance 
of Congress to commence a Homeport Ashore initiative in Coronado, CA, 
with an fiscal year 2009 Recovery Act bachelor housing project that 
will eliminate 1,056 spaces in the deficit. We are continuing this 
important Quality of Life initiative by requesting $75 million in new 
construction in fiscal year 2011 for bachelor housing in San Diego to 
provide an additional 772 spaces to our inventory. The PB11 Future 
Years Defense Plan contains 6 Military Construction projects that will 
provide the 4,305 spaces required to complete the Homeport Ashore 
initiative by 2016.
Family Housing
    Our fiscal year 2011 family housing budget request includes $68.2 
million for family housing construction, improvements, planning, and 
design. This amount includes $37.2 million for replacement construction 
of 71 homes for naval base personnel at Naval Base Guantanamo Bay, Cuba 
and $28.4 million for 116 housing units in Japan. In addition, our 
fiscal year 2011 budget request includes $329.7 million for the 
operation and maintenance of 10,000 Navy-owned homes and 3,700 leased 
homes.
    Utilizing a combination of increased recapitalization funding and 
PPV authorities, the Navy met the Secretary of Defense's goal to fund 
by, fiscal year 2007, the elimination of all inadequate military family 
housing units, which Navy defined as homes requiring repairs, 
improvements, or replacement costing more than $50,000. To establish 
common standards across all four Services, the Secretary of Defense 
redefined family housing condition ratings in 2009 to correlate with 
the Facility Condition Rating system used across DOD. This system 
classifies any unit in a Q3 or Q4 condition as inadequate. Navy has 
identified those government-owned units as Q3/Q4, most of which are 
overseas. These units represent 6 percent of the entire Navy inventory. 
Navy is on target to achieve the Secretary of Defense goal that 90 
percent of family housing to be at an adequate (Q1/Q2) condition by 
2015.
    Our portfolio management program collects and analyzes financial, 
occupancy, construction, and resident satisfaction data to ensure our 
PPV projects are optimized and performing as required and the services 
provided meet expectations. We regularly host PPV focus groups to 
assess the quality of privatized housing and housing services delivered 
to Navy families and make changes in Navy policies and procedures as 
required. We continue to receive very positive feedback from our Navy 
families. This enhanced oversight of our PPV partners meets required 
congressional reporting and ensures Navy sailors and their families 
continue to benefit from quality housing and services.
Individual Augmentees (IA)
    Navy currently has over 11,000 sailors serving as IAs worldwide. 
Since last year, Navy designated Commander, U.S. Fleet Force Command 
(CUSFF) as the Executive Agent for Individual Augmentees, accountable 
to the CNO for the IA program. Through the efforts of USFF, including 
the creation of the Navy Preparedness Alliance to focus the efforts of 
our personnel assignment, medical, Reserve, ashore, and fleet 
leadership, the efficiency and effectiveness of the program has 
improved dramatically. For example, as testified to by our sailors and 
their families, notification to our sailors of IA assignment has 
improved, and our IA ``family support'' programs are more effective.
    More than 8,000 IA sailors are on the ground in CENTCOM, serving in 
vital support roles across both adaptive core and temporary \1\ mission 
areas such as provincial reconstruction teams, detainee operations, 
civil affairs, training teams, C-IED, intelligence, and medical 
support. As the focus shifts from Iraq to Afghanistan, we anticipate 
the demand for sailors to support the joint force in nontraditional 
missions to remain at or above their present levels.
---------------------------------------------------------------------------
    \1\ Temporary--missions for which Navy does not have standard, 
mission-ready capabilities.
---------------------------------------------------------------------------
    To better support our IA sailors and their families, we have made 
significant progress in integrating the IA experience into a Navy 
career, ensuring IA duty enhances a sailor's career and increased 
predictability associated with IA deployments. IA resourcing and 
support is a priority, and will require vigilance by Navy leadership.
                               conclusion
    In a recent statement, Secretary Mabus clearly described the 
mindset of our Navy. ``Our sea services are always forward-deployed, 
always forward-leaning. We do not rest or lie at anchor, waiting for 
the call. For the call is now, and unremitting--and so is our 
resolve.'' We work to refine Navy readiness processes to ensure 
``Forces Ready for Tasking'' are delivered whenever and wherever the 
Nation calls. In an increasingly interconnected and multi-polar world, 
the nature of challenges to our Nation's interests tomorrow could be 
different from the nature of the challenges that we face today. We are 
a force ready to fight our Nation's wars, but we are also focused on 
deterring or containing conflict regionally or locally. To deal 
effectively with today's myriad challenges requires established 
relationships of trust and confidence with potential partners all over 
the globe. Our Navy plays an enduring role in meeting that requirement 
through the execution of our Maritime Strategy. Our presence provides 
the opportunities to positively influence circumstances and events to 
protect or optimize our vital national interests. That presence also 
enables the Navy to respond to requests for humanitarian assistance and 
disaster recovery as needed.
    Readiness is a matter of capable forces ready for tasking, with 
sufficient capacity. The return on investment in our readiness accounts 
is measured by the ability of the Navy to deliver required capabilities 
in rotational deployments and in response to emergent needs of the 
COCOMs. In a high demand environment with finite resources, achieving 
that readiness requires careful assessment of risk and consequences, a 
judicious balance of multiple, equally valid but competing 
requirements. The support of Congress and this committee in effectively 
maintaining that balance is most appreciated.
    I ask for your strong support of our fiscal year 2011 readiness 
budget request and our indentified priorities. Thank you for your 
unwavering support and commitment to our sailors, Navy civilians, and 
their families, and for all you do to make our U.S. Navy an effective 
and enduring global force for good.

    Senator Bayh. Thank you, Admiral, for your leadership.
    General Chandler.

   STATEMENT OF GEN. CARROL H. CHANDLER, USAF, VICE CHIEF OF 
                     STAFF, U.S. AIR FORCE

    General Chandler. Mr. Chairman, Senator Burr, and 
distinguished members of the subcommittee, thank you for the 
opportunity to represent your U.S. Air Force to the 
subcommittee today. I, like the rest of my joint teammates, am 
proud to be here to represent our Service.
    Let me begin by saying that your 680,000-strong U.S. Air 
Force--Active Duty, Guard, Reserve, and civilians--is ready to 
execute its mission. Our readiness is demonstrated every day as 
we serve alongside our joint and coalition partners in Iraq, 
Afghanistan, and around the world. On any given day, there are 
approximately 40,000 deployed airmen providing close air 
support, tactile and strategic airlift, intelligence, 
surveillance, reconnaissance (ISR) critical medical care, and 
combat search and rescue, along with combat and combat support 
functions. Of these 40,000, there are approximately 5,300 
airmen performing joint expeditionary taskings, providing 
combat and combat support functions within the Army and the 
Marine Corps in Afghanistan and Iraq.
    In addition to our deployed presence, more than 131,000 
airmen are performing deployed-in-place missions, supporting 
combatant commanders. These airmen are operating remotely 
piloted vehicles, maintaining satellite constellations, 
conducting inter-theater airlift, and maintaining our nuclear 
deterrence posture. Additionally, the Air Force continues to 
provide defense for the Homeland as the total force effort, 
with the Active Duty, Guard, and Reserve personnel, from 
locations across the United States.
    Stabilizing our end strength is a critical part of 
maintaining personnel readiness. We're moving toward a force 
with approximately 332,000 Active Duty airmen, approximately 
71,000 Reserve airmen, and approximately 107,000 Air National 
Guard personnel.
    The Air Force met its goals for new accessions in retaining 
our current experience in nearly every area. Our retention 
rates are the highest that they've been in 15 years and 
generally exceeding our goals by about 20 percent. Only health 
professionals fail to meet their retention in recruiting goals, 
and efforts are underway to mitigate these shortfalls through 
bonuses.
    Selective retention bonuses remain our most effective 
retention tool. These bonuses, along with critical skills 
retentions bonuses for officers, are successfully targeting 91 
enlisted and 3 officer specialties.
    Last June, the Air Force initiated the Year of the Air 
Force Family. More than half way through this effort, we're on 
course to eliminate known childcare deficit in our child 
development centers by 2012. We're increasing spouse employment 
referral assistance and adding 54 school liaison officers to 
assist school transitions for almost 175,000 school-aged Air 
Force dependents. We're improving our exceptional family member 
program, which supports more than 15,000 airmen with special-
needs family members. We're also increasing the quality of 
programs provided for deployment and reintegration support for 
our airmen and their families.
    Our aircraft are well-maintained and ready. Although our 
aircraft inventory is seeing extensive use in contingency 
operations, the fleet's average age is continuing to increase, 
the dedicated work and professionalism of our airmen ensure 
that we're ready.
    Our combat Air Force aircraft continue to provide global 
power when and where required. Our airlift fleet continues to 
provide strategic airlift, as well as theater and direct-
support airlift missions, moving a wide variety of equipment, 
personnel, and supplies.
    The recent release of the KC-X request for proposal begins 
the process of recapitalizing our aerial refueling aircraft. 
The planned acquisition of 179 KC-X aircraft will help provide 
refueling capability for decades to come.
    The Nation's nuclear aircraft and intercontinental 
ballistic missiles (ICBM) remain the highest priority for our 
Service. Of all the missions the Air Force accomplishes every 
day, none is more critical than providing strategic deterrence. 
ICBM crews sit nuclear alert every day, and nuclear-capable 
fighter and bomber crews and their weapons systems contribute 
to our deterrence posture.
    Again, Mr. Chairman, the Air Force will continue to provide 
our best military advice and stewardship, delivering global 
vigilance, reach, and power for America. We thank you for your 
continued support for the U.S. Air Force, and particularly for 
our airmen and their families. I look forward to your 
questions.
    [The prepared statement of General Chandler follows:]
          Prepared Statement by Gen. Carrol H. Chandler, USAF
                              introduction
    Today, the United States confronts a dynamic international 
environment marked by security challenges of unprecedented diversity. 
Along with our Joint partners, the Air Force will defend and advance 
the interests of the United States by providing unique capabilities to 
succeed in current conflicts while preparing to counter future threats 
to our national security. Over the last year, the Air Force made 
progress in strengthening not only our readiness for today's 
operations, but also in fostering the flexibility required for the 
uncertain requirements of tomorrow. Through increased balance, our 
Service can maintain its readiness to meet the obligations set forth in 
the Quadrennial Defense Review: prevail in today's wars, prevent and 
deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the All-Volunteer 
Force.
                     daily operations and readiness
    The Air Force is committed to readiness and ongoing operations. 
After 19 years of continuous deployments and 9 years of operations in 
Afghanistan and Iraq, these operations continue to stress both people 
and platforms. Since the events of September 11, the tempo of our 
operations has continued to increase: we have executed more than 50,000 
sorties supporting Operation Iraqi Freedom and almost 66,000 sorties 
supporting Operation Enduring Freedom, delivered over 1.73 million 
passengers and 606,000 tons of cargo, and employed almost 1,980 tons of 
munitions. Additionally, we have transported nearly 70,000 patients 
from the Central Command (CENTCOM) area of responsibility, and our 
combat search and rescue forces met the ``golden hour'' goal of 
transporting seriously wounded warriors to treatment facilities within 
60 minutes of injury nearly 98 percent of time. Lastly, our aeromedical 
evacuation sorties moved critically injured warriors to regional 
hospitals within hours of injury, contributing to the 95 percent 
battlefield injury survival rate.
    We are a global force that is dedicated to supporting combatant 
commander requirements from both the continental U.S. and overseas 
bases. Nearly 40,000 of America's airmen, or about 7 percent of the 
force, are deployed to 263 locations across the globe, including 63 
locations in the Middle East. Also, deployed airmen currently fill 
about 5,300 Joint Expeditionary Taskings, helping the joint team with 
critical combat and combat support functions. In addition to those 
deployed, nearly 219,000 airmen--fully 43 percent of the force--support 
combatant commander requirements from their home stations in the 
continental U.S., Europe, and the Pacific each day. These airmen 
operate the Nation's space and missile forces, process and exploit 
remotely collected intelligence, surveillance, and reconnaissance 
(ISR), provide national intelligence support, protect American 
airspace, actively engage with our allies and partners, and contribute 
in many other ways. Finally, defense of the homeland is a total force 
mission with a minimum of 40 aircraft from 18 locations engaged in 
operations at any given time.
                fiscal year 2011 budget request overview
    The fiscal year 2011 Air Force budget request of $119.6 billion 
reflects our commitment to the Joint fight, and contributes to a 
refocused investment strategy emphasizing Joint force activities. This 
request balances providing capabilities for today's commitments and 
posturing for future challenges. We chose to improve existing 
capabilities whenever possible, and to pursue new systems when 
required. This approach to modernization and recapitalization keeps 
pace with threat developments and required capabilities, while ensuring 
responsible stewardship of resources. In developing this budget 
request, we also carefully preserved and enhanced our comprehensive 
approach to taking care of airmen and Air Force families. In fiscal 
year 2011 we will stabilize end strength at 332,200 Active Duty airmen, 
Reserve component end strength at 71,200, and Air National Guard end 
strength at 106,700.
    Our fiscal year 2011 $45.8 billion operations and maintenance (O&M) 
budget request supports operations at 80 major installations and funds 
air, space, and cyber operations, as well as intelligence, logistics, 
nuclear deterrence, Special Operations, and search and rescue 
capabilities. This O&M request is 8.5 percent above the fiscal year 
2010 authorization due largely to fuel price increases, growth in 
enabling functions such as intelligence and communications, force 
structure transformations such as joint basing and in-sourcing, and 
shifting focus toward new missions such as cyber capabilities 
supporting the stand-up of U.S. Cyber Command.
                          personnel readiness
    Our dedicated airmen are the foundation of the Air Force. 
Recruiting, training, and retaining an All-Volunteer Force requires 
significant investment. This investment drives the very effectiveness 
of our highly-skilled and technically proficient force.
Deployed Forces
    The Air Force can, at times, support combatant commands without 
forward deploying personnel. Some tasks, however, require physical 
presence. Nearly 40,000 airmen are forward-deployed to combatant 
commands on any given day, 55 percent for 179 days or longer. 
Approximately 75 percent of deployed airmen support operations in 
Afghanistan and Iraq. Due to the capabilities required by current 
conflicts, a relatively small portion of our total force deploys more 
frequently than the force as a whole. Sixteen of the 132 enlisted 
specialties and eleven of the 125 officer specialties are considered 
``stressed'' due to their deployment operations tempo. A number of 
programs are in place to bolster the manning in these career fields as 
well as mitigate potential negative effects on their families and 
personal well-being.
    We will continue to provide the full range of air, space, and cyber 
capabilities to meet combatant commander requirements. Remotely piloted 
aircraft currently provide 41 continuous combat air patrols to U.S. 
CENTCOM. This number will grow to 50 by the end of fiscal year 2011, 
and to 65 by the end of fiscal year 2013. Over the last year we 
developed and fielded the Project Liberty program, providing additional 
airborne ISR capability. We are also increasing our deployed capacity 
in explosive ordnance disposal, intelligence, security, provincial 
reconstruction teams, tactical air control parties, and air liaison 
officers. As the surge in Afghanistan ramps up, the Air Force will not 
only increase its presence in Afghanistan, but also increase our 
strategic airlift commitment, including mobilizing 2,400 Guard and 
Reserve airmen.
Recruiting and Retention
    We continue to meet both our recruiting and retention goals for 
nearly every Air Force career field. Recruiting among the Active, 
Guard, and Reserve components has been solid. Active duty recruiting 
met fiscal year 2009 goals and is on track for fiscal year 2010 in all 
but the medical and health specialties. Officer recruiting for health 
professions dropped to 70 percent of the goal, and enlisted health 
specialties fell to 60 percent. The Air National Guard exceeded their 
enlisted recruiting goals in fiscal year 2009, and they are on track to 
meet or exceed their desired number of accessions in fiscal year 2010. 
However, the Air National Guard recently initiated a new campaign to 
improve officer accessions which are approximately 25 percent below 
their target.
    Both officer and enlisted retention remain strong. Enlisted 
retention is well above 95 percent overall, and in excess of our goals 
for mid-career enlisted airmen. Although retention of mid-career 
officers in the contracting, special tactics, and health-related 
specialties is challenging, efforts are underway to mitigate shortfalls 
through targeted accession and retention bonuses. The fiscal year 2011 
budget request allocates $685 million for targeted bonuses and 
retention incentives in part to fund Critical Skills Retention Bonuses 
for the specialties critically short of officers between 8-14 years of 
commissioned service, and Selective Retention Bonuses (SRB) for the 
enlisted force in 91 specialties. Enlisted SRBs remain our most 
effective and targeted retention tool, and this budget will improve 
this program's effectiveness by increasing the maximum enlisted 
retention bonus to $90,000. In the short-term, however, dealing with 
fewer airmen exiting the force may be more challenging than meeting our 
recruiting and retention goals.
Total Force Integration
    The Air Force is maximizing our capacity by leveraging the strength 
of National Guard and Reserve airmen through associations with the 
Active-Duty Force. We are currently executing 142 Total Force 
Integration (TFI) initiatives that pool Active, Guard, and Reserve 
personnel and equipment. Many of these associations result in new 
missions for total force personnel as we seek greater balance. In 
conjunction with the National Guard Bureau and Air Force Major 
Commands, we are currently conducting a top-to-bottom assessment of our 
TFI processes to maximize the effectiveness of current and future 
associations.
Year of the Air Force Family
    Air Force families bear the greatest burden at home when airmen 
deploy. The Secretary of the Air Force and Chief of Staff established 
July 2009 through June 2010 as the Year of the Air Force Family. More 
than half way into this effort, we have completed our assessment of 
existing programs and are now recalibrating family support efforts. As 
part of this focus, we are on course to eliminate the known child care 
deficit at our Child Development Centers by 2012, increase spouse 
employment referral assistance, and add 54 school liaison officers to 
assist school transitions for the almost 175,000 school-age Air Force 
dependents. We augmented our exceptional family member program which 
supports more than 15,000 airmen with special-needs family members. We 
also increased the quality of programs providing deployment and re-
integration support to our airmen and their families, and foresee 
adding a number of initiatives designed to enhance the resiliency of 
airman in the face of emotional and psychological hardships related to 
the stress of deployments.
Suicide Prevention
    Despite our focus on resiliency, too many airmen are lost to 
suicide each year. There have been 24 suicides among Active, Guard, 
Reserve, and civilian personnel so far in calendar year 2010, 7 more 
than this time last year. In response, our Air Force Suicide Prevention 
Program is focusing on clinical and non-clinical intervention as well 
as leadership involvement at all levels. As part of this emphasis we 
fielded new training programs, improved access to mental health 
providers in primary care settings, and increased training for military 
chaplains. In the coming months we will roll out an updated clinical 
guide to managing suicidal behavior, tailor training for our higher 
risk populations, and emphasize suicide prevention in forthcoming 
airmen resiliency initiatives.
Wounded Warriors
    The Air Force is committed to taking care of its wounded airmen. We 
fully support the Office of the Secretary of Defense programs designed 
to keep highly skilled men and women on active duty. If this is not 
feasible, the Air Force will ensure airmen receive enhanced assistance 
through the Air Force Wounded Warrior program. We have 17 Recovery Care 
Coordinators at 15 locations dedicated to aiding the recovery, 
rehabilitation, and re-integration of airmen, and we are adding 10 more 
care coordinators this year. This program, currently serving 651 
Wounded Warrior airmen, will provide lifetime support.
                           aircraft readiness
    Although our aircraft inventory has seen extensive use in 
contingency operations and its average age continues to increase, the 
dedicated work and professionalism of our airmen ensures we are ready. 
After retiring many of our oldest and most maintenance-intensive 
aircraft such as all KC-135Es and a fourth of the C-130Es, less than 1 
percent of Air Force aircraft are grounded and fewer than 5 percent are 
flying with operational restrictions. Although we continue to meet 
combatant commander requirements, operations tempo continues to take a 
toll and many of our aircraft are increasingly unavailable due to 
required maintenance.
    Consequently, modernization and recapitalization remain priorities. 
By accelerating the planned retirement of 257 legacy fighter aircraft, 
we are committed to a smaller, but more capable fifth-generation 
fighter force. These retirements freed more than 4,000 personnel to 
operate remotely piloted aircraft and to process, exploit, and 
disseminate intelligence. This shift accepts a moderate amount of 
warfighting risk due to decreased capacity, but is necessary to move 
forward to more capable and survivable next generation platforms. 
Within our mobility fleet, the recent release of a KC-X request for 
proposal began the process of recapitalizing our aerial refueling 
aircraft. The planned acquisition of 179 KC-X aircraft will help 
provide refueling capability for decades to come. Similarly, the recent 
release of the Mobility Capabilities Requirements Study-2016 indicates 
that there is excess strategic airlift capacity. Consequently, the 
fiscal year 2011 budget request proposes the early retirement of 17 of 
our oldest C-5As.
Combat Air Forces
    The readiness of Combat Air Forces aircraft is adequate despite 
challenges from accumulating hours on our fleet faster than envisioned 
when these aircraft were fielded. The B-1, B-52, and F-15E did not meet 
aircraft availability standards due to maintenance and depot-related 
issues, and the F-22 fell short of the projected availability due to 
low observable maintenance requirements. Recent improvements in many F-
22 system components and increased durability of low observable 
materials resulted in a 32-percent reduction in maintenance man-hours 
per flying hour.
Mobility Air Forces
    The readiness of the Mobility Air Forces remains high while meeting 
robust and dynamic operational requirements. Our airlift fleet 
continues to provide strategic airlift as well as theater and direct 
support airlift missions moving personnel and a wide variety of 
equipment and supplies. We recently concluded a successful 
demonstration of direct support for the Army in Iraq, validating both 
the operating concept and the use of C-130s and C-27Js for that 
mission. The direct support mission is a matter of trust for the Air 
Force, and we are committed to providing this capability for the Joint 
Force. In addition, we will continue direct support through aerial 
delivery--a mission that airdrops supplies to isolated locations and is 
essential to the success of the Afghanistan strategy. Our airdrop 
requirements increased seven-fold in the last year.
Exercises
    Green Flag and Red Flag are the primary predeployment close air 
support and large force composite training opportunities for most units 
deploying to contingency operations. These exercises continuously 
incorporate lessons learned from ongoing operations. Both exercises 
include other services and more than 20 partner nations, contributing 
to Joint and Coalition interoperability.
Flying hour program
    This is the first year the Air Force recalibrated our annual flying 
hour submission to reflect the amount of executable flying hours in 
light of deployment-related pilot availability. This change decreased 
the flying hour request by 162,000 hours, and is consistent with recent 
under-execution of peacetime flying hours and over-execution of 
overseas contingency operations hours. The revised request for 1.2 
million flying hours is fully funded within our budget request.
                           nuclear deterrence
    Today we continue to strengthen the nuclear enterprise, which 
remains the number one priority of our Service. Air Force Global Strike 
Command, established in August 2009, provides a renewed vigor and 
energy to the operation, training, and equipping of Intercontinental 
Ballistic Missile (ICBM) and nuclear-capable bomber forces. The stand 
up of a fourth operational squadron of B-52s in October 2009 enhances 
our readiness to perform nuclear deterrence missions, as well as 
support conventional mission requirements.
    The sustainment of nuclear weapons was consolidated in the Air 
Force Nuclear Weapons Center (AFNWC), which manages nuclear weapons 
system life cycle sustainment. AFNWC is instituting a positive 
inventory control methodology for weapon system components and 100% 
accountability of all nuclear weapons related material. Finally, Air 
Force leadership instituted a more robust, standardized inspection 
capability that increased the rigor and intensity of the inspection and 
verification process to ensure our Air Force maintains the high 
standards required by the critical nuclear mission.
    Of all the missions the Air Force ably accomplishes every day, none 
is more critical than providing strategic deterrence. ICBM crews sit 
nuclear alert everyday in underground facilities, just as they have for 
the last 50 years, and nuclear-capable fighter and bomber crews and 
their highly-capable weapon systems contribute to our deterrence 
posture.
                               conclusion
    Despite 19 years of sustained Air Force deployments, the personnel 
and aircraft of the U.S. Air Force are ready to face any challenge with 
precision and reliability. Although ongoing operations affect a portion 
of our readiness, we are balancing our force to ensure our personnel, 
weapon systems, equipment, and organizations are prepared for today's 
operations and tomorrow's uncertain challenges.

    Senator Bayh. Thank you, General Chandler.
    I note the presence of Senator Chambliss.
    Senator Chambliss, thank you. I appreciate your service on 
this subcommittee, and your leadership.
    We're going to have 7 minutes per round. So, I'll try and 
be brief, and then turn to Senator Burr, and we'll then proceed 
in order of arrival at the subcommittee hearing.
    Admiral Greenert, let me begin with you. First, a little 
background, then I'll get to my question.
    Last year, the Chief of Naval Operations (CNO) submitted 
only two unfunded priorities--ship and aircraft depot 
maintenance--to the amount of about $395 million. This 
committee, on both sides of the aisle, supported that request. 
Unfortunately, those amounts were not supported by the 
Appropriations Committees. As a result, a 1-year backlog of 
critical maintenance was not executed and deferred, which 
places unnecessary risk on fleet readiness, reduces the service 
life of the fleet, drives up long-term sustainment costs, and 
increases strategic risk for the Nation. While I am encouraged 
that the fiscal year 2011 budget request, including OCO, 
resources the ship maintenance to 99 percent of the 
requirement, we still have the 1-year backlog to confront. To 
the Navy's credit, once again you have submitted only three 
unfunded priorities for ship and aircraft depot maintenance and 
spare parts.
    So, my questions, Admiral, are, what was the impact of not 
getting the $395 million in fiscal year 2010? What happens if 
we do not support your unfunded maintenance priorities again in 
this fiscal year? What is the risk and impact to readiness?
    Admiral Greenert. Senator, thank you for the question. The 
most difficult portion of dealing with the shortfall in the 
year of execution is, frankly, determining where you have to 
mitigate that lack of funding, if you will. What we've 
determined--in the past, we used to take the ploy that surface 
ship maintenance, being a predominantly privately contracted 
entity was where we would mitigate that shortfall. But, you 
also hit the nail on the head when you said ``mean expected 
service life for our ships.'' That is a primary concern of 
ours.
    Without the additional funds, and to mitigate $395 million 
in unfunded requirements, on top of a growing requirement that 
we have in fiscal year 2010 of about $450 million in CENTCOM 
operations due to the shift from Operation Iraqi Freedom to 
Operation Enduring Freedom, on top of $250 million in fuel 
price increases, and on top of another $150 million in requests 
for forces, which are emergent requests from our combatant 
commanders, we find that, among our operating accounts, we have 
to take actions, such as to defer some port visits, defer some 
exercises, reduce flying for those that are nondeployed or for 
airwings that return. But, what I'd like to assure you of is 
that one of our focuses is to make sure that our ships meet 
their expected service life.
    So, we are honing the line as much as feasible on ship 
maintenance. However, when we don't receive the unfunded 
priority list, that puts more pressure on that. It can be 
debilitating as it rolls over into the next year.
    The risk is the long-term health of the ships. It tends to 
manifest itself, sometimes, in that year, but, too often, later 
down the road, when we need to reset our forces.
    So, in summary, it really becomes a matter of mitigating 
among the operating accounts. That's the problem that we have 
to deal with, sir.
    Senator Bayh. Admiral, what does fiscal year 2011's 
unfunded maintenance request buy back?
    Admiral Greenert. Fiscal year 2011's maintenance request 
for aircraft spares is $423 million. We've found that we have 
introduced some type model series aircraft, the MV-22. It has 
been in service for some time, but as we get to understand the 
needs, that cost has gone up and we're using more spares. We're 
using the aircraft more. The increased operations in CENTCOM, 
in our Hornets, in our helicopters, and in some of our P-3s, 
have added to an increased use of spares, so that describes 
that piece.
    $75 million is for aircraft depot maintenance, and that 
would buy down our backlog of airframes and engines to no more 
than 1 year's backlog, which we find to be a risk that we can 
deal with without too much----
    Senator Bayh. Do you have the capacity to execute, here, if 
your requests are authorized and appropriated?
    Admiral Greenert. We do have the capacity to execute, yes, 
sir.
    Lastly, $35 million is----
    Senator Bayh. Make sure the Appropriations Committee has 
the benefit of your testimony here today. Hopefully, they'll 
make sure.
    Admiral Greenert. I will do that, sir, you can be sure of 
it.
    Senator Bayh. Let's see. We don't have the light system in 
effect here today so someone is going to let me know when my 7 
minutes is up. I don't want to have a mini-filibuster here.
    This question is for all the witnesses. Are we budgeting to 
restore readiness in the fiscal year and the years beyond? 
Specifically, when can we expect to reach our dwell-time goals 
and to increase or restore the restoration of our strategic 
depth? Anybody want to take a stab at that one? Any volunteers 
from the committee?
    General Chiarelli? You're a brave man, General. [Laughter]
    General Chiarelli. Senator, we expect to reach our dwell 
goals in most military occupational specialties (MOS). I talk 
in individual dwell goals, where an individual will see he or 
she is going to be home for 2 years in 2012. But, I think it's 
important to note that, although in 2012, you will be in a 
position where you will have 2 years of dwell, you really don't 
have the dwell until you have the dwell. It is like Ranking 
Member Burr talked about when he talked about the 82nd. The 
82nd was supposed to be home for 2 years, but took a detour 
down to Haiti. So, that creates issues, when we see these 
unforecasted contingencies.
    The second part of the question, Senator?
    Senator Bayh. I think that pretty adequately covers it.
    General Chiarelli. Okay.
    Senator Bayh. Let me follow up, though, with you on 
something else, if I can shift gears a little bit, General. 
Last week, DOD sent Congress a reprogramming request for fiscal 
year 2010. Included in that request was a $573 million 
reduction in the $1.3 billion Humvee procurement funding 
Congress approved for the Army. Can you confirm that the Army 
plans to buy new Humvees with the remaining $770 million?
    General Chiarelli. We plan to buy 2,662 additional Humvees. 
We have reached our acquisition objective for Humvees--in fact, 
gone over it--and will begin a recap program for other Humvee 
requirements.
    Senator Bayh. That's about $560 million for 
recapitalization, I think.
    General Chiarelli. I believe so.
    Senator Bayh. Can you explain the difference--Humvee recap 
programs and the number of each type of vehicle you intend to 
recap, and the cost per vehicle for each?
    General Chiarelli. Currently, we are recapping 5,046 
unarmored Humvees at about $55,000 per vehicle, and 4,270 
uparmored Humvees in fiscal year 2011, at a cost of $105,000 to 
$130,000 apiece, depending on the Humvee.
    Senator Bayh. Thank you very much, General.
    My time is expired in this round. I will now turn to my 
colleague, Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    General Chiarelli and General Amos, given the surge of 
30,000 forces that are currently being deployed to Afghanistan, 
do you have the right type of equipment in sufficient 
quantities to fully equip the surged forces for the mission in 
Afghanistan?
    Let me go to you first, General Chiarelli.
    General Chiarelli. We do. As the mine resistant ambush 
protected (MRAP) all-terrain vehicles (ATV) arrive in 
Afghanistan, it will not be too long before, I believe, we'll 
be able to get everybody who can be out of them, out of the 
uparmored Humvee and into the MRAP ATV. But, we have had great 
success in getting equipment into Afghanistan, thanks to the 
great work of 3rd Army as they took equipment coming out of 
Iraq, ran it through maintenance, and we were able to get that 
equipment into Afghanistan. In fact, we have equipment in 
Afghanistan ahead of forces right now.
    Senator Burr. General Amos?
    General Amos. Senator, we do. We have everything we need in 
Afghanistan. There's a little bit flowing in, but not much. The 
last time I checked, we had about 2 percent left to flow in for 
that 19,400 marine and sailor force that you talked about in 
your opening statement. We are good in Afghanistan. Of note, 
though, about 42 percent of the equipment that ended up 
fleshing out--it's a total of about 75,000, what we call, 
principal end items--now, that doesn't mean 75,000 vehicles, 
but a vehicle is a principal end item; it could be a radio 
that's a principal end item--but 75,000 principal end items to 
flesh out and get that command the equipment that it needs in 
Afghanistan. About 40 percent of that came from Iraq.
    So, I think the key piece is--the answer is yes, we do. 
They are fully equipped. They are reporting the highest levels 
of readiness in Afghanistan. So, our young men and women that 
are forward deployed have everything that they need. It works, 
and it's up. But, to get that, we ended up taking equipment 
that we had planned on--this responsible drawdown that I 
referred to in my opening statement. We've been going through 
there, for the last year in Iraq, to get ourselves out, get 
positioned in Kuwait, get it on ships, and get it back to 
Albany and get it back to Barstow, to depots. About 42 percent 
of that gear, or 40 percent of it, is not going to make it back 
this year. It's probably not going to make it back next year. 
So that's the kind of strain on the force, but we have 
everything that we need over there, Senator. You can rest 
assured of that.
    Senator Burr. Thank you. Thank you, General.
    Admiral, in your written testimony you said, ``The cost to 
operate and maintain our fleet has outpaced inflation by almost 
2 percent each year. The need to balance between future fleet 
readiness and current readiness for the operational 
requirements has resulted in risk.'' In what areas of readiness 
are we at risk?
    Admiral Greenert. My concern, readiness at risk, is in 
surface ship maintenance, predominantly, to be most specific. 
We have to do a few things. One, we have to make sure we 
understand the requirement to make sure that when a ship goes 
in for long-term maintenance, we know what needs to get done in 
order to assure that it will reach its expected service life. 
Two, then we have to fund it to that level and ensure that that 
gets executed. Then, three, in the operations--when the ship is 
operating, we need to understand the impact of what the 
additional--we're riding them pretty hard--roll that into that 
next maintenance package. That's what I called ``reset in 
stride.'' We have to keep up with that, Senator.
    Senator Burr. Is the risk reflected, in the underfunding of 
certain readiness activities, in the fiscal year 2011 base 
budget, or is it OCO requests?
    Admiral Greenert. The risk is that we are at 99 percent of 
our known maintenance requirement in fiscal year 2011. So, 
that's not much risk. That 1 percent is manageable.
    My concern is carryover from the fiscal year 2010 
execution, and I described some of that risk at a previous 
question. We have shortfalls in the year of execution. To your 
point, if we do not receive the OCO request, then we are 
operating these ships in contingency manner, and that's taking 
away from their service life. That's risk we'll carry forward.
    Senator Burr. Thank you, Admiral.
    General Chiarelli, as I stated in my opening statement, I'm 
concerned about the long-term cost of resetting the resources 
of the Army units, that they may not be supported amidst other 
Federal budget decisions we still need to make in the next 2 
years. You stated in our readiness hearings last year, and I 
quote, ``The Army expects our reset requirements will be in the 
range of $13 to $14 billion per year, as long as we have forces 
deployed in for 2 to 3 years thereafter to ensure readiness for 
the future.'' Is that number still an accurate number, or would 
you like the opportunity to update it in any way?
    General Chiarelli. If I look forward to the next 3 years, 
we're looking at anywhere between $30 billion and $36 billion, 
total, for reset. For fiscal year 2010 and fiscal year 2011, 
our numbers are almost identical--close to $11 billion in each 
year, and that includes procurement money.
    Senator Burr. That's in your budget request?
    General Chiarelli. That is in the OCO request. It is, sir. 
We expect--and that is in fiscal year 2011, too, just--almost 
identical.
    Senator Burr. Does that amount include the cost required to 
restore prepositioned equipment?
    General Chiarelli. It does not, I believe, include that 
cost.
    Senator Burr. Okay. Again, in your written testimony you 
state that, ``In order to restore the Army's full operational 
depth by fiscal year 2012, the Reserve component--that is, our 
National Guard and Reserve Forces--must continue a transition 
from a Strategic Reserve to an Operational Force, thus allowing 
the Army recurrent, assured, and predictable access to the 
Reserve components to meet operational requirements.'' How 
would you characterize the availability of equipment and 
resources for nondeployed Guard units, as compared to 
nondeployed Active Duty units?
    General Chiarelli. Active component units are reaching an 
equipment level of about 80 percent, and National Guard units, 
in all equipment, 75 percent. However, the critical dual-use 
equipment is at 83 percent, and expected to make it to 87 
percent, here, in the next 6 months.
    Senator Burr. General Chandler, if I could turn to you with 
the same question, relative to the nondeployed Active-Duty 
Force, versus the Guard and Reserve nondeployed.
    General Chandler. Sir, I would say exactly what General 
Amos said earlier. We have, in some ways, taken from some of 
our nondeploying units to make sure some of our deploying units 
have exactly what they need to do the job. That's reflected in 
a lot of Status of Resources and Training System ratings that 
you see, both in flying units as well as support units.
    Senator Burr. I've heard information that the Air Force 
intends to draw down a disproportionate number of C-130s from 
service in the Air National Guard. One, is it true? Two, can 
you elaborate on the pros and cons of maintaining aircraft in 
the Active component, as opposed to the Air National Guard?
    General Chandler. Sir, I understand your question. I will 
tell you, I've spent a lot of time over the last week with the 
director of the Guard as well as the Reserve. Just as a point 
of background, I will tell you that what you saw in that budget 
was an effort to react to what we saw coming in the military 
capabilities assessment; in other words, the C-130 fleet 
getting smaller. We took that opportunity to retire some of the 
older aircraft. Exactly how we get at the distribution, and how 
we'll do that, realizing that we have a Federal mission, and 
the States have a mission as well, and how we balance that, is 
what we're discussing with the Chief and the Secretary. We 
should have an answer shortly.
    Senator Burr. I appreciate your consideration under that, 
especially given the fact that we drew down that Guard 
contingent some time ago, and the further drawdown would 
deplete their resources to carry out their mission.
    My time's expired. Thank you, Mr. Chairman.
    Senator Bayh. Thank you very much, Senator Burr.
    It's good to note Senator Udall's attendance today.
    Thank you for your good work on the committee.
    Senator Burris, I think you're next.
    Senator Burris. Thank you, Mr. Chairman.
    I'd like to add my thanks to these four distinguished 
Americans for your committed service to this country and to the 
world. So, my hat's off to you, Generals and Admiral. Job well 
done.
    Recently completed Joint Staff studies show that in Iraq, 
DOD was highly dependent on contractors in four of the nine 
joint capacity areas. Furthermore, the Government 
Accountability Office has recently reported that planning 
operations planned for future operations include little or no 
information on contractors. Given DOD's high dependency on 
contractors to meet its mission, how do the Services assure 
themselves that the needed contractors will be available when 
needed? General Chiarelli, do you want to try that one?
    General Chiarelli. As far as I know, Senator, we have not 
had issues in getting the contractors that we need. That has 
not been reported to me as an issue. I think you know that, 
currently, we have about 1-to-1 contractor for every soldier 
who is deployed, so the numbers are high. However, I do not 
know of any issues in getting contractors.
    Senator Burris. General Amos, any word on Marine Corps' 
contracting?
    General Amos. Senator, ours is a little bit easier. Because 
we nest under the Army, as executive agent for things like 
logistics and a lot of the logistics hauling and that kind of 
stuff, we don't really hire contractors. We have brought some 
contractors forward, for instance, from our depot in Albany, 
GA, and brought them forward. We had them in Iraq working, 
doing some less-than-depot-level work to keep our equipment up 
to speed. We're in the process of transitioning that same kind 
of capability into Afghanistan right now. But, we don't really 
do much contracting in the way that I think your question leads 
us to.
    Senator Burris. Admiral, does the Navy do any contracting?
    Admiral Greenert. Not much, Senator. We come self-
contained; our Seabees, self-contained, don't use contractors. 
Same story with our explosive ordinance detachments. Otherwise, 
we are embedded in a ground unit in their support, so we would 
depend on their support, to the degree they use contractors, 
sir.
    Senator Burris. Just to change the subject a little bit, 
Admiral, I just left Djibouti, down at Camp ``Lemonyar'' or 
however you say it, ``Lemonyon''.
    Admiral Greenert. ``Lemonier'' sir.
    Senator Burris. Lemonier?
    Admiral Greenert. Lemonier. Yes, sir.
    Senator Burris. My French is not very good, my German is 
better. I see our people are living down there, I talked to the 
Seabees, and the captain there was very excited, but they're 
living in containers and tents. Can we at least get them in 
some containers or some decent facilities? Has that been 
budgeted, Admiral?
    Admiral Greenert. Senator, I can assure you, what they are 
living in has been budgeted.
    Senator Burris. In some new facilities?
    Admiral Greenert. Some new facilities. These containers 
are, frankly--did you have the opportunity, by chance, to get 
inside one?
    Senator Burris. Oh, yes, I did.
    Admiral Greenert. You did? Okay.
    Senator Burris. I was there.
    Admiral Greenert. The reports that I get--and I was there 
about 6 weeks ago--was that those were satisfactory. The tents 
were not. The tents are very hot and they use massive amounts 
of energy.
    Senator Burris. Yes.
    Admiral Greenert. We're getting out of the tents. That will 
be before the year ends.
    Senator Burris. But, that is the plan, to get out of the 
tents.
    Admiral Greenert. Get out of the tents, yes, sir. Two 
reasons. One, they're not good quality-of-life for support, but 
also two, they are extremely energy depleting.
    Senator Burris. I'm sure Captain Flynn will be glad to hear 
that, because he made a special remark on that.
    General, how about the Air Force, you all doing any 
contracting there?
    General Chandler. Sir, we have a certain amount of 
expeditionary integral support in the Air Force, in terms of 
Red Horse Civil Engineering, for example, and services to take 
care of the folks. Based on what I've seen, and if my numbers 
are right, the Air Force does about 70 percent of the 
contracting work, in terms of officers and noncomissioned 
officers, for contracting in that part of the world.
    Senator Burris. So, General, if you were to do some work at 
Scott Air Force Base--say, that you were to expand housing or 
do something for those four commands down there in my 
territory--who would do the work? Would we contract it out to 
private contractors, or how would that be done at Scott?
    General Chandler. There would typically be a contracting 
officer that would work the contract, in whatever arrangement--
and particularly in terms of housing in the privatized scheme 
that we're doing now.
    Senator Burris. Yes.
    General Chandler. That would be work by a contracting 
officer in the Air Force civil engineering organization that 
handles those contracts.
    Senator Burris. By the way, I want you to know I was born 
and raised down in that area. I remember when we used to call 
it Scott Field, and there were maybe two or three planes flying 
out of there. You all have really expanded that area, General.
    General Chandler. It's a great installation, Senator.
    Senator Burris. It's really good for our southern Illinois 
community, and we appreciate what those commands are doing down 
there.
    Now, do the Services need a readiness reporting system for 
contractors--and maybe the Army can answer--do you need a 
readiness reporting system for contractors?
    General Chiarelli. I don't believe we do. We have 
contracting officers representatives (COR), who are watching 
our contractors to make sure that they're fulfilling their 
portion of the contract. That's become a priority in the Army 
as we both increase the number of folks that we have in 
contracting command, and commanders realize the absolute 
necessity of ensuring that they have good, qualified CORs to 
ensure that the terms of contracts are being met.
    Senator Burris. Okay. General Chiarelli, the Army Chief of 
Staff recently directed that units preparing to deployed to 
Iraq or Afghanistan identify and train CORs prior to deploying. 
How does the Army track this information?
    General Chiarelli. We have requirements for CORs. I do not 
know how we track the total numbers, but commanders have been 
told to train the necessary number that they need for the area 
that they're going into. I have not received any reports that 
they are not doing that. In fact, I've heard that the quality 
of the CORs has gone up considerably since the beginning of the 
war.
    Senator Burris. Thank you, General.
    My time is expired, Mr. Chairman. Thank you very much.
    Senator Bayh. Thank you, Senator Burris.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Gentlemen, as always it's a pleasure to have you here. 
Thanks for your service. Be sure and convey to all those men 
and women that serve under you how much we appreciate their 
great service.
    Just this past week, I was informed that one of my Academy 
nominees to West Point, 1st Lieutenant Robert Collins, class of 
2008, was killed by an improvised explosive device in Mosul. It 
certainly hits home when those tragic events occur, and it 
emphasizes more the importance of your testimony here today. 
I'd like to thank each of you again and to recognize Lieutenant 
Collins' family for their sacrifice and for their son's service 
to our Nation. When I talked to his mother yesterday--both his 
mother and his father are retired Army lieutenant colonels--she 
said, ``You know, we knew and he knew that when he joined the 
family business, there were risks involved,'' but it doesn't 
make it any easier when you lose a top young man like that, 
General Chiarelli.
    I want to start with you, General Chandler. You note in 
your written statement that Air Force has been operating under 
continuous stress in deployments for 19 years, including 9 
years of operations, obviously, in Iraq and Afghanistan. I know 
this has taken a toll on your airmen, but also on your 
aircraft. I understand that your air logistics centers have a 
backlog of work and have been challenged to deliver aircraft on 
schedule, back to warfighters, due in part to aircraft coming 
into the depots requiring more work than they have previously 
had, based on the near continuous use that you referred to. I 
assume that you agree this is extremely important, that the Air 
Force receive every dollar that you requested in the fiscal 
year 2011 budget to support aircraft maintenance and depot 
activities. Is that correct?
    General Chandler. Yes, sir, it is.
    Senator Chambliss. I note that the number-one priority of 
the Air Force's unfunded requirements is $337 million for 
weapon system sustainment, which will go towards a variety of 
depot maintenance and service life extension programs that you 
had deemed to be high priorities. Could you elaborate on how 
you would use those funds and how important they are to the Air 
Force?
    General Chandler. Sir, they are extremely important, 
because it takes us from about an 82 percent dial to an 85 
percent dial on weapon system sustainment of at least known 
requirements. Like the other Services, our requirements 
continue to grow, and we continue to chase that, hence the 
unfunded priority. That represents about 16 aircraft through 
depot maintenance and about six to seven engines that would go 
through depot maintenance, as the vast majority of the money.
    Senator Chambliss. Thank you.
    General Chiarelli, General Amos, from your testimony we've 
heard that our soldiers and marines are stressed, particularly 
our ground forces, and that you've had challenges in fulfilling 
your manning requirements for deploying units. I'm also told 
that in some of our deploying units, mainly Army BCTs and 
Marine regiments, that we have almost battalion-sized elements 
remaining back in the rear as nondeployables. More importantly, 
I've also been told that these nondeployable numbers have been 
rising over the past few years.
    Now, it seems to me if we were to take efforts to reduce 
these nondeployables, that it should invariably increase the 
amount of available personnel for deployed units. Are the Army 
and Marine Corps taking steps to reduce these nondeployable 
soldiers and marines and replace them or turn them into 
individuals that we are able to deploy?
    General Chiarelli?
    General Chiarelli. We're doing our best to do that, but our 
numbers continue to go up. One reason they've continued to go 
up, we are averaging between 12 and 14 percent nondeployable in 
our BCTs at this time. One of the reasons why we've seen it go 
up is because the Army has taken units off stop-loss since the 
first of the year. That alone, given the fact we can only give 
them a 90-day drop on their contract, means that we have to 
hold onto them until we reach that point, which drives up the 
nondeployable rate. Other nondeployables we've seen increase 
are medical nondeployables. But, we have young men and women, 
who, after three rotations--the knee operation that they needed 
after the first rotation won't wait for the fourth rotation. We 
owe it to them to make sure they have the opportunity to be 
taken care of, and that's what we're doing. Our largest 
increase has been in medical nondeployables, and it is because 
of many of those muscular-skeletal kinds of issues that arise.
    Senator Chambliss. General Amos.
    General Amos. Senator, right now, of a force of 202,000 
reported as of just a couple days ago, we had 31,602 that we 
would classify as nondeployables. That sounds like an awful 
lot, but, of note in there, just about 29,000 of those are what 
we call trainees--marines that are in boot camp, marines that 
are in advance infantry skill training, marines that are in 
pilot training and going through their military occupation 
specialties training--22,000 of that 31,600 are in training 
right now, so they are nondeployable. Another almost 4,000 are 
in transit; at any given time, they're moving from the east 
coast to the west coast or coming out of schools or moving into 
their new units, and they're in what we call transit. Then we 
have about 3,400 of them that are medical, that are not 
expected to recover. We track those very carefully. So, while 
the number 31,000 sounds high, it actually makes sense. Then 
there's some other small or very small numbers in there.
    But, we have not had any trouble fleshing out our combat 
units, Senator. We have marines reenlisting and extending 
contracts, their 4-year enlistment, to extend for 6 months so 
that they could go back with the unit that they deployed with, 
in some cases already twice. So, we have not had a problem with 
fleshing out our units. We track the nondeployables very, very 
closely.
    Senator Chambliss. General Chiarelli, is this a funding 
issue, that these folks are having these medical problems, or 
what's the reason?
    General Chiarelli. It's the time between deployment, 
Senator. We have aviation units that are going 1-to-1 right 
now. They are 1 year deployed, 1 year back home. It is that. We 
have instances where, as I indicated earlier, the only thing 
that counts is individual dwell. Keeping track of the dwell of 
an inanimate object, like a flag, means nothing; it's the 
individual that's key and critical. We do not allow anybody to 
redeploy that doesn't have 12 months of dwell time. One of the 
increases I've seen in our nondeployables are individuals we 
have to leave behind for a month or 2 in order to get them 12 
months of dwell time back home, because they've transferred 
from another unit. With the MOSs we have, some are just more 
stressed than others are. Those things are driving it up. It's 
not a money issue, Senator.
    Senator Chambliss. Let me go back to that dwell time. As 
far as training is concerned, I know there are efforts underway 
to increase that dwell time for all of our service men and 
women once they return from deployment, and I think that, once 
we get to where we can have a 1-to-3 ratio, it'll make things 
much better for you. But, as it now stands, are units, 
particularly our tactical units, able to train in their 
traditional core competencies while still preparing for full-
spectrum operations and counterinsurgency?
    General Chiarelli. They're doing more today than they were 
doing yesterday. The mere fact that we're focusing on 
Afghanistan, which I believe is a different fight, has caused 
us to move into more full-spectrum type of training. But, as we 
approach at least 1-to-2, we're going to see the amount of that 
training be able to increase over time.
    Senator Chambliss. Okay. Thank you very much.
    General Amos, just be sure when you go to Albany, that you 
don't say ``ALL ben ny,'' it's ``All BEN ny.'' [Laughter.]
    General Amos. Sir, I'll take that under advisement. When I 
do go to ``All BEN ny,'' I'll be happy to pronounce it 
correctly. Thank you, sir.
    Senator Chambliss. It's a great base, too, but--you can 
bring that depot to North Carolina. We'll let you call it 
whatever you want to. [Laughter.]
    Senator Bayh. All politics is local. [Laughter.]
    Thank you, Senator Chambliss.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good afternoon, gentlemen. As an old expedition mountain 
climber, I'm reminded of the adage that I think I heard first 
applied to the military, which is in--with all due respect to 
those in the military of other responsibilities, that--if I can 
get this right--tactics are for amateurs; strategies are for 
rank amateurs; logistics are the responsibility of the true 
professionals. So, thank you for the work you do in this 
important area that often is taken for granted.
    General Chiarelli, great to see you again. I have fond 
memories--and again, I don't want to cast dispersions on 
anybody else who was in Iraq at the time I first met you, but 
you were serving as the ``Mayor of Baghdad'' and, I think, were 
on the cutting edge of helping us understand this concept of 
counterinsurgency and how we best help these countries in which 
we're forced to operate, rebuild themselves, and take 
responsibility for their own future. So, again, it's good to 
see you.
    Gentlemen, if I might, I want to be slightly parochial 
before I move to some broader questions, although I think the 
parochial nature of my concerns apply across the Service 
branches, and certainly in theater. We're about to begin the 
latest round of a fighting season in Afghanistan. Rotary-wing 
capabilities are really important. In Colorado, we have the 
High Altitude Army Aviation Training Site (HAATS) in Eagle, 
which is near Vail. What it does is, it captures the expertise 
and institutional knowledge of cadre of the experienced 
Colorado National Guard pilots, and leverages that to save 
lives in battlespace. It appears that the high altitude 
mountain environment training that the Active component is 
offering at Fort Carson, based on the train-the-trainer course 
that HAATS offers, is also trying to address the need for high 
altitude training. I'm concerned that the nature of the Active 
component means that those trainers, after doing their good 
work, will then move on in their careers. In addition, Fort 
Carson, I believe, doesn't have the varied terrain and 
consistent environmental conditions that are found in the 
mountains around Eagle.
    So, my question to General Chiarelli is, can we institute 
multicomponent training at HAATS, following the successful 
multicomponent warrior leader course that the Colorado National 
Guard runs at Fort Carson?
    General Chiarelli. HAATS is a national treasure. My 
executive officer happens to be an aviator. Aviators are always 
telling stories, and he told me, in preparing his brigade to go 
to Afghanistan, he sent about 200 of his pilots in command and 
instructor pilots to HAATS for training, but he, too, deployed 
his brigades by battalion to Denver, and they did individual 
training as part of HAATS, brought those instructors down, 
because of the throughput issues at HAATS, and had them do 
train-the-trainer on their battalions, doing collective 
training in the Denver area. It was much less expensive. At the 
same time, he was able to give everybody the benefit of that 
fantastic training by using a train-the-trainer model for 
pilots in command and instructor pilots.
    I believe that is what a majority of our brigades are 
doing. There's no doubt, HAATS is saving lives today in 
Afghanistan, because of our ability to get that key and 
critical training. It is a fantastic course.
    Senator Udall. General, I think you're aware, too, of the 
recent tragedy that occurred on Mount Massive, which is the 
second highest peak in Colorado, at 14,400 feet. A rotary-wing 
exercise took place on Mount Massive. The bird was piloted by 
those that hadn't had that kind of training, and there was a 
tragic fatal accident that occurred. I know we're learning a 
lot of lessons from that, but I hope we'll continue to use 
HAATS and think about how we keep that training capability as 
broadly available as possible.
    I know you've had this invitation before, we'd love to get 
you out to Colorado. I know your executive officer has spoken, 
but we'd be happy to accompany you and do some flying with you, 
if you're able to come out at some point.
    General Chiarelli. Appreciate it, Senator.
    Senator Udall. I'll leave that as an open-ended invitation 
to you.
    General Chiarelli. Thank you, Senator.
    Senator Udall. If I might, I'd like to follow up on a 
question I think the Senator from Georgia--who's also trying to 
teach me how to speak Georgian, by the way. He was talking 
about dwell time, and you've talked about musculoskeletal 
situations and the need for knee surgery and rehabilitation. 
We're learning more and more about this marvelous organ we 
have, called the brain, and we have hidden wounds that occur in 
combat, we increasingly understand. Could you talk a little 
about what you've learned--and perhaps the other general 
officers that are here might want to chime in--and, when it 
comes to dwell time, the need for our men and women in uniform 
to recuperate, mentally, emotionally, spiritually, as well.
    General Chiarelli. I have, currently, 6,200 soldiers that 
are most seriously wounded. We categorize anyone who has a 
single disqualifying injury of 30 percent or greater, and put 
them in what we call the Army Wounded Warrior (AW2) program. Of 
that population, 56 percent have either post-traumatic stress 
(PTS) or traumatic brain injury (TBI); 18 percent, TBI, and the 
remainder is PTS. We are instituting new protocols in theater 
that require soldiers, that are either in a vehicle that is 
damaged within 50 meters of a blast or in a building with an 
explosion, to go through an evaluation for a concussion as soon 
after the event as possible and 24 hours later. If they pass 
both those evaluations, they'll return to duty; if they don't, 
they are treated by a doctor until their brain has had an 
opportunity--the concussion has had an opportunity to repair 
itself.
    PTS is a concern for soldiers back here, and we are working 
to both inform our medics so they can better identify PTS when 
it occurs down range, and we're using telemedicine to give a 
30- to 40-minute evaluation of every soldier that comes back to 
the States. We've done two units now, one battalion in Hawaii 
and a brigade in Alaska, so we can get a good evaluation. The 
results, using this telemedicine, are very, very encouraging.
    Senator Udall. Thank you for that update. I know my time's 
expired, but would anybody else want to comment briefly?
    General Amos?
    General Amos. Senator, we share the same battlefield with 
our Army brothers, and have experienced the same levels of TBI 
and PTS. General Chiarelli and I worked on that pretty hard 
last fall to develop this protocol that he just described. That 
is in use right now in the Marine zone as well in the Helmand 
Province. The idea is recognition that you get that wonderful 
thing between your ears rung really hard and there is a 
propensity--if it's not treated, if the brain is not put at 
rest immediately, the propensity, they've found, for PTS down 
the road is there. It doesn't mean you're going to have it, but 
it does mean that there's a propensity towards that. So, 
there's a recognition, both in the Army and the Marine Corps, 
that this is serious problem. This effort, this concussive 
protocol that General Chairelli described, is in effort to say, 
Okay, 100 percent of those marines and soldiers that have been 
either knocked out, had what we call a grade-three concussion--
which is, you are knocked unconscious or something less--you 
are done. You're going to go back into the wire, you're going 
to get evaluated, we're going to put your brain at rest. Then, 
depending on how you look and what the doctors are saying, 
we'll determine whether you ever even leave the wire again. In 
fact, the way we do it is, it's called ``three strikes, you're 
in.'' If you just get three grade-one concussions, you're done. 
You're going to stay inside the wire, you'll perform a 
function; you're not going to go back out again. So, it's a 
recognition for that, sir.
    We've had--I'm just looking at--since January 2003 to 
September 2009, there have been 7,746 mild TBI cases reported 
within the Marine Corps. So a mild TBI case would be something 
that, ``Okay, I took a pretty hard blow--I may not have been 
knocked out, but I took a pretty hard blow to the head.'' So, 
there is great recognition of that problem, Senator, and I just 
want you to know we're working as fast as we can to try to 
ameliorate that.
    Senator Udall. Thank for that. I test the patience of the 
Chairman, but I certainly would welcome the Navy and the Air 
Force, as well, to weigh in.
    Admiral Greenert. Senator, given we deploy embedded in the 
ground units, our folks are susceptible to the same thing. I 
think overarching the program, the factor is, our work is not 
done when folks return from deployment. That's a cultural 
change. A lot of our sailors, that's something new to them. 
``What do you mean, you need to do a post-deployment health 
assessment?'' We need to look at folks, not just when they come 
back--30 days, 90 days--sometimes it takes 120 days for this to 
manifest itself and their personalities to change.
    The other factor I would just mention to you is, their 
support group is the family. They're back here worrying all 
this time. There's a lot of stress. It's almost the boiling 
frog concept--just a little bit more, a little bit more, a 
little bit more--and we're finding it manifests itself in what 
we call the tone of the force--things from divorces, to 
drinking, to behavioral changes around the force, within our 
families. We need to watch them, as well.
    Thanks.
    Senator Bayh. Thank you.
    General, my patience is infinite, but Senator Thune is 
being very patient, as well. This is a very important subject. 
If you have some thoughts, could you make them brief?
    General Chandler. Sir, I would just say, we have 
approximately 650 airmen in the AW2 program; that's out of 
about 1,100 airmen that have been wounded in combat, some of 
which suffer the same consequences, in terms of TBI. We've put 
a lot of effort and, frankly, learned a lot from the Marine 
Corps and from the Army, in terms of resiliency, what it takes, 
not just for the member, but their family, as well.
    One other aspect of this, of course, is the remotely-
piloted business, where you can find yourself in combat part of 
the day, and then home the rest of the day, which is something 
that we also watch very carefully.
    The only thing that I would add is, we've actually had 
some--``success'' is not what I would call it, but--in the 
early stages of experimentation with hyperbaric chamber 
treatment for TBI, which I know is something that our surgeons 
general share amongst themselves.
    Senator Bayh. Thank you very much, General.
    Thank you, Senator Udall, for asking about that, a very 
important signature of challenges from the conflicts we find 
ourselves in.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your great service to our 
country.
    General Chandler, in your prepared statement, you said 
that, ``The B-1, B-52, and 15E did not meet aircraft 
availability standards, due to maintenance- and depot-related 
issues, and the F-22 fell short of the projected availability, 
due to low observable maintenance requirements.'' Yet, this 
year the Air Force's number-one unfunded priority was for 
depot-level maintenance on several aircraft, including the B-1. 
Can you explain what maintenance standards the B-1 and the B-52 
failed to meet, and what depot-related maintenance issues the 
Air Force is having with these aircraft?
    General Chandler. Yes, sir. What you're seeing is a 
manifestation of trying to balance the requirements for today 
with being prepared for tomorrow on the throughput, obviously, 
in depot maintenance and the things that we need to do there.
    Let me address, if I may, the F-22 first. I would tell you, 
we're still learning a lot about that aircraft. Eighty percent 
of the low observable maintenance that we're required to do on 
the aircraft is caused by having to do maintenance on something 
that really had nothing to do with low observable. Said another 
way, we had to remove a panel to repair a part or replace 
something underneath that panel that subsequently led to low 
observable maintenance requirements.
    Over the last 2 years, we've been able to lower maintenance 
man-hours per flying hour by 30 percent each year--frankly, by 
getting smarter and by replacing things under those panels, to 
give them a longer service life. We're sitting somewhere 
between 65 and 70 percent--66, 67, typically, on a daily 
basis--of mission-capable rates in the F-22 today; that's 
against an Air Force standard of about 75, and we project that 
that will continue to improve.
    I would tell you, as far as the F-15E and the B-1, and even 
the B-52 for that matter, some of this reduction in mission-
capable status is goodness, from the standpoint of taking those 
aircraft down and working on them, primarily in the areas of 
avionics. The B-1, for example, replacing the front cockpit, if 
you will, the pilot and co-pilot avionics displays. Also, we've 
podded that aircraft to give it situational awareness and to be 
able to do precision targeting and part of the maintenance 
that's being performed is moving that display into the cockpit 
so we can not only control the pod, but display the pod the way 
we want to do it.
    So, there are some things that are going on, in terms of 
driving the rates down. We have the aircraft we need to do the 
job. Now's the time, we feel, as long as we can get the money, 
to continue those kinds of improvements on the legacy fleet 
that will then allow us to transition to the fleets of the 
future, whether it be the F-35, in the fighter world, or 
looking down the road at the next-generation long-range 
platform.
    Senator Thune. If these particular aircraft didn't meet the 
projected availabilities, why were there depot-level 
maintenance initiatives unfunded in this year's requests?
    General Chandler. Again, sir, I would tell, that's simply a 
matter of trying to balance what we do with what we're being 
required to do today, and then maintaining the depot 
maintenance. There's no doubt in our mind--and we understand 
that it's taking OCO funding to get us to 82 percent, and then 
the $337 million unfunded requirement to get to 85 percent, of 
weapon systems sustainment. That is one of those big issues 
that we're going to have to watch closely, not only with the 
amount of money that we're finding and asking in OCO funding, 
but how we transition that to the base budget, so we can get at 
the issue that you're pointing out.
    Senator Thune. Okay. In your prepared statement, you also 
said that the standup of a fourth operational squadron of B-52s 
in October 2009 enhances our readiness to perform nuclear 
deterrence missions as well as support conventional mission 
requirements. It's my understanding that one of the reasons 
that the standup was ordered was to help the Air Force focus 
specifically on nuclear training issues in the midst of 
constant deployments, and yet the recently published Nuclear 
Posture Review (NPR) states that it will convert some B-52Hs to 
a conventional-only role. The question is, what is the thinking 
behind standing up a new squadron of B-52s in order to help 
focus that community on the nuclear mission and, less than 5 
months later, having the administration announce it will 
convert the number of nuclear-capable B-52s to conventional-
only aircraft?
    General Chandler. Sir, the fourth squadron, as you 
describe, allows the units to not only concentrate on the 
nuclear mission, but have a constant and sustainable rotation 
of units through the nuclear mission and the conventional 
mission, which we asked them, obviously, to do both of. We know 
that the triad will be supported by the new NPR. The analysis 
of that force structure, I would say, is still ongoing. Exactly 
how we adjust, in terms of nuclear and conventional bombers, 
remains to be seen.
    Senator Thune. I want to come back, General, you mentioned 
the sniper advanced targeting pod, and the integration of that 
into the B-1 bomber and other Air Force aircraft, and how I 
think that's had a great impact on effective close air support 
in Afghanistan. However, there seems to be a lack of these 
advanced targeting pods for training use, because they're in 
such high demand in theater. So crews are using these advanced 
targeting pods overseas in combat; however, they have very 
limited ability to train with these advanced pods at home. Does 
the Air Force have a need for additional advanced targeting 
pods for training use? If so, how would additional pods affect 
combat readiness?
    General Chandler. Sir, the overall requirement is 
approximately 835 pods. We find ourselves programmed through 
fiscal year 2012 to get up to about 625 or 35. Through 2012, we 
anticipate we'll be able to get away from the just-in-time 
training scenario that you describe, and then we'll have to 
follow on with 200 additional pods to do that.
    Senator Thune. Okay.
    Thank you. I think that's all I have, Mr. Chairman.
    Thank you all very much.
    Senator Bayh. Thank you very much, Senator Thune.
    Out of respect for the time of our witnesses today, and in 
the interest of moving things along, I think we'll now move to 
5-minute rounds of questioning. I just have two.
    General Chandler, I'd like to follow up on some of your 
remarks to Senator Thune. As you say, it is an important issue. 
Just a little preamble before the question.
    In your prepared statement, you say, ``Modernization and 
recapitalization remain priorities.'' However, the fiscal year 
2011 budget request only funds weapon system requirements at 65 
percent, as you mentioned, of your requirement, and that 
increases to only 83 percent with OCO funding. While I admire 
the Air Force for making weapon system sustainment your top 
unfunded priority, even if we authorized the maximum amount, 
which I support--and I hope my colleagues in the Appropriations 
Committees support, as well--you will still only be at 85 
percent of your requirement.
    I understand we operate in tough economic times, but if we 
do not fully fund weapon system sustainment, we will always 
have a maintenance backlog. So, my question is, what does the 
Air Force risk by not fully funding weapons system sustainment?
    General Chandler. Sir, the majority of the risk that you 
see, that 15 percent that's not funded, will be reflected in 
aircraft and engines that go through depots. That's about a $2 
billion deficit. We understand that that is no small thing to 
try to get our arms around. That will continue to build in bow 
wave that someday we will pay the price for. So, we're looking 
next year at how we continue to move things out of OCO into the 
baseline budget and produce a more sustainable, if you will, 
weapon system support plan.
    Senator Bayh. Thank you, General.
    General Amos, this is for you. It came to the attention of 
some on the committee--I'd like to kind of cut to the chase--
I'd like to ask you--there's apparently a small brouhaha about 
uniforms, which, in the great scheme of things, isn't the most 
important issue out there, but it was requested that I ask you 
about this. I understand the Marine Corps objected to the Navy 
fielding a ground combat uniform, and that if it were fielded, 
it be restricted to, basically, the SEALs, because it was too 
similar to the Marine Corps camouflage pattern. I wanted to ask 
you if that was correct; and if so, what was the rationale for 
objecting to the uniform being used more broadly? I understand 
the unique character of the Corps, and maybe some rivalry with 
the Navy, that kind of thing, but what's the rationale for 
that?
    General Amos. Sir, what you described is true. Two 
commandants ago, when General Jim Jones became the Commandant, 
he set on a course to put the Marine Corps in a unique uniform 
and get something that was more practical, something that 
didn't require having to go through the laundry and get 
starched and all the things we've been living with for years 
and years and years and years and years. We even went away from 
the old spit-shine boots, and went to the rough-out boot, and 
it just all made sense. So, 10 years ago, he was successful in 
doing that. It was an enormous effort, and that single uniform 
effort generated an enormous amount of pride inside an 
organization that is steeped in tradition.
    So we have had that now for 10 years, and it's served us 
well. In fact, you talk to any marine out there, they love 
them. They're comfortable, and they wear well.
    Other Services have come online over the last several years 
and developed their own Service-particular uniform, but--I 
think all our Services have done that--there was an effort.
    Senator Bayh. I think the Corps actually patented this 
uniform, didn't they?
    General Amos. They did, sir.
    Senator Bayh. Is that correct? That's interesting.
    General Amos. There's little eagle, globes, and anchor in 
the pattern, and it was put in there for a purpose. The purpose 
is that this would be a Marine Corps-unique uniform. We're not 
saying that other Services can't have additional uniforms. In 
fact, all the Services have them now. But, it came to our 
attention last fall that there had been an effort underway, 
down in U.S. Special Operations Command (SOCOM), to use a 
pattern that was so close that, from 5 or 10 feet away, it 
looked absolutely identical, and we objected to that. We just 
said, ``Look, there are plenty of patterns that are out there 
that are effective. There are patterns out there that can 
provide your Service whatever unique uniform you want. But, in 
this case, we'd appreciate it if your Service would pick--or 
your effort would pick--a uniform that was significantly or 
enough different from ours that you could determine a marine on 
the ground versus somebody else on the ground.'' It became a 
point of internal pride within the Marine Corps.
    Senator Bayh. Boy, my time is expired, but how did they 
respond to your response? I take it they brought it to 
somebody's attention around here, so they must not have been 
completely thrilled.
    General Amos. Sir, I think it's settled down now, and there 
is an agreement with the SEALs, forward deployed, to wear that 
pattern. It is a very good camouflage pattern. Tactically, it 
does what they hoped would happen. So, the agreement between 
the CNO and the Commandant of the Marine Corps is that those 
forward-deployed SEALs and those types of folks can use that 
uniform over there. Even though it is not using the patented 
pattern--like I said, it's so very, very close--and it's a 
point of pride, sir. It's internal pride. It actually 
transcends all the general officers. It's down to the young 
lance corporals and privates first class, the young 18-year-
olds, who go, ``No, wait a minute, this is my uniform, and I'm 
a U.S. Marine.'' So, it's probably hard to understand outside 
the Corps, but that's the inertia generated inside the 
institution.
    Senator Bayh. Pride and unit elan are certainly important 
factors, so I appreciate your response.
    Senator, I think it's down to you and me. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    General Amos, in view of the limitations on the legacy 
Marine Corps helicopter assets, such as the CH-46 and C-53, 
which have been deployed in Afghanistan, what other aviation 
assets do you believe will be in high demand?
    General Amos. Sir, we are in a transition from your time 
down at New River and Camp Lejeune, and what we transitioned 
from--almost 10 years ago--about 13 type model series down to 
what we're going to end up with, something around, I think, 
five or six. 53 Echo, there's no question that that airplane 
has been a workhorse. I'm just looking at--for the last 10 
months, from February 2009 to January 2010, readiness, the 
average mission-capable rate across the 53 Echo community is 65 
percent. That is a heavy, heavy maintenance-intensive airplane, 
probably the most maintenance man-hours per flight hour. I 
don't know what that is, but it is significant. So, that 
airplane is--we'll continue to maintain until we get its 
replacement, the 53 Kilo.
    But, most of the rest of our stuff, our legacy platforms--
the CH-46, the 40-plus-year-old helicopter that we dearly love 
and have been flying--is transitioning to the MV-22. We've done 
it back in your State, in North Carolina; it's completely done. 
We have one squadron standing up on the west coast right now, 
and we have one foot in the 46 and one foot in the V-22 and we 
will have completed that in the next several years.
    So, our Hueys and Cobras, the older versions have been 
under an enormous amount of strain. But, we have fielded the 
new replacement for the Huey, the Yankee version of that 
airplane--four blades, new engines, new rotor head, glass 
cockpit--and the readiness on that airplane is high, and it is 
significantly more capable than the older ones.
    So, we have lived with these legacy airplanes now for a 
long time, tried to be good stewards. But, we are in that 
transition right now, Senator, leaving the old and going to the 
new, and so, we're going to sustain the old, while we have to. 
We have 53 Deltas in Afghanistan right now, the old two-engine 
version that was a predecessor to the Echo. So, we are flying 
and trying to maintain them as best we can. I don't know 
whether that answers your question.
    Senator Burr. General, have I asked you if you have 
adequate airlift capabilities?
    General Amos. Do we have what, now?
    Senator Burr. Do you have adequate airlift capabilities?
    General Amos. We do, sir, we do.
    Senator Burr. Okay.
    General Amos. In fact, it's interesting you ask that, 
because the Secretary of Defense, one of his highest priorities 
in really the last year has been ISR--increase the amount of 
ISR, and then rotary-wing lift. The ISR is a combination of 
everybody sitting at this table and their assets; and rotary-
wing lift is predominantly the Army and the Marine Corps. But, 
I will also tell you, the Air Force--for instance, down in 
Helmand Province, the boys flying those medevac airplanes that 
are down there have saved an enormous amount of lives for us. 
But, lift capacity, as far as moving around the theater, we 
absolutely do. We have what we need for that, sir. We're not 
wanting in that.
    Senator Burr. Good.
    Just as a general note--and I shared this with the 
Chairman--I looked at new technology over the Easter break 
that's designed for rotary aircraft, to balance that engine and 
the propeller when it's revved up, which eliminates the shaking 
in a helicopter. It was an amazing simulator to sit in and see 
one with and without. It made me really question how that would 
change the depot hours and intervals for some of the rotary 
aircraft. I know across DOD that technology is being looked at. 
I'm sure I didn't see a single technology. There are probably 
others out there. But, clearly we're going to bring some things 
that provide us longer life, based upon how we change what, 
historically, we've used, because we've used technology to 
extend its life and to have a lesser impact on the platform 
itself over time.
    Last question. Again, General Amos, the establishment of a 
Marine Corps component of Special Operations Forces was a 
relatively recent force structure development. From my time 
down at Camp Lejeune, I can report that the marines assigned to 
Marine Corps Forces Special Operations Command are training 
well, they're ready to be deployed worldwide with their 
brethren of the other Services. How do you assess their 
readiness?
    General Amos. Sir, I don't have the precise readiness 
figure in front of me where I could tell that this Special 
Operations Battalion is--on average because they don't report 
their readiness through us, they report it through the SOCOM. 
But, absolutely no question, we put our arms around them. 
They're marines. Those marines came out of our Force 
Reconnaissance Units and our standard Marine Reconnaissance 
Units and then across the Marine Corps, when we stood them up. 
It sits about 2,500 marines and sailors right now. What we're 
doing now is, we are rebalancing within that number of 2,500, 
with lessons learned. We found out that we needed one less 
Special Operations battalion, but we needed more combat service 
support integrated within those battalions, that would deploy 
with them. So, inside that number, that box, we are shifting 
around the deck chairs, so to speak, to make sure we have the 
right balance. But, I'll tell you, my sense is, having seen 
it--I was there when we stood it up at Camp Lejeune, and I just 
visited, with some of our marines--Special Operations lads--out 
in the western part of Helmand Province and out there towards 
the Iranian border--they are highly trained. They are 
incredible young men. I think the testimony for me is, when you 
see them, and they're wounded--in Bethesda or Walter Reed or 
Brooke--they're the ones that are getting out of the beds. 
They're severely wounded. They're the ones that leave the 
hospital first. They're the ones that are determined to get 
back on their feet and get back with their brothers again. So, 
it's a special breed, and they're well trained, and their 
morale is enormously high. I think it's a huge success story, 
sir.
    Senator Burr. Thank you. I'm impressed with what I've seen 
when I've been there.
    Let me conclude--by once again stating to all of you, thank 
you for your service. More importantly, please share those 
thanks with the men and women that serve under you. We can't 
thank you enough for the insight that you're able to provide 
this committee. More importantly--I think I can speak for the 
chairman--our door is open. When there is a need, let us know 
what the need is. We want to make sure that every warrior has 
the equipment that they need, that they don't fall short, that 
our mission is one we intend to win, and not one just to be 
there.
    Thanks.
    Senator Bayh. Those are my sentiments exactly, Senator. 
Thank you for your comments.
    This is a collaborative process. Let us know what you need. 
We're here to make sure that our military men and women have 
the equipment that they need to perform the services that they 
so gallantly do on our behalf.
    So, gentlemen, thanks to each of you for your service. 
Please convey our respect and appreciation to the men and women 
who work with you. I look forward to working with you the rest 
of this fiscal year to make sure you get what you need.
    Thanks very much.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Evan Bayh
                       army equipping and manning
    1. Senator Bayh. General Chiarelli, I'm concerned about the current 
process in which we man and equip units just in time for deployment. I 
understand you must accomplish your mission under many constraints, and 
high operational tempo continues to severely stress the force. Your 
hard work in these challenging times is to be commended. What is the 
risk in building unit readiness just in time for deployment and where 
is there room for improvement in the predeployment process with respect 
to manning, equipping, and training?
    General Chiarelli. The risk is that some Army units may not deploy 
with the desired combination of soldiers and equipment with enough time 
to train collectively before deployment. As long as demand for forces 
exceeds the available supply of Army units, the Army will continue to 
be forced to shift the elements of readiness (soldiers and equipment) 
to units that have pending deployments. The Army Force Generation 
(ARFORGEN) model provides the Army a mechanism to synchronize soldiers 
and equipment in a predictable manner in order to provide trained and 
ready units to combatant commanders.
    To improve this process, the Army is refining its force generation 
model to build provisions for a contingency force consisting of 1 corps 
headquarters, 3 division headquarters, 10 brigade combat teams (BCT), 
and the 45,000 enablers required to support these formations. The Army 
will use fiscal year 2011 as a transition year to begin to build 
operational depth; by 2012, the Army will have achieved operational 
depth by resourcing the contingency force; by 2013, the Army will have 
sustained operational depth. Of course, this is contingent upon 
predicted levels of demand for forces decreasing to sustainable levels.

    2. Senator Bayh. General Chiarelli, what is the readiness impact, 
we leave equipment in Afghanistan and Iraq, on deploying and 
nondeploying units as well as our National Guard and Reserve units?
    General Chiarelli. The Army leaves equipment in theater for the 
specific purpose of providing deploying units with the equipment 
necessary to meet mission requirements. This process achieves readiness 
for the deploying unit, while degrading the readiness of the 
nondeployed units. Army equipment on hand (EOH) as of 30 March 2010 is 
78 percent for the entire Army, 80 percent for the Active component, 80 
percent for the Reserves, and 77 percent for the Guard. We are 
intensively managing our EOH to ensure that next deploying units from 
all components have sufficient equipment for training and deployment. 
Specific examples of our most critical shortages are Prophet Systems, 
Self-Protection Adaptive Roller Kit mine roller, Route Clearance 
Vehicles and associated Ground Penetrating Radar, Family of Unmanned 
Aircraft Systems, and Tactical Satellite Radios. We are mitigating 
these shortages using theater provided equipment and other strategies.

    3. Senator Bayh. General Chiarelli, how long can we expect 
nondeploying units to be the bill payers for deploying units, and what 
impact will that have on long-term readiness?
    General Chiarelli. To some extent, a portion of the nondeploying 
force will remain the billpayers for our deploying forces in the 
future. Since the implementation of the ARFORGEN, we have migrated from 
a tiered-readiness system to a cyclical readiness system by instituting 
periods of degraded readiness into a unit's deployment cycle (Reset, 
Train/Ready, and Available phases). So, naturally, some of the low 
readiness levels reported by nondeployed Army units are expected as 
part of this ARFORGEN process. Both Active and Reserve component units 
move through a Reset phase of ARFORGEN where readiness is expected to 
be low.
    Over the long term, however, the critical area for the Army to 
improve readiness in nondeployed units is in the Train/Ready phase of 
ARFORGEN. Here, units should be resourced to begin collective training. 
As the demand for forces decreases to sustainable levels and the Army 
is able to restore balance, the ARFORGEN model will enable the Army to 
better manage unit readiness.

    4. Senator Bayh. General Chiarelli, how can we help you alleviate 
some of the constraints such as time, funding, and planning?
    General Chiarelli. Continued support from Congress for fully 
funding our budget request on time remains a critical element to 
achieving stability for our Army. Assuming the drawdown in Iraq 
continues on schedule and no further troop requirements are needed in 
Afghanistan, we will achieve our intermediate goal of Boots-on-the-
Ground (BOG): Dwell ratio of 1:2 for the Active component and 1:4 for 
the Reserve component beginning in fiscal year 2012. These combined 
factors will help alleviate constraints affecting unit readiness 
levels.

                   return to full spectrum operations
    5. Senator Bayh. General Chiarelli, the way in which we train our 
soldiers according to their mission essential task lists (METL) has 
changed recently. My concern is that in compacting our METLs we may be 
changing what we have to do in accordance with our National Military 
Strategy (NMS), to what we can do because of current global commitments 
in Iraq and Afghanistan. In the process we are not truly prepared for 
full spectrum operations (FSO). Are our METLs truly capturing FSO and 
in what areas of training are we currently accepting risk?
    General Chiarelli. Our recent doctrinal shift to a FSO METL more 
closely represents the full spectrum operations requirements of the 
NMS. The last few years of frequent deployments and short dwell periods 
left our units focused either on their current deployment, or in 
preparation for specific mission requirements of their next deployment. 
This has created risk in our proficiency to conduct operations in other 
mission environments. With increasing dwell anticipated beginning in 
fiscal year 2012, our forces will finally be able to expand their 
training focus across the spectrum of conflict, thus, reducing 
strategic risk. As an example, a number of BCTs currently scheduled to 
participate in Army Combat Training Center rotations in fiscal year 
2011 will undergo full spectrum scenarios, rather than being solely 
focused on Afghanistan scenarios.

    6. Senator Bayh. General Chiarelli, to what extent did the Army 
validate and coordinate the reorganizing of METL with U.S. Joint Forces 
Command (JFCOM)?
    General Chiarelli. The Army METL is focused on tasks performed by 
Army tactical formations and is based on Army doctrine that is nested 
entirely within joint doctrinal concepts and constructs. Therefore, 
Army METL directly supports the joint METL developed by JFCOM.

    7. Senator Bayh. General Chiarelli, given the commitments to 
ongoing operations, to what extent will the Army and/or Marine Corps 
have sufficiently trained and ready forces among its nondeployed units 
to respond to a Homeland defense scenario or another contingency 
elsewhere in the world?
    General Chiarelli. The Army currently has limited capacity to 
respond to unforeseen contingencies. The ARFORGEN model provides the 
Army a mechanism to synchronize soldiers and equipment in a predictable 
manner in order to provide trained and ready units to combatant 
commanders and respond to contingencies. The Army is improving its 
force generation model to build provisions for a contingency force 
consisting of 1 corps headquarters, 3 division headquarters, 10 BCTs, 
and 45,000 enablers. Likewise, redistribution of Active-Duty Forces 
across a 3-year lifecycle, and Reserve component units across a 5-year 
lifecycle, will allow the Army to generate consistent contingency force 
pools at a predictable rate. Together, these initiatives will restore 
operational depth and our capacity to respond to unforeseen 
contingencies.
    Providing timely and appropriate response to incidents remains one 
of the Army's key operational concepts and the Army will continue 
providing military support to Federal, State, local, and tribal 
governments during Homeland defense operations. The Army will continue 
ongoing efforts to properly organize, equip, and train chemical, 
biological, radioactive nuclear high-yield explosives (CBRNE) 
Consequence Management Response Forces to enable rapid, effective 
responses to any CBRNE-related incident. Additionally, the Army 
continues to support planning efforts for a rapid and effective 
response to an influenza pandemic with focus on regionalized support to 
save lives, reduce suffering, and slow the spread of infection while 
preserving mission assurance and combat readiness. In the future, the 
Army will identify ways to streamline support provided to civil 
authorities in accordance with the rules and regulations established by 
the Department of Defense (DOD). One initiative is producing a yearly 
standing execution order, which will cover natural and manmade 
disasters. The Army has identified organizations to provide the 
required support outlined in the order.

    8. Senator Bayh. General Chiarelli, does the Army's current budget 
request reflect the funds required to return to FSOs training while 
training forces preparing to deploy to ongoing operations?
    General Chiarelli. The fiscal year 2011 budget request asks for 
resources to prepare the Army for offense, defense, and stability 
operations in the current counterinsurgency environment. In fiscal year 
2012, further implementation of the ARFORGEN model and the increased 
dwell time will support a FSO training strategy. This will enable the 
Army to train the force to combat hybrid threats in complex operating 
environments across the full spectrum of conflict.

    9. Senator Bayh. General Chiarelli, given that training has been 
focused on preparing forces for ongoing operations for several years, 
has the Army/Marine Corps assessed the impact on the ability of its 
units to perform the core missions for which they were organized and 
trained?
    General Chiarelli. The Army continues to assess the impact that 
ongoing operations have on the ability of units to perform their core 
functions. This assessment involves analysis of pre-deployment and 
post-deployment readiness trends and the performance of units at key 
training events. Monthly, unit commanders are required to report how 
well their units are resourced and trained to perform the core 
functions for which they were designed. The Army has achieved limited 
success training on FSOs with units having greater than 9 months in the 
Train-Ready pool. We expect to see improvement as the demand for forces 
decreases and dwell time increases. In fiscal year 2011, up to four 
brigades are scheduled to conduct rotations at the Army Combat Training 
Centers and train on FSOs.

    10. Senator Bayh. General Chiarelli, to what extent have 
individuals and units experienced a degradation in skills given that a 
large portion of the force has not been training on FSOs for several 
years?
    General Chiarelli. It is true that as units approach their 
deployment dates, they focus primarily on building proficiency for the 
predominantly counter-insurgency mission environment to which they are 
deploying. While commanders report that the current demand for forces 
and limited dwell are not allowing units sufficient time to develop and 
train on all their core competencies, training concerns fall well 
behind personnel and equipment issues as the primary drivers of 
readiness impacts. Additionally, to a degree, Army units have been and 
are able to train on some core competencies. The Army's current 
doctrine requires units to execute some mix of offense, defense, and 
stability operations during any mission, so preparing to execute these 
operations for a counterinsurgency environment prepares them, to some 
extent, to execute these operations in a more traditional operational 
environment. As time at home station between deployments increases, 
units will be able to train on a broader range of mission environments 
that includes more conventional threats and different situational 
complexities.

    11. Senator Bayh. General Chiarelli, how does the Army/Marine Corps 
intend to address any skill degradation?
    General Chiarelli. Whether preparing to deploy for a specific 
mission or to remain ready for contingencies, Army units have 
maintained the fundamentals of FSOs which include offense, defense, and 
stability operations. The combat experience the Army gained in Iraq and 
Afghanistan has prepared us to serve elsewhere if required. 
Additionally, the Army relies on continuing professional military 
education to address skill degradation. Progressive educational 
opportunities throughout a leader's career exposes him/her to 
warfighting knowledge and skills required for operations across the 
spectrum of conflict. The Army will address skill degradation for major 
combat operations (MCO) by redesigning rotations undertaken by 
contingency forces at our Combat Training Centers. In fiscal year 2011, 
up to four brigades are scheduled to conduct FSO rotations which will 
prepare contingency forces for operations against hybrid threats under 
complex conditions.

    12. Senator Bayh. General Chiarelli, has the Army developed a plan 
to ensure that sufficient knowledgeable trainers are available for its 
forces, in light of the recent memo from General Dempsey, U.S. Army 
Training and Doctrine Command (TRADOC) commander, regarding the 
increased reliance on contractors to conduct training?
    General Chiarelli. Yes, the Army does have a plan to ensure 
training requirements are sufficiently resourced with the appropriate 
skill set. In a time of high demands on the Army, TRADOC and the Army 
staff must intensively manage our instructors to ensure quality 
training. In some areas, the most knowledgeable trainers are not 
soldiers. For example, new equipment training for unmanned aerial 
systems (UAS) require contractors because there are no qualified 
soldiers who can train this skill. Culture and language training is 
similar. The best instructors come from academia for complex languages 
such as Pashtu, Urdu, and Mandarin Chinese. In other areas, trainers 
with current experience from Iraq and Afghanistan are desirable but not 
critical. For example, training mechanics how to maintain and repair 
vehicles can be taught by a contractor or an Army soldier. The outcome 
in either case will be the same. Finally, there are areas that require 
a soldier as the trainer--initial military training, leader development 
training for junior officers, NCOs, and soldiers, and the Battle 
Command Training Program. As a result of General Dempsey's memo, the DA 
Staff and TRADOC leadership work closely to intensively manage 
instructors to ensure we have the most knowledgeable trainers at our 
training posts.

                          prepositioned stock
    13. Senator Bayh. General Chiarelli and General Amos, the current 
date to restore our prepositioned stocks of equipment around the globe 
is 2015. Not only have we had to draw equipment from our stocks to 
equip deploying units, new challenges have emerged as we field units 
with new types of equipment like the mine resistant ambush protected 
(MRAP) all terrain vehicle (M-ATV) and other urgent operational need 
items that are requested from the field commanders on the ground. Are 
we going to meet the 2015 goal to restore prepositioned stocks of 
equipment with our current levels of funding, and how are modifying our 
inventory and lifecycle logistical management processes to accommodate 
these new items, such as the MRAP vehicle and the M-ATV?
    General Chiarelli. If the Army prepositioned stocks (APS) fiscal 
years 2011-2015 base budget and Overseas Contingency Operation (OCO) 
funding requests are fully funded, we feel confident that we will 
restore our APS capability by fiscal year 2015. We are constantly 
assessing our APS strategy and equipment to ensure we maintain the 
right capabilities based on current and future operations and 
contingencies. These assessments will continue to influence the 
equipment we place in APS, as well as our APS facilities, vessels, and 
maintenance requirements. In addition, these assessments include the 
future integration of MRAP vehicles, to include the M-ATV, into our APS 
sets. The Army, in preparation for the transition of the MRAP program 
from the Joint Program Office to the Army, will establish an Army 
Program Management Office responsible for the fleet management and life 
cycle sustainment of these systems. Tank-Automotive and Armaments 
Command, in coordination with Defense Logistics Agency (DLA), is 
reviewing parts inventories while Army Materiel Command is establishing 
the necessary repair program to sustain these critical assets.
    General Amos. The Marine Corps will meet the reset goal early. Our 
Maritime Prepositioning Ships Squadrons (MPSRON) will be fully reset in 
2012 and the Marine Corps Prepositioning Program-Norway (MCPP-N) will 
be reset in 2013. Both Maritime Prepositioned Force (MPF) and MCPP-N 
will be reset within Marine Corps priorities as assets become 
available. With new inventory come attendant issues in lifecycle 
management. MRAPs and M-ATVs, for instance, were procured and deployed 
into Iraq and Afghanistan at a very rapid rate--resulting in numerous 
variants within the MRAP family inventory. With so many variants, the 
Marine Corps has had a tougher time procuring common spare parts, 
training mechanics on common systems, and resetting the vehicles as 
they return from Iraq as part of the drawdown.
    Nevertheless, we have adjusted our practices accordingly to 
modernize the equipment aboard the MPSRONs. We have begun loading the 
MPF with capabilities that are applicable across the full range of 
military operations--retaining the ability to generate Marine 
Expeditionary Brigades (MEB) capable of conducting MCOs while also 
providing assets that can support missions at the lower end of the 
spectrum.

    14. Senator Bayh. General Chiarelli and General Amos, currently we 
rely heavily on contractors for MRAP and M-ATV maintenance. What is the 
plan for the future and how are we ensuring we have an organic 
industrial capability to repair these combat vehicles and are we 
budgeting for such actions?
    General Chiarelli. Currently MRAP maintenance in theater is 
performed by a combination of both soldier-mechanics and contractor-
mechanics. The depot-level MRAP sustainment strategy has recently been 
approved. This strategy developed by the Joint Depot Maintenance 
Activities Group (consisting of all four Services within the DOD) 
designated Red River Army Depot and U.S. Marine Corps Logistics Command 
in Albany, GA and Barstow, CA as maintenance facilities responsible for 
MRAP depot level repair. The Army initiated a pilot repair program at 
Red River Army Depot in fiscal year 2010, and plans a pilot overhaul 
program for fiscal year 2014. The MRAP JPO is currently funding MRAP 
sustainment. The Army will program funding in the Program Objective 
Memorandum (POM) for fiscal years 2012-2016.
    General Amos. Currently, the MRAP JPO employs a hybrid support 
strategy consisting of organic (military and government personnel) and 
contractor assets for the maintenance, fielding, and sustainment of the 
MRAP family of vehicles. The hybrid strategy embeds JPO Field Service 
Representatives in units abroad as well as within domestically located 
Home Station Training facilities. While contractors are a key part of 
initial MRAP vehicle maintenance, fielding, and sustainment, the JPO is 
working towards a fully organic sustainment strategy within all the 
Services.
    Along with the above strategy, the Joint Depot Maintenance 
Activities Group designated Red River Army Depot and U.S. Marine Corps 
Logistics Command (LOGCOM) (Albany, GA and Barstow, CA) as depot 
maintenance facilities responsible for depot level repair of MRAPs in 
January 2009. The Army initiated a reset pilot program at Red River 
Army Depot in 3rd quarter fiscal year 2010 and a pilot overhaul program 
planned for fiscal year 2014. The Marine Corps has already initiated 
Proof of Principle actions at Maintenance Center, Albany, GA. These 
pilot programs will provide an initial national repair capability until 
a full depot sustainment program is established.
    The MRAP JPO is currently funding MRAP sustainment and the Services 
will program funding in POM 12-16. OCOs dollars will fund a level of 
reset for vehicles returning from Operation Enduring Freedom (OEF)/
Operation New Dawn (a.k.a. Iraqi Freedom) (OIF). The program's 
appropriated budget through fiscal year 2010 is $40 billion including 
$12.0 billion in OCO funding in fiscal year 2010. A total of $1.1 
billion to complete fiscal year 2010 requirements was received in the 
most recent OCO to address increase in vehicle procurement quantities. 
A total of $3.415 billion is requested in the fiscal year 2011 OCO for 
sustainment, retrofits, and reset requirements. Fiscal year 2012 and 
out-year requirements are under review to reflect decisions and 
assumptions regarding OIF drawdown and OEF demands, quantities planned 
for long- and short-term storage, and home station training.

                  army and marine corps reset concerns
    15. Senator Bayh. General Chiarelli and General Amos, as we draw 
down forces in Iraq, will you meet the timelines that have been set by 
the President, and what are the key challenges you face while 
increasing forces in Afghanistan?
    General Chiarelli. Yes. The drawdown of forces in support of OIF 
and the increase of forces in support of OEF will meet the required 
timelines. There is no direct competition for the resources needed to 
accomplish the force drawdown and force increase, because the Army 
synchronized both major tasks and de-conflicted resources accordingly. 
The plan supporting the drawdown of OIF forces is detailed and 
sufficient time is available to accomplish the mission. The execution 
of the drawdown is on track and going according to plan. The tasks 
associated with the increase in forces in support of OEF are well-
defined and being closely managed. Key challenges identified by the 
Army include the repositioning of selected units with sufficient 
deployment tour length remaining, from Iraq to Afghanistan. As forces 
drawdown in OIF, equipment to support the increased requirement in OEF 
has been identified and will be shipped to Afghanistan and configured 
for issue to units. OEF has some unique equipment requirements, such as 
the M-ATV, and the additional requirements have been identified in 
sufficient time to ensure the equipment is produced and shipped in 
advance of the unit arrival. The preparation of units identified to 
support the force increase have been given priority by the Army. The 
execution of the force increase is on track and going according to 
plan.
    General Amos. The Marine Corps met its portion of the 30,000 force 
increase in March of this year. We are now at a steady state of 19,401 
OEF Marine Air Ground Task Force in Afghanistan and can sustain that 
requirement as long as the Nation requires while meeting other 
combatant commander requirements.

    16. Senator Bayh. General Chiarelli and General Amos, to what 
extent has the Army and Marine Corps assessed the risks and developed 
mitigation strategies in the event the plans for the draw down and the 
surge in Afghanistan do not go as planned?
    General Chiarelli. The Army is on track to provide manned, trained, 
and equipped forces of the type and quantity requested by the Central 
Command (CENTCOM) commander. The lead brigade and enabling capabilities 
are already on their way to theater. If necessary, the Army will 
accelerate deploying units if requested by CENTCOM. While doing so, we 
continue to move toward our goal of restoring balance to soldiers and 
their families.
    General Amos. With a current force manning structure of 202,000, 
the Marine Corps will be able to sustain the current Afghanistan MAGTF 
requirement of 19,401 personnel for as long as necessary. In addition, 
the Marine Corps will continue to source a 3.0 Marine Expeditionary 
Unit (MEU) presence globally while fulfilling security cooperation (SC) 
foundation activities to the maximum extent possible.

                            equipment reset
    17. Senator Bayh. General Chiarelli and General Amos, you have 
expressed some concerns about the ability to adequately reset equipment 
returning from Iraq, while increasing operational support in 
Afghanistan, and preparing troops to respond to future contingency 
operations around the world. As the drawdown in Iraq continues, DOD and 
the Services can expect to see an increase in reset requirements as a 
result of force reductions in Iraq and a growing presence in 
Afghanistan. In addition, DOD industrial facilities and contractors 
will be depending on accurate demand signals to effectively and 
efficiently reset the right equipment, at the right time, according to 
the right priorities. Also, the Services maintain that U.S. forces can 
expect to participate in a long war that will require an enduring reset 
that will surpass OIF and OEF. Given these enormous challenges with 
resetting equipment to enhance the overall capability and readiness of 
forces, to what extent are equipping strategies and force generation 
models identifying the mix of numbers of equipment to be reset to 
support operations in Afghanistan or future threats, or is the demand 
for reset, as a practical matter, being driven by the type and numbers 
of equipment returning to the United States from Iraq?
    General Chiarelli. The ARFORGEN integrates units scheduled for 
deployment with units being replaced. We forecast our equipment reset 
requirements based on the ARFORGEN model, which depicts the unit relief 
in place, transfer of authority dates, and, consequently, equipment 
forecasted for retrograde. The order of induction for equipment into 
reset activities is prioritized based on demand. Our forecasting method 
is initially based on historical trends and then revised based on 
actual equipment returning from theater.
    General Amos. Operational needs in Afghanistan were a main driver 
in what was initially retrograded from Iraq. For example, approximately 
40 percent of the equipment in Afghanistan came from within theater, 
mainly from Iraq. Maintenance was conducted in Kuwait and then the 
required equipment was sent from Kuwait to Afghanistan. Because so much 
of the OIF equipment was sent to OEF, total reset actions have been 
deferred until we begin to drawdown our presence in Afghanistan.
    All equipment not diverted to support OEF has been retrograded to 
the continental United States (CONUS), and we are in the process of 
resetting that equipment. To help develop the requirements for OIF 
reset, and project costs for reset execution, the Marine Corps created 
the ground equipment reset cost model to estimate total reset cost. The 
model is a collection of ground equipment reset strategies for each 
equipment type deployed to the MARCENT theater. These strategies 
include: depot maintenance; field maintenance; new procurement; and no 
reset required. Reset strategies are tailored to individual equipment 
types based on a range of factors including relative age, density in 
theater, usage rates in theater, and other criteria. These reset 
strategies are routinely updated and validated though a comprehensive 
process. Managing this information for all deployed ground equipment 
enables more detailed maintenance, procurement, and disposal planning 
during reset execution.

    18. Senator Bayh. General Chiarelli and General Amos, how will 
force modernization or modularity priorities be weighed against short-
term Afghanistan specific needs when resetting equipment?
    General Chiarelli. Afghanistan is our number 1 priority. We 
anticipate being able to fill the vast majority of our equipment 
requirements for OEF with: (1) equipment retrograded from Iraq; (2) new 
procurement/production currently being received; (3) unit provided/
deployed equipment; and (4) equipment available from national level 
(depot) reset. New demands from Afghanistan, however, have not 
significantly impacted Army modernization or modular transformation 
efforts. We continue to modernize and transform to sustain our soldiers 
and provide the necessary capabilities to guarantee success in any 
mission or environment.
    General Amos. New procurement must play a major part in force 
modernization. For the last 9 years, the Marine Corps has been engaged 
in a land war and we have adapted. However, as we reconstitute our 
force to the future, we must focus on our roots of amphibious and 
expeditionary capabilities. Force modernization will thus focus on 
those capabilities that will prepare us for the next challenge.
    Afghanistan specific needs determined what equipment was sent 
directly from OIF to OEF. Now that the equipment has returned to CONUS, 
the Marine Corps continues to determine reset priorities according to 
several comprehensive processes. These processes will identify ground 
equipment challenges and recommend policies, actions, and equipment 
sourcing solutions to ensure ground equipment allocation aligns with 
prioritizations established by the Commandant.

    19. Senator Bayh. General Chiarelli and General Amos, to what 
extent do the Services expect reset to become an enduring component in 
the base budget to support long-term contingency operations?
    General Chiarelli. Reset is a cost of war, and therefore has 
historically been funded through supplemental appropriations. The Army 
is not planning for reset to become an enduring component in the base 
budget to support long-term named contingency operations. However, the 
Army will continue to require reset funding for equipment deployed to 
OIF and OEF as long as forces are deployed plus 2 to 3 years to ensure 
equipment serviceability and readiness is restored and equipment is 
ready for the next contingency.
    For other than named contingency operations, such as routine 
training or engagement exercises, equipment reset will be funded 
through the base budget.
    General Amos. Reset by definition is the cost to repair and replace 
equipment directly used in combat operations, thus it is not an 
enduring requirement and should not become a component of the base 
budget. Once OCO cease, a reset period of 2 to 4 years will commence to 
restore warfighting capabilities but will not remain a permanent 
baseline requirement.

                afghanistan supply and equipment support
    20. Senator Bayh. General Chiarelli and General Amos, the 
difficulties in transporting supplies and equipment to Afghanistan will 
be a challenge as DOD implements its plans to increase U.S. forces by 
30,000. Additionally, DOD must manage both the Afghanistan increase and 
Iraq drawdown at the same time, and the troop increase in Afghanistan 
will be dependent to some extent on equipment being retrograded from 
Iraq. Are you confident that you will be able to provide all the 
necessary supplies and equipment to deployed forces operating in 
Afghanistan when they need them?
    General Chiarelli. The plus-up of forces in Afghanistan and the 
drawdown of forces in Iraq are indeed challenges; however, I am 
confident that we will accomplish this mission. The Army works very 
closely with the CENTCOM, U.S. Transportation Command (TRANSCOM), the 
DLA, and multiple other supporting organizations to overcome the myriad 
of challenges.
    In doing so, we establish clear standards and have included 
enforceable metrics for our commercial carriers to ensure that required 
delivery times are met, that we maintain in-transit visibility of 
supplies and equipment, and that equipment and sustainment cargo is 
delivered in good order and condition.
    To optimize airlift capability, TRANSCOM and CENTCOM worked hard to 
maximize multi-modal operations (movement of cargo initially by sea and 
then by air from an airfield closer to Afghanistan), to minimize delays 
leading up to our required delivery dates, and to aggregate airlift 
requirements so as to produce more efficient and effective loads.
    Additionally, advancements in property accountability processes 
ensure that equipment no longer needed in Iraq is readily identified 
and offered for use in Afghanistan. This equipment is being sent 
through maintenance in Kuwait before being onward moved to Afghanistan. 
Furthermore, units redeploying from Afghanistan have been instructed to 
leave behind much of their equipment for follow on units in order to 
minimize the burden on the ground lines of communication leading into 
and out of Afghanistan.
    General Amos. Yes, we were successful in deploying equipment and 
supplies to meet the required timelines for the OEF surge and we 
continue to equip and sustain our forces deployed in Afghanistan. The 
Marine Corps units, personnel, and equipment tied to MAGTFs that are 
assigned to the CENTCOM commander are moved in accordance with the 
Time-Phased Force Deployment Document (TPFDD) within the Joint 
Operational Planning and Execution System (JOPES) as validated by 
CENTCOM and executed by TRANSCOM's organic and contracted commercial 
transportation assets. The Marine Corps sourced equipment for the surge 
using the TPFDD and JOPES procedures to ensure equipment was provided 
in accordance with the supported commander's priorities and plans in 
OEF.
    The sourcing of the OEF equipment requirement was accomplished 
using a combination of assets available in theater, mainly Iraq, that 
were mission capable or able to be brought to mission capable status in 
time to meet the OEF requirement, planned procurements, in stores 
assets, and through global sourcing from home station units.

    21. Senator Bayh. General Chiarelli and General Amos, have any 
units in Afghanistan reported that they have been unable to conduct 
their missions due to a lack of supplies and equipment?
    General Chiarelli. A review of readiness reports for units 
operating in Afghanistan from October 2009 to March 2010 indicates no 
Army units reported an inability to perform their assigned mission due 
to a lack of supplies or equipment. Headquarters, Department of the 
Army and U.S. Army CENTCOM work very hard to ensure that required 
equipment is on hand upon unit arrival in Afghanistan.
    General Amos. No Marine Corps units have reported that they have 
been unable to conduct their missions due to a lack of supplies and 
equipment. This is not to say readiness challenges do not exist for our 
units in Afghanistan. Although collectively our deployed forces 
continue to report the highest levels of readiness, it is also true 
that readiness challenges do exist for some units in Afghanistan and 
from time to time these units may experience a slight degradation in 
capability. Battle damage due to enemy action and the harsh operating 
environment are the prime factors; however, at no time have these 
factors prevented a unit from accomplishing its mission. A robust 
forward in stores program and principle end item (PEI) rotation process 
are designed to mitigate these challenges to our forward deployed 
units.

    22. Senator Bayh. General Chiarelli and General Amos, to what 
extent will the troop increase in Afghanistan be dependent on equipment 
retrograded from Iraq, and is there a risk the equipment needed from 
Iraq will not be available in the planned timeframes to support the 
Afghanistan troop increase?
    General Chiarelli. The Army has carefully developed a plan to 
resource equipment needed in Afghanistan from both domestic production 
and Iraq retrograde. Of the equipment required to resource the 
Afghanistan surge, 85 percent will come from domestic production and 15 
percent from Iraq retrograde. We are confident these resource 
quantities will be met, given that the Army has thoroughly analyzed the 
availability and throughput capability for theater refurbishment.
    General Amos. Approximately 40 percent of the equipment in 
Afghanistan came from within theater, mainly from Iraq. This equipment 
was mission capable or able to be brought to mission capable status in 
time to have met the OEF surge requirement.

    23. Senator Bayh. General Chiarelli and General Amos, what effect, 
if any, will use of equipment from Iraq to Afghanistan have on the 
plans to reset equipment for use in other future contingency 
operations?
    General Chiarelli. The expansion in Afghanistan will create a 
decline in national level (depot) reset requirements and production in 
the short term. Additionally, there will be an increased requirement 
for theater refurbishment of equipment as specific items are moved from 
Iraq to Afghanistan. We believe this will cause a delay in the Army 
achieving balance within 12 to 18 months.
    General Amos. The Marine Corps had initially forecasted to complete 
OIF ground equipment reset actions in fiscal year 2012; however, due to 
operational necessity, equipment scheduled for retrograde from OIF in 
2009 for reset beginning 2010, was diverted to OEF. As a result there 
are impacts to the reset plans, timeline, and budget required to 
execute reset; these impacts are in the process of being identified and 
analyzed.
    Because the Marine Corps held large quantities of equipment 
retrograded from Iraq to support the increased footprint in 
Afghanistan, the reset of a significant portion of equipment used in 
Iraq has been deferred beyond 2011. The majority of equipment that 
remained in theater consists of armored vehicles, including most of our 
deployed medium tactical fleet, our entire fleet of MRAP vehicles, 
light armored reconnaissance vehicles, and some theater-specific items.
    While the decision to leave wheeled vehicle fleets and other 
critical items in theater enabled a quick and seamless transition from 
Iraq to Afghanistan, those same assets drive a significant portion of 
the Marine Corps' total reset liability and depot maintenance costs. 
Foregoing reset actions now (e.g. field or depot-level maintenance) 
will undoubtedly result in higher than normal equipment wash-out rates 
and more costly depot repairs once the equipment is eventually able to 
be reset.
    The initial planning has commenced for drawing down forces in 
Afghanistan, which will follow the same planning process as was used 
for Iraq's drawdown. Equipment requiring reset actions will be included 
in the development of an OEF equipment reset plan and be retrograded to 
the maintenance depots at either Albany, GA or Barstow, CA or sent to 
other Service depots or commercial sources of repair for depot 
maintenance, modernization and rebuild, or field level maintenance 
repair actions. Following appropriate maintenance and repair actions, 
equipment will be returned to Ready For Issue (RFI) condition and is 
used to source Marine Corps equipment requirements in accordance with 
the Commandant of the Marine Corps' equipment priorities.

    24. Senator Bayh. General Chiarelli and General Amos, to what 
extent will the United States provide equipment to coalition forces, 
and what impact will this have, if any, on the flow of U.S. forces into 
Afghanistan?
    General Chiarelli. The U.S. Army provides equipment to our 
coalition partners using congressionally-granted authorities that will 
have no impact on the flow of U.S. forces into Afghanistan. It is in 
the best interest of our Nation to support our coalition partners with 
equipment, when feasible.
    In Afghanistan, we are building coalition partner capabilities in 
two ways. First, we are utilizing the authority granted under section 
1202 of the National Defense Authorization Act (NDAA) for Fiscal Year 
2007, whereby we can loan certain types of equipment (such as Up-
Armored HMMWVs, crew-served weapons, protective masks, and add-on armor 
kits) for up to 1 year to our coalition partners. Second, for other 
types of equipment outside the scope of section 1202, we utilize 
Acquisition and Cross-Servicing Agreements to loan equipment to our 
coalition partners.
    In Afghanistan, we are also enabling the Afghanistan National 
Security Forces (ANSF) to build their Minimum Essential Capabilities 
(MEC) through the following three authorities: Excess Defense Articles 
(EDA) (section 516 of the Foreign Assistance Act of 1961); Non-Excess 
(section 1234, NDAA for Fiscal Year 2010); and Sale from Stock (section 
21 of the Arms Export Control Act).
    In Iraq, we are transferring certain equipment to the Government of 
Iraq (GoI) to ensure they achieve their required MEC. As with the ANSF 
in Afghanistan, we are executing these equipment transfers through 
multiple authorities: EDA (section 516), Non-Excess (section 1234), and 
Sale from Stock (section 21). Additionally, we are also using Foreign 
Excess Personal Property (Federal Property and Administrative Services 
Act of 1949, as amended (40 U.S.C. 511-514)) authority to transfer 
operational bases to the GoI.
    General Amos. The Marine Corps has provided equipment to seven 
coalition nations contributing forces to Afghanistan and will continue 
to do so when tasked by the Joint Staff to the greatest extent possible 
without degrading our own ability to successfully accomplish our 
assigned mission. This level of commitment will not impact the 
deployment or employment of Marine Corps forces into Afghanistan.
    The Marine Corps has provided a significant quantity of vehicles 
and garrison equipment from stores within the CENTCOM AOR to the 
Georgian battalion serving as part of the Marine Expeditionary Force. 
Types of equipment provided from stores within theater include: MRAP 
vehicles, night vision devices, MRAP ambulances, force tracking 
systems, tactical radios, tactical trailers, GPS systems, medical 
supplies, IED jammer systems, and miscellaneous garrison equipment. The 
Marine Corps has also provided equipment under the Coalition 
Operational Needs Statement (CONS) process to the following coalition 
partner nations: Croatia, Czech Republic, Latvia, Georgia, Portugal, 
Polish, and Romania. The Marine Corps will maintain its combat 
readiness notwithstanding transferring equipment to coalition forces.

                    additional contracting concerns
    25. Senator Bayh. General Chiarelli and General Amos, further 
complicating DOD's redeployment from Iraq is the fact that DOD will be 
simultaneously transitioning several major support contracts in Iraq, 
including the Logistics Civil Augmentation Program (LOGCAP) contract, 
during the height of the redeployment, which may lead to interruption 
of services. What actions are the Services taking to mitigate the 
potential adverse impact of these contract transitions during the 
drawdown?
    General Chiarelli. The Army strategy to transition from LOGCAP III 
to IV in Southwest Asia was built on two fundamental principles: to 
minimize the effect on the operational commander in the field, and to 
make sound business decisions in order to be good stewards of 
resources. We built our transition plan to start in the most benign 
environment (Kuwait) and progressively move to the most challenging 
theaters (Afghanistan and Iraq). Our plan allowed us to build upon 
lessons learned as we progressively increased contract task order 
scale, scope, and complexity.
    In February 2010, the Rock Island Contracting Center, a subordinate 
command of the Army Contracting Command, awarded a LOGCAP IV task order 
to Kellogg Brown and Root Services (KBR) for the provision of Corps 
Logistic Support Services, Postal Services, and the Theater 
Transportation Mission in Iraq. KBR conducts a phased transition to the 
new task order beginning 15 May 2010; the projected completion date is 
1 September 2010. This will complete transition of one of the two 
remaining LOGCAP III task orders in Iraq.
    ARCENT conducted the Business Case Analysis (BCA) on whether to 
transition the remaining LOGCAP III task order (for Base Life Support) 
in Iraq LOGCAP IV, and the Office of the Deputy Assistant Secretary of 
the Army for Cost and Economics validated the methodology and results. 
The Army used that BCA to determine the best course of action for BLS 
in Iraq. At this time, the final decision on whether to transition the 
BLS task order from LOGCAP III to IV is still pending.
    General Amos. The drawdown of the Marine Corps component from Iraq 
and subsequent transition to operations in Afghanistan was conducted 
seamlessly and did not result in a curtailment of support contracts 
such as the LOGCAP. Marines operating in Afghanistan continue to 
benefit by LOGCAP support services; the LOGCAP is currently managed by 
the U.S. Army.

    26. Senator Bayh. General Chiarelli and General Amos, what specific 
factors are the Services considering as it weighs whether to proceed 
with the transition to the new LOGCAP contract for base and life 
support in Iraq?
    General Chiarelli. While examining whether to proceed from LOGCAP 
III to LOGCAP IV, the Army considered the following factors: the 
operational impact of any transition, the BCA of alternative courses of 
action, and the ability of the LOGCAP III contractor to perform the 
mission.
    Headquarters, U.S. Forces-Iraq assessed the operational impact of a 
possible transition. Headquarters, ARCENT conducted a BCA, and the 
Office of the Deputy Assistant Secretary of the Army for Cost and 
Economics validated the BCA. The BCA assessed four courses of action 
using a list of operational and financial criteria. The criteria 
included: timing--executable within existing security agreement 
timeline; sufficiency--provides the required level of base life support 
services in Iraq; legality--meets the Federal Acquisition Regulation 
requirements; and funding--sufficient funding available. The BCA 
analysts weighed the criteria based on their relative importance to 
each other. The Defense Contract Audit Agency provided advisory 
services to the ARCENT Comptroller in support of the analysis. DOD 
Inspector General and the Defense Contract Management Agency (DCMA) 
also reviewed the BCA and endorsed its conclusions.
    DCMA continues to assess the ability of the current LOGCAP III 
contractor to perform the mission. In March 2010, the Administrative 
Contracting Officer advised the Procuring Contracting Officer that 
KBR's accounting, estimating, and purchasing systems, as well as its 
cost accounting standards disclosure statements, were adequate and in 
accordance with applicable regulations.
    General Amos. The Marine Corps continually seeks ways to increase 
its combat potential within programmed resource allocations. The use of 
contractors in combat theaters of operations such as Iraq and 
Afghanistan has allowed the Marine Corps to effectively release 
military units for other missions or to fill support shortfalls. The 
Department of the Army-managed LOGCAP includes all pre-planned 
logistics and engineering/construction-oriented contingency contracts 
actually awarded, and peacetime contracts which include contingency 
clauses. LOGCAP is primarily designed for use in areas where no 
bilateral or multilateral agreements exist. LOGCAP support services are 
also used effectively during CONUS mobilizations to assist support 
bases in preparing forces for mobilization.

           support for urgent need and nonstandard equipment
    27. Senator Bayh. General Chiarelli and General Amos, approximately 
$11.7 billion of equipment in Iraq currently belongs to military units 
and will be returning with those units when they redeploy to the United 
States. The remainder includes theater provided equipment comprised of 
$10.2 billion in standard military gear and about $2.9 billion in 
nonstandard gear. As we increase troop levels in Afghanistan, the Army 
and Marine Corps have been adjusting their plans to redeploy equipment 
from Iraq. Some of this redeploying equipment, which was scheduled to 
return to the United States, is now being redirected to units headed to 
Afghanistan. In addition, some forces will move directly from Iraq to 
Afghanistan. Can you tell me to what extent the theater-provided 
equipment in Iraq will be returned to the United States for reset 
versus being repaired or reset in theater before being shipped to 
Afghanistan to support the surge there?
    General Chiarelli. Every piece of equipment being redirected from 
Iraq to Afghanistan will be inspected and refurbished as necessary to 
ensure its serviceability before arrival in Afghanistan. We are not 
planning to ship any equipment currently in Iraq to the United States 
for reset and then transport the same equipment to Afghanistan. 
Shipping to, and reset in, the United States would consume too much 
time for this to be a viable option. Some equipment that is currently 
inducted in national-level depot reset, however, may be available in 
time for shipment to Afghanistan to meet requirements.
    General Amos. All theater provided equipment (TPE) carried by 
Marine Corps forces in Iraq was turned over to the Army prior to 
redeployment. The Marine Corps' Marine Expeditionary Force (Forward) 
(MEF (Fwd)) in Afghanistan carries limited amounts of TPE as part of 
its deployed equipment density list (EDL). As was the case in Iraq, all 
TPE in Afghanistan is provided to the Marine Corps by the Army. Upon 
redeployment, or as TPE is no longer required for deployed operations, 
it will be returned to the Army. All other equipment on the MEF (Fwd) 
EDL--whether it is standard or ``non-standard'' equipment--is currently 
planned for redeployment to CONUS and reset.

    28. Senator Bayh. General Chiarelli and General Amos, to what 
extent are we pulling from our prepositioned equipment to support the 
surge in Afghanistan?
    General Chiarelli. Over the past 2 years, more than 2,600 pieces of 
APS equipment have been issued in support of operations in Iraq and 
Afghanistan. The use of this APS equipment resulted in delaying the 
completion of rebuilding the APS-5 Heavy Brigade Combat Team (HBCT) by 
1 year, from March 2010 to March 2011. Examples of equipment drawn are 
tactical wheeled vehicles (TWV), trailers, engineer equipment, material 
handling equipment, communication equipment, and generators. We are 
planning to address these shortages through repaired and reset 
equipment retrograded from Iraq, as well as equipment coming from 
depots and new production.
    General Amos. For Afghanistan, MCPP-N provided 41 principal end 
items to support the establishment of MEB-A in January 2010. Meanwhile, 
there were 298 principal end items downloaded at Blount Island Command 
that were shipped to Afghanistan to also support MEB-A.
    Equipment from MPSRON-1 was required to outfit new units standing 
up fiscal year 2007 and fiscal year 2008 as part of our end strength 
increase to 202,000 marines. Equipment from MPSRON-2 was offloaded to 
support OIF II.

    29. Senator Bayh. General Chiarelli and General Amos, will the TPE 
returning from Iraq be repaired or reset in theater to replace 
prepositioned equipment drawn to support the Afghanistan surge?
    General Chiarelli. Yes, prior to TPE being completely retrograded 
out of theater, CENTCOM will make determine if the equipment can be 
repaired in theater to be sourced against a theater requirement, to 
include specific APS needs. We have already begun using repaired TPE 
(i.e., vehicles, radios, generators, and other support equipment) to 
fill some of our APS shortages. We will continue to use a combination 
of repaired and reset equipment retrograded from Iraq, as well as 
equipment coming from depots and new production to replace our 
prepositioned equipment.
    General Amos. All TPE carried by Marine Corps forces in Iraq was 
turned over to the Army prior to redeployment. The Marine Corps' MEF 
(Fwd) in Afghanistan carries limited amounts of TPE as part of its 
deployed EDL. As was the case in Iraq, all TPE in Afghanistan is 
provided to the Marine Corps by the Army. Upon redeployment, or as TPE 
is no longer required for deployed operations, it will be returned to 
the Army. All other equipment on the MEF (Fwd) EDL--whether it is 
standard or ``non-standard'' equipment--is currently planned for 
redeployment to CONUS and reset.

    30. Senator Bayh. General Chiarelli and General Amos, what are the 
plans for the reset and sustainment of the almost $3 billion in 
nonstandard gear that we have rapidly acquired to support urgent 
warfighter needs?
    General Chiarelli. We fully recognize that Non-Standard Equipment 
(NS-E) has played a significant role in enhancing the Army's 
capabilities. The Army has established a process called ``Capabilities 
Development for Rapid Transition (CDRT),'' to determine the long-term 
plan for NS-E, which classifies NS-E into three categories:

     (1)  Acquisition Program Candidates (APC): This is equipment which 
has been determined to have long-term applicability to Army equipping 
requirements, and so will be assigned to a program manager for movement 
through the formal Joint Capabilities Integration and Development 
System (JCIDS). All APC equipment will be reset upon its return and 
will eventually be issued to units in accordance with an approved Basis 
of Issue Plan (BOIP). The Army will manage these capabilities like any 
other acquisition program, with sustainment planned as part of the 
systems lifecycle.
     (2)  Sustain: This is equipment found to be useful for current 
operations in Afghanistan and Iraq, and so will be reset and continue 
to be used in OEF and Operation New Dawn (OND). When no longer required 
in OEF and OND, it may be placed in War Reserve or Operational Project 
Stocks, or may be disposed of, depending upon how current the 
technology remains.
     (3)  Terminate: This is equipment that the Army has determined is 
no longer militarily useful, and will therefore be disposed of. If 
feasible, disposal might be through Foreign Military Sales (FMS).

    General Amos. The Marine Corps principally uses the Expeditionary 
Force Development System (EFDS) to determine requirements for 
warfighting capabilities, to include equipment fielded by nonstandard 
methods. That equipment is typically fielded via either the Service's 
Urgent Needs Process (UNP) or the Joint Urgent Operational Needs (JUON) 
process. EFDS, conducted throughout each POM cycle, includes a bottom-
up component that reviews each item of NS-E, first with respect to the 
capability gaps those items are intended to resolve. If validated, they 
are approved as entries to the MAGTF Gap List (MGL) by the Marine 
Requirements Oversight Council (MROC) led by the Assistant Commandant 
of the Marine Corps. Solution strategies are then developed to address 
each gap, which might include new technologies. If the particular item 
of NS-E is judged the best plan to provide a solution, it is included 
on the MROC-approved MAGTF Requirements List (MRL). Finally, the MRL is 
used to identify and prioritize initiatives for inclusion in the 
upcoming POM. In every case, investment in NS-E depends upon the 
establishment of that particular item as an enduring Marine Corps 
requirement. The Marine Corps will address the reset of NS-E once CD&I 
has determined what equipment will remain a part of the Marine Corps 
inventory.

    31. Senator Bayh. General Chiarelli and General Amos, have you 
determined how much of this NS-E has proven useful and therefore should 
be reset and sustained? If not, what are your plans for this equipment 
and where are you in executing that plan?
    General Chiarelli. The Army has established the CDRT to determine 
the long-term plan for NS-E. Through this program, NS-E will be 
classified into three categories:

     (1)  APC: This is equipment which has been determined to have 
long-term applicability to Army equipping requirements, and so will be 
assigned to a program manager for movement through the formal JCIDS. 
All APC equipment will be reset upon its return and will eventually be 
issued to units in accordance with an approved Basis of Issue Plan 
(BOIP). The Army will manage these capabilities like any other 
acquisition program, with sustainment planned as part of the systems 
lifecycle.
     (2)  Sustain: This is equipment found to be useful for current 
operations in Afghanistan and Iraq, and so will be reset and continue 
to be used in OEF and OND. When no longer required in OEF and OND, it 
may be placed in War Reserve or Operational Project Stocks, or may be 
disposed of, depending upon how current the technology remains.
     (3)  Terminate: This is equipment that the Army has determined is 
no longer militarily useful, and will therefore be disposed of. If 
feasible, disposal might be through FMS.

    The Army has coordinated and synchronized processes at every level 
to properly account for and dispose of equipment. We have established 
metrics for monitoring our progress and are currently on track in 
capturing accountability and disposition of our equipment.
    General Amos. A large percentage of NS-E has proven very useful to 
our Marine Corps forces operating in theater. And, the investment of 
those nonstandard items for future use depends upon the establishment 
of the particular item as an enduring Marine Corps requirement.
    The Marine Corps uses the EFDS to determine requirements for 
warfighting capabilities, to include equipment fielded by nonstandard 
methods. That equipment is typically fielded through what is known as 
the UNP or the JUON process, which includes a bottom-up review of each 
item of NS-E. If validated, the equipment is approved as entries to the 
Marine Air-Ground Task Force (MAGTF) Gap List by the MROC. If the NS-E 
is determined to be an enduring requirement, it is included on the 
MROC-approved MAGTF Requirements List. The MAGTF Requirements List is 
then used to identify and prioritize initiatives for inclusion in the 
upcoming POM.
    The Marine Corps is continuing to determine plans for the use of 
nonstandard items. However, current estimates project that 
approximately 47 percent of all equipment repaired in 2010 will be 
repaired either at a depot or field level maintenance facility, and 36 
percent of the returning equipment will be replaced. The remaining 
percentage includes items for which no reset action will be taken. This 
includes theater-specific items which have no intended usage beyond 
OIF, or items that can be placed directly back into the Marine Corps 
inventory with no further maintenance action required.

                           marine corps reset
    32. Senator Bayh. General Amos, the Marine Corps seems to be facing 
a lot of unanswered questions that will affect its total requirement 
for equipment reset. The Marine Corps is requesting billions of dollars 
to repair its battle-worn equipment, but at the same time there are 
questions regarding whether the Marine Corps should be procuring new 
lighter equipment to support it expeditionary roots. To what extent 
does the Marine Corps know what equipment it will reset through new 
procurement, rather than through repair and recapitalization?
    General Amos. The reset cost model shows what equipment is in the 
MARCENT AOR and how the Marine Corps projects how they will reset that 
equipment. Reset includes the projection of field level maintenance, 
depot level maintenance, or new procurement to replace items based upon 
the developed reset cost model. The reset of ground equipment returning 
from the MARCENT AOR will be challenging as we rebalance resources to 
support ongoing combat operations, rearm, and reposition forces around 
the world.
    As we retrograde and redeploy, a significant number of principal 
end items (PEI) must be reset in a timely manner to sustain continued 
operations, reset home station units and strategic programs such as our 
MPF. The reset of ground equipment returning from combat generally 
falls into four categories. They are: (1) procurement/replacement; (2) 
depot maintenance; (3) field maintenance; and (4) no maintenance 
required. Each category has a separate logistics action. The initial 
assessment of equipment being redeployed takes place in theater by 
forward deployed elements of Marine Corps Logistic Command (MCLC). 
Using a triage methodology, we determine the type of reset action 
required and take appropriate measures based on that assessment. Some 
equipment that is determined to be beyond repair will be disposed of in 
theater. Equipment that is economical to repair will be directed to an 
appropriate level maintenance facility, typically here in CONUS. Where 
necessary, the Marine Corps Systems Command (MCSC) will procure 
replacements for equipment which is beyond economic repair or obsolete. 
New procurement will play a major part in force modernization.
    Equipment retrograded or redeployed from theater is inspected to 
determine if depot level repairs are required. The use of DOD core 
depot maintenance capabilities play a critical role in the reset of 
ground equipment. The goal of depot operations is to restore equipment 
to full capability as quickly as possible. Ground equipment repaired at 
designated depot-level repair activities will normally undergo 100 
percent overhaul/rebuild. However, Inspect and Repair Only as Necessary 
(IROAN) and Selective Overhaul and Repair (SOAR) programs are viable 
options when determined to be a more effective and efficient means to 
return equipment to full mission capability and back into the hands of 
marines.

    33. Senator Bayh. General Amos, how much of the Marine Corps 
equipment returned from Iraq was actually in good enough condition that 
it could be repaired and sent to Afghanistan?
    General Amos. Approximately 40 percent of the equipment in 
Afghanistan came from within theater, mainly from Iraq. Maintenance was 
conducted in Kuwait and then the required equipment was sent from 
Kuwait to Afghanistan. Because so much of the OIF equipment was sent to 
OEF, total reset actions have been deferred until we begin to drawdown 
our presence in Afghanistan. Equipment from OIF which was not 
redirected, returned to CONUS to be inducted into the reset process. As 
the reset process continues, that equipment will continue to be fielded 
across the enterprise to fill equipment requirements in accordance with 
the CMC Priority List.

    34. Senator Bayh. General Amos, how did the Marine Corps make up 
the difference, and what is the status and plans for the Marine Corps 
equipment that was not diverted to Afghanistan?
    General Amos. Marine Corps forward deployed forces have the 
resources and equipment needed to conduct operations in support of OEF, 
but this has come at the expense of our home station, nondeployed 
units. For example, equipment used to support OIF that was scheduled to 
go through a depot overhaul has now been redirected to support OEF. As 
a result, we expect much higher than normal wash-out rates and more 
costly depot repairs when the equipment is eventually reset. This 
increased cost will be significant considering that over 40 percent of 
the equipment in Afghanistan was sourced from the CENTCOM theater (most 
of that coming from Iraq). Of the equipment that was retrograded to 
CONUS a significant portion was deemed obsolete or unsuitable for 
future use by the Marine Corps. In addition to shifting equipment from 
Iraq to Afghanistan, we drew heavily from the home station, nondeployed 
units. This resulted in an additional 5 to 10 percent decrease in 
equipment supply readiness for home station units, which directly 
impacts our preparedness for contingencies beyond Afghanistan. In 
short, we have assumed considerable risk within our nondeployed 
operational units where EOH currently averages 60 percent of the 
requirement.
    Prior to the decision to deploy additional forces to OEF, the 
Marine Corps planned on performing depot maintenance on over 12,000 
retrograded items, and field maintenance on over 24,000 items in fiscal 
year 2010. Due to the diversion of equipment to support our increased 
footprint in Afghanistan, we now expect that depot maintenance will be 
performed on approximately 6,100 retrograded items, and field 
maintenance on approximately 10,000 items in fiscal year 2010.
    The process of reset execution is further integrated via the Marine 
Corps Logistics Command-led Enterprise Level Maintenance Program 
(ELMP). This is a comprehensive program that plans, programs, budgets 
for, and executes requirements for depot level maintenance. Once 
retrograded equipment is repaired through depots or via field 
maintenance, the process of filling equipment requirements is guided by 
the Commandant of the Marine Corps Equipment Priority List.

                       navy changes in crew size
    35. Senator Bayh. Admiral Greenert, in the interest of increasing 
efficiencies and saving costs, the Navy has implemented several 
initiatives over the past several years, including reducing the size of 
crews assigned to surface combatants, shifting from hands-on to more 
computer-based training for basic engineering and other courses. At the 
same time, ships are facing increased mission requirements, such as for 
force protection and ballistic missile defense (BMD). To what extent 
has the Navy evaluated the impact of these changes in crew size and 
training on the ability of ships to maintain readiness, perform all 
required missions, and pass all required inspections?
    Admiral Greenert. Navy has incorporated the manpower requirements 
associated with force protection and BMD within our ship manpower 
documents across the surface force where applicable. Additionally, Navy 
has addressed the impacts of reduced crew manning. Within Program 
Review 2011, we have added 16 Engineman billets in LSD 41 class ships 
and 35 Machinist Mate billets in LHD 1 class ships to mitigate some 
impacts of optimal manning crew reductions. We are also evaluating the 
feasibility of restoring manpower within other surface ships.
    Navy has focused efforts to deliver additional training to the 
waterfront and leveraged lessons learned to establish a blended 
training solution, which combines computer based training with 
traditional instructor-led training that, includes seminars and 
practical application in laboratories featuring hands-on training using 
both equipment and high fidelity simulators. This method utilizes the 
cost benefits of computer-based training to produce a more competent 
sailor. Billets for afloat-training have been increased to provide the 
warfighter increased access to subject matter experts while in port or 
during local operations. New programs, such as Advanced Warfare 
Training, taught by the Center for Surface Combat Systems, deliver 
waterfront training to the sailor to build confidence in maintaining 
the combat systems suite, operator proficiency, and the ability to work 
in a team environment.

                         air force key enablers
    36. Senator Bayh. General Chandler, given the growing reliance on 
the Air Force to provide key enabling support capabilities to ongoing 
operations, such as military police and engineers, what impact has this 
had on force readiness?
    General Chandler. The reliance on the Air Force to provide key 
enabling support capabilities through Joint Expeditionary Taskings 
(JET) degrades overall Air Force unit readiness by diminishing from 
organized, trained, and equipped unit numbers. For each augmentee that 
is tasked, an Air Force capability is degraded by not having its full 
complement of deployment ready personnel. For example, over the last 
year, the Air Force provided on average 1,025 personnel to fill 
military police (MP)-like capabilities. This amounted to roughly 25 
percent of the total deployment requirements for Air Force Security 
Forces. These missions have included Police Transition Teams, Detainee 
Operations, Law and Order Detachments, and the like. In addition, 
augmentee sourcing is generally supported by Field Grade Officers and 
Senior Noncommissioned Officers (NCO), which adversely affects unit 
leadership, training, and capability. As an example, Civil Engineering 
officers are 1 of 11 stressed officer career fields and 8 of 17 
stressed enlisted career fields are within Civil Engineering. Air Force 
end strength does not account for augmentee tasks which are over and 
above postured capability. In addition to MP and engineers, augmentees 
tend to be tasked from high-tempo capability areas such as 
Intelligence, Communications, Logistics Readiness, et cetera, further 
exacerbating sustainment of rotational sourcing.

    37. Senator Bayh. General Chandler, given that these requirements 
are expected to continue, does the Air Force have plans to adjust its 
force structure to increase the inventory of these capabilities?
    General Chandler. The Air Force is ``all in.'' We size our human 
capital inventory based on long-term stability needs, therefore the Air 
Force does not plan to increase the inventories in these capabilities. 
We are taking steps to mitigate the high tempo on individual airmen. We 
continue to execute enlisted retraining programs both for first-term 
airmen and NCOs and are implementing a formal officer crossflow program 
to do the same for our officer force. We have protected high OPTEMPO 
career fields where possible from force management actions as we strive 
to meet overall end strength. These efforts will help maintain the 
proper inventory in enabling support capabilities and shape the force 
to meet current and emergent Air Force missions.

    38. Senator Bayh. General Chandler, on April 2, at an Air Force 
Association-sponsored breakfast, Air Force Chief of Staff General 
Schwartz told reporters, ``a service life extension program (SLEP) for 
aging F-15 and F-16 fighters would cost about 10 to 15 percent of what 
it would costs to buy new aircraft.'' Yet my staff has been told that 
to execute SLEP and increase from 8,600 flying hours to 10,000 flying 
hours will cost approximately $25 million per aircraft, while the cost 
of a new aircraft is approximately $42 million. This doesn't make 
fiscal sense. What is the engineering data and explanation behind the 
comments made by General Schwartz?
    General Chandler. SLEP of current fighters provides essentially the 
same capability as new fourth generation fighters. The Air Force 
determined that SLEP costs about 10 to 15 percent of new aircraft based 
upon a comparison of current estimates for procurement of new fourth 
generation fighters (F-15E+, F-16 B50+, F/A-18 E/F) and a POM quality 
estimate for F-16 B40/50 SLEP (structure and avionics). The estimate of 
10 to 15 percent is considered to be in the heart of the envelope of 
procuring new aircraft after considering many variables including 
quantity, multi-year versus single year procurement, and structural 
upgrade only versus modernization. New aircraft such as the F-16 B50+ 
range in price from $54.3 million to $59.8 million and new F-15+ from 
$76.4 million to $87.3 million; the cost to SLEP an F-16 B40/50 is 
$8.69 million per aircraft, all in base year 2010 dollars. SLEP cost 
estimates were provided by F-16 System Program Office, and included 
structural upgrade (SLEP), Active Electronically Scanned Array (AESA) 
radar, Center Display Unit (CDU), ALQ-213 EW Management System (EWMS), 
and Integrated Broadcast Service (IBS). Costs were validated by the Air 
Force costing agency and the Government Accountability Office (GAO) has 
reviewed them. The quoted figure of $25 million per aircraft SLEP is a 
Navy estimate for the F-18.
    Bottom line, the cost of a SLEP depends on the modernization 
options selected but 10 to 15 percent of the cost of new procurement 
bounds most options.

    39. Senator Bayh. General Chandler, have these figures of 10 to 15 
percent been validated by DOD and by the Capability Assessment and 
Program Evaluation (CAPE) office or anyone else?
    General Chandler. The CAPE office has not validated these numbers, 
but the Air Force costing agency and the GAO have reviewed them. 
Results of these reviews are pending.

    40. Senator Bayh. General Chandler, currently, the Air Force may 
deploy individuals or parts of units to meet the requirements of 
combatant commanders. However, I'm concerned it does not reflect the 
impact of these deployments in reporting the readiness of nondeployed 
units. Specifically, for readiness reporting purposes, a nondeployed 
unit reports as if it has all its personnel and capabilities even 
though some may be deployed. Doesn't this mask the true readiness of 
Air Force units?
    General Chandler. Joint Staff Status of Resources and Training 
System (SORTS) guidance (CJCSM 3150.02) allows the counting of 
personnel as `available' if they are available within the forecasted 
mission or alert response time. For those units that have a mission 
response time that would permit its deployed personnel to be ready to 
redeploy to another contingency within the unit's mission response 
time, it is appropriate for them to count those personnel as available. 
For those personnel that would not be available within mission response 
time, units count them as unavailable and this is reflected in their 
overall SORTS rating. In addition, the Joint Staff guidance assumes 
that appropriate deployment orders have been received. By adhering to 
the Joint Staff guidance, the true readiness of Air Force units is 
presented to senior leadership for contingency sourcing, and the 
readiness of Air Force units is not masked. While we currently adhere 
to CJCSM 3150.02, the Air Force believes it can improve its readiness 
reporting and is undertaking an effort to develop an improved reporting 
process.

                      reduction in army readiness
    41. Senator Bayh. General Chiarelli, while we work to support the 
surge of forces in Afghanistan and the drawdown in Iraq, we are reliant 
upon sufficient ground transportation capabilities for the movement of 
soldiers, equipment, and supplies. The fiscal year 2011 budget 
indicates that there will be a 2-year gap in the procurement of 34-ton 
flatbed semitrailers as well as similar pauses in other classes of 
heavy ground transportation assets for the Army. How does the Army plan 
cover this procurement shortfall?
    General Chiarelli. The Army has met its fiscal year 2011 
requirement for the 34-ton flatbed trailer and is not projected to 
procure more trailers at this time. We currently are authorized 8,001 
trailers and have 8,632 on-hand.
    The Army plans to procure new Palletized Load System trucks through 
fiscal year 2011, Heavy Equipment Tractors through fiscal year 2012, 
Heavy Expanded Mobility Tactical Trucks Light Equipment Tractor and 
Load Handling System Trucks through fiscal year 2016, and the 40-ton 
trailers through fiscal year 2016. This will continue until the Army 
meets its acquisition objective for each of these systems. 
Additionally, the Army will focus on Heavy Tactical Vehicles and 
Trailers through fiscal year 2025 to extend the service life of its 
vehicles through recapitalization and modernization of older truck 
variants to the current armor-capable configurations. The Army will 
reduce sustainment costs by divesting the oldest vehicle and trailer 
variants that are excess or are being replaced by new production.

    42. Senator Bayh. General Chiarelli, what is the projected rate of 
loss for these types of trailers both to obsolescence and hostile 
action?
    General Chiarelli. Since 2007, the washout rate for 34-ton flatbed 
semitrailers at our depots is 1.5 percent. We do not have a reported 
combat loss of these trailers since 2007. In 2007, three 34-ton flatbed 
semitrailers were lost to combat operations, and in 2006, four were 
lost to combat operations.

    43. Senator Bayh. General Chiarelli, how many 34-ton flatbed 
semitrailers, if any, will be left in Iraq and therefore unavailable 
for use in Afghanistan?
    General Chiarelli. Afghanistan is our first priority for the 
redistribution of equipment coming out of Iraq. Any 34-ton flatbed 
semitrailers that are not mission essential in Iraq will be sent to 
support operations in Afghanistan as required. We do not plan to leave 
any 34-ton flatbed semitrailers in Iraq.

    44. Senator Bayh. General Chiarelli, why is the Army opening 
competition for one type of trailer (M872A5, 34-ton) but procuring 
another (M871A3, 22-ton) via the General Services Administration (GSA) 
schedule?
    General Chiarelli. The M871A3 is a commercial 22\1/2\ ton trailer 
that has been altered and modified to include military specific 
requirements such as a blackout lighting system trailer, lifting and 
tie down provisions, stream/river fording capability, prime mover 
compatibility, and can transport up to one 20-foot International 
Organization for Standardization (ISO) container or cargo. 10 U.S.C. 
2304 and 41 U.S.C. 253, requires, with certain limited exceptions, that 
contracting officers shall promote and provide for full and open 
competition in soliciting offers and awarding government contracts. In 
the case of the M871A3, the Army is procuring the trailer via the GSA 
Schedule because it is readily available and GSA is listed as an 
acceptable competitive procedure in accordance with Federal Acquisition 
Regulation (FAR) 6.102(d)(3). The configuration of the M871A3 available 
on the GSA Schedule has been tested to verify conformance to the Army's 
required performance capabilities and Type Classified.
    The Army requirement for the 34-ton M872 trailer is to transport a 
single 40-foot or two 20-foot ISO containers, palletized cargo, or 
light combat or tactical vehicles. Unlike the M871A3, the M872A4 does 
not have a GSA option that meets the Army's requirement to transport a 
single 40-foot or two 20-foot ISO containers. Therefore, the Army must 
compete its future procurements of M872 Series 34-ton semitrailers as 
prescribed by law and in the FAR.

    45. Senator Bayh. General Chiarelli, do the flatbed semitrailers 
procured off the GSA Schedule need to meet the same testing and 
performance requirements as those which are procured on a competitive 
basis? If not, why not?
    General Chiarelli. Yes, the flatbed semitrailers procured off the 
GSA Schedule need to meet the same testing and performance 
requirements. The M871A3s that the Army is procuring off the GSA 
Schedule were extensively tested by the Army at the Aberdeen Test 
Center from May 1999 through January 2002. The performance requirements 
to which the M871A3s have been procured were addressed within a GSA 
commercially-available performance specification. This trailer 
specification was modified to address military-specific performance 
requirements such as a blackout lighting system, trailer-lifting and 
tie-down provisions, ammunition transport capability, an upgraded 
suspension system to handle the rigors of off-road tactical mobility, 
and painting with Chemical Agent Resistant Coating (CARC).
                                 ______
                                 
     Questions Submitted by Senators Evan Bayh and Roland W. Burris
                           marine corps reset
    46. Senator Bayh and Senator Burris. General Amos, the Marine Corps 
seems to be facing a lot of unanswered questions that will affect its 
total requirement for equipment reset. The Marine Corps is requesting 
billions of dollars to repair its battle-worn equipment, but at the 
same time there are questions regarding whether the Marines should be 
procuring new lighter equipment to support it expeditionary roots. To 
what extent does the Marine Corps know what equipment it will reset 
through new procurement, rather than through repair and 
recapitalization?
    General Amos. The Reset Cost Model shows what equipment is in the 
MARCENT AOR and how the Marine Corps projects will reset that 
equipment. Reset includes the projection of field level maintenance, 
depot level maintenance, or new procurement to replace items based upon 
the developed Reset Cost Model. The reset of ground equipment returning 
from the MARCENT AOR will be challenging as we rebalance resources to 
support ongoing combat operations, rearm, and reposition forces around 
the world.
    As we retrograde and redeploy, a significant number of principal 
end items (PEI) must be reset in a timely manner to sustain continued 
operations, reset home station units and strategic programs such as our 
MPF. The reset of ground equipment returning from combat generally 
falls into four categories. They are: (1) procurement/replacement; (2) 
depot maintenance; (3) field maintenance; and (4) no maintenance 
required. Each category has a separate logistics action. The initial 
assessment of equipment being redeployed takes place in theater by 
forward deployed elements of MCLC. Using a triage methodology, we 
determine the type of reset action required and take appropriate 
measures based on that assessment. Some equipment that is determined to 
be beyond repair will be disposed of in theater. Equipment that is 
economical to repair will be directed to an appropriate level 
maintenance facility, typically here in CONUS. Where necessary, the 
MCSC will procure replacements for equipment which is beyond economic 
repair or obsolete. New procurement will play a major part in force 
modernization.
    Equipment retrograded or redeployed from theater is inspected to 
determine if depot level repairs are required. The use of DOD core 
depot maintenance capabilities play a critical role in the reset of 
ground equipment. The goal of depot operations is to restore equipment 
to full capability as quickly as possible. Ground equipment repaired at 
designated depot-level repair activities will normally undergo 100 
percent overhaul/rebuild. However, IROAN and SOAR programs are viable 
options when determined to be a more effective and efficient means to 
return equipment to full mission capability and back into the hands of 
marines.

    47. Senator Bayh and Senator Burris. General Amos, how much of the 
Marine Corps equipment returned from Iraq was actually in good enough 
condition that it could be repaired and sent to Afghanistan?
    General Amos. Approximately 40 percent of the equipment in 
Afghanistan came from within theater, mainly from Iraq. Maintenance was 
conducted in Kuwait and then the required equipment was sent from 
Kuwait to Afghanistan. Because so much of the OIF equipment was sent to 
OEF, total reset actions have been deferred until we begin to drawdown 
our presence in Afghanistan. Equipment from OIF which was not 
redirected, returned to CONUS to be inducted into the reset process. As 
the reset process continues, that equipment will continue to be fielded 
across the enterprise to fill equipment requirements in accordance with 
the CMC Priority List.

    48. Senator Bayh and Senator Burris. General Amos, how did the 
Marine Corps make up the difference, and what is the status and plans 
for the Marine Corps equipment that was not diverted to Afghanistan?
    General Amos. Marine Corps forward deployed forces have the 
resources and equipment needed to conduct operations in support of OEF, 
but this has come at the expense of our home station, nondeployed 
units. For example, equipment used to support OIF that was scheduled to 
go through a depot overhaul has now been redirected to support OEF. As 
a result, we expect much higher than normal wash-out rates and more 
costly depot repairs when the equipment is eventually reset. This 
increased cost will be significant considering that over 40 percent of 
the equipment in Afghanistan was sourced from the CENTCOM theater (most 
of that coming from Iraq). Of the equipment that was retrograded to 
CONUS a significant portion was deemed obsolete or unsuitable for 
future use by the Marine Corps. In addition to shifting equipment from 
Iraq to Afghanistan, we drew heavily from the home station, nondeployed 
units. This resulted in an additional 5 to 10 percent decrease in 
equipment supply readiness for home station units, which directly 
impacts our preparedness for contingencies beyond Afghanistan. In 
short, we have assumed considerable risk within our nondeployed 
operational units where EOH currently averages 60 percent of the 
requirement.
    Prior to the decision to deploy additional forces to OEF, the 
Marine Corps planned on performing depot maintenance on over 12,000 
retrograded items, and field maintenance on over 24,000 items in fiscal 
year 2010. Due to the diversion of equipment to support our increased 
footprint in Afghanistan, we now expect that depot maintenance will be 
performed on approximately 6,100 retrograded items, and field 
maintenance on approximately 10,000 items in fiscal year 2010.
    The process of reset execution is further integrated via the Marine 
Corps Logistics Command-led ELMP. This is a comprehensive program that 
plans, programs, budgets for, and executes requirements for depot level 
maintenance. Once retrograded equipment is repaired through depots or 
via field maintenance, the process of filling equipment requirements is 
guided by the Commandant of the Marine Corps Equipment Priority List.

                    issues with readiness reporting
    49. Senator Bayh and Senator Burris. General Chiarelli, General 
Amos, Admiral Greenert, and General Chandler, I can understand how a 
unit commander knows his or her unit the best. And in reporting their 
unit readiness through the Defense Readiness Reporting System (DRRS) we 
capture not only whether they are ready, but ready for what. My concern 
is that should they be allowed to subjectively upgrade if the 
statistics and data do not support a higher unit readiness rating?
    General Chiarelli. The unit status report is intended to reflect 
the unit commander's personal assessments and individual judgments. 
Clearly there are circumstances where a unit commander subjectively 
upgrades even when the currently measured statistics and data do not 
support a higher unit readiness rating. For example, a unit may be 
short some of its Modified Table of Organization and Equipment (MTOE) 
required items; however, the commander, based on his or her knowledge 
of the unit's current training proficiency and the availability of 
other equipment items, assesses that the missing equipment items do not 
significantly degrade the ability of the unit to accomplish its core 
functions or increase its vulnerability, and upgrades the overall C-
level assessment accordingly. Similarly, the unit commander may 
subjectively change the ``Assigned Mission Level (A-level) to reflect 
unit training proficiency that is not measured otherwise. Reports are 
processed through command channels so that commanders at higher levels 
can review the report for accuracy and provide additional comments, if 
necessary. Currently, Army Regulation 220-1 allows any unit commander 
to subjectively upgrade or downgrade the overall readiness assessment 
(C-level and A-level) by one level unilaterally. In general, two level 
changes require the approval of the commander at the next higher level. 
Three level changes require Headquarters, Department of the Army (HQDA) 
approval. This policy is intended to balance the desire to support 
commander prerogatives with the need to provide the timely, accurate, 
and objective reports prescribed by Congress in the 1999 NDAA.
    General Amos. While we believe we have a very good readiness 
reporting system, we also believe that no one knows and understands the 
readiness and capabilities of his or her unit better than that unit's 
commander. If a commander has a strong and compelling reason to 
override the readiness rating of his or her unit based on objective 
inputs, the commander should be able to do so.
    Our readiness reporting policy provides specific guidelines for 
when and why commanders can use the override function. Reports are 
reviewed for accuracy throughout the chain of command all the way up to 
the Headquarters Marine Corps level. In their commander's comments, 
commanders must clearly articulate the reasons for their subjective 
upgrade (or downgrade) to provide balance to their report. This human 
dimension in our readiness reporting is important; ultimately the 
commander is entrusted and responsible for the readiness of his or her 
unit and we believe the commander should have the final say on how 
ready his or her unit is.
    Admiral Greenert. The commander's assessment represents their 
first-hand knowledge of the unit's readiness, which is primarily based 
on information about the resources available to support and accomplish 
the mission. DRRS-Navy (DRRS-N) makes available to the commander 
information from authoritative data sources that reflect the status of 
those resources (Personnel, Equipment, Supply, Training, Ordnance, and 
Facilities) that help assess Mission Essential Tasks (MET) that each 
ship, unit, or squadron is required to perform to support their core 
mission areas. The commander must balance his/her overall knowledge of 
the full spectrum of resources that support the required capabilities, 
with the experience factor relative to the reliability of equipment/
systems when making the assessment. These experienced commanders have 
received many years of training, and their judgment is an exceptional 
resource and an important factor in the most effective evaluation of 
readiness. This judgment can either lead them to assess a readiness 
level higher or lower than the data may otherwise support. In addition, 
senior commanders have access to the readiness information from their 
subordinate units in DRRS-N. This promotes open dialogue about any 
questionable assessments, and it also serves as means for monitoring 
the quality of readiness.
    General Chandler. There is no subjective upgrade of the unit 
readiness in the DRRS; the commander's assessment is subjective by the 
very design of the system. Each unit has a core METL which contains 
several METs. Each MET is assessed against a variety of measures, 
usually objective, but some of them may be subjective as well. These 
objective and subjective measures are used by the commander to inform 
his overall assessment; there is no published DOD or Air Force guidance 
equating individual MET assessments to a commander's overall 
assessment. Because of the complexity of unit readiness, commanders are 
permitted to use their experience and judgment, in addition to the 
factors that make up the SORTS sub-area assessments, when making their 
overall unit readiness assessment.

    50. Senator Bayh and Senator Burris. General Chiarelli, General 
Amos, Admiral Greenert, and General Chandler, my concern is that we may 
be masking true readiness at the unit level and as that information is 
passed up the chain of command to the Joint Staff, combatant 
commanders, and JFCOM, that those assessments and abilities to respond 
to mission requirements may not possess absolute clarity. I'll give you 
an example: SOCOM does not allow commanders to subjectively upgrade 
their unit readiness reporting status. Why do conventional forces allow 
subjective upgrades and as a result of that are we not masking true 
readiness reporting?
    General Chiarelli. The responsibilities and authorities for 
implementing and enforcing various readiness reporting requirements are 
shared among the Chairman, the Secretary of Defense, the combatant 
commanders and the Service Secretaries in accordance with existing law 
and policy. Title 10 U.S.C. establishes that the SOCOM Commander is 
responsible to ensure the combat readiness of assigned forces and for 
monitoring the mission readiness of all special operations forces, 
restrictions on subjective changes for Army Special Operations Forces 
are within his authority. Current Army policy restricts, but does not 
prohibit, subjective changes to the overall readiness assessments 
contained in unit status reports. While the commander of a conventional 
Army unit may subjectively change his overall assessment, he is 
required to clearly explain and justify the subjective change in 
mandatory comments, and he cannot change the objective resource 
measurements that reflect the current status of personnel and 
equipment. Unit status reports are processed through command channels, 
and all subjective changes to overall readiness assessments are clearly 
identifiable to commanders at higher levels with those management 
oversight responsibilities.
    General Amos. The Marine Corps believes that no one knows and 
understands the readiness and capabilities of his or her unit better 
than the unit commander. If a commander has a strong and compelling 
reason to override the readiness rating of his or her unit based on 
objective inputs, the commander should be able to do so. There are 
sometimes other factors to consider other than objective inputs 
exclusively, such as unit morale or a commander's training and judgment 
applied to a specific situation.
    Our readiness reporting policy provides specific guidelines for 
when and why commanders can use the override function. In their 
commander's comments, commanders must clearly articulate the reasons 
for their subjective upgrade (or downgrade) to provide balance to their 
report. Reports are reviewed for accuracy throughout the chain of 
command all the way up to the Headquarters Marine Corps level.
    This human dimension in our readiness reporting is important; 
ultimately the commander is entrusted and responsible for the readiness 
of his or her unit and we believe the commander should have the final 
say on how ready his or her unit is.
    Admiral Greenert. The commander's assessment represents their 
first-hand knowledge of the unit's readiness, which is primarily based 
on information about the resources available to support and accomplish 
the mission. DRRS-N makes available to the commander information from 
authoritative data sources that reflect the status of those resources 
(Personnel, Equipment, Supply, Training, Ordnance, and Facilities) that 
help assess METs that each ship, unit, or squadron is required to 
perform to support their core mission areas. The commander must balance 
his/her overall knowledge of the full spectrum of resources that 
support the required capabilities, with the experience factor relative 
to the reliability of equipment/systems when making the assessment. 
These experienced commanders have received many years of training, and 
their judgment is an exceptional resource and an important factor in 
the most effective evaluation of readiness. This judgment can either 
lead them to assess a readiness level higher or lower than the data may 
otherwise support. In addition, senior commanders have access to the 
readiness information from their subordinate units in DRRS-N. This 
promotes open dialogue about any questionable assessments, and it also 
serves as means for monitoring the quality of readiness assessments 
overall.
    General Chandler. Joint Staff SORTS guidance (CJCSM 3150.02) allows 
commanders to subjectively assess their unit's readiness up or down to 
permit commanders to use their judgment and consider factors outside of 
the strict factors that make up the personnel, equipment, and training 
ratings. The Air Force has three major commands who have supplemented 
SORTS reporting guidance and do not allow their commanders to 
subjectively assess up. However, the Air Force is going to address this 
policy with the major commands to ensure standardization across the Air 
Force.
    The following are a few of the reasons provided in Air Force SORTS 
guidance (AFI 10-201), that are not accounted for elsewhere, for why a 
commander may assess up or down: inspection results, personnel turnover 
rates, unusually high/low morale, demonstrated maintenance surge 
capabilities, modification programs, and the ability of contractors or 
foreign nationals to provide services.
    This is not a masking of true readiness. Readiness, by its nature, 
is subjective. Objective measures are used to inform the commander's 
subjective assessment.

    51. Senator Bayh and Senator Burris. General Chiarelli, General 
Amos, Admiral Greenert, and General Chandler, how does our current 
readiness reporting system account for new and urgent operational need 
items such as the MRAP and M-ATV, and how are they being tracked and 
implemented into your MTOE?
    General Chiarelli. AR 220-1 establishes requirements for units to 
report an ``Assigned Mission Level'' (A-level) following the formal 
assignment of a mission for planning or execution. The A-level is 
supported by an Assigned Mission Equipment Level'' (AME level) that is 
intended to reflect the current availability to the unit of the 
specific equipment items required for the assigned mission. While many 
of these mission-required equipment items will reside on the unit's 
MTOE, several equipment items may not, especially if they are 
``theater-unique'' and/or if the unit has been assigned to accomplish a 
nontraditional mission (for example, a field artillery unit assigned a 
security force mission). The Army Tasking Authority--the command or 
force provider that formally assigned the mission to the unit--is 
responsible to establish or convey the specific resource requirements 
for the mission to the unit. Resource requirements that exceed or 
differ from those documented on the unit's MTOE or that will require an 
urgent operational need statement (ONS) require Headquarters, 
Department of the Army (HQDA) approval. Frequently, HQDA pre-approves 
MRAPs and M-ATVs for missions via Mission Essential Equipment Lists 
(MEEL). Subsequently, these MEELs and ONS are considered during the 
force development process to determine whether any future MTOE 
adjustments are necessary.
    General Amos. Marine Corps policy ensures each UNS item is 
appropriately categorized in our supply and maintenance systems of 
record. The readiness of these items is tracked closely through these 
systems by both forward deployed commanders and the Service 
Headquarters. Although UNS items are not identified as mission 
essential equipment (MEE) or PEIs per Marine Corps policy, those UNS 
items which are deemed key readiness drivers, as in the case of MRAPs 
and M-ATVs (as of February 2010), are treated as significant military 
equipment and tracked in our current readiness reporting system as 
PEIs.
    Admiral Greenert. DRRS-N documents readiness across all resource 
pillars (Personnel, Equipment, Supply, Training, Ordnance, and 
Facilities) for each specific platform. This is accomplished after the 
Navy METs (NMET) have been loaded for the specific unit identification 
code (UIC) employing the equipment. Although DRRS-N is not designed to 
track equipment below the UIC-level, Navy is developing a Global Force 
Management (GFM) Organization Server that will track force structure 
below the UIC-level. The GFM Org server will be fully operational in 
March 2011.
    General Chandler. Our current readiness reporting system does not 
treat new and urgent operational need items differently than other 
items. All new equipment is added to equipment lists and tracked in the 
same manner. Our SORTS reporting system accounts for new items once 
they have been included on the Design Operational Capability (DOC) 
statements. Units would then report the equipment condition (`R' 
rating) or the supplies on hand (`S' rating) of that equipment. The 
DRRS would account for new items after they have been included as part 
of a MET. Units would then report against specific measures that would 
quantify a standard for that equipment.
                                 ______
                                 
              Questions Submitted by Senator Richard Burr
                   dwell time for major combat units
    52. Senator Burr. General Chiarelli, the 2009 Quadrennial Defense 
Review (QDR) assumed that the Armed Forces must be prepared to respond 
to a range of contingencies similar to what we have faced over the past 
8 years. In contrast, we've heard testimony over the past 2 years from 
the Chief of Staff of the Army that: ``The Army is out of balance. . . 
. Overall, we are consuming readiness as fast as we can build it. These 
conditions must change. Institutional and operational risks are 
accumulating over time and must be reduced in the coming years.'' In 
your opinion, does the QDR adequately address the issue of restoring 
the current unit combat readiness in the Army?
    General Chiarelli. Yes, it does adequately address the issue of 
restoring current unit combat readiness in the Army. A priority 
objective of the defense strategy articulated during the QDR is to 
prevail in today's wars. The 2010 QDR recognizes that years of war have 
significantly stressed our military personnel and their families, 
especially our ground forces. The 2010 QDR notes that, ``As we finish 
well in Iraq and shift the main effort to Afghanistan, we have the 
opportunity to begin resetting and reconstituting our units and, as 
dwell time increases, reduce stress on our servicemembers and their 
families.'' The Chairman of the Joint Chiefs of Staff, in his 
assessment of the 2010 QDR, notes that, ``Now and for several years 
upon completion of operations we must reset equipment lost through 
combat and the strain of today's wars. Our success in these and other 
missions depends upon obtaining sufficient, timely funding to reset the 
force and restore readiness and a responsible withdrawal from Iraq.'' 
We concur with the assessments of the Secretary of Defense and the 
Chairman. Within the Army, as time between deployments increases, 
soldiers and units will begin to restore their readiness and capability 
for the full-spectrum of challenges envisioned by the defense strategy. 
For the past several years, the demand for Army forces has exceeded the 
sustainable supply of those forces, limiting soldiers and units to 
prepare only for their next assigned mission in Afghanistan or Iraq, at 
the expense of the broader range of capabilities for which their 
specific unit was designed. As we reestablish balance between 
operational demands and our sustainable supply of trained and ready 
soldiers and units, we also intend to limit deployment duration to not 
more than 9 months and increase time between deployments to at least 27 
months to permit soldiers, units, and families adequate time to recover 
and reset from challenging deployments, and more fully prepare for an 
uncertain and dynamic future.

    53. Senator Burr. General Chiarelli, can the Army achieve its dwell 
times goals with the current force structure assuming similar demands 
on the force?
    General Chiarelli. The global demand for Army forces exceeds 
available resources. The Army is out of balance and is consuming 
readiness as fast as it can be built. This imbalance is driven by the 
need to respond to current demands at the expense of preparing for 
future conflicts. This limits the Army's strategic depth in terms of 
capabilities and in the quantity of forces available to respond to 
unexpected contingencies. The Army's plan to reduce risk to the force 
and achieve its dwell time goal assumes a reduction in demand for Army 
forces.

                          equipment in theater
    54. Senator Burr. General Amos, MV-22 mission capable rates in 
Afghanistan have been about 70 percent despite extraordinary efforts to 
provide parts and maintenance capability in excess of the requirements 
for routine deployment of the aircraft. Despite the hostile environment 
of Afghanistan that contributes to lower mission capable rates, such a 
relatively low mission capable rate for a new platform raises questions 
about the sustainability of the MV-22 over its life cycle. What are the 
Marine Corps and the contractors involved doing to improve the mission 
capable rate of the MV-22?
    General Amos. The V-22 readiness challenges are being met by 
addressing the three readiness elements: reliability, maintainability, 
and supply support.
    The core reliability of some components has already been fixed and 
programmed or implemented on the production line. The Marine Corps, 
AFSOC, and NAVAIR have reprioritized existing funding to retrofit those 
changes that affect the highest degraders. NAVICP is funding redesign 
of several other degraders. Future funding through HQMC Aviation is 
planned to bring these and other redesigns to the fleet.
    Significant improvement to maintenance procedures, troubleshooting 
tools, and organic repair capabilities are keeping components on the 
aircraft longer or closer to the flightline for repair.
    Some of these improvements have a direct impact on supply support 
and operating costs. In addition, NAVICP and DLA continue to work 
closely with industry to shift high-cost consumable parts to low-cost 
repairs (over 400 items to date). Refinement of contracting vehicles by 
NAVICP, investment in parts procurement, and closer management by the 
prime contractors of their suppliers are expected to have a telling 
impact in the near future.
    Most of these adjustments and direct improvements have been 
implemented recently, and are just beginning to yield. As the more 
prevalent supply support improvements take hold, we expect to see a 
wider and more dramatic impact.
    In summary, the aircraft continues to prove itself exceptionally 
effective and survivable. The Marine Corps, AFSOC, the naval supporting 
commands, and industry are committed to bringing the readiness and 
operating cost in line.

                access to health and mental health care
    55. Senator Burr. General Chiarelli, I am very concerned about the 
adequacy of TRICARE networks to meet the health and mental health needs 
of our servicemembers and their families, especially in light of the 
stress of deployments and exposure to combat. In January this year the 
New England Journal of Medicine reported that ``prolonged deployment 
was associated with more mental health diagnoses among U.S. Army 
wives.''
    A new GAO report describes several factors of continuing concern 
regarding access to care: instances of lack of willingness by providers 
to accept new TRICARE patients; a lack of awareness and acceptance by 
providers of the TRICARE program; and low reimbursement rates. How 
confident are you that the TRICARE networks are attracting sufficient 
numbers of health and mental health care providers to provide the 
services that soldiers and their families need?
    General Chiarelli. The Army is confident that TRICARE Management 
Activity (TMA) will continue traditional and creative efforts to 
attract network health and mental health providers. The Army works 
closely with TMA in their efforts to provide the services necessary to 
meet the needs of soldiers and their families. As required by law, TMA 
regularly monitors both network provider acceptance of TRICARE and 
beneficiaries' access to care.
    TMA has developed and expanded behavioral health (BH) services that 
include two new online video behavioral health programs to help 
eliminate obstacles to seeking BH treatment. The two programs, TRICARE 
Assistance Program (TRIAP) and Tele-behavioral Health, are available to 
Active Duty servicemembers and their families. Through these programs 
soldiers and families can access licensed BH counselors for short-term, 
real-time, face-to-face confidential counseling utilizing video 
technology, and software such as Skype or iChat.
    TRIAP expands access to existing BH services by using audiovisual 
telecommunications systems such as video chat and instant messaging to 
access existing BH centers within the TRICARE region. It also expands 
access to the BH call centers and counseling services. It is available 
24 hours a day, 7 days a week, with no limits to usage. No notification 
about those seeking counseling will be made to their primary care 
managers or others, unless required by the counselor's licensure 
(spouse abuse, et cetera). Beneficiaries may access TRIAP from any 
location provided they have the necessary hardware and software. 
Telebehavioral health is also available throughout the United States. 
This program involves medically supervised, secure audio-visual 
conferencing between beneficiaries and an offsite licensed BH provider.
    Additional opportunities to expand TRICARE BH exist with the use of 
virtual technologies, but require legislative relief to State licensure 
restrictions on TRICARE certified providers. Under current statutory 
restrictions, TRICARE network providers cannot conduct virtual BH 
interviews and counseling across State borders unless they are located 
at a Federal installation (DOD, VA, et cetera). This severely limits 
our ability to fully utilize these BH professionals. Legislative relief 
authorizing TRICARE certified providers to connect with our 
beneficiaries/patients from their private practice offices will 
increase assets available to meet the BH needs of soldiers and their 
families.

              operational impact of traumatic brain injury
    56. Senator Burr. General Chiarelli, according to a recent study by 
the Institute of Medicine, an estimated 10 to 20 percent of OEF and OIF 
Army and Marine Corps servicemembers have sustained mild traumatic 
brain injury (TBI) that has been associated with various long-term 
health outcomes. What are the operational and readiness impacts of mild 
TBI and concussion among deploying forces?
    General Chiarelli. Many of the recommendations made in the 2008 
report by the Institute of Medicine, Gulf War and Health: Volume 7, 
Long-term Consequences of Traumatic Brain Injury, have already been 
adopted by DOD. The Institute of Medicine's (IOM) recommendations are 
consistent with reports by the Defense Health Board and the Army TBI 
Task Force. Currently, approximately 87 to 90 percent of TBI cases in 
the Armed Forces involve mild TBI, also known as a concussion. The 
majority of these servicemembers return to full duty when their 
symptoms resolve with minimal operational impact. Some of the health 
outcomes mentioned in the IOM study such as depression and memory 
problems could impact operational readiness either within the few 
months following the injury or in some cases a few years later while 
the servicemember is still on Active Duty. Studies are underway. 
However, we currently do not have sufficient scientific information to 
quantify the full impact of this issue. To address more immediate 
concerns of our soldiers, the Army has taken action to protect the 
force. In late 2009, we implemented our ``Educate, Train, Treat & 
Track'' TBI management strategy to improve early recognition of signs 
and symptoms for these injuries. Efforts are underway to adopt this 
strategy across DOD for all deployed forces.
    Many of the long-term health outcomes cited in the IOM report such 
as dementia, Parkinson's, and Alzheimer's disease may not manifest 
until possibly decades after the injury. Understanding the long-term 
impact requires longitudinal studies including the one currently 
underway that will evaluate 1,600 servicemembers with TBI over the next 
15 years. We are taking steps to ensure that soldiers involved in 
events that may cause mild TBI are well-documented, even if they are 
not experiencing any immediate symptoms. Emerging knowledge regarding 
the long-term health outcomes associated with mild TBI will continue to 
be reported as scientific literature advances in this area.

    57. Senator Burr. General Chiarelli, how effectively have the 
resources provided by Congress been used to mitigate the effects of 
mild TBI?
    General Chiarelli. The funds provided by Congress have been highly 
effective in mitigating the effects of mild TBI both through equipment 
and material solutions designed to prevent injury and through medical 
advances to improve our diagnostic and treatment capabilities. Since 
September 2007, these resources have funded more than 350 staff members 
dispersed among 52 programs across the U.S. Army Medical Command to 
address the effects of TBI. This funding has ensured the development 
and fielding of the latest protective equipment to mitigate the effects 
of blasts and other injuries that may result in a mild TBI. Quality of 
care has been improved by developing clinical practice guidelines, 
obtaining state-of-the-art equipment for TBI care, funding basic and 
applied research to advance medical practices, and improving education 
and training for providers treating mild TBI. Additionally, these 
resources have enabled the Army to lead the way in developing TBI 
management protocols for our deploying soldiers. Efforts are underway 
to codify these protocols into a DOD Directive Type Memorandum for all 
deployed forces.

    58. Senator Burr. General Chiarelli, what is the way forward to 
ensure that soldiers in the field are adequately screened and, if 
necessary, removed from combat roles in order to recover from mild TBI 
or concussion?
    General Chiarelli. The new DOD policy being worked will mandate 
that all servicemembers who are exposed to concussive events be removed 
from combat roles for a minimum of 24 hours and undergo immediate 
medical screening. This will improve clinical management of concussed 
patients through detailed care algorithms which will assist healthcare 
providers by guiding medical evaluations and referrals to the next 
echelon of care. This pending policy will mandate rest periods, 
prohibit all sports and activities with risk of concussion until 
medically cleared, direct the use of standardized educational sheets, 
and implement a protocol to manage recurrent concussion.
    Deployed medical providers are using new screening resources while 
researchers are developing more promising neurocognitive assessment 
tools. One of the most commonly-used screening tools, the Military 
Acute Concussion Evaluation (MACE) has recently been improved. In 
addition, 43 Automated Neuropsychological Assessment Metrics (ANAM) 
computer systems have been deployed to Iraq and Afghanistan, outfitted 
with additional commercial assessment software to extend their 
capability. Test administration has been improved, with training 
products that focus on accuracy and effectiveness of both the MACE and 
the ANAM. Emerging technologies such as teleneurology, 
teleneuropsychology, brain imaging, biomarker detection, and automated 
quantitative electroencephalography promise to dramatically improve 
future mild TBI screening, detection, and treatment capabilities.

    59. Senator Burr. General Amos, how will the Marine Corps be able 
to meet these extensive and costly war-related funding needs within the 
normal DOD budget which is only projected to grow about 4 percent in 
fiscal year 2010?
    General Amos. TBI is a defense-wide funded program and the Office 
of the Secretary of Defense (OSD) has the lead for all war-related 
funding requirements and research as it pertains to TBI. The Marine 
Corps funding for any medical treatment is through Navy medicine and is 
not part of the Marine Corps budget.

                          increase in suicides
    60. Senator Burr. General Chiarelli, another tragic consequence of 
the OIF and OEF deployments is an increase in suicide. Yesterday, the 
Army released suicide figures for the month of March: 13 potential 
suicides among Active Duty soldiers, and 8 potential suicides among 
Reserve component soldiers not on Active Duty. How do these numbers 
compare with previous years?
    General Chiarelli. From calendar year 2005 through calendar year 
2010, Active Duty soldiers averaged 10 suicides in the month of March; 
7 soldiers died by suicide in March 2005; followed by a slight decrease 
in March 2006 to 5 suicides. For March 2007, the number nearly doubled 
to 9 suicides, followed by an incremental increase to 11 suicides in 
March 2008. There were 13 suicides in both March 2009 and March 2010.
    For Reserve component soldiers not on Active Duty, there was an 
average of 5 suicides in the month of March during the period calendar 
year 2005 through calendar year 2010. Only 1 Reserve component soldier 
not on Active Duty died by suicide in March 2005. Incremental increases 
occurred in March 2006, with 3 suicides and March 2007, with 5 
suicides. March 2008 experienced a decline to 3 suicides. For March 
2009 and March 2010, 7 and 8 soldiers died by suicide, respectively.

      reset costs and the shift of war funding to the base budget
    61. Senator Burr. General Amos, I have a question about estimated 
costs to reset combat units in the Marine Corps. In your written 
testimony, you state: ``we estimate the cost of reset for the Marine 
Corps to be $8 billion, of which $3 billion is requested in the fiscal 
year 2011 OCOs and an additional $5 billion reset liability will be 
addressed upon termination of the conflict.'' In last year's hearing, 
you estimated approximately $20 billion for replacing, repairing, or 
rebuilding equipment to reset the Marine Corps equipment stocks to 
acceptable readiness levels. Please give an update on the dramatic 
decrease in the estimate.
    General Amos. The Marine Corps' reset estimate did not decrease. 
The $20 billion mentioned in last year's testimony was an overall 
snapshot of the total reset requirement, to include what has been 
appropriated from fiscal year 2006 to fiscal year 2009 and what was 
required in fiscal year 2010 and beyond. Since testifying last year, 
combat operations have continued and our overall reset estimate has 
grown to $24 billion. This number includes $16 billion received through 
fiscal year 2010, a $3 billion fiscal year 2011 request, and a $5 
billion future years reset liability.

    62. Senator Burr. General Amos, is the Marine Corps being asked to 
scale back its requirements for reset based on budget realities, or is 
there another explanation?
    General Amos. No, the Marine Corps is not being asked to scale back 
its requirements for reset based on budget realities.

    63. Senator Burr. General Amos, in your opinion, will the Marine 
Corps be able to continue funding reset from the OCO account?
    General Amos. Yes, as long as the Marine Corps is engaged in combat 
operations, and under the current rule set, there will be a requirement 
to fund the repair and replace of equipment directly used in combat 
through the OCO account.

    64. Senator Burr. General Amos, you also mention in your testimony 
that the Marine Corps has revised its unit tables of equipment (T/Es) 
to accurately reflect the challenges and realities of the 21st century 
dispersed battlefield and estimated the cost associated with the 
revised T/Es to be $5 billion. Is this amount in addition to the reset 
costs?
    General Amos. Yes, this estimate is in addition to reset costs. The 
Marine Corps' equipment sets have been modified based on the lessons we 
learned in OIF and OEF about what we need to be ready for future 
operations. The cost to make these necessary changes to our equipment 
sets is currently estimated to be $5 billion.

    65. Senator Burr. General Amos, will the Marine Corps fund this 
from base budgets or the OCO account?
    General Amos. The Marine Corps will have to fund the shortfalls for 
operational units in dwell through the base budget as this requirement 
does not meet the criteria to be included in the OCO budget.

    66. Senator Burr. General Amos, how quickly do you need to have 
this funding in place to ensure marines have the updated list of 
equipment to be able to use in Afghanistan?
    General Amos. Marines next to deploy and those already in 
Afghanistan have the equipment they need to be successful. However, 
operational units in dwell have suffered because their equipment sets 
and training gear has been pushed to Afghanistan. These units in dwell 
currently have limited training capabilities until they are back in the 
predeployment training cycle.

                    reset for the reserve component
    67. Senator Burr. General Chiarelli, in your written testimony, you 
state that in order to restore the Army's full operational depth by 
fiscal year 2012, the Reserve component, that is our National Guard and 
Reserve Forces, must continue a transition from a Strategic Reserve to 
an Operational Force, thus allowing the Army ``recurrent, assured, and 
predictable'' access to the Reserve component to meet operational 
requirements. Since the Army expects the National Guard to be a full 
partner in the ARFORGEN model, do Guard and Reserve units get the same 
priority for equipment reset and resourcing?
    General Chiarelli. Yes, the Reserve component units redeploying 
from contingency operations are given the same priority as they move 
through the ARFORGEN Model as Active component formations. The process 
for reset is the same except that the timeline for Reserve component 
units to complete reset operations is 365 days as opposed to 180 days 
for an Active component organization. The difference in reset timelines 
is based on Reserve component organizations having a longer programmed 
dwell time between deployments (4 years) versus only 2 years between 
deployments of Active component formations.

    68. Senator Burr. General Chiarelli, given the dedicated call to 
duty of National Guard units across the country for service in Iraq and 
Afghanistan, are the historic complaints of the National Guard getting 
the hand-me-down or older equipment from the Active Army a vestige of 
the past?
    General Chiarelli. Yes. Modernizing the Army National Guard (ARNG) 
is critical for transformation to an Operational Reserve. The ARNG 
equipment funding averaged $5.7 billion per year for fiscal years 2006 
to 2010, a 256 percent increase over the $1.6 billion the ARNG received 
in fiscal year 2005. In fiscal years 2011 to 2015, the Army programmed 
an additional $12.4 billion for the ARNG, which will significantly 
increase its capabilities. At the end of March 2009, the ARNG EOH was 
77 percent, with a projected growth based on current procurement plans 
to 83 percent by the end of 2017. The EOH rate for Critical Dual Use 
equipment will increase from 83 percent in 2009 to 87 percent by March 
2011.

    69. Senator Burr. General Chiarelli, in your constant review of 
readiness rates, do you see any glaring discrepancies in the relative 
readiness of Active units versus Guard and Reserve units? If so, what 
are they and how can they be mitigated?
    General Chiarelli. There are differences between the primary 
readiness drivers for Active and Reserve components. Active units 
report equipment availability as their primary readiness driver, 
followed by soldier availability. Conversely, Reserve component units 
cite soldier availability (availability of qualified and trained 
soldiers) as the primary driver, while equipment availability is cited 
infrequently. Over time, the trends for these drivers have remained 
essentially stable.
    The ARFORGEN process is how the Army mitigates these issues. Active 
component units essentially migrate equipment from units in the reset 
phase to support immediate warfighting requirements. Meanwhile the 
Reserve components cross-level personnel from nondeployed or reset 
units to support immediate operational requirements. Additionally, 
implementation of the 180-day TRICARE Early Eligibility program and 
modifications to the Reserve Health Readiness Program have improved 
Reserve component personnel readiness.

    70. Senator Burr. General Chiarelli, of the $13 to $14 billion per 
year you have suggested for additional funding provided for reset, how 
will that amount be equitably distributed among the Active and Reserve 
components?
    General Chiarelli. OCOs funding for equipment reset is determined 
by the number and types of units scheduled to redeploy each year. The 
Army National Guard receives direct distribution of funding from the 
Army Budget Office to complete their reset mission. Army Reserve units 
complete their reset mission at the appropriate demobilization sites 
and funded accordingly. Army equipment reset requirements are 
historically made up of 20 to 25 percent Reserve unit requirements. 
Based on current ARFORGEN projections, the Army estimates that 20 
percent of equipment reset funding will go to Guard and Reserve 
equipment in fiscal year 2011 and fiscal year 2012. The Army will 
continue to support all components to ensure equipment readiness is 
restored and ready for the next contingency.

           aircraft maintenance challenges for the air force
    71. Senator Burr. General Chandler, your written statement 
identified concerns with the availability rates of certain types of 
aircraft. Specifically, you stated: ``the B-1, B-52, and F-15E did not 
meet aircraft availability standards due to maintenance and depot-
related issues.'' Please describe what types of maintenance and depot 
issues are affecting availability rates.
    General Chandler. The B-1 not mission capable maintenance rate is 
well above projections due to manpower shortages and inexperienced 
technicians. A primary driver is preparing and recovering aircraft 
going to and coming from the area of responsibility. In addition, many 
mid-level maintenance NCOs have left the B-1 over the past 4 years due 
to manning cuts and ops tempo challenges and that expertise is not 
easily replaced. Depot possessed aircraft rates are high because the 
Air Force opted to give combatant commanders greater capability by 
modernizing systems like the radar, the engine digital controller, and 
the inertial navigation system. These modernization efforts sacrifice 
short-term aircraft availability so the warfighter gains enhanced 
capability.
    The B-52 aircraft availability standards are lower than projections 
because of the number of aircraft in depot possessed status. The NDAA 
for Fiscal Year 2008 prohibited reductions in the B-52 fleet. As a 
result, there was a bow wave of aircraft requiring programmed depot 
maintenance. Depot rates have been at 20 percent since the first 
quarter of fiscal year 2009. In addition, future capability 
modifications and normal weapon system depot overhaul requirements will 
continue to impact aircraft availability through the Future Years 
Defense Program (FYDP).
    The F-15E aircraft availability standards were affected because of 
higher depot possessed time due to ongoing major depot-level upgrades 
to systems like the Satellite Communication Radio, Joint Helmet Mounted 
Cueing System, and Advanced Display Core Processor. The associated pre- 
and post-depot maintenance activities supporting these modifications 
have also contributed to the lower aircraft availability. As with the 
B-1, the Air Force capability enhancements decision was made to 
sacrifice short-term availability for increases in capability and 
lethality.

    72. Senator Burr. General Chandler, what are the current mission 
capable rates for each of those aircraft?
    General Chandler. The current mission capable rates for the B-1, B-
52, and F-15E for fiscal year 2010 (October 2009 through 31 July 2010) 
are 49.6 percent, 72.75 percent, and 74.44 percent, respectively.

    73. Senator Burr. General Chandler, please explain what the Air 
Force is doing to overcome these challenges.
    General Chandler. Although the B-1 is currently not meeting the 
aircraft availability goal, we expect to see modest improvements in 
aircraft availability across the FYDP. Improvements are anticipated in 
a number of ways. First, as aircraft return from depot status; second, 
as high velocity maintenance process improvements are implemented at 
the bases; and third, as surplus fighter manpower is moved into the 
bomber career field.
    For the B-52, we expect the depot rate to decrease as the program 
office collaborates schedules and repair requirements with the depot to 
expedite the burn down of the programmed depot maintenance backlog. We 
expect the B-52 to meet its availability standard in fiscal year 2011.
    For the F-15E, depot rates will improve as modifications are 
completed. We are aggressively working a mitigation strategy to reduce 
not mission capable maintenance time in several ways. First, we are 
taking an enterprise view to implement common F-15E inspections in an 
effort to relieve maintenance man-hours due to duplicate scheduled 
inspections. Second, we are leveraging availability improvement 
initiatives with emphasis on system enhancement, sustaining 
engineering, reliability centered maintenance, and engine component 
improvement. Third, we are conducting a quarterly Commodity Supply 
Supportability Review to address commodities shortfall and long-term 
system reliability issues impacting mission capability rates.

    74. Senator Burr. General Chandler, you also go on to state: ``the 
F-22 fell short of the projected availability due to low observable 
maintenance requirements. Recent improvements in many F-22 system 
components and increased durability of low observable materials 
resulted in a 32 percent reduction in maintenance man-hours per flying 
hour.'' Please explain the extent to which the F-22 fell short of the 
projected availability.
    General Chandler. F-22 aircraft availability was 53.6 percent for 
fiscal year 2009, slightly below the program's original projection of 
55.7 percent. The fiscal year 2009 shortfall was primarily due to 
unexpected wet weather-related reliability issues while deployed to 
Andersen Air Force Base Guam. Several avionics components experienced 
water intrusion and humidity problems but we've improved water drainage 
and already fielded some modified, humidity-resistant components. For 
fiscal year 2010, the fleet's aircraft availability is currently 
averaging 54.5 percent versus the 57.1 percent projection. The newly 
identified damage limits for low observable coatings in the engine 
exhaust cavity have also caused an approximate 3 percent decrease in 
aircraft availability as suppliers work to meet the new parts demand. 
However, it should be noted that this issue does not prevent affected 
aircraft from flying training missions.

    75. Senator Burr. General Chandler, please provide an update on the 
current mission availability rates for the F-22 from the past 2 years 
to the present.
    General Chandler. The mission capable rates for the F-22 were 51.05 
percent in fiscal year 2008, 53.14 percent in fiscal year 2009, and 
53.64 percent in fiscal year 2010 (current as of 31 Jul 2010).

    76. Senator Burr. General Chandler, what maintenance challenges 
other that low observable surfaces is the Air Force facing to maintain 
the readiness of the F-22 fleet?
    General Chandler. Our biggest current challenge is water intrusion 
and humidity-related reliability of the avionics systems. In addition 
to improving water drainage, we have already fielded some modified, 
humidity-resistant components. Recent results from our deployment to 
Andersen Air Force Base Guam indicate that the fixes we incorporated 
were successful.
    Another priority has been to improve sub-system reliability. To 
gain access to failed parts, maintenance personnel often have to remove 
low observable panels creating the requirement to repair the low 
observable coatings after replacement of the failed part. By improving 
sub-system reliability, we can improve the overall weapon system 
availability rate. The newest aircraft (lot 8) that include the latest 
reliability improvements are demonstrating significantly better mean 
time between maintenance rates. The older aircraft (lot 7 and below) 
are being retrofitted with the more reliable parts and will also 
benefit from an increase in reliability.

    77. Senator Burr. General Chandler, are maintenance man-hours 
affected by where the F-22 is stationed? If so, is the Air Force 
looking at restationing F-22s?
    General Chandler. There is no apparent correlation between 
maintenance man-hours and where F-22s are currently stationed. As a 
result, the Air Force is not looking at restationing F-22s for 
maintenance reasons.

                        m-4 carbine replacement
    78. Senator Burr. General Chiarelli, a vital component of 
maintaining the readiness of our Armed Forces is ensuring our men and 
women in uniform are provided the best equipment available. Following 
reports of malfunctions and reliability concerns from the field, the 
Army has begun a process to determine whether the currently fielded M-4 
carbine is the best weapon available to our soldiers, whether it needs 
modifications, or whether an entirely new carbine is required. Please 
provide an update as to where this process stands.
    General Chiarelli. The Army has a dual path strategy to improve the 
carbine for our soldiers. The Army recently approved a new requirement 
for a carbine that will be the basis for a carbine competition in the 
near future.
    Concurrently, the Army has approved enhancements to the M4 carbines 
that are currently being produced and we are working towards 
retrofitting improvements to all M4 carbines that have already been 
fielded. This is an ongoing process. The Army has continued to test and 
upgrade the carbine since its adoption. For example, since 1991 more 
than 8 million rounds have been fired in product improvement testing. 
As a result of this testing, over 62 performance enhancing improvements 
have been incorporated into the carbine design to include the trigger 
assembly, extractor spring, recoil buffer, barrel, chamber, and bolt. 
These improvements have made a significant increase to the reliability 
of the weapon. The Army recently approved a heavier barrel, a full auto 
trigger mechanism, and an ambidextrous fire control selector to 
incorporate into the current M4 series production.

      demand for civil affairs and psychological operations units
    79. Senator Burr. General Chiarelli, given the environment in which 
our forces are operating today, there is increasing demand on the 
unique capabilities brought to bear by civil affairs (CA) and 
psychological operations (PSYOP) teams. Originally composed primarily 
of Reserve component forces, the Army has begun growing the first 
Active Duty CA brigade to support general purpose forces and plans 
continued growth in organic CA support to SOCOM. What is your 
assessment of the progress in the growth in CA?
    General Chiarelli. The Army is on track to meet OSD-directed growth 
for CA. During its most recent force structure analysis, the Army 
approved an increase in CA capacity for the general purpose force and 
Special Operations Force. For the general purpose force, the Army will 
activate its first Active component brigade headquarters and one Active 
component CA battalion in fiscal year 2011. By fiscal year 2015, the 
Army will activate a total of five Active component CA battalions into 
a fully operational brigade.
    The current force structure of Special Operations CA units consists 
of one brigade headquarters and four battalions comprised of four 
companies each. The Army plans on adding a fifth battalion in fiscal 
year 2012, a company to each of the five battalions, and a sixth team 
to each company. When programmed growth is completed, the brigade will 
consist of one brigade headquarters and five battalions composed of six 
companies with six teams each.
    Additionally, the Army is adding a ninth CA brigade to the Army 
Reserve effective fiscal year 2011 which will increase rotational depth 
to the general purpose force.
    To facilitate growth in the total CA force, the Army is addressing 
CA training capacity as well as the size of the proponent office for 
CA. These adjustments to the generating force will increase student 
throughput and provide more robust oversight over Army CA training and 
education.

    80. Senator Burr. General Chiarelli, has the Army encountered any 
issues in meeting the demand for CA and PSYOP units?
    General Chiarelli. Yes, there have been issues meeting the overseas 
contingency operations demands for CA and PSYOP units. Currently, 100 
percent of the general purpose forces CA and PSYOP assets are in the 
Army Reserve. The demand for both types of units grew quickly and put 
major strains upon the U.S. Army CA and PSYOP Command. This command 
routinely mobilized CA units with less than 36 months dwell, and on 
occasion with less than 24 months dwell. PSYOP units dwell ratio was 
even lower, with many being under 24 months. Occasionally the Army used 
``in lieu of'' sourcing solutions to fulfill CA requirements. For 
example, seven Army Reserve chemical companies were mobilized and 
deployed in lieu of CA companies to meet CA force requirements.

    81. Senator Burr. General Chiarelli, do you foresee a need to grow 
CA and PSYOP forces beyond currently programmed levels?
    General Chiarelli. There is no anticipated growth for CA or PSYOP 
forces beyond the current programmed levels, which are scheduled 
through fiscal year 2015. When programmed growth levels for CA and 
PSYOP are completed in fiscal year 2015, the requirements to either 
increase or sustain CA and PSYOP capabilities will be in accordance 
with the strategic guidance given by the Secretary of Defense to meet 
operational demands. We will continue to track and assess operational 
demands ensuring the Army has the right CA and PSYOP mix for the 
future.

                         rotary lift shortfalls
    82. Senator Burr. General Chiarelli, the demands of nearly 8 years 
of sustained combat operations in Iraq and Afghanistan have placed an 
enormous burden on airlift assets, particularly rotary lift. Given the 
remote locations in which our forces often operate, the availability of 
these aircraft is vital to moving personnel, providing logistics, and 
for the replenishment of supplies. DOD is aware that current demand far 
exceeds supply. The 2010 QDR calls for a substantial increase in key 
enabling assets for general purpose forces and special operations 
forces, including an expansion of Army pilot training, the creation of 
a 13th Active component combat aviation brigade, as well as growth of 
the 160th Special Operations Aviation Regiment. While these are welcome 
steps and will provide long-term relief, what steps, if any, can be 
taken in the near- to mid-term to mitigate the shortfall of rotary lift 
assets in Afghanistan?
    General Chiarelli. Currently, the three Combat Aviation Brigades 
(CAB), additional aviation formations, and a limited number of 
Operational Readiness Float (ORF) aircraft deployed in Afghanistan are 
meeting operational demands. We began increasing aviation capability in 
2009 with the deployment of a second CAB to Afghanistan. This summer we 
will deploy a third CAB to Afghanistan, along with additional medical 
evacuation (MEDEVAC) and CH-47 heavy lift assets.

    83. Senator Burr. General Chiarelli, if our withdrawal from Iraq 
continues as planned, what is the estimated lag time before we see an 
increase in airlift capacity in Afghanistan?
    General Chiarelli. Currently the Army is not planning on 
transferring aviation capability from Iraq to Afghanistan. We 
significantly increased rotary wing capability in Afghanistan over the 
past 18 months. This summer we will have a total of three CABs plus 
additional MEDEVAC and CH-47 heavy lift assets in Afghanistan to meet 
combatant commander requirements.

    84. Senator Burr. General Chiarelli, given the enormous demand in 
theater, are there sufficient aircraft at home station to fulfill the 
requirements of the nearly 1,400 pilots trained annually by the Army?
    General Chiarelli. Yes. The ARFORGEN process allows the Army to 
cross level aircraft throughout its institutional training posts/sites 
and installations to meet requirements. A fine balance has been struck 
in the distribution of aircraft between the institutional and the 
operational force. The Army will continue to reset and reposition 
aircraft as required to meet our training and operational needs.

    85. Senator Burr. General Chiarelli, is the Army experiencing any 
problems recruiting or retaining pilots?
    General Chiarelli. No. The Army continues to have more officer and 
warrant officer candidates than there are requirements or opportunity 
for training. Additionally, we have experienced a general increase in 
aviator retention over the past several years.

                        navy strike fighter gap
    86. Senator Burr. General Amos and Admiral Greenert, the Strike 
Fighter gap is also a readiness issue. The Navy has testified that the 
so-called fighter gap or shortfall of Strike Fighter aircraft on 
aircraft carriers and expeditionary squadrons for the Marine Corps rose 
from 146 to 177 aircraft--primarily due to the F-35 delivery ramp 
reduction of 55 aircraft and removing the assumption of aircraft 
reaching 10,000 flight hours. Is the Navy taking appropriate action to 
mitigate the gap and the operational implications of that gap?
    General Amos. The Department of the Navy is today projecting a 
shortfall of about 100 Strike Fighters in the 2018 timeframe which 
includes some aircraft service life extension (SLEP) to 10,000 flight 
hours. This projection is based on an excursion from the Inventory 
Forecasting Tool (IFT) Version 18. Based on the projected shortfall, 
the Navy continues to identify further opportunities to reduce its 
impact. It is possible to manage the Strike Fighter shortfall through 
the application of management levers both in the near- and long-term. 
Examples of management levers are the Marine Corps modifying it's F-35 
transition plan by transitioning some Hornet squadrons earlier and 
leveraging the service life remaining in the AV-8B fleet, the  Navy  
accelerating  the  transition  of  five  legacy  F/A-18C  squadrons  to 
 F/A-18 E/F, and transitioning two additional F/A-18C squadrons to F/A-
18 E/F using the remaining attrition F/A-18 E/F Reserve aircraft, and 
reducing the Navy Unit Deployment Program (UDP) and USMC Expeditionary 
F/A-18 A+/C/D squadrons from 12 to 10 aircraft per squadron. Although 
global demand may not allow for implementation of some of these levers 
in the near-term, changes in the operational environment in the future 
may allow additional flexibility in their implementation. As we go 
forward, we are considering all options to manage our inventory and 
balance risk, including SLEP to some number of F/A-18 A-D aircraft to 
extend their service life to 10,000 flight hours and optimizing depot 
efficiencies. SLEP analysis continues and will be introduced in the 
fiscal year 2012 President's budget request.
    The Navy continues to rigorously manage the service life and 
warfighting effectiveness of each of our legacy Hornets, Harriers, and 
Super Hornets to ensure the maximum contribution to the Nation's 
security for the taxpayer dollars invested.
    Admiral Greenert. The Navy anticipates a decrease in our Strike 
Fighter inventory of about 100 aircraft that will peak at the end of 
this decade. We are addressing this inventory decrease through 
aggressive and precise management strategies that include service-life 
extension programs to prolong the use of existing F/A-18 A-D aircraft, 
reducing the number of aircraft available in our nondeployed squadrons 
to the minimum required, accelerating the transition of seven legacy 
squadrons to F/A-18 E/F Super Hornets (using F/A-18 E/F attrition 
aircraft in two cases), and maximizing depot level throughput to return 
legacy Strike Fighter aircraft to the fleet more quickly. Collectively, 
these measures will extend the service life of our legacy aircraft and 
make the projected inventory decrease manageable.

    87. Senator Burr. General Amos and Admiral Greenert, is the Marine 
Corps taking appropriate action to mitigate the gap and the operational 
implications of that gap?
    General Amos. The Marine Corps is closely managing the flight hours 
and fatigue life of our tactical aircraft. Since 2004, we have provided 
guidance and actions to optimize aircraft utilization rates while 
maximizing training and operational opportunities. The F/A-18 A-D 
Inventory Management Forecasting Tool is used to project the combined 
effects of TACAIR transition plans, retirements, attrition, and 
pipeline requirements on the total F/A-18 A-D aircraft inventory. The 
model is updated with the most recent data and forecasts the Strike 
Fighter inventory compared to the existing requirements. Critical model 
variables include JSF deliveries, force structure, usage rates, life 
limits, depot turnaround time, Fatigue Life Expended (FLE), catapult 
launches and arrested landings, and field landings.
    Faced with a forecast based on current assumptions that indicates 
an increased shortfall, the Navy has continued to identify further 
opportunities to reduce its impact. The Marine Corps has modified its 
F-35 transition plan by transitioning some Hornet squadrons earlier and 
leveraging the service life remaining in the AV-8B fleet. Management 
levers have been identified: accelerating the transition of five legacy 
F/A-18C squadrons to F/A-18 E/F; transitioning two additional F/A-18 C 
squadrons to F/A-18 E/F using the remaining attrition F/A-18 E/F 
Reserve aircraft; and reducing the Navy UDP and Marine Corps 
Expeditionary F/A-18 A+/C/D squadrons from 12 to 10 aircraft per 
squadron. Some of these measures are dependent on reduced demand in 
Global Force Management (GFM) requirements.
    Admiral Greenert. The Navy and the Marine Corps are working closely 
together to address the Navy Strike Fighter gap. I believe the Marine 
Corps is closely managing the flight hours and fatigue life of our 
tactical aircraft. Since 2004, they have provided guidance and actions 
to optimize aircraft utilization rates while maximizing training and 
operational opportunities. The F/A-18 A-D Inventory Management 
Forecasting Tool is used to project the combined effects of TACAIR 
transition plans, retirements, attrition, and pipeline requirements on 
the total F/A-18 A-D aircraft inventory. The model is updated with the 
most recent data and forecasts the Strike Fighter inventory compared to 
the existing requirements. Critical model variables include JSF 
deliveries, force structure, usage rates, life limits, depot turnaround 
time, FLE, catapult launches and arrested landings, and field landings.
    Faced with a forecast based on current assumptions that indicates 
an increased shortfall, the Navy has continued to identify further 
opportunities to reduce its impact. The Marine Corps has modified its 
F-35 transition plan by transitioning some Hornet squadrons earlier and 
leveraging the service life remaining in the AV-8B fleet. Management 
levers have been identified: accelerating the transition of 5 legacy F/
A-18C squadrons to F/A-18 E/F; transitioning 2 additional F/A-18C 
squadrons to F/A-18 E/F using the remaining attrition F/A-18E/F Reserve 
aircraft; and reducing the Navy UDP and Marine Corps Expeditionary F/A-
18 A+/C/D squadrons from 12 to 10 aircraft per squadron. Some of these 
measures are dependent on reduced demand in Global Force Management 
(GFM) requirements.

    88. Senator Burr. General Amos and Admiral Greenert, does the Navy 
have the adequate carrier air wings to satisfy the needs of 11 aircraft 
carriers?
    General Amos. The Marine Corps provides Marine Fighter/Attack 
squadrons in compliance with the Tactical Air Integration MOA, and we 
defer to the Navy for sufficiency of the number of Carrier Air Wings.
    Admiral Greenert. Yes. Our Carrier Air Wings Fleet Readiness and 
Training Plan is tailored to complement the training and maintenance 
requirements for our 11 Carrier Air Wings. We will manage our tactical 
aviation inventory to ensure we have the number of aircraft required to 
support our deployable Carrier Air Wings.

             impact of force structure caps in afghanistan
    89. Senator Burr. General Chiarelli, I've been told that, as a 
result of the cap of 30,000 troops placed by the President on General 
McChrystal's plan for surge operations in Afghanistan, many of the 
requests for forces currently being received by the Army from field 
commanders are for individual augmentees versus major units. The 
ARFORGEN model was not created to manage the dwell time and 
availability of individual soldiers. What is the long-term impact to 
Army unit readiness of having to satisfy requests for small units and 
individual augmentees for deployment to Afghanistan?
    General Chiarelli. Requests for small units and individual 
augmentees exacerbate manning challenges, forcing the Generating Force 
and other nondeploying units to be billpayers for deployed manning 
requirements. The Army continues to focus on force structure, ensuring 
that units are designed to meet current needs and are manned and 
equipped to accomplish those missions. Most importantly, the Army is 
building a supply-based force that provides a constant supply of 
organizations with organic capabilities to operate in a joint and 
expeditionary role and meet combatant commander requirements.

    90. Senator Burr. General Chiarelli, since the Army has 
traditionally trained as large units, and a commander assesses the 
readiness of an unit as a whole, how is the training of individual 
augmentees accomplished to ensure mission success?
    General Chiarelli. Once selected for either an individual manning 
requirement on a Joint Manning Document or an ad hoc requirement, an 
individual soldier is provided the requisite training as specified by 
either military occupational skill proficiency standards or by 
requirements specified in the request for forces (ad hoc requirement). 
In the case of a Joint Manning Document, an individual soldier selected 
for the requirement is assumed to be competent in his duty position and 
military occupational skill. The soldier then processes through the 
Fort Benning Continental United States (CONUS) Replacement Center, 
which provides a program of instruction based upon theater-specific 
individual required training requirements. In the case of an ad hoc 
requirement, an individual soldier may get paired with a team for the 
full requirement and the training received would be accomplished per 
the training specified in the corresponding request for forces. For 
example, training team members (comprised of individual soldiers) which 
support nearly all of the security force assistance requirements in the 
CENTCOM area of responsibility would go to an Army-designated training 
location to receive their theater-specific individual required training 
and also their request for forces specified training. Once the training 
is completed at both the replacement center and the specified training 
location, the Army component that has the designated training and 
readiness oversight certifies the individual and/or the ad hoc 
requirement for deployment.

    91. Senator Burr. General Chiarelli, how do requests for individual 
augmentees affect the assessment of Army goals for dwell time?
    General Chiarelli. While the Army has full visibility of individual 
augmentation requirements as they are processed to fill either a Joint 
Manning Document or an ad hoc requirement, the assessment of Army goals 
for dwell time are computed based upon unit, MTOE, structure vice 
providing a factor which computes a percentage of personnel loss due to 
these unprogrammed shortfalls. However, current manning guidance 
ensures soldiers deploying have the appropriate dwell time; exceptions 
to dwell time requirements must be approved by the first General 
Officer in the chain of command. The Army system for individual 
augmentation conducts its analysis for specific requirements across the 
entire Army Active component structure and selected commands are tasked 
for individual soldiers based upon a leveling of the requirement to 
mitigate a significant loss to any one unit. This system, as 
structured, limits effects which would detract from Army goals for 
dwell time.

           manning for combat units deploying to afghanistan
    92. Senator Burr. General Chiarelli and General Amos, in review of 
current readiness rates, I note that both the Army and the Marine Corps 
are committed to deploying units overseas which are 100 percent, or 
close to 100 percent manned. While I commend this track record, I am 
concerned about exactly when those new personnel are arriving into the 
unit. Specifically, if they arrive too late to take part in unit 
training and mission rehearsal exercises, what is the risk to them and 
the unit?
    General Chiarelli. Unfortunately this does occur; some personnel 
turnover after mission rehearsal exercises is unavoidable. However, we 
make every effort to minimize this and are establishing metrics to 
ensure we monitor and limit this turbulence on the unit and 
individuals. As to the risk to them and the unit, I would say it is 
manageable. For example, our current manning guidance ensures that 
every Active component BCT and CAB achieves at least 90 percent overall 
assigned strength and a minimum of an 80 percent fill of Field Grade 
Officers, Company Grade Officers, and Senior NCOs not later than 45 
days prior to their Mission Rehearsal Exercise. So for the most part, 
the unit is set with sufficient leadership when it conducts this 
training. Additionally, units and installations conduct pre-deployment 
training for all late arrivals which covers a variety of required 
individual tasks, such as weapons training, first aid, combat 
lifesaver, combat stress courses, and cultural and geographic 
instruction. This training has become a crucial element to prepare late 
arriving and replacement soldiers for deployment.
    General Amos. The Marine Corps has developed extensive manpower 
processes that enable us to focus our resources on deploying units. 
This process allows us to conserve and staff our units 180 days prior 
to deployment to support training and mission rehearsals as well as our 
deployment cycles. All marines receive the required pre-deployment 
training prior to deploying. We are confident that these efforts will 
meet long-term operational manpower demands.

    93. Senator Burr. General Chiarelli and General Amos, given our 
surge operations in Afghanistan, is this phenomenon trending negative 
or holding steady?
    General Chiarelli. This trend is currently holding steady. The 
Army's supply of forces is fixed, so a reduction in the demand for 
brigades in one theater has been replaced with increased demand in 
another--the result is no net change. For fiscal year 2010, we are 
achieving those manning goals I previously discussed for the majority 
of our deploying units. However, achieving the fill levels for specific 
field grade officers and some low density skilled soldiers remains a 
challenge. Until the global demand for forces reaches a sustainable 
level, we will continue to be challenged to synchronize all the 
critical readiness resources early enough to allow the necessary time 
to collectively train prior to deployment.
    General Amos. Due to our improvements in manpower processes, we 
have not trended negatively, but have achieved a holding steady status.

    94. Senator Burr. General Chiarelli and General Amos, do each of 
your Services have goals for certain manning levels prior to unit 
deployment to ensure unit integrity and performance? If so, what are 
they?
    General Chiarelli. Yes, currently the Army, utilizing the ARFORGEN 
model, focuses human and material resources on those deployed and/or 
deploying Army units to resource them to the highest readiness levels 
before they deploy. This ARFORGEN focused manning is event-driven and 
applies to all brigade-sized units. Units will be manned and 
prioritized based on major readiness exercises and deployment latest 
arrival dates.
    The Army goal is for every Active component BCT and CAB to achieve 
95 percent deployable strength by the latest arrival date, with a 
minimum acceptable deployed strength of 90 percent. In order to achieve 
this goal, the Army must overman BCTs to a minimum of 105 percent and 
CABs to a minimum of 100 percent assigned strength not later than 90 
days prior to their latest arrival date. This overmanning compensates 
for the increasing nondeployable population and ensures units can meet 
the deployed strength benchmarks. Additionally, there are also specific 
goals for the manning levels of Field Grade Officers, Company Grade 
Officers, and Senior NCOs that vary by unit type. The Army goal is for 
every Active component BCT and CAB to achieve a minimum of 80 percent 
fill of field grade officers, company grade officers, and senior NCOs 
45 days prior to their Major Readiness Exercise.
    General Amos. The Marine Corps has established staffing levels to 
support deploying units with a primary focus on unit integrity to 
positively impact combat performance. We have achieved this by 
developing a holistic implementation process that assigns not only 
staffing allocations by unit, but also by grade and primary 
occupational specialty. Our combat units are staffed to deploy with 
their manning document combat allocations thereby ensuring appropriate 
levels of combat power.

    95. Senator Burr. General Chiarelli and General Amos, are these 
goals being met?
    General Chiarelli. During fiscal year 2010 year-to-date, 11 of the 
13 BCTs met the minimum 90 percent deployed strength requirement at the 
latest arrival date. The two that missed that benchmark achieved the 
minimum 90 percent deployed strength requirement within 30 days after 
the latest arrival date. Additionally, during this timeframe, all four 
of the CABs exceeded the minimum 90 percent deployed strength 
requirement at the latest arrival date.
    General Amos. Yes, the staffing of our combat units is one of our 
primary concerns. We are committed to meeting our manning and staffing 
goals to ensure unit combat effectiveness.

           marine corps training for full spectrum operations
    96. Senator Burr. General Amos, during last year's hearing in 
response to a question on the focus of training on preparing for 
ongoing operations, specifically, the extent of skill degradation given 
the shift in focus, you responded that Marine Corps Training and 
Education Command is sponsoring a Training Reset Study, which would 
provide a recommended training posture for the future. Is this study 
completed? If so, please provide a summary of its conclusions and 
recommendations.
    General Amos. The Training Reset Study provides the Marine Corps 
survey and interview-based data in determining the appropriate balance 
between the skills that are being trained in support of OEF and 
required core competency training. The study identifies this balance 
through its response to questions contained in the study objective and 
the development of a draft training reset posture.
    From a training perspective, what constitutes resetting the force?

        <bullet> Broad consensus that resetting the force is a function 
        of standards-based training built around core METLs, Training 
        and Readiness Manuals, and application of the Systems Approach 
        to Training and Unit Training Management.

    What do the operating forces think the Marine Corps should focus 
on?

        <bullet> Surveys point to a need to refocus on unit and 
        individual skills in combined arms and amphibious operations 
        while continuing to train COIN skills.

    What should be done at the Service level to make this happen?

        <bullet> Rigorous application of the existing Marine Corps 
        training system to refocus on core skills and provide 
        appropriate focus on COIN.
        <bullet> Continue to conduct Enhanced Mojave Viper or an 
        appropriately modified version of the exercise based on current 
        threats. Enhanced Mojave Viper is described as ``striking a 
        good balance between irregular and conventional tactics,'' and 
        has value beyond current operations.
        <bullet> The draft Force Generation Order (FGO) provides a 
        structured approach ``to improve both the efficiency and the 
        effectiveness by which units are prepared for deployment.''
        <bullet> Limitations to resetting the force are:

                <bullet> Time to train (dwell)
                <bullet> Requirements to train for current operations
                <bullet> Inter-Service coordination to refocus skills 
                in amphibious operations

    What should be done at the unit training level?

        <bullet> Reinforce and expand as required the training systems 
        outlined per existing Marine Corps Orders and the draft FGO.
        <bullet> Focus on resetting individual skills in unit training 
        management.

    The Draft Training Reset Posture Statement captures the key 
elements for successful training reset:

          The Marine Corps will reset training, consistent with the 
        Commandant's Vision and Strategy 2025, to optimize the MAGTF 
        for operations against hybrid threats in complex environments 
        without sacrificing conventional capabilities. Training reset 
        will be accomplished through the rigorous application of the 
        Marine Corps training system.

               remotely piloted aircraft squadron manning
    97. Senator Burr. General Chandler, regarding remotely piloted 
aircraft (RPA) operations, I noticed in your written testimony that you 
state: ``Remotely piloted aircraft currently provide 41 continuous 
combat air patrols to U.S. CENTCOM. This number will grow to 50 by the 
end of fiscal year 2011, and to 65 by the end of fiscal year 2013.'' I 
have heard that these growing requirements are taking its toll on 
aircrew readiness, data collection, and maintenance personnel that 
support the CAPs. Is the Air Force in the process of assessing the 
right size of a RPA squadron to result in an OPTEMPO that is sustained 
over the long-term?
    General Chandler. In order to sustain the OPTEMPO over the long-
term, the Air Force has assessed the right size of an active duty RPA 
squadron to be five CAPs worth of personnel, aircraft, and equipment. 
Additionally, the required crew ratio is 10 pilots and 10 sensor 
operators for each MQ-1 or MQ-9 combat air patrol.

    98. Senator Burr. General Chandler, when will these assessment be 
completed and subsequently RPA squadron manning adjusted?
    General Chandler. Since the assessment was completed, the Air Force 
has been training aircrew at a sustainable rate in order to grow RPA 
squadrons to the 10:1 crew ratio. The Air Force will steadily improve 
the crew ratio, while meeting all operational combat air patrol 
requirements and balancing the need to assign RPA aircrew to various 
overhead requirements, such as rated staff positions.

    99. Senator Burr. General Chandler, will additional RPA squadrons 
be required?
    General Chandler. Additional RPA squadrons will be required to meet 
operational combat air patrol requirements. The Air Force plans to 
create three new RPA squadrons at bases to be announced. Also, two 
existing RPA squadrons at Creech AFB will move to other bases in the 
future. Finally, the Air National Guard plans to stand up RPA squadrons 
at up to five additional locations.

              amphibious fleet affordability and readiness
    100. Senator Burr. General Amos and Admiral Greenert, the Navy's 
plan for a 33-ship amphibious fleet, according to the Navy's budget 
proposal, represents the limit of acceptable risk in meeting the 
requirement to deliver two Marine expeditionary brigades in a forcible-
entry operation. Is the Marine Corps' desire for 38 ships affordable 
and are there ways to mitigate that risk when considering the entire 
shipbuilding plan?
    General Amos. Without a top line increase and/or a reprioritization 
of missions and capabilities that form the basis of the Navy's 
shipbuilding plan, the requirement for 38 amphibious assault ships 
outlined in our February 2010 report to Congress is unaffordable. The 
Navy and Marine Corps have determined a minimum force of 33 ships 
represents the limit of acceptable risk in meeting the 38-ship 
amphibious force requirement for the Assault Echelon in a 2 Marine 
Expeditionary Brigade forcible entry operation. A 33-ship force 
comprised of 11 LHA/D amphibious assault ships and a mix of 11 LPD 17 
amphibious transport docks and 11 LSD(X) dock landing ships would be 
sufficient to support forcible entry operations with acceptable risk in 
the speed of arrival of combat support elements of the MEB. We have 
examined ways to mitigate risk within the context of the entire 
shipbuilding plan and determined that sustaining a minimum of 33 
amphibious ships is adequate within today's fiscal limitations.
    Admiral Greenert. The 38-ship force identified by the Marine Corps 
represents the lift capacity necessary to support 2.0 MEB operations 
including all of their Combat Support and Combat Service Support needs 
across their full range of expected missions. This risk/force level is 
inconsistent with the risk levels accepted by the remaining naval 
forces. Therefore, the Commandant and CNO reached an agreement to 
benchmark the amphibious force at 33 ships and accept a modicum of risk 
in the extent of combat support equipment available within the Assault 
Echelon (AE) forces and to move that equipment in conjunction with 
follow-on force equipment. Specific decisions made in support of this 
agreement are:

        <bullet> The Navy plans to procure an LHA 6 class ship in 
        fiscal year 2011 and its 11th LPD 17 class amphibious transport 
        dock in fiscal year 2012. LSD(X), replacement for the existing 
        LSD 41 class, will begin in fiscal year 2017.

                <bullet> The Navy determined the LHA 6 class amphibious 
                assault ships previously designated for the MPF 
                (Future) (MPF(F)) would serve more effectively in the 
                AE force where they could be employed in Marine 
                forcible-entry operations. Within the context of the 
                30-year Shipbuilding Plan, these AE amphibious ships 
                will be procured in fiscal year 2011, fiscal year 2016, 
                and fiscal year 2021.
                <bullet> The Navy begins procurement of LSD 41 class 
                replacement, LSD(X), in fiscal year 2017, on a 2-year 
                build cycle.

        <bullet> The Amphibious Lift Enhancement Program (ALEP) 
        provides additional lift capacity, but does not factor in 
        meeting the Marine Corps' 2.0 MEB AE requirement.

                <bullet> ALEP is designed to fill the gap in vehicle 
                square feet stowage.

        <bullet> The Navy plans to procure three Mobile Landing 
        Platforms (MLP) as well as the three previously appropriated T-
        AKEs. These augmented Maritime Prepositioning Squadrons (MPS) 
        enhance the afloat prepositioning capacity and will support the 
        Marine Corps 2.0 MEB lift requirement by enabling a reinforcing 
        MEB to ``marry up'' ashore with its equipment from one of the 
        three MPS squadrons. The augmented MPS facilitate the routine 
        employment of prepositioned equipment in a variety of 
        activities across the range of military operations (ROMO) and 
        mitigate the risk of lower than desired amphibious ship 
        inventory levels.

    101. Senator Burr. General Amos and Admiral Greenert, are the 
requirements for more amphibious ships greater because at least 15 to 
20 percent of the amphibious fleet is not deployable because they are 
in shipyards undergoing maintenance and repair?
    General Amos. The requirement for amphibious ships outlined in our 
7 January 2009 report to Congress assumes that amphibious ships are not 
operationally available due to maintenance approximately 10 percent of 
the time. Due to the current maintenance challenges faced by the San 
Antonio class, amphibious shipping is trending near 75 percent 
availability vice the 90 percent planned. We would work to improve 
operational availability to close to the 90 percent level instead of 
increasing our force structure requirement to offset a significantly 
lower operational availability. This will require increased resources 
specifically maintenance funding for the upkeep of amphibious ships.
    Admiral Greenert. No. Under normal circumstances, no more than 
about 10 percent of the amphibious fleet is undergoing significant 
maintenance and repair that would preclude operational availability in 
the event of a national crisis. While there may be instances when 
greater than 10 percent of the force is undergoing maintenance, we are 
confident this assumption is consistent with the long-term availability 
of amphibious ships for contingency operations.
    The requirement for amphibious ships outlined in the January 7, 
2009, Report to Congress on Naval Amphibious Force Structure and the 
Annual Report to Congress on the Long Range Plan for Construction of 
Naval Vessels for fiscal year 2011, calls for a force of 33 total ships 
(11 LHA/LHD, 11 LPD, and 11 LSD). Under normal circumstances, 29 to 30 
are available for tasking, enough to support MEBs while accepting risk 
in the arrival of combat support and combat service support elements of 
the MEB.
    Without accepting this risk, the full requirement would be 38 
ships. However SECNAV, CNO, and CMC agree that the 33-ship force 
equates to an acceptable level of risk, as stated in the January 7, 
2009, Report to Congress on Naval Amphibious Force Structure.

    102. Senator Burr. General Amos and Admiral Greenert, the serious 
engineering problems on LPD-17 class ships gives rise for a concern 
about a broader readiness problem. While the recent commissioning of 
the USS New York in New York City harbor was great for the Navy, the 
ship cannot get underway because of mechanical failures in the main 
propulsion engines, generators, and failing piping welds that make the 
ship unsafe to operate. The LPD-17 amphibious ship program has more 
challenges than we had hoped. Are we seeing a systemic problem with the 
readiness of the Navy's amphibious ships?
    General Amos. No deployments have been missed. However, there has 
been multiple negative impacts due to unscheduled maintenance 
requirements during work ups and more importantly, during deployments.
26th MEU: (LF5th Flt 2010-01)

        - San Antonio had to be swapped with Ponce due to San Antonio 
        non-mission capable and unscheduled maintenance. Loss of C2 and 
        cargo space.
15th MEU (Westpac 2010)
        - Peleliu main feed pump repair caused a 2-day delay in 
        deployment.
        - Dubuque had to return to port 2 days early during PTP due to 
        engineering casualty. Potential impact on availability to 
        Certex.
31st MEU (Spring Patrol 2010)
        - MEU deployed aboard two-ship ARG (Essex and Tortuga) due to 
        maintenance availability. MEU CDR reports ``the MEU will not be 
        immediately capable of performing all METs and core 
        capabilities due to significant remain behind equipment and 
        personnel.'' RBE includes: Artillery Battery detachment, al 
        CBRN gear, 21 HMMWVs, 14 MTVRs. Degraded TSC capability and 
        risk to USPACOM contingency response. Denver is undergoing 
        scheduled maintenance and Harpers Ferry is conducting a PACFLT 
        directed TSC event.
24th MEU (LF5th Flt 2010)
        - Nassau: Failure to install full GIG-E backbone. Significantly 
        degraded C2 infrastructure: limited bandwidth, outdated 
        switches, minimal VTC capability, and extremely limited VOSIP 
        capability. Intermittent connectivity has significantly 
        impacted and degraded execution of several missions.
        - Wasp: Degraded combat systems. NASSAU substitution requiring 
        MEU and reduced C2 capability (LHA vs. LHD).
        - Mesa Verde: Outdated VTC capability. Installed VTC 
        incompatible with current systems. Mission degradation.
11th MEU (WESTPAC 2009-02)
        - Bon Homme Richard: Mechanical failure that caused a 6-day 
        delay in deployment.
31st MEU (Fall Patrol 2009)
        - MEU deployed without Essex due to scheduled maintenance. 
        Degraded TSC capability and risk to USPACOM contingency 
        operations.
13th MEU (WESTPAC 2009)
        - Boxer experienced 40 days of degraded or no fixed wing 
        capability due to flight deck surfacing issues that were 
        deferred due to budget constraints. Flight deck was shut down 
        while in CENTCOM AOR.
        - Comstock missed 12 days of work up at sea days, unreliable 
        for 50+ days of PACOM transit resulted in 19 day extended in-
        port maintenance call while in theater, totally of 81 days out 
        of action.
15th MEU (WESTPAC 2009-02)
        - Dubuque experienced ruptured boiler. Required 3 to 4 weeks of 
        repair in Bahrain. Limited MEU participation in Exercise 
        Infinite Moonlight and impact on capability to back load in 
        case of contingency.
26th MEU (LF5th Flt 2008-01)
        - San Antonio experience engineering lube oil system failure. 
        San Antonio was pier side at Bahrain non-mission capable for 1 
        month.
        - San Antonio experienced a stern gate casualty causing a 2- to 
        3-day delay in deployment.
        - San Antonio missed a total of 30 days of PTP/operational 
        employment in support of embarked forces.

    Admiral Greenert. No. While we have seen some recurring material 
issues in LPD 17 class ships, the problems associated with a new 
construction ship are not indicative of a systemic problem with the 
amphibious ship readiness of the existing fleet.

                mine resistant ambush protected vehicles
    103. Senator Burr. General Chiarelli, in response to the increasing 
threat posed by improvised explosive devices (IED) in Iraq, DOD 
initiated a rapid acquisition strategy to field a more survivable, mine 
resistant ambush protected (MRAP) vehicle. As a result, DOD has 
purchased approximately 12,000 MRAPs saving countless American lives. 
Now the question is how the Army plans to integrate a platform designed 
to meet an urgent wartime requirement into its long-term modernization 
and sustainment strategy. What is the Army's plan for the integrating 
MRAP vehicles into its ground vehicle strategy, particularly with 
regard to the Joint Light Tactical Vehicle (JLTV)?
    General Chiarelli. The Army's 2010 draft TWV Strategy is informing 
the MRAP Study II, in conjunction with the TWV Study III. MRAP Study II 
acknowledges changes since the original 2009 MRAP Study I results and 
DP 147 and will seek to place more MRAPs on Tables of Organization and 
Equipment, use more MRAPs as substitutes for LTV/JLTV mission roles, 
and examine the use of MRAP as Data Interchange platforms. Preliminary 
analysis indicates the likelihood that MRAP re-use goals will be 
achieved and has also identified the value of implementing certain MRAP 
upgrades that will result in greater capability. Initial results are 
expected in October 2010, and final results no later than 31 Dec 2010. 
We expect to meet the Army's TWV Strategy goals with a mixed fleet of 
vehicles capable of meeting the spectrum of DOD contingency plans.

    104. Senator Burr. General Chiarelli, does the Army plan to 
integrate all 12,000 vehicles into its long-term inventory? If so, how 
will this affect inventory issues such as APS and motor pool space 
constraints?
    General Chiarelli. The Army's 2010 draft TWV Strategy is informing 
the MRAP Study II, in conjunction with the TWV Study III. MRAP Study II 
acknowledges changes since the original 2009 MRAP Study I results and 
DP 147 and will seek to place more MRAPs on Tables of Organization and 
Equipment and into the APS and have others reserved for sustainment 
stocks. APS as a program will also receive some additional vehicles 
which must be reviewed to ensure they are supportable within the 
current global APS infrastructure, and any improvements required to 
meet that supportability are identified and resolved. Those platforms 
that go into units may require a change to current motor pools and some 
maintenance procedures.

    105. Senator Burr. General Chiarelli, the MRAP program was 
initiated as a joint program but will shift to the individual Services 
in fiscal year 2012, where the Army will assume budgetary control over 
its MRAP fleet, including its significant sustainment costs. Do you 
have any estimates on future costs associated with sustaining the MRAP 
fleet?
    General Chiarelli. A final decision on when to transfer the MRAP 
program to individual Service control has not been made. The Under 
Secretary of Defense (Acquisition, Technology, and Logistics) will 
select a path forward for transitioning the joint program to another 
program management construct based on events rather than purely time. 
Given the rapid acquisition and fielding of MRAP vehicles to meet 
urgent warfighter requirements, long-term sustainment costs are also 
unknown at this time. The Army will have more clarity on long-term 
sustainment costs upon approval of Army Campaign Plan (ACP), which 
allocates 15,000 enduring force MRAP vehicles between APS, Army 
organizations, and training/war reserve stocks. The final allocation 
will significantly impact future sustainment cost estimates since 
vehicles stored in APS have a significantly lower operational tempo and 
sustainment costs compared to vehicles used on a regular basis in 
units. The Army will also conduct a fiscal year 2011 Sustainment 
Readiness Review (SRR), which is a post deployment review to assess the 
performance of the MRAP support system. The SRR will evaluate the 
actual performance against predicted parameters and thus provide better 
insight on the path forward for future MRAP sustainment, to include 
costs.

    106. Senator Burr. General Chiarelli, how does the Army plan to 
absorb these costs, particularly as we transition from OCO dollars to 
base budget dollars?
    General Chiarelli. Given the rapid acquisition and fielding of MRAP 
vehicles, long-term sustainment costs are unknown at this time. Until 
we have clarity on future MRAP sustainment, to include funding 
requirements, we cannot provide a feasible plan to absorb the costs. We 
expect to know more after the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(ATL)) selects a path 
forward for transitioning the joint program.

    107. Senator Burr. General Chiarelli, how will this affect other 
Army priorities, such as its modernization efforts?
    General Chiarelli. The Army will develop and field an affordable 
and interoperable mix of the best equipment available to allow soldiers 
and units to succeed in both today's and tomorrow's full-spectrum 
military operations. We will continuously modernize a balanced set of 
equipment--including MRAPs--to meet current and future capability needs 
through a combination of upgrade, recapitalization, refurbishment, and 
technology insertion. As 21st century threats emerge and adjust, and 
force requirements evolve in response to that future operational 
environment, the Army will fund, field, and distribute capabilities--
using the ARFORGEN model--in accordance with the Army Resourcing 
Priorities List to ensure that deployed soldiers have the best possible 
equipment.

                         nondeployable soldiers
    108. Senator Burr. General Chiarelli, you mentioned in your 
statement that the nondeployable rate for our soldiers increased from 
9.92 percent in fiscal year 2007 to 12 percent in fiscal year 2009. 
What is the current level of nondeployable soldiers?
    General Chiarelli. For fiscal year 2010 year-to-date, the current 
level of nondeployable soldiers is 14.11 percent.

    109. Senator Burr. General Chiarelli, do you see this level 
decreasing?
    General Chiarelli. Based on past and current trends, I do not 
anticipate nondeployable levels to decrease in the near-term. A key 
factor in the recent increases in nondeployable rates has been the 
sustained high levels of demand. Additionally, the reduction of Stop 
Loss has caused a corresponding increase in nondeployables based on 
voluntary separations and retirements. As demand decreases, we would 
expect to see an eventual stabilization and ultimate decrease in 
nondeployable rates over the long-term.

    110. Senator Burr. General Chiarelli, in addition to the temporary 
increase in end strength of 22,000, what steps are being taken to 
address the nondeployable levels?
    General Chiarelli. After 9 years of war, the health of our All-
Volunteer Force is showing signs of stress. From a tactical 
perspective, commanders at all levels are actively engaged in 
identifying nondeployable soldiers and, in the case of temporary 
nondeployable conditions, linking the soldier with the requisite 
resources necessary to resolve the nondeployable condition. From a 
strategic perspective, the Army staff is focused on policy and 
implementation decisions necessary to dampen the nondeployer rates in 
our units and to gain better visibility on the health of the force.
    Specifically with regard to medical nondeployers, my staff is 
engaged in numerous efforts to improve medical readiness policies and 
processes. These efforts are synchronized across four lines of 
operations (Systems, Training, Policy, and Processes) and focused on 
our desired end-state to man an expeditionary Army with soldiers who 
are medically deployable while preserving the All-Volunteer Force. Our 
actions in this realm are built upon four primary objectives: to 
develop a medical Common Operating Picture; to train our leaders and 
medical professionals on medical readiness policies and procedures; to 
determine what impact worldwide deployability should have on soldier 
retainability; and to standardize and streamline medical board 
processes across all components. Over time, increased visibility 
combined with improved policy and streamlined processes will combine to 
decrease nondeployer rates.

    111. Senator Burr. General Chiarelli, what effect has the temporary 
increase in end-strength had on ensuring units are capable of 
deploying?
    General Chiarelli. The Temporary End Strength Increase (TESI) has 
provided us with the operational flexibility to over-man units and 
achieve deployed strength benchmarks, compensating for nondeployable 
soldiers and the reduction of Stop Loss. During fiscal year 2010 year-
to-date, 11 of the 13 BCTs and all 4 of the CABs met the minimum 90 
percent deployed strength requirement at the latest arrival date. The 
two BCTs that missed that benchmark achieved the minimum 90 percent 
deployed strength requirement within 30 days after the latest arrival 
date.

    112. Senator Burr. General Chiarelli, do you see a need to make the 
temporary increase of end-strength permanent?
    General Chiarelli. No. The TESI is a temporary solution to a 
temporary problem. TESI was designed to improve the fill of deploying 
units by mitigating the effects of the increase in nondeployable 
soldiers, Stop Loss elimination, and wounded warriors, which were a 
result of the operational demand for forces in support of OIF and OEF. 
Our vision of the future manning environment is predicated on the 
projected reduction in demand in fiscal year 2012 and the plan to 
completely eliminate Stop Loss by March 2011. Any significant changes 
in demand or other key variables may affect our end-strength 
requirements.

                     marine corps training on guam
    113. Senator Burr. General Amos, the Marine Corps has indentified 
the ability to train on Guam, or nearby islands, at the unit level as a 
major requirement to support the relocation of Marine forces to Guam. 
Will the Marines require small arms training sites on Guam, or can this 
training be accomplished solely on Tinian?
    General Amos. Yes, the Marines will require small arms training 
sites on Guam to sustain core competencies in order to meet the 
operational requirements of the combatant commander. This training 
cannot be accomplished solely on Tinian as it is the type of training 
that marines will conduct on a daily/near-continuous basis. The types 
of ranges being planned for on Guam support basic, individual skills--
those essential warfighting skills that make us marines--that all 
marines are required to use on an annual basis, at a minimum, for 
readiness sustainment. Additionally, the ranges currently planned on 
Tinian under the current environmental impact statement (EIS) do not 
support medium or heavy caliber ammunition as required for the multi-
purpose machine gun range. Based on the frequency of range use, the 
number of Marines relying on these ranges for annual qualifications, 
and the enduring presence the Marine Corps intends to have on Guam, we 
have determined that it is critical to build these ranges at the 
location where marines live and work.

    114. Senator Burr. General Amos, what level of training and arms 
can be used? In other words, will Marines have to travel off Guam to 
train in order to deploy? If so, where would the Marines have to go to 
train?
    General Amos. On Guam, the marines will primarily conduct live-fire 
qualification and sustainment training with individual weapons and 
crew-served weapons. Those Marine Corps forces relocating from Okinawa 
to Guam will have to travel off-island to accomplish requisite core 
competency training. This is because the current EIS does not provide 
for a high explosive, dud-producing impact area, amphibious landing 
beach or higher level collective training ranges the Marine Corps 
forces need to sustain core competencies. The Marine Corps ultimately 
desires to conduct core competency training in areas that minimize 
travel time and reduce operational non-availability. Commonwealth of 
the Northern Marianas Islands (CNMI) provides land space reasonably 
close enough to ensure Guam-based marines sustain the core competencies 
that cannot be met on Guam on a regular basis.

    115. Senator Burr. General Amos, how is this pre-deployment 
training requirement met for those marines assigned to Okinawa now?
    General Amos. The Marine Corps' Pre-Deployment Training Program 
consists of four blocks of training. Blocks I and II are conducted by 
unit commanders at home station and are designed for individuals and 
small units. Blocks III and IV are progressive training for entire 
units culminating in a final exercise testing the unit's capability to 
function as a cohesive team.
    The Marine Corps does deploy complete units from ground, aviation, 
and logistics combat elements from Okinawa, as well as smaller enabler 
detachments, to Afghanistan in support of OEF. These units complete 
pre-deployment training in the same manner as CONUS-based units, 
including block IV mission rehearsals and assessments at Twentynine 
Palms, CA, or at approved alternate training venues.
    The Marine Corps also deploys marines from Okinawa to serve as 
Afghanistan and Iraqi training teams who also conduct pre-deployment 
progressive Block training that finishes with either a home station or 
CONUS based mission rehearsal and assessment.
    Units rotating to Okinawa on the UDP complete Blocks I and II prior 
to arrival in the same manner as CONUS-based units. Units rotating to 
Okinawa as part of the 31st MEU also complete individual and small unit 
training. Additionally, designated units complete specialized training 
with the first Special Operations Training Group (SOTG), Camp 
Pendleton, CA, prior to arrival in Okinawa. The Maritime Reaction Force 
(MRF) platoon training is one example.

    116. Senator Burr. General Amos, what steps, including an EIS and 
military construction (MILCON), would be needed to improve training on 
and near Guam?
    General Amos. The May 2006 Realignment Roadmap delineates specific 
Marine Corps units to permanently relocate from Okinawa to Guam. The 
Guam realignment EIS, conducted by the Joint Guam Program Office, 
includes analysis of live-fire and non-fire training activities to 
support limited individual and collective training. The DOD considers 
Marine Corps training requirements in the Pacific beyond what is being 
analyzed in the Guam realignment EIS to be part of a much broader 
picture that must take into account DOD's global posture. The Marine 
Corps considers training of the MAGTF elements relocating to Guam tied 
to the movement of those forces: development of training capacity must 
align with force flow in order to sustain readiness for relocating 
units. MILCON for ranges will need to be synchronized with force flow 
such that units arriving on Guam will have ranges available to sustain 
readiness.
    PACOM has determined that there is an ongoing need to reassess 
current training locations and to develop additional training capacity 
for higher-level core competency training in the Western Pacific. PACOM 
will conduct a joint training review to address longstanding training 
deficiencies in the Pacific. This review will specifically evaluate the 
needs for additional training facilities in the CNMI and other 
locations in the Western Pacific to address individual, collective, and 
MAGTF training requirements for Marine Corps and joint forces in the 
area. Initial analysis has identified Tinian and Pagan as potentially 
suitable for training forces aboard Guam for individual, collective, 
and MAGTF-level training requirements. However, the full environmental 
impact analysis must be completed in order to accurately determine 
Tinian and Pagan's suitability to meet these training requirements.

    117. Senator Burr. General Amos, what is the timeline for 
establishing these improved training facilities?
    General Amos. Programming for training ranges and areas under the 
Guam EIS are budgeted to begin with potential land acquisition in 
fiscal year 2012 and construction to begin thereafter. PACOM is 
budgeted to receive $30 million in fiscal year 2011 to conduct the 
Pacific Training Study that will examine training potentialities in the 
CNMI.

              impact to readiness from off-shore drilling
    118. Senator Burr. General Chandler, the President recently 
announced his support for new off-shore drilling initiatives. As you 
may know, the issue of drilling in the Eastern Gulf of Mexico has 
raised concerned within DOD over potential impacts to the test and 
training air ranges in that area. Some of this concern has been 
addressed with recent negotiations with the Department of the Interior 
(DOI) about acceptable methods of drilling. What is the current 
position of the Air Force concerning the issuance of additional leases 
in the Eastern Gulf of Mexico to support off-shore drilling operations?
    General Chandler. The Air Force has participated in the DOD's 
efforts to identify compatibility issues with drilling in the Gulf of 
Mexico. Our most recent initiative assessed the Gulf for potential 
operational impacts from energy development. The Air Force did not 
designate any areas as completely incompatible with oil exploration and 
drilling. However, we noted stipulations that should be included in any 
DOI lease that would protect the military mission. These stipulations 
include periodic evacuations and hold-harmless agreements, similar to 
those employed near space launch ranges.
    In our operational impact findings, we noted that while no single 
area is incompatible with drilling, that could change as development 
ensues. The nature of current Air Force operations in the Gulf allows 
for some geographic flexibility in the scheduling of missions. The 
effect of pinning missions into smaller areas is: (a) more missions in 
the remaining areas, and (b) potential ``incompatible'' designations in 
the remaining areas. The Air Force will remain engaged with DOD and its 
partners to ensure that current and future operational impacts, both 
specific and cumulative, are taken into consideration during energy 
siting decisions.

    119. Senator Burr. General Chandler, what are the current concerns 
about the impact to military readiness?
    General Chandler. The Air Force has participated in DOD's recent 
initiatives to identify operational compatibility issues with 
development on the Outer-Continental Shelf. Our concerns in the Gulf of 
Mexico are primarily related to the potential restrictions on current 
and future operations, test, and training resulting from development. 
The Air Force identified lease stipulations that could overcome these 
concerns. The stipulations were: (1) some restrictions on permanent 
above-surface structures; (2) periodic evacuations with proper 
notification; and (3) hold-harmless agreements for property damage. 
These stipulations have been used near launch facilities on both 
coasts. While damage from debris is unlikely, our commitment to safety 
requires that certain areas remain free of bystanders during certain 
missions.
    In short, the physical presence of a drilling structure in the Gulf 
of Mexico is unlikely to be incompatible with Air Force operations as 
long as that structure does not result in new restrictions on our 
current and future operations.

                   av-8b harrier aircraft sustainment
    120. Senator Burr. General Amos, it is my understanding that the 
current pace of operations in Iraq and Afghanistan has significantly 
increased the utilization of the Marine Corps AV-8B aircraft above the 
planned usage. Because of the need to keep the AV-8B in service until 
we transition to the F-35 Joint Strike Fighter (JSF), various levels 
maintenance are needed to keep this aircraft flying. How would you 
recommend the current AV-6B sustainment strategy be improved in order 
to reduce maintenance turnaround time and enhance readiness?
    General Amos. In contrast to other legacy platforms, the life 
limits of AV-8B major airframe components are now being defined by FLE 
rather than flight hours. This means the Harrier's airframe can be in 
service significantly beyond the projected out-of-service date of 
fiscal year 2022. Emergent avionics obsolescence and subsystem issues, 
engine, and engine accessory supportability, all of which are addressed 
by the Readiness Management Program and Engine Life Management Program, 
will have the greatest impact on AV-8B long-term sustainment.
    The Harrier Fleet is currently inventory-constrained. Ongoing 
efforts to streamline the Planned Maintenance Interval (PMI) process 
are a key element to reducing depot turnaround time, thereby limiting 
the number of aircraft out of service and mitigating inventory 
shortfalls. PMA-257 and Fleet Readiness Centers (FRCs) East and 
Southwest signed a Performance Based Agreement that assigns FRC-E as 
the PMI-2/3 Single Process Owner starting in fiscal year 2011. 
Additional efforts to reduce turnaround time involve improving existing 
processes and awarding a long-term Performance Based Logistics contract 
through DLA to improve material availability.

                  readiness risk for combat air forces
    121. Senator Burr. General Chandler, you state in your written 
testimony for this hearing the following: ``By accelerating the planned 
retirement of 257 legacy fighter aircraft, we are committed to a 
smaller, but more capable fifth-generation fighter force. These 
retirements freed more than 4,000 personnel to operate RPA and to 
process, exploit, and disseminate intelligence. This shift accepts a 
moderate amount of warfighting risk due to decreased capacity, but is 
necessary to move forward to more capable and survivable next 
generation platforms.'' Can you explain what you mean by a moderate 
amount of warfighting risk?
    General Chandler. Risk definitions are derived from the Chairman of 
the Joint Chiefs of Staff Risk Assessment process. The broad definition 
of moderate risk is that forces, capabilities, and effects, required or 
implied, will likely be provided in an effective and timely manner; but 
may be delayed, are less than optimally configured, or could entail 
increased tactical losses than if fully funded. This will not 
jeopardize operational or strategic success. Aircraft inventories will 
need to be aggressively managed to maintain primary mission aircraft 
inventories and timelines may require an extension, but strategic 
objectives are likely to be met.

    122. Senator Burr. General Chandler, is the Air Force working with 
the Joint Staff and the combatant commanders to mitigate the risk of 
decreased capacity?
    General Chandler. When preparing the fiscal year 2010 President's 
budget, the Secretary of Defense provided guidance to the Services to 
assess, balance, and adjust manned, short-range fixed-wing capacity. 
After conducting a thorough examination of the current and future 
strategic environment, the Air Force determined that a window of 
opportunity existed in the near-term to accelerate the retirement of 
approximately 250 of its oldest legacy fighters. The Air Force 
coordinated this plan across all major commands in the Active Duty as 
well as the Air National Guard and Air Force Reserve. This plan was 
briefed to the Joint Staff and the Unified Combatant Commanders or 
their designated representatives, and their concerns about the plan 
were either directly addressed with Air Force leadership or with the 
Secretary of Defense.

    123. Senator Burr. General Chandler, how long do you expect the Air 
Force to assume this risk?
    General Chandler. As stated in the Combat Air Forces Restructuring 
Congressional Report submitted in February 2010, the Air Force 
increased the level of risk to achieve National Defense Strategy (NDS) 
objectives in the 2010 to 2020 timeframe to build a smaller, but more 
capable force. This revised force structure along with investments to 
modifications, preferred munitions, and key enablers will serve as a 
capabilities-based bridge to an increasingly fifth generation fighter 
force structure. These actions will posture the Air Force fighter fleet 
to better enable the joint force in pursuit of NDS objectives in the 
2020 to 2030 timeframe and beyond--coincident with an increasingly 
dangerous MCO environment.

    124. Senator Burr. General Chandler, what are Air Force plans in 
the long term to reduce or eliminate this warfighting risk?
    General Chandler. The Air Force will aggressively manage its budget 
to comply with the DOD fiscal year 2011 President's budget guidance to 
procure F-35 aircraft at a rate of 80 per year starting in fiscal year 
2016. The Air Force is also investigating modernization and SLEPs for 
its legacy fighter fleet to increase capability and maintain capacity. 
Additionally, the Air Force is reviewing options to field survivable, 
long-range surveillance and strike aircraft as part of a comprehensive, 
phased plan to modernize the bomber force. These risk reduction efforts 
are part of an enterprise-wide Total Force effort to ensure the Air 
Force meets current and future emerging missions. The Air Force is 
ready to execute the President's guidance to make the most of our 
allocated resources and to work as a member of the joint team to 
accomplish our Nation's military objectives.

          army requirements for the closure of guantanamo bay
    125. Senator Burr. General Chiarelli, I have a question about 
pending Army requirements related to Guantanamo Bay (GTMO). As you 
probably know, I do not support bringing suspected terrorists to the 
United States, let alone spending this kind of money to attempt to 
recreate the state-of-the-art detention facility we already have in 
GTMO. But the OCO portion of the President's budget request for fiscal 
year 2011 includes $350 million in a transfer fund for the detention 
facilities at GTMO, provides funding to make improvements at the 
Illinois State Prison at Thomson, IL, in the amount of $150 million, 
and includes another $158 million for information technology 
improvements at the Rock Island Arsenal, IL, to support DOD detainee 
operations at Thomson. The Army will be the executive agent for this 
operation. Has the Army determined how many military personnel will be 
assigned to Thomson and where will they be housed?
    General Chiarelli. The Army participated in several preliminary 
planning sessions and developed a very tentative plan for manning the 
Thomson facility should the decision be made to use that facility to 
house Guantanamo Bay detainees. Our basic planning figures include 
approximately 1,000 military and civilian personnel at Thomson, and up 
to 500 military and civilian personnel at Rock Island Arsenal, to 
support the detainee operations mission.
    A plan to house military personnel and their families will be 
developed based on housing market analyses in the vicinity of Thomson 
and Rock Island. If military housing is required, it will be 
constructed at a later date.

    126. Senator Burr. General Chiarelli, has the Army planned for the 
commitment of manpower and resources to support the mission at 
Thompson?
    General Chiarelli. Yes, the Army conducted planning with OSD, but 
no commitment for manpower and resources were allocated to support the 
mission at Thomson.

    127. Senator Burr. General Chiarelli, does the request for funding 
include funding for military housing and other base support facilities 
at Thomson and Rock Island for the Army personnel that will be 
stationed to support the new facility?
    General Chiarelli. The funding request associated with the 
potential relocation of Guantanamo Bay facilities was developed by OSD. 
I am not able to provide any information with regard to that request.

                         army green ammunition
    128. Senator Burr. General Chiarelli, the Army has been developing 
a more effective and lead-free bullet to replace the currently fielded 
M855 5.56mm round for several years, commonly referred to as green 
ammunition. The initial plan was to field the first installment of 20 
million green rounds late last summer but this was delayed as a result 
of significant testing failures, particularly when the rounds were 
exposed to high temperatures. Are you confident this ammunition will be 
ready for combat by June of this year, as earlier stated by the Army?
    General Chiarelli. The temperature issue experienced with the 
M855A1 Enhanced Performance Round (EPR) has been corrected. The Army 
has begun to issue the M855A1 to our soldiers in Afghanistan, packaged 
for use with the M16 rifle and M4 carbine. Early reports we have 
received about the cartridge's performance have been very favorable. 
The Army has produced and accepted over 45 million M855A1 EPR 
cartridges and 1.1 million EPR cartridges have been airlifted through 
Kuwait and are now in Afghanistan. Additionally, 4.6 million EPR 
cartridges have arrived via sealift to the CENTCOM area of operations 
(AO); 14.5 million cartridges are scheduled to arrive in the CENTCOM AO 
by October 12 and another 7 million are now planned for delivery in 
late December.

    129. Senator Burr. General Chiarelli, are you confident that the 
green ammo provides a comparable performance to other rounds currently 
being fielded by other Services, including the SOST round being 
acquired by the Marine Corps and SOCOM?
    General Chiarelli. The M855A1 EPR cartridge is an improved version 
of the M855 cartridge that is fired from the M4 carbine and M16 rifle. 
The M855A1 incorporates a product improved projectile and improved 
propellant which provides significantly enhanced performance against a 
wide variety of targets. The M855A1 provides improved hard target 
capability, more consistent performance against soft targets, improved 
accuracy, and reduced muzzle flash. These performance improvements were 
incorporated without an increase to cartridge weight or size. Approval 
of the M855A1 for fielding for use in the M4 carbine and M16 rifle has 
been requested. The M855A1 outperforms the Special Operations Science 
and Technology cartridge (SOST) in accuracy, and terminal consistency 
against soft targets. The M855A1 meets the Army requirements of 
perforating 3/8 inch steel and matches the 5.56 mm M856 trace whereas 
the SOST does not. The M855A1 also has better performance against 
Kevlar, and against concrete masonry than does the SOST.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
              personnel readiness and servicemember health
    130. Senator Inhofe. General Chiarelli and General Amos, the 
military's strength is in its soldiers, the families, and the Army 
civilians who support them. With over 2 million service men and women 
having deployed to support the war on terror, indicators of that strain 
or stress on the force have begun to surface such as increase in 
suicide rates and divorces, retention, and recruiting challenges. What 
is your assessment of the health and quality of the Army and Marine 
Corps?
    General Chiarelli. Our soldiers, families, and civilians are 
clearly stressed and fatigued by nearly 9 years of combat. The Army is 
out of balance, and that balance needs to be restored to sustain this 
All-Volunteer Force for the long haul. Yet, through it all, our Army 
remains amazingly resilient, determined, and extraordinarily effective. 
Today, our soldiers have more expertise, education, training, and 
capabilities than ever before, and in fiscal year 2009, our incoming 
Active component soldiers had the highest high school diploma rates 
since fiscal year 2003.
    General Amos. As a Force, our Marines Corps units in the field are 
performing brilliantly and are consistently proving that they can 
absorb the stress and accomplish the mission. However, I am concerned 
about the impact of stress on the individual marine and his/her family. 
Each month, we monitor behavioral factors, such as divorce and suicide 
for signs of increased stress on marines and their families, and 
although there was a slight decrease in the divorce rate--from 3.7 
percent in fiscal year 2008 to 3.6 percent in fiscal year 2009--our 
suicide numbers are up. These stress factors have my attention and that 
of senior leadership at the highest level as we refocus our efforts to 
improve the quality of our prevention and lifeskills training to 
strengthen the resiliency and coping skills of our marines and their 
families.

    131. Senator Inhofe. General Chiarelli and General Amos, what new 
initiatives are the Army and Marine Corps implementing to address these 
stress indicators?
    General Chiarelli. The U.S. Army Medical Command developed the 
Comprehensive Behavioral Health System of Care Campaign Plan to 
emphasize identifying, preventing, treating, and tracking behavioral 
health issues affecting soldiers and families. This campaign 
establishes an integrated, coordinated, and synchronized comprehensive 
behavioral health system of care supporting the ARFORGEN model in each 
of its phases in order to reduce the incidence of behavioral health 
issues and mitigate the impact of the normal stresses of Army life, 
deployment, and combat.
    The Comprehensive Behavioral Health System of Care Campaign Plan 
focuses on the standardization and implementation of key soldier/family 
and civilian support models incorporating screening points, assessment, 
provider education and self care, tele-behavioral health, and a common 
information technology platform. Specific components of this campaign 
plan include Child and Family Assistance Centers that execute a 
comprehensive plan on the installation that provides direct behavioral 
health support for Army families and their children. This plan 
integrates all behavioral health resources under a single umbrella 
organization to facilitate coordination, and increase capacity and 
flexibility in delivery of these services. Another central support 
program is School Behavioral Health Programs that will implement a 
cost-effective comprehensive array of school behavioral health programs 
and services to support military children, their families, and the Army 
community in schools and Child Development Centers. Other key 
components to this overarching campaign plan include the Army Substance 
Abuse Program and the self-referral pilot Confidential Alcohol 
Treatment Education Program now underway at multiple locations.
    General Amos. We are committed to developing resiliency and coping 
skills in individual marines and their families and have taken the 
following actions:

        - Broadened the scope of our Executive Force Preservation Board 
        that I chair to focus on all behavioral health concerns--such 
        as combat and operational stress; suicide; domestic violence; 
        substance abuse, and sexual assault.
        - Initiated the development of a systematic standardized family 
        readiness support system, through the Unit, Personal, and 
        Family Readiness Program, which is designed to work across 
        functional lines to build and sustain the capacity of military 
        families to care for themselves and mutually support one 
        another within the Marine Corps Community. As part of this 
        program, we established over 400 full-time, primary-duty 
        civilian Family Readiness Officers (FRO) to support commanders 
        at the unit level.
        - Developed an inventory of LifeSkills training courses that 
        specifically address the challenges of military life, as well 
        as personal and family life to initiate and foster a strong 
        foundation of readiness among our marines and their families.
        - To address the increased demands and potential impact of 
        multiple, sustained deployments on both our Active and Reserve 
        component marines and their families we have:

                <bullet> Expanded and enhanced our pre-, during-, and 
                post-deployment training to focus on the needs of our 
                constituency;
                <bullet> Implemented the Yellow Ribbon Reintegration 
                Program to ensure our Reserve Marines are afforded 
                access to comparable deployed support services as their 
                Active Duty counterparts;
                <bullet> Broadened the scope of our Lifestyle Insights, 
                Networking, Knowledge, and Skills (L.I.N.K.S.) training 
                to include marines, children, and extended family 
                members;
                <bullet> Incorporated Combat and Operational Stress 
                Control (COSC) into our deployment training cycles.

        - Established COSC and Operational Stress Control and Readiness 
        (OSCAR) training as a primary prevention tool to help marines 
        identify and mitigate early signs of stress and to encourage 
        them to seek help within the unit setting. In addition, senior 
        and junior marines are trained and function as OSCAR Mentors. 
        They actively engage marines who evidence stress reactions, 
        liaison with OSCAR Extenders (Navy Corpsmen, Chaplains, and 
        Medical Officers) which provide additional services or 
        referral, if necessary, to a mental health team regarding 
        stress problems. These personnel watch over the marines in 
        their units, identify and refer them for help with stress 
        problems, when required, and provide the support needed to get 
        them back to full readiness as quickly as possible. OSCAR 
        Mentors greatly decrease the stigma associated with stress 
        reactions, and help marines take care of their own.
        - Engaged on multiple fronts on suicide prevention:

                <bullet> Creating new, dynamic training programs that 
                are targeted toward our marines, NCOs, SNCOs, officers, 
                and family members.
                <bullet> Working closer than ever before with the other 
                Services, the DOD, and civilian and Federal agencies to 
                build our programs, share our information, and put our 
                best practices forward.
                <bullet> Committed to developing resiliency and coping 
                skills in individual marines.
                <bullet> With peer and senior leadership, we are 
                sending the message to every marine that getting help 
                for distress is a duty not an option, and it is 
                consistent with our culture and our ethos to do so.

    Disseminating lessons learned from all death briefs and building 
knowledge and awareness of senior leaders at forums and symposiums.

    132. Senator Inhofe. General Chiarelli and General Amos, we have 
significantly improved the care for our wounded warriors yet we still 
suffer a significant shortfall in mental health care specialists or 
providers. What is being done to address the mental health care 
provider issue?
    General Chiarelli. The Army is using numerous mechanisms to recruit 
and retain both civilian and uniformed behavioral health (BH) providers 
including bonuses, scholarships, and an expansion in training programs. 
The Army Medical Department (AMEDD) has increased funding for 
scholarships and bonuses to support expansion of our provider 
inventory. The Secretary of the Army is conducting a comprehensive 
review of recruiting and retention efforts for mental health providers. 
This review is nearly complete and will offer additional insights and 
recommendations to enhance our abilities to attract and keep these 
professionals within the Military Health System.
    Efforts to improve recruitment and retention of military behavioral 
health providers include the expanded use of the Active Duty Health 
Professions Loan Repayment Program and a $20,000 accessions bonus for 
Medical and Dental Corps health professions scholarship applicants. 
Additionally, the Army implemented an officer accessions pilot program 
that allows older healthcare providers to enter the Army, serve 2 
years, and return to their communities. To improve retention, the Army 
used a onetime Critical Skills Retention Bonus (CSRB) for social 
workers and BH nurses and the AMEDD CSRB for clinical psychologists. 
For our critical civilian workforce, the Army provides centrally funded 
reimbursement of recruiting, relocation, and retention bonuses for 
civilian behavioral health providers to enhance recruitment of 
potential candidates and retention of staff.
    Expanding training opportunities has been a significant part of the 
Army's strategy as well. In partnership with Fayetteville State 
University, the U.S. Army Medical Command (MEDCOM) developed a Masters 
of Social Work program which graduated 19 in the first class in 2009. 
The program has a current capacity of 30 candidates. Additionally, 
MEDCOM increased the number of Health Professions Scholarship 
Allocations dedicated to Clinical Psychology and the number of seats 
available in the Clinical Psychology Internship Program. Prior to 2004 
the Army historically trained 12 interns per year and has progressively 
increased that number, admitting 33 interns in 2009.
    General Amos. To further assist leaders with prevention, rapid 
identification, and early treatment of combat operational stress, we 
are expanding our program of embedding mental health professionals in 
operational units--the OSCAR program--to directly support all Active 
and Reserve ground combat elements. This is being achieved through 
realignment of existing Navy structure supporting the operating forces, 
and increases in the Navy mental health provider inventory. Currently 
there are six authorized permanent billets, two at each active 
division. In fiscal year 2011, 23 additional permanent billets will be 
authorized in the Active and Reserve divisions. Ultimately, each active 
division will have three mental health providers, and each regiment 
will have two. In the Reserves, the division will have four providers. 
OSCAR capability is also being extended to all deploying units by 
providing additional training to existing medical providers, corpsmen, 
chaplains, and religious program specialists where available (OSCAR 
Extenders) as well as to marines and leaders (OSCAR Mentors). These 
personnel watch over the marines in their units, identify and refer 
them for help with stress problems, when required, and provide the 
support needed to get them back to full readiness as quickly as 
possible. OSCAR Mentors, who have the lead in this process, greatly 
decrease the stigma associated with stress reacgreeions, and help 
marines take care of their own. As of 10 Sep, over 400 marines have 
received training as OSCAR mentors. Training has already been conducted 
at I Marine Expeditionary Force (MEF), Camp Pendleton and The Basic 
School, Quantico, VA. In September, II MEF and III MEF will receive 
OSCAR training. MARFORRES is scheduled to receive training in November.

    133. Senator Inhofe. General Amos, both the Army and the Marine 
Corps are suffering significant OPTEMPOs, though the Army is by far 
suffering more with 12-month deployments followed by 12- to 15-month 
dwell times. I have been told that even with the marines on a 7-month 
deployed, 12-month dwell cycle, that units are still suffering a 
compressed timeline. What are the issues associated with the 12-month 
dwell cycle for your marines?
    General Amos. Regarding current deployments, our goal is to achieve 
a 1:2 deployment to dwell ration for Active-Duty Forces and 1:4 for 
Reserve Forces. In peace, our goals are 1:3 and 1:5 respectively. The 
drawdown in Iraq and our current end strength of 202,000 personnel is 
allowing us to get close to our goal with the current level of marines 
in Afghanistan. Dwell time is one of the key factors to ensure that 
unit readiness, recruiting, retention, morale, and family readiness are 
not adversely affected. Our heavy training focus on counterinsurgency, 
coupled with short dwell time, limited the ability of the Marine Corps 
to develop and maintain proficiency in core competencies such as 
combined arms and amphibious operations. This training deficiency 
presents significant risk in our ability to support other OPLANs and 
contingencies, where full spectrum capabilities would be required.

    134. Senator Inhofe. General Chiarelli, is the Army Forces 
Regeneration model working to get us greater dwell times?
    General Chiarelli. ARFORGEN provides an enterprise framework to 
provide predictable periods of unit availability to manage equipment, 
and most importantly to manage our soldiers to ensure each unit is 
manned, equipped, and trained for its assigned mission. Dwell time is 
primarily a function of supply and demand for forces. As long as demand 
exceeds sustainable supply, we will experience issues with dwell time. 
The reduction of the global demand for forces as we move from a surge 
condition to a steady state condition in this era of persistent 
conflict will create greater time between deployments. This results in 
more opportunities for Professional Military Education (PME) and 
training, maintenance, and to enhance the quality of life for soldiers 
and their families.
    The overarching purpose of ARFORGEN is to provide combatant 
commanders and civil authorities with a steady supply of trained and 
ready units to meet operational requirements. These operational 
requirements focus the prioritization and synchronization of 
institutional functions to recruit, organize, man, equip, train, 
sustain, mobilize, and deploy units on a cyclic basis. ARFORGEN's 
adaptability addresses both emerging and enduring requirements. 
Simultaneously, Army institutional adaptations to ARFORGEN maximize 
potential efficiencies while ensuring effective capabilities are built 
to support operational requirements.

    135. Senator Inhofe. General Chiarelli, where do we stand with 
getting all BCTs to a greater than 12-month dwell time?
    General Chiarelli. As of April 2010, Active component BCTs are 
operating on a BOG:dwell ratio of approximately 1:1.43 (12 months BOG: 
17 months dwell). In fiscal year 2012, the Army anticipates beginning a 
1:2 Active component/1:4 Reserve component BOG:dwell and by fiscal year 
2014, a soldier will spend 2 years at homestation prior to a 
deployment. Dwell time for BCTs will improve because of the moderated 
demand for BCTs.

                              end strength
    136. Senator Inhofe. General Chiarelli and General Amos, I was 
pleased to see that both the Army and the Marine Corps have reached 
their permanent end strength goals, 547,000 and 202,000 respectively. I 
see the positive effects the temporary increase up to 22,000 is having 
on the Army but I am concerned that this temporary increase may not be 
enough. I am concerned because we don't have enough BCTs and Reserve 
combat teams to meet the demands of Iraq, Afghanistan, and other 
unforeseen requirements for our military forces. Our forces are 
stretched thin, yet when disaster occurs, they get the job done as they 
did in Haiti despite the toll the additional deployments took on our 
servicemembers and their families. Are your Services' current end 
strength goals adequate to meet the current and forecasted operational 
needs?
    General Chiarelli. Army end strength goals are adequate to meet 
current and forecasted operational needs. The TESI authority provided 
by Congress has enabled the Army to deploy units at acceptable manning 
strength levels. TESI provides the Army increased operational 
flexibility, reduction in personnel and unit turbulence, and the 
predictability for soldiers and their families required to maintain the 
All-Volunteer Force.
    General Amos. Yes, we believe 202,000 Active-Duty personnel are 
sufficient to meet our current and forecasted operational needs. Such a 
force level (i.e., three balanced MEFs) enables the Corps to meet 
current and future challenges in an increasingly demanding operational 
environment. It also gives the Marine Corps the capacity to deploy 
forces in response to contingencies and to support security cooperation 
efforts with our partners across all theaters.
    We believe that 202,000 is the right sized force to achieve our 
goal of a 1:2 dwell given our current level of commitment to 
Afghanistan.

        <bullet> Prior to 202,000, Marine Corps infantry battalions 
        were at a 1:1.1 dwell time. Currently, we are at 1:1.8 dwell 
        for infantry battalions. Factoring in a current steady state 
        commitment of 9 infantry battalions (6 x OEF and 3 x MEU) we 
        expect to achieve a 1:1.9 steady state (RIP TOA period, when 
        battalions overlap, prevents us from getting to 1:2).

    Marine Corps forces are multi-capable, transitioning seamlessly 
from fighting conventional and hybrid threats to promoting stability 
and mitigating conditions that lead to conflict. By maintaining a 
202,000 force, we will continue to improve training, upgrade readiness, 
and enhance the quality of life for all our marines and their families 
by allowing them more recovery time between deployments.
    This fall, the Marine Corps will be conducting a thorough force 
structure review to inform decisions about what the Marine Corps will 
look like in the future. Any recommended adjustments to the force will 
undergo a thorough vetting and analysis to ensure the Nation's Marine 
Corps remain ready. Such adjustments will be brought to your attention 
through Defense Department leadership as situations and events dictate.

    137. Senator Inhofe. General Chiarelli and General Amos, despite 
experiencing exceptional recruiting and retention results, our soldiers 
and marines continue to show signs of stress due to the tremendous 
amount of time and sacrifice that has been asked of them. How have we 
managed to meet or exceed our recruiting and retention goals despite 
the tremendous stress and burdens shouldered by our troops?
    General Chiarelli. Despite the rigors of serving as soldiers, our 
Nation's young men and women step forward repeatedly and pledge to 
serve. They recognize the challenges facing our Nation, answer the 
call, and continue to become part of something larger than themselves. 
In addition, the Army has met or exceeded its recruiting and retention 
goals for several years. This reflects historical trends that show 
rising unemployment and unfavorable economic conditions lead to 
improved enlistments and retention. The shift in the economy has also 
allowed us to raise quality metrics and begin to address other 
important goals. For example, we were able to decrease and eliminate 
some key waivers for enlistment and officer program entry. As economic 
conditions improve, we will monitor trends and make adjustments as 
required to continue to recruit and retain America's best.
    General Amos. The key to the Marine Corps' recruiting success is 
its continued focus on finding highly-qualified young men and women who 
are seeking the challenge of serving their Nation. Continued access to 
high schools and colleges not only assures that we have access to a 
quality market that reflects the face of the Nation, but also a market 
that has the mental abilities to serve in our technically challenging 
fields such as linguistics, aircraft and electronic maintenance, and 
intelligence. The catalyst to our recruiting success is a commitment to 
maintaining a sufficient number of recruiting personnel and adequate 
advertising funding.
    Quality metrics and standards are continuously assessed to ensure 
that we are meeting our manpower skill level needs. We know through 
studies that a high school graduate is more likely to complete recruit 
training. The DOD education tier divisions are appropriately grouped 
and adequately serve as attrition predictors. Applicants who score in 
the upper mental categories on the Armed Services Vocational Aptitude 
Battery have the intellect and mental agility needed to work with 
today's technology. So far this year, 99.7 percent of our enlisted 
accessions have been high school graduates and 72 percent have scored 
in the I-IIIA range, both far exceeding DOD standards of 90 percent 
Tier I (high school graduates) and 60 percent Mental Group I-IIIA 
(upper mental categories) respectively.
    The Marine Corps achieved unprecedented levels of enlisted and 
officer retention during fiscal year 2009 and continues to do so in 
fiscal year 2010. This effort is critical to the proper grade shaping 
of the Marine Corps. Enlisted retention provides the Marine Corps 
essential NCO and staff noncommissioned officer (SNCO) experience and 
leadership. Increased end strength requirements, properly shaped at the 
NCO and SNCO ranks, will continue to place significant demands on our 
retention efforts and will require sustained congressional funding to 
retain quality marines. Robust Selective Reenlistment Bonuses (SRB) 
will continue to be critical to sustaining the Marine Corps' success in 
retaining the leadership and experience needed in a 202,000 Marine 
Corps.

    138. Senator Inhofe. General Chiarelli and General Amos, given that 
fact that this global war on terror will continue and we will be in 
Afghanistan for at least the near term, what is the outlook on Marine 
Corps and Army recruiting and retention?
    General Chiarelli. Since the economic downturn began in December 
2007, the Army has met or exceeded its recruiting and retention goals 
and this trend appears to continue for the near term, reflecting 
historical trends. The economic environment allows us to reduce 
incentive amounts and the number of occupation offered bonuses or 
education incentives. However, we must retain the flexibility to apply 
incentives as necessary to retain soldiers with critical or specialized 
skills. The continued authorities and funding of these programs by 
Congress remain critical to the sustainment of the Army.
    General Amos. A key component of our recruiting success is the 
Marine Corps' image of smart, tough, elite warriors. The time-proven 
intangible benefits of service, pride of belonging, leadership, 
challenge, and discipline are what we offer. The Nation's young people 
continue to answer the call of duty, responding to these intangibles, 
even during this time of war. Ample funding to sufficiently engage in 
targeted recruiting advertising efforts is essential to portraying this 
image and conveying this message.
    As it relates to operational requirements and tempo, one of the key 
factors to ensure that readiness, recruiting, retention, and morale are 
not affected is to maintain our goal of a 1:2 or better dwell time 
throughout the force. We also need to weigh competing operational 
demands and requirements (e.g. exercise support, expeditionary 
missions, theater security cooperation, combat operations, et cetera) 
throughout the total Marine Corps force to ensure there is proper 
balance.
    We continue to experience keen competition from the civilian 
employment sector. Our enlisted marines develop valuable leadership and 
technical skills that are highly sought by the private sector. 
Retaining the proper skills and high quality in our ranks requires a 
robust SRB program and is essential to our mission accomplishment.
    Although overall officer retention is excellent, shortages do exist 
in certain grades and skills, requiring careful management and 
innovative solutions. To this end, the Marine Corps has active programs 
in place, both monetary and non-monetary, to ensure officer retention 
remains high, e.g. Aviation Continuation Pay and Law School Education 
Debt Subsidy. Non-monetary programs include voluntary lateral moves, 
inter-service transfers to the Marine Corps, and the Return to Active 
Duty program. All of these programs provide incentives to officers for 
continued service, even in the face of significant operational tempo 
while giving flexibility to manpower planners to meet requirements 
across the Marine Corps Total Force.

    139. Senator Inhofe. General Chiarelli and General Amos, what is 
the breakout of the nondeployables and what is the plan to reduce the 
current rates, specifically in the Army and the Marine Corps?
    General Chiarelli. For fiscal year 2010 year-to-date, the average 
percentage of a unit's assigned population not deploying at latest 
arrival date is 14.11 percent. This includes late deployers and 
soldiers who will not deploy. Medical nondeployers account for one-
third of the total nondeployer population--by far the largest single 
category of nondeployers. For fiscal year 2010 year-to-date, the 
average nondeployer population includes: 35.2 percent medical; 12.7 
percent administrative separations (e.g. unsatisfactory performance, 
misconduct, hardship); 11.2 percent training; 9.4 percent rear 
detachment cadre; 5.1 percent dwell time; 2.8 percent parenthood; and 
23.6 percent other. Other categories include legal processing, 
retirement, enlisted expiration term of service (ETS), officer release 
from Active Duty or unqualified resignation, temporary duty, emergency 
leave, sole survivor, conscientious objector, and reassignments. The 
training category applies to soldiers who have not completed required 
predeployment training. Approximately one-fourth to one-third of the 
nondeployers at latest arrival date will eventually deploy and join the 
unit in theater; this includes all of the training category and the 
dwell time category, as well as a portion of the temporary medical and 
other categories.
    From a tactical perspective, commanders at all levels are actively 
engaged in identifying nondeployable soldiers and, in the case of 
temporary nondeployable conditions, linking the soldier with the 
requisite resources necessary to resolve the nondeployable condition. 
From a strategic perspective, the Army staff is focused on policy and 
implementation decisions necessary to dampen the nondeployer rates in 
our units and to gain better visibility on the health of the force. 
Specifically with regard to medical nondeployers, my staff is engaged 
in numerous efforts to improve medical readiness policies and 
processes. These efforts are synchronized across four lines of 
operations (Systems, Training, Policy, and Processes) and focused on 
our desired end-state to man an expeditionary Army with soldiers who 
are medically deployable while preserving the All-Volunteer Force. Our 
actions in this realm are built upon four primary objectives: to 
develop a medical common operating picture; to train our leaders and 
medical professionals on medical readiness policies and procedures; to 
determine what impact worldwide deployability should have on soldier 
retainability; and to standardize and streamline medical board 
processes across all components. Over time, increased visibility 
combined with improved policy and streamlined processes will combine to 
decrease nondeployer rates.
    General Amos. From the Marine Corps' perspective, nondeployables 
are marines that are captured as fleet patients, prisoners, and 
trainees (schools 20 weeks or longer). As of 29 August 2010, the above 
categories comprised 874 marines. The assignable enlisted population on 
the above date was 160,593 which reflect a 0.05 percent nondeployable 
population. This headquarters has established manpower procedures that 
effectively reduce the amount of nondeployable marines to current 
minimum levels.

                          equipment readiness
    140. Senator Inhofe. General Chiarelli, General Amos, Admiral 
Greenert, and General Chandler, equipment readiness is becoming more 
and more of a significant issue across all of the Services. The number 
one comment that resonates with me is that we are flying, driving, and 
sailing our equipment well beyond what was originally planned. Our 
fleets are significantly older, based on when they were first designed 
and fielded with some dating back to the 1950s. The Marines now have a 
unique situation where they have to deploy home station equipment to 
Afghanistan and leave it there for replacing units. The inventory of 
Abrams, Paladins, and Bradleys, designed some 30 years ago, are on 
their fourth and fifth modernization program. Marine Corps aviation 
average an age of 22 years old, bombers 34 years old, Air Force 
fighters 27 years old, tankers 46 years old, et cetera. While equipment 
readiness is significantly impacting our operations down range, it will 
have a larger impact in the out-years, once Iraq and Afghanistan go 
away. I am convinced that we are going to have a capabilities gap due 
to our inability to repair and modernize current fleets while 
simultaneously working on future development and our inability to fund 
all of this. We are headed down the same road we travel down after 
every other period of conflict where political focus shifts away from 
the military and national security, leaving a severely depleted force. 
What are we doing now to hedge the cost of refitting the force in the 
next several years?
    General Chiarelli. Congress and OSD have been very supportive of 
Army reset requirements. The Army is executing deliberate reset plans 
and is including Lean Six Sigma improvements in its national level 
reset processes to ensure efficiency and a greater return on 
investment. Reset is a series of maintenance actions taken to restore 
equipment to a desired level of combat capability commensurate with a 
unit's future mission. The Army utilizes reset activities to mitigate 
the long-term impacts of combat operations to equipment in our 
inventory. Our national and installation maintenance activities reset 
approximately 100,000 pieces of equipment and 25 brigades annually.
    Also, as part of reset, selected systems returning from combat have 
been recapitalized. Recapitalization is the rebuild or upgrade of 
currently fielded systems to ensure operational readiness and a near 
zero-time and zero-mile system. The Army has taken the opportunity to 
recapitalize selected systems while the system is undergoing reset. 
Specifically, in fiscal year 2009, returning Apache helicopters, Abrams 
tanks, and Bradley fighting vehicles were recapitalized.
    Nevertheless, the Army will require reset funding for 2 to 3 years 
after the completion of OCOs.
    General Amos. The timeline for getting the Marine Corps on track 
with needed equipment is dependent on the length of time the Marine 
Corps will be engaged in combat, as well as the amount of procurement 
funds available through both reset and baseline funding sources. 
Resetting the Marine Corps under current OCO guidelines is challenging 
since much of the equipment in the retrograde pipeline is legacy 
equipment that no longer meets operational requirements. Additionally, 
we have been unable to procure sufficient equipment to meet table of 
equipment shortfalls and this negatively impacts readiness. The 
fiscally constrained baseline budget limits the Marine Corps ability to 
modernize.
    Baseline funding levels and procurement timelines have not kept 
pace with our increased requirements for additional and updated 
equipment. Our current equipment posture is particularly vulnerable due 
to the convergence of our equipment modernization due to changing 
battlefield requirements, along with the need to rapidly buildup forces 
in Afghanistan as we simultaneously executed a retrograde from Iraq. 
Accelerating equipment procurement where feasible and directing OCO 
funding to a broader enterprise approach gives the Marine Corps greater 
latitude to realign resources to meet equipment requirements.
    It is difficult to predict what the exact Marine Corps reset costs 
will be since it is unknown how long the Marine Corps will be engaged 
in combat. The most important thing is that our marines are equipped 
with the best gear. To do this, additional funding will be required as 
new threats arise on the battlefield. We know in the near term that we 
need funding in order to continue to reset equipment that is currently 
deployed. However, as long as the war continues, our costs will 
continue to grow.
    For Marine tactical aviation assets, the O&S costs on our legacy 
aircraft across DOD have been increasing an average of 7.8 percent per 
year since 2000. The operational lifetimes of legacy aircraft are being 
extended well beyond their original design limits. As a result, we face 
a daily challenge to maintain operational readiness of our legacy 
aircraft due largely to the increasing age of the aircraft fleet. Early 
on it was primarily attributed to the aging avionics systems; lately it 
is maintenance of the airframe and hardware components that are 
becoming the O&S cost drivers. Extending the life of an airframe has 
proven challenging and costly.
    The Marine Corps strategy for the last 11 years has been to forgo 
the continuation of procuring new variants of legacy aircraft and 
continuing a process of trying to sustain old designs that inherit the 
obsolescence and fatigue life issues of their predecessors. Instead we 
opted to transition to a new fifth generation aircraft that takes 
advantage of technology improvements which generates substantial 
savings in ownership cost. The capabilities of the F-35B enable the 
Marine Corps to replace three legacy aircraft types and retain the 
capability of executing all our missions. This results optimizing and 
avoiding unnecessary retrofit and reap tangible O&S cost savings.
    The Marine Corps will preserve our legacy fleets of Harriers and 
Hornets with sufficient funding while transitioning to the fifth 
generation STOVL F-35B. This is the best option to balance the 
requirement to fulfill operational commitments with legacy aircraft, 
while funding the development and procurement of new production JSF. We 
are taking proactive steps today to preserve the legacy fleets, 
maintain their operational relevance, and continue these efforts until 
the production of the F-35B is sufficient to fully transition our 
Harriers and Hornets.
    Admiral Greenert. Reset in stride is how our Navy prepares the 
fleet to deploy again. Lifecycle maintenance and training between 
deployments is essential for reset and the ability of our ships, 
aircraft, and submarines to reach their expected service lives. 
Although we are on pace to grow our fleet for the next 10 years, the 
past decade has seen a reduction in our overall fleet size. At the same 
time, we continue to maintain similar numbers of ships at sea assigned 
to combatant commanders, which we are servicing with historically low 
numbers of ships available for at-sea training, exercises, and surge 
operations. Our fiscal year 2011 budget request balances the need to 
meet increasing operational requirements, sustain our sailors' 
proficiency, and conduct the maintenance required to ensure our ships, 
aircraft, and submarines reach their full service lives.
    There are several programs in place to ensure the Navy remains 
combat effective through the foreseeable future. For instance, the 
Department continues to rigorously manage the service life and 
warfighting effectiveness of our legacy Hornets, Harriers, Super 
Hornets, and Prowlers to ensure maximum contribution to the Nation's 
security. We are actively pursuing all options to manage our inventory 
and balance risk, including a SLEP for a number of F/A-18 A-D aircraft 
to extend their service life to 10,000 flight hours and optimizing 
depot efficiencies. Additionally, the Navy is redesigning obsolete 
components to provide for future combat capability growth for all 
strike aircraft and weapons programs.
    Maritime Patrol Reconnaissance Aviation (MPRA) has taken a two-
pronged approach to refitting the force while we transition from the P-
3C to P-8A. The first is sustaining modernization of the legacy P-3 
forces to ensure aircrew safety. In addition, the P-3 is managed 
through the Global Force Management process to meter remaining fatigue 
life. The second effort is the prioritization of the P-8A program to 
bring its significant warfighting capability to the fleet as early as 
possible. P-8A plans include capability improvements that deliver 
additional and critical ASW, ASUW and intelligence, surveillance, and 
reconnaissance (ISR) to forward bases over the next 10 years.
    In our shipbuilding programs, we plan to conduct Destroyer 
modernization in two 6-month availabilities. The first availability is 
focused on hull, mechanical, and electrical (HM&E) modifications, while 
the second availability, conducted 2 years later, is focused on combat 
systems modernization. The program commenced this year and focuses on 
the Flight I and II DDG 51 ships (hulls 51-78). All ships of the class 
will be modernized at midlife. Key components of the DDG modernization 
program include: an upgrade of the Aegis Weapons System to include an 
Open Architecture (OA) computing environment, an upgrade of the SPY 
radar signal processor, the addition of BMD capability, installation of 
the Evolved Sea Sparrow Missile (ESSM), an upgraded SQQ-89A(V)15 
antisubmarine warfare system, integration with the SM-6 Missile, and 
improved air dominance with processing upgrades and Naval Integrated 
Fire Control-Counter Air (NIFC-CA) capability.
    There are similar efforts underway in every facet of our programs. 
The investments we make today, the recapitalization efforts of 
tomorrow, and the maintenance of our existing fleet will ensure the 
Navy has no peer as we move through the future.
    General Chandler. The Air Force portion of the fiscal year 2011 
President's budget reflects tough and thoughtful decisions to carry out 
the Air Force's mission to fly, fight, and win in air, space, and 
cyberspace. The proposal reflects our continued commitment to fully 
fund and support today's global operations while ensuring we are 
prepared to face the likely challenges and opportunities of the future. 
This budget continues efforts begun last year to rebalance the force 
and reform how and what we buy.
    The KC-135 comprises almost 90 percent of the tanker fleet and 
their replacement remains the Air Force's number one acquisition 
priority. The Air Force released the Request for Proposal for the KC-X 
in February 2010 and is aggressively working toward awarding a contract 
later this year.
    The Air Force also remains committed to the Joint Strike Fighter 
program, an essential element of our national security strategy, and a 
capability needed to defeat 21st century threats. In fiscal year 2011, 
the Air Force will procure 22 F-35 airframes and is on track to achieve 
F-35 Initial Operational Capability (IOC) in 2016.
    Building upon insights developed during the QDR, the Air Force is 
reviewing options for fielding survivable, long-range surveillance and 
strike platform as part of a comprehensive, phased plan to modernize 
the bomber force. Additionally, funding is provided for the B-1, B-2, 
and B-52 fleets to sustain and modernize the capabilities of these 
aircraft while maintaining the viability of long-range strike 
capabilities.
    The budget request includes procurement for 36 MQ-9 Reaper aircraft 
in the baseline budget and requests 12 additional MQ-9 aircraft in OCO 
funding. This will increase our ISR Combat Air Patrols (CAP) to 50 
surge CAPs by the end of fiscal year 2011 and by the end of fiscal year 
2013 we'll be at 65 surge CAPs. The budget also requests four 
additional RQ-4 Global Hawks and seeks to normalize training and basing 
posture for the MC-12 Project Liberty.
    The Air Force is continuing the development and 
institutionalization of building partnerships and cyberspace 
capabilities and integration into the joint structure. The fiscal year 
2011 budget request reflects a commitment to cyberspace superiority by 
expanding rapid cyber acquisition capabilities to keep pace with 
dynamic adversaries and fast-paced advances in technology. It also 
reflects our effort to field light mobility and light attack aircraft 
to increase our ability to work effectively with a wider range of 
partner air forces.
    Finally, the budget proposal also includes enhancements to legacy 
weapons systems to ensure today's capability will continue to be viable 
and also compatible with future fifth-generation fighters and 
developing weapon systems. These enhancements include F-15 fleet 
modernization and radar upgrades, F-22 common configuration upgrades, 
and the conversion of one WC-130 to an EC-130 Compass Call. The A-10 
Wing Replacement Program (WRP) procures 40 new thick-skin wings as part 
of a program to modify 233 A-10 aircraft with older thin-skin wings. F-
16 aircraft have multiple initiatives to mitigate the cost of 
retrofitting and ensure viability. The first initiative is the repair/
replacement of lower wing skins on Block 30 aircraft, as required. The 
second F-16 initiative is Full-Scale Fatigue Testing which tests the 
durability of Block 40/50 airframes to extend the airworthiness 
certification beyond the 8,000 equivalent flight hour design. The Air 
Force will also continue to modernize the C-5 Galaxy, C-130 Hercules, 
and C-17 Globemaster III fleet through programs such as avionics 
modernization; reliability, enhancement, and reengining; and large 
aircraft infrared countermeasures. Upgrades to Air Force Command and 
Control platforms such as the E-3 AWACS will modernize a 1970s-era 
computer network, eliminate discontinued and obsolete components, and 
add avionics to comply with Global Air Traffic Management standards.
    The last two decades of sustained operations have strained our 
weapons systems. The Air Force will continue to determine which 
aircraft it will modernize and sustain and which weapon systems must be 
retired and recapitalized. These decisions require tough choices, as 
well as the ability to quickly field systems to meet warfighter needs 
at an affordable price. The fiscal year 2011 budget helps us achieve 
the right balance to meet today's commitments while shaping the Air 
Force for future challenges.

    141. Senator Inhofe. General Chiarelli, General Amos, Admiral 
Greenert, and General Chandler, what is needed from Congress to prevent 
our rapidly aging planes, helicopters, vehicles, and ships from 
becoming obsolete?
    General Chiarelli. Army aircraft and vehicles of all types have 
benefitted from strong support and stable funding from Congress. This 
strong funding support has allowed the Army to invest in the 
modernization of our fleets via new production, recapitalization, and 
program upgrades while keeping an eye on the future by funding research 
and development efforts.
    Examples of incremental modernization of core Army programs include 
the Stryker combat vehicle, Apache Block III helicopter, and TWV 
programs. The Stryker was fielded with limited blast and underbelly 
protection. The Army followed with an applique solution (i.e., bolt-on 
plates) against blast threats, and is currently pursuing an integrated 
survivability solution effort, including an improved lower hull, 
crumple zones, welded supports, and energy attenuated seats. To this 
end, the Army is developing and testing the Stryker Double V Hull 
survivability initiative which, if proven, will provide improved 
soldier protection against underbelly IED threats.
    Another incremental modernization initiative includes the Apache 
Block III program. The Longbow Block III will begin inductions in 2010 
and field the first unit in 2013, providing significant increases in 
performance and capability at higher altitudes and temperatures with a 
full combat load. Advances in technology will provide the Block III 
with improved manned-unmanned interoperability, weight reduction 
initiatives, open system architecture, and reduced pilot workload via 
cognitive decision aiding technologies. It will also provide a net-
ready capability that maintains Army interoperability for joint 
operations and future requirements.
    Additionally, the Army will shape its TWV fleet size and mix to 
ensure long-term affordability through new procurement, 
recapitalization, divestment, and will leverage existing assets to the 
greatest extent possible to improve overall fleet capability, while 
reducing fleet age and operating costs. The JLTV program is an 
excellent example of such an initiative as it promises game-changing 
technology for our light TWV fleet and is a critical enabler for the 
Army to replace a substantive quantity of the High Mobility 
Multipurpose Wheeled Vehicle fleet starting in fiscal year 2014.
    Continued timely funding and support from Congress will ensure our 
equipment is ready for future missions.
    General Amos. In particular to Marine Corps aviation: We are at a 
crucial point in Marine Corps aviation as we have embarked on the most 
aggressive modernization and transition plan in our history. By the 
mid-2020s, every single aircraft in the Marine Corps will have been 
replaced with a new model or a new airframe. Everything we are bringing 
online will fly higher, faster, farther, and longer; carry more than 
the aircraft it replaces; and operate as a node within a network of 
fused data which will make us all better warfighters. It is the Marine 
Corps' desire is to acquire these newer aircraft in accordance with the 
program of record at the programmed ramp to stand up squadrons in the 
most efficient manner possible
    In particular to Marine Corps ground equipment: Congress has 
generously supported the Marine Corps' reset efforts in the past to 
ensure marines have equipment resources necessary to succeed. We are 
committed to managing these resources wisely as we reset and modernize 
for the future. As a result of shifting forces to the harsher operating 
environment of Afghanistan, costs are expected to rise, and continued 
congressional support of future funding requests will be necessary to 
improve readiness levels across the Corps. Maintaining our vehicle 
fleet, in particular, will be challenging as we rebalance resources to 
support ongoing operations, re-arm, and reposition forces around the 
world. While it is difficult to predict precisely what future costs 
will be since it is unknown how long the Corps will be engaged in 
combat, costs will rise the longer we are at war. We are mindful that 
the Marine Corps cannot rely on supplemental appropriations for 
baseline operations. Sufficient funding for the Marine Corps' vehicle 
fleet is critically important in order to restore our operating forces 
to a level of combat capability commensurate with future missions.
    Admiral Greenert. Our fiscal year 2011 budget request identifies 
the resources required to increase fleet capacity, maintain our 
warfighting readiness, and develop and enhance the Navy Total Force. To 
appropriately provide a deployed naval force, continued congressional 
support is required to maintain the current fleet and to ensure 
existing ships/aircraft reach their expected service lives. Further, we 
must ensure our recapitalization plans are robust and effective in 
replacing aging ships and aircraft with more efficient, modernized 
equipment.
    Adequate, sustained funding of the Navy's Maintenance and 
Modernization Program is necessary to provide for the safe and reliable 
operation while also ensuring we achieve the expected service life of 
our aircraft, ships, and submarines, and to efficiently deliver combat 
ready forces to meet current and future operational requirements.
    The Navy remains committed to building a 313-ship fleet by 2020, as 
detailed in our Long-Range Plan for Construction of Naval Vessels for 
fiscal year 2011. Our current and future fleet enables us to respond 
rapidly, decisively, and globally to project power, as we have done in 
Iraq and Afghanistan, and to deliver humanitarian assistance, as we 
have done in Haiti, while operating from a small, yet persistent, 
footprint that does not impose unnecessary political or logistic 
burdens on other nations. To ensure continued execution of the Maritime 
Strategy, annual support of the President's budget is paramount.
    General Chandler. The Air Force's budget proposal reflects a 
continued commitment to fully fund and support today's global 
operations while ensuring we are prepared to face the likely challenges 
and opportunities of the future. Balancing requirements for today and 
tomorrow determined our recapitalization strategy. The Air Force chose 
to improve existing capabilities whenever possible and to pursue new 
systems when required. This recapitalization approach attempts to keep 
pace with threat developments and required capabilities, while ensuring 
stewardship of national resources. To ensure our ability to prevent our 
rapidly aging aircraft from becoming obsolete, we ask that you support 
the fiscal year 2011 President's budget that requests the resources to 
accomplish this goal. To point out just a few of these critical 
programs:
    The budget includes enhancements for F-15 fleet modernization and 
radar upgrades, and F-22 common configuration upgrades to enhance their 
interoperability and long-term viability. The conversion of one WC-130 
to an EC-130 Compass Call helps meet current demand for the Compass 
Call mission; their utilization rates are currently 2.3 times higher 
than the C-130 fleet average. The A-10 WRP procures 40 new thick-skin 
wings as part of a program to modify 233 A-10 aircraft with older thin-
skin wings. F-16 Block 40/50 aircraft will undergo Full-Scale Fatigue 
Testing and F-16 Block 30 lower wing-skin repair will be managed under 
Consolidated Aircraft Management. Our goal is to extend our fourth 
generation fighter aircraft service life and capability many years 
beyond the original service life of the aircraft; this is projected to 
be at a cost of 10 to 15 percent of a new aircraft. The Air Force will 
also continue to modernize the C-5 Galaxy, C-130 Hercules, and C-17 
Globemaster III fleet through programs such as avionics modernization; 
reliability, enhancement, and reengining; and large aircraft infrared 
countermeasures. The Air Force solicits the continued support of 
Congress as we continue with the C-130 Avionics Modernization Program 
(AMP). This effort increases reliability, maintainability, and 
sustainability for the Air Force's 222 C-130H2, H2.5, and H3 Combat 
Delivery aircraft by installing a common avionics suite and 
standardized cockpit configuration. Additionally, funding is provided 
for the B-1, B-2, and B-52 fleets that will sustain and modernize the 
capabilities of these aircraft maintaining the viability of legacy 
long-range strike capabilities over the short- to mid-term. Programs 
include modernizing the B-2 Defensive Management System, a new radar 
and data link system for the B-52, and an Advanced Extremely High 
Frequency satellite communications system for the B-2 and B-52. 
Upgrades to Air Force command and control platforms such as the E-3 
AWACS will modernize a 1970s-era computer network, eliminate 
discontinued and obsolete components, and add avionics to comply with 
Global Air Traffic Management standards.
    The Air Force's proposed fiscal year 2011 budget achieves the right 
balance between providing capabilities for today's commitments and 
posturing for future challenges. We respectfully ask that Congress 
support this budget request to help the Air Force make the most of our 
allocated resources and to work as a member of the joint team to 
accomplish our Nation's military objectives.

    142. Senator Inhofe. General Chiarelli, General Amos, Admiral 
Greenert, and General Chandler, the QDR presented the historical 
standard requirement to be able to contend with two major theaters of 
war simultaneously. I have heard all of you state that the near-term 
fight and requirements are impacting our ability to maintain a 
strategic focus. We no longer maintain a readiness force in the same 
standard that we did prior to September 11. We are taking equipment 
from nondeployed units to ensure deployed units are fully equipped, 
leaving training shortages back home and raising concerns that, once in 
the area of responsibility, equipment promised will be available and 
mission ready. In some instances, we have depleted our preposition 
stockpiles. What is the status for both Army and Marine Corps 
preposition stocks?
    General Chiarelli. The Army is restoring its prepositioned stock 
capabilities in accordance with the approved APS 2015 Strategy. 
Detailed readiness status reports are classified but projected status 
of fill for APS-3, APS-4, and APS-5 unit equipment sets are as follows:

    (1)  APS-3 Afloat Theater Opening/Port Opening Package: uploaded on 
the USNS Watson and is currently in the Pacific area of operations 
after completing a cargo maintenance cycle at Charleston, SC. The TO/PO 
Package has 97 percent EOH level of fill.
    (2)  APS-3 Afloat Infantry Brigade Combat Team (IBCT) with 
motorized augmentation set: projected to upload on two Large Medium 
Speed Roll-on Roll-off ships in September and November 2010 with a 
projected >90 percent EOH level of fill. The Army will continue to 
increase the level of fill prior to upload through available equipment 
from reset and new production.
    (3)  APS-3 IBCT with motorized augmentation set: currently located 
in Kuwait with a 94 percent EOH level of fill; the motorized 
augmentation set has 99 percent EOH fill. The Army issued medium and 
heavy TWVs and container handlers in support of the force plus-up in 
Afghanistan, and will backfill those vehicles with retrograde from the 
drawdown in Iraq, as well as new production. This IBCT will eventually 
be uploaded on ships and become the Army's second IBCT afloat, when 
CENTCOM no longer requires it in Southwest Asia.
    (4)  APS-4 Korea/Japan HBCT and Sustainment Brigade: this set is 
fully operational with the HBCT at 98 percent EOH and the Sustainment 
Brigade at 93 percent EOH.
    (5)  APS-5 Southwest Asia HBCT with motorized augmentation set 
currently located in Kuwait: The Army delayed the original fully 
operational date for 31 March 2010 to March 2011 because of a need to 
issue medium and heavy TWVs, material handling equipment, and SINCGARS 
radios in support of the plus-up in Afghanistan. This HBCT currently 
has an 87 percent EOH level of fill, which includes the Army's most 
modern tanks and Bradley Fighting Vehicles. The motorized augmentation 
set has 83 percent EOH fill. The Army plans to fill equipment shortages 
over the next year from repaired and reset OIF retrograded equipment, 
depot production, and new procurement.
    (6)  The APS-5 Infantry Battalion with Forward Support Company and 
motorized augmentation set: currently located in Afghanistan with 74 
percent EOH fill and is planned to be fully mission capable by 
September 2011, in accordance with the approved APS 2015 Strategy.

    General Amos. The MPF and MCPP-N are currently in a high state of 
readiness. As of 31 August 2010, MPSRON-1 is currently at 88 percent of 
its full significant military equipment set; MPSRON-2 is at 77 percent 
and MPSRON-3 is at 88 percent. MCPP-N is at 60 percent of its equipment 
set. The MPSRONs are at 100 percent for tanks, assault amphibian 
vehicles, light armored reconnaissance vehicles and ammunition.
    Admiral Greenert. I defer to the Army and Marine Corps with regard 
to the status of their preposition stocks.
    General Chandler. [Deleted.]

    143. Senator Inhofe. General Chiarelli, General Amos, Admiral 
Greenert, and General Chandler, what is the plan to get preposition 
stockages back to the proper levels?
    General Chiarelli. With full support of our fiscal year 2011 to 
2015 Base and OCOs funding requests ($2.7 billion Other Procurement, 
Army and $4.9 billion Operations and Maintenance, Army), Army 
Prepositioned Stocks can be restored to full levels by 2015. This 
assessment includes the future integration of MRAP vehicles and the 
MRAP-all terrain vehicles into our prepositioned stocks.
    General Amos. Our MPSRONs will be reset with the most capable 
equipment possible.
    The MPSRONs are currently rotating through Maritime Prepositioning 
Force Maintenance Cycle-10 (MMC-10), with the offload of MPSRON-1 
beginning in March 2010. Equipment from MPSRON-1 had been used to 
support new units being established in fiscal year 2007 and fiscal year 
2008 as part of our end strength increase to 202,000. MPSRON-1 has 88 
percent of its full significant military equipment set and has one ship 
of equipment downloaded at Blount Island Command.
    MPSRON-2 is expected to be fully reset upon completion of its MMC-
10 rotation in fiscal year 2012. Its readiness spiked dramatically--
from 49 percent to its current 77 percent--during its rotation through 
MMC-9.
    Admiral Greenert. I defer to the Army and Marine Corps with regard 
to the status of their preposition stock levels.
    General Chandler. [Deleted.]

    144. Senator Inhofe. General Chiarelli, General Amos, Admiral 
Greenert, and General Chandler, after the Vietnam war, we had a hollow 
force--a force that was not resourced to ensure our military was 
trained and ready . . . it had equipment but the force itself was not 
prepared for combat. Today we are beginning to see opposite--we have 
the best trained force in the world, the best warfighters in the world, 
but we are fracturing that force by not providing them with the 
equipment to sustain that capability in the short- and long-term. I 
have started to key in on the words you have used like `mitigate', 
`workarounds', `risk management', `well above programmed rates', and 
`productive ration'. We have not had significant discussion on the 
operational risk as it relates to meeting combatant commander 
warfighting requirements and the NDS. All the Services are wrestling 
with significant budget affordability issues, equipment, personnel, 
operations, and maintenance. In terms of overall risk, from each of 
your perspectives, how are we going to be able to meet the near-term 
readiness demands associated with the global war on terrorism while 
still mitigating the risk associated with threats in the future?
    General Chiarelli. The Army has outlined two major priorities: 
Restoring Balance and Setting Conditions for the Future. To restore 
balance, we are targeting the four imperatives of Sustain, Prepare, 
Reset, and Transform. To prepare for the future, the Army is building a 
versatile force with a balanced mix of multipurpose capabilities and 
sufficient capacity to execute our doctrine of Full Spectrum 
Operations, from peacetime engagement to major combat.
    At the unit level, our ARFORGEN model progresses units through 
Reset and Train/Ready phases prior to entering an available (for 
deployment) phase. This provides the time to recover from the previous 
deployment and to prepare for the upcoming deployment. As we continue 
to align our institutional processes and modernization strategy to 
ARFORGEN, we are enhancing our ability to field the latest equipment, 
maximize training time, and man units in a timely manner. This model 
also allows the Army to tailor capabilities and structure of the 
deploying force to best meet the needs of expected scenarios.
    However, the high deployment-to-dwell ratios reduce the available 
training time for units to train for Full Spectrum Operations, forcing 
a focus on the needs of the current fight. In order to best prepare for 
future contingencies, we must increase our dwell time which will 
enhance our ability to train for a wider range of operations in future 
deployments. This requires us to fully implement our ARFORGEN model and 
retain assured access to the Reserve component, which has proven 
invaluable this past decade.
    Continued implementation of our Army Modernization Strategy (AMS) 
will ensure our force is provided with the best capabilities for 
meeting the variety of future challenges. The AMS articulates three 
lines of effort to develop and field a versatile and affordable mix of 
the best equipment available. First, we will develop and field new 
capabilities to maintain our advantage over current, emerging, and 
future threats. Second, we will continuously modernize equipment to 
meet current and future capability needs through procurement of 
upgraded capabilities, recapitalization, and divestment of obsolete 
items. Third, we will align our modernization effort with ARFORGEN to 
prioritize support to the units in preparation to deploy. This strategy 
will best prepare us for future threats.
    General Amos. The Marine Corps is able to meet the near-term 
readiness demands associated with the current conflict and is sourcing 
its best-trained, most ready forces to meet combatant commander 
requirements around the globe. The Marine Corps is also posturing 
itself for the future security environment through a number of 
important initiatives contained in the Marine Corps Service Campaign 
Plan. First drafted in 2009 to specifically mitigate future operational 
risk, the Marine Corps Service Campaign Plan directs commanders to 
regain/maintain core competency in high-end combat operations, given 
the current focus on Afghanistan. It also directs reset and 
modernization efforts as well as closer coordination with the Navy 
through the establishment of the Naval Engagement Board.
    The Marine Corps is also currently engaged in a comprehensive post-
OEF posture operational planning effort to define risk to the Service 
and associated decision points to ultimately allow the Marine Corps to 
optimally posture itself for the future security environment with 
adaptive forces that can operate across the range of military 
operations, given a fiscally-constrained environment.
    Admiral Greenert. Despite the existing fiscally constrained 
environment, the Navy strives to achieve balance in meeting near-term 
demands for ensuring the readiness of today's force structure, while 
concurrently fielding capabilities needed to counter future threats. 
This balance is achieved by prioritizing Service objectives that are 
aligned to those directed by the Secretary of Defense. Specifically, 
the Navy's top priority is to ensure that deployed forces are fully 
trained, ready to deploy, and supported while on deployment in 
addressing today's contingencies. This is accomplished by the 
meticulous management of readiness accounts, resulting in the 
sufficiency of steaming days, flying hours, and depot level repairs 
necessary to provide combat-capable units that meet combatant 
commanders' demands. Additionally, investments for future modernization 
and procurement are rescoped to field only those capabilities which are 
associated with the most likely threat scenarios. All of this is 
enabled by the implementation of improved business practices which 
result in more effective operation at reduced cost. For example, the 
Navy Enterprise Resource Planning program will standardize key business 
practices and achieve cost savings by retiring redundant IT systems; 
reducing supply inventories; and streamlining business processes. 
Ultimately, the Navy will meet demands for current readiness and 
counter future threats by focusing on current operations; addressing 
the most likely future threats; and obtaining savings from process 
improvements.
    General Chandler. Your Air Force is dedicated to maintaining its 
position as the premier global air power. Over 7 years ago, the Air 
Force began to take a capabilities-based approach to our force 
structure. Focused on managing risk and capabilities across the range 
of military operations, our primary vehicle for assessing capabilities 
and risk is the Capabilities Review and Risk Assessment. It analyzes 
our force structure capabilities against the OSD-approved scenarios and 
cases to identify gaps and shortfalls. We use advanced modeling tools 
to address sufficiency questions and develop consequence metrics in 
consultation with the combatant commanders. With this information, we 
are able to measure operational risk and address investment and force 
structure decisions. This will ensure our force structure is balanced 
and effective in all our Nation's potential conflicts in the near- and 
far-term. However, no amount of cultivation of our forces and 
capabilities can offset a lack of capital investment. Capital 
investment will be the primary driver as to how well future risk is 
mitigated. Specific investment is needed in fifth generation fighters, 
long-range precision strike systems, and preferred munitions. We also 
need outlays in ISR and electronic combat capabilities in hostile 
environments. Finally, investment in bases and hardening and building 
partnerships with our global friends will help ensure operational risk 
is mitigated. The challenge will be to accomplish all of this while 
recapitalizing our aging fleet despite constrained resources. The Air 
Force's aircraft recapitalization plan is contained in the February 
2010 ``DOD Aircraft Investment Plan.''

    145. Senator Inhofe. General Chiarelli, General Amos, Admiral 
Greenert, and General Chandler, what factor or factors are driving 
these gaps in our force structure and capabilities?
    General Chiarelli. Today, the Nation faces a wider variety of 
threats in the contemporary security environment. These threats include 
not only traditional nation-states, but also transnational violent 
extremists and terrorists, cyber-threats, WMD proliferation, and hybrid 
threats. This environment is complicated by our ongoing operations in 
several theaters which require full-time attention. The nature of 
conflict today requires a flexible approach to meet these diverse 
threats and anticipate force requirements. Therefore, the Army's 
greatest emphasis in preparation for the future is to create a 
versatile force.
    Prevailing in the current fight remains our first priority. Our 
force generation model, along with modular forces, allows us to tailor 
our force to the needs of the current fight as units prepare for 
deployment in the near-term with the resources available. During the 
training phase, units prepare for full spectrum operations as time 
allows, building depth for the ability to respond to contingencies. The 
current methods of assessment, such as the QDR, provide the ability to 
evaluate our force structure and capabilities as the environment and 
threat evolve.
    General Amos. From a capabilities development perspective, factors 
such as lack of adequate funding for sustainment and modernization on 
aging equipment have created unacceptable risk in operational 
readiness. This lack of adequate funding has caused a ripple effect in 
our ability to pursue new initiatives to modernize the force to ensure 
future required capabilities are in place when needed.
    Admiral Greenert. Gaps in force structure and capabilities are 
caused by the Nation's need to prioritize winning the current fight, 
and the need to prepare for current and future challenges within fiscal 
realities. The fiscal year 2011 President's budget request addresses 
these gaps, ensuring our ability to remain the most ready, dominant, 
and influential naval force globally, providing a fiscally sustainable 
force that balances the level of risk across the fleet. The Navy is 
focusing investment in multi-mission platforms and technologies that 
perform vital missions, such as cruise and BMD, undersea warfare, and 
intelligence collection, and has positioned our Navy to counter both 
current and future naval threats.
    General Chandler. The two primary factors are insufficient 
recapitalization of our force structure over the last two decades and 
the continued rapid improvements by our potential adversaries. Our 
fighter and bomber forces (with the exception of the F-22 and B-2) are 
all fourth generation capabilities aligned against increasingly lethal 
anti-access environments. Our potential adversaries have learned 
valuable lessons from Operation Desert Storm, Operation Allied Force, 
OIF, and OEF about how our forces operate and developed impressive 
asymmetric capabilities in response. Specifically, they have developed 
and, in some cases, fielded: mobile, long-range, integrated and highly 
capable Surface-to-Air Missile systems; mobile, precise short-, medium-
, and long-range ballistic missiles; Digital Radio Frequency Memory 
jammer-equipped aircraft; extensive GPS and communications jamming 
capabilities; and recently demonstrated anti-satellite capabilities, 
all designed with our force structure in mind. Our fifth generation 
capabilities and our current and planned capacity, while highly 
capable, are steadily losing their asymmetric advantage to our 
potential adversaries' military advances. We are highly dependent on 
the F-35 being produced as scheduled. We need to develop a long-range 
precision strike system as soon as possible. We need to analyze how we 
base and deploy our strike and bomber assets. Networking and 
communications threats to the cyber domain have a definite impact on 
our ability to command and control the battlespace, a capability once 
nearly uncontested.
    Our limitations in the electronic warfare environment are directly 
tied to responsible retirement of Air Force and joint legacy systems, 
technology propagation and distribution across international 
boundaries, and an acquisition system in which timeline and cost are 
often outpaced by an adversary that rapidly acquires inexpensive 
commercial off-the-shelf technology. Robust electronic warfare 
capabilities are critical to maintaining our air superiority asymmetric 
advantage over any potential adversary. The Air Force has made critical 
investments to support our motivated contingent of airmen dedicated to 
winning the current fight as part of the joint team. While important to 
the wars in Iraq and Afghanistan, some of these capabilities will have 
less utility against a near-peer adversary's employment of airpower.

    146. Senator Inhofe. General Chiarelli, General Amos, Admiral 
Greenert, and General Chandler, what is your risk assessment (near-, 
mid-, and long-term) associated with these reduced force structures?
    General Chiarelli. The Army continues to be exposed to risk in the 
near-term as the demand for forces exceeds sustainable supply. The need 
to respond to the current conflict has degraded our ability to prepare 
for future or unforeseen conflicts. This limits the Nation's strategic 
depth in terms of capabilities and in the quantity of forces available 
to respond to unexpected contingencies.
    The Army's ability to restore balance in the short-term is 
contingent upon achieving sustainable BOG:dwell ratios of 1:2 for the 
Active component and 1:4 for the Reserve component. Essential to 
achieving this are: first, maintaining the TESI implemented this year, 
which increases the forces available to fully man deploying units, and 
second, maintaining operational access to the Reserve component. 
Continued high demand prevents units from receiving all required 
personnel and equipment early enough in their training cycle to meet 
readiness gates.
    In the mid-term, the Army will need to implement a more sustainable 
BOG:dwell ratio of 1:3 for the Active component and 1:5 for the Reserve 
component. This ratio is optimal to balance the demand for forces with 
the need to reset, retrain, and recover. Additionally, the Army will 
require reset for a minimum of 2 years after completion of combat 
operations. Finally, we will need to ensure continued programs that 
support a quality of life for soldiers and families that is 
commensurate with their quality of service. These programs are 
essential to honor the commitments we have to our wounded warriors and 
families of deployed soldiers, and also to ensure we retain the high 
quality people we now have in our ranks.
    In the long-term, we require continued support for our 
modernization strategy, to ensure we are prepared to meet the wide 
variety of challenges we will face.
    The Army's plan to reduce risk to the force is contingent upon 
achieving sustainable deploy-to-dwell ratios, adequately providing for 
soldiers, civilians, and families, and securing reliable, timely, and 
consistent funding. In the absence of these needs, risk to the force 
will remain unacceptably high and compromise our ability to support the 
joint force.
    General Amos. The Marine Corps will be conducting a force structure 
review from 14 September to 17 December that will assess the risk and 
capabilities associated with operating under reduced force structure.
    Admiral Greenert. The Navy has balanced the anticipated risk in the 
period with the uncertainties of the future to achieve the best balance 
of missions, resources, and requirements possible. The Navy maintains 
its ability to win in any conventional campaign in any future scenario. 
In the near- and mid-term, the Navy is able to meet priority presence 
requirements and fulfill missions such as BMD, as well. In the long-
term, the increased risk brought about from the reduced force structure 
is acceptable for the force and does not unnecessarily place sailors, 
marines, or airmen in jeopardy.
    The Navy's force structure sustains a day-to-day forward presence 
in each theater and ensures a credible capability to support related 
theater campaign plans and to deter or respond to MCOs, consistent with 
force-sizing guidance in the QDR. It reflects the naval capabilities 
needed to meet the challenges the Nation faces over the next three 
decades. The Navy will continue to revisit its force structure, and 
adjust as necessary, to ensure we are prepared to address current and 
future threats.
    General Chandler. In the near-term, the readiness of our Combat Air 
Forces aircraft is adequate despite challenges from accumulating hours 
on our fleet faster than envisioned when these aircraft were fielded. 
The readiness of our Mobility Air Forces remains high while meeting 
robust and dynamic operational requirements. We continue to strengthen 
our nuclear enterprise, which remains the number one priority of our 
Service. Despite 20+ years of sustained Air Force deployments, the 
personnel and aircraft of the U.S. Air Force are ready to face any 
challenge with precision and reliability.
    In the mid- and long-term we are facing very serious challenges in 
the Combat Air Forces at the high end of the range of military 
operations. That is why we chose to accelerate the retirement of 
approximately 250 legacy fighter aircraft in order to allow us to 
upgrade remaining legacy aircraft, free manpower to support our growing 
ISR capabilities, and to bridge to the fifth generation fighter force. 
This shift accepts a moderate amount of operational risk due to 
decreased capacity, but is necessary to move forward to more capable 
and survivable next generation platforms. We also need investment in a 
long-range precision strike system, preferred munitions, ISR, and 
electronic combat capabilities that are survivable in a hostile 
environment. We need investment in forward basing options to help 
counter growing anti-access threats and we need to build partnerships 
with our allies to mitigate the vulnerabilities associated with a 
smaller, but more capable force structure.

    [Whereupon, at 4:07 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
